<html>
<title> - TAPPED OUT? LEAD IN THE DISTRICT OF COLUMBIA AND THE PROVIDING OF SAFE DRINKING WATER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



TAPPED OUT? LEAD IN THE DISTRICT OF COLUMBIA AND THE PROVIDING OF SAFE 
                             DRINKING WATER

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2004

                               __________

                           Serial No. 108-97

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-462                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

RALPH M. HALL, Texas                 HILDA L. SOLIS, California
JAMES C. GREENWOOD, Pennsylvania       Ranking Member
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
  (Vice Chairman)                    LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        TOM ALLEN, Maine
CHARLES F. BASS, New Hampshire       JANICE D. SCHAKOWSKY, Illinois
JOSEPH R. PITTS, Pennsylvania        CHARLES A. GONZALEZ, Texas
MARY BONO, California                PETER DEUTSCH, Florida
LEE TERRY, Nebraska                  BOBBY L. RUSH, Illinois
MIKE ROGERS, Michigan                BART STUPAK, Michigan
DARRELL E. ISSA, California          GENE GREEN, Texas
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Colangelo, Aaron, Staff Attorney, Natural Resources Defense 
      Council....................................................    68
    Correll, Donald L., President and CEO, Pennichuck 
      Corporation, National Association of Water Companies.......    84
    Grumbles, Benjamin H., Acting Assistant Administrator for 
      Water, U.S. Environmental Protection Agency................     7
    Jacobus, Thomas P., General Manager, Washington Aqueduct.....    19
    Johnson, Jerry N., General Manager, District of Columbia 
      Water and Sewer Authority..................................    22
    Lanphear, Bruce P., Cincinnati Children's Hospital Medical 
      Center.....................................................   101
    Ramaley, Brian L., Director, Newport News Waterworks, 
      Association of Metropolitan Water Agencies.................    63
    Rutherford, Jay L., Director of Water Supply Division--
      Vermont, Association of State Drinking Water Administrators    59
    Stephenson, John B., Director, Natural Resources and 
      Environment Team, U.S. General Accountability Office.......    45
    Stovall, Lynn, General Manager, Greenville Water System, 
      American Water Works Association...........................    91
    Welsh, Donald S., Administrator for Region III, U.S. 
      Environmental Protection Agency............................    15
Additional material submitted for the record:
    Association of State Drinking Water Administrators, response 
      for the record.............................................   114
    American Water Works Association, response for the record....   141
    Colangelo, Aaron, Staff Attorney, Natural Resources Defense 
      Council, response for the record...........................   116
    Correll, Donald L., President and CEO, Pennichuck 
      Corporation, National Association of Water Companies, 
      response for the record....................................   138
    Grumbles, Benjamin H., Acting Assistant Administrator for 
      Water, U.S. Environmental Protection Agency:
        Response for the record to majority members questions....   126
        Response for the record to minority members questions....   131
    Jacobus, Thomas P., General Manager, Washington Aqueduct, 
      response for the record....................................   117
    Lanphear, Bruce P., Cincinnati Children's Hospital Medical 
      Center, response for the record............................   120
    Ramaley, Brian L., Director, Newport News Waterworks, 
      Association of Metropolitan Water Agencies, response for 
      the record.................................................   121
    Welsh, Donald S., Administrator for Region III, U.S. 
      Environmental Protection Agency:
        Response for the record to majority members questions....   122
        Response for the record to minority members questions....   129

                                 (iii)

  

 
TAPPED OUT? LEAD IN THE DISTRICT OF COLUMBIA AND THE PROVIDING OF SAFE 
                             DRINKING WATER

                              ----------                              


                        THURSDAY, JULY 22, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                            Subcommittee on Environment    
                                   and Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2322, Rayburn House Office Building, Hon. Paul E. Gillmor 
(chairman) presiding.
    Members present: Representatives Gillmor, Bass, Issa, 
Otter, Barton (ex officio), Solis, Schakowsky, Stupak, and 
Green.
    Staff present: Mark W. Menezes, chief counsel; Tom 
Hassenboehler, counsel; Jerry Couri, policy coordinator; 
William Harvard, legislative clerk; Dick Frandsen, minority 
counsel; Bettina Poirier, minority counsel; and Jeff Donofrio, 
research assistant.
    Mr. Gillmor. The committee will come to order, and the 
chair will recognize himself for the purpose of an opening 
statement.
    In late January of this year, local press in Washington 
began reporting that the DC Water and Sewer Authority had found 
elevated lead levels in the drinking water of more than 4,000 
homes in Washington, DC during testing done in 2003. This news, 
in and of itself, would have been cause for concern, except 
these reports signaled that not only was WASA, once again, 
having problems complying with Federal advisory levels, but it 
was now the only large municipal drinking water utility whose 
chronic problems could not be remedied.
    Between that time and now, several congressional committees 
have tried to understand the situation and the Safe Drinking 
Water Act as it applies to lead levels, and I applaud them for 
their earnestness. However, I am afraid that in their rush to 
show outrage and interest in drinking water standards they fail 
to obtain any meaningful answers to the plight of those people 
who live and work in DC.
    I believe that to understand the issues in DC, you have to 
understand the Federal rules for lead in drinking water. To 
appreciate these regulations, you have to comprehend the Safe 
Drinking Water Act. And to completely take hold of the Safe 
Drinking Water Act, you have to understand public health and 
the things that go into protecting it from the source.
    As the subcommittee with sole jurisdiction over the 
drinking water act, and one that is charged by the House of 
Representatives with defending public health, I wanted to 
ensure that any work done by our panel be thoughtful, 
comprehensive, deliberate, substantive, and meaningful.
    On March 15 of this year, I began an inquiry into the 
matter by sending letters to WASA and the U.S. EPA, calling on 
the government accountability office to do a full study of the 
matter, and asking staff to research and understand the 
intricacies of the problem and to examine places that needed 
followup.
    Today's hearing gives all of us a chance to digest many of 
the things this inquiry has uncovered, and I am glad that this 
committee resisted style for substance. First, it talks about 
the many places where the DC situation went wrong, what is 
being done to make it right, and the lessons learned along the 
way.
    Second, it allows us to look at issues within the lead and 
copper rule, including public notification and how other 
communities have used this rule to handle elevated amounts of 
lead in their drinking water.
    Finally, this hearing will allow our panel to delve into 
the issue of providing safe drinking water and how our Nation's 
infrastructure is presenting both a problem and a solution for 
this future need.
    Some have tried to use the plight of DC to argue for an 
overhaul of existing lead standards, suggesting that the 
Federal standard for lead in drinking water is too high and 
should be tightened. As the father of three young boys, I am 
well aware of the dangers lead presents to young minds. 
However, as we enter this hearing, I am not convinced that this 
situation demands that we need to make drinking water utilities 
face tougher standards.
    Rather, I believe that we need people to live up to the 
standards as written. I believe what has happened to the 
drinking water in our Nation's capital is that people have 
failed them, not the laws. And that being said, we also need to 
be sure that the drinking water problems in DC are not a 
national phenomenon. I do not believe--but our witnesses will 
help us begin to understand the efforts of 54,000 community 
water systems to provide about 90 percent of Americans with 
their tap water.
    Two years ago, our subcommittee heard testimony from many 
of the water utilities that the greatest challenges facing 
community water systems today is aging pipes and other water 
infrastructure. We need to ask if this priority has changed, 
and, if it has changed, how much. In addition, as authorizers, 
we need a better command of the financial needs of the drinking 
water State revolving loan fund.
    Our subcommittee should not let the House Appropriations 
Committee shortchange the important work of SRF simply because 
they don't understand it.
    And before I conclude my remarks and recognize the 
gentlelady from California, Ms. Solis, for opening remarks on 
her own, I want to thank the witnesses for their time today. I 
know some of these witnesses are getting very familiar with 
each other, probably more familiar than some of them would 
like. But each of them provides invaluable insight into the 
problems we are confronting today, and I want them to know we 
appreciate the sacrifice you are making to be with us.
    And with that, I yield back the balance of my time, and 
recognize the gentlelady from California.
    Ms. Solis. Thank you, and good morning. Thank you, Mr. 
Chairman, for also holding this very important meeting today.
    I want to thank all the witnesses that will be speaking to 
us this morning also. The need for safe water, as you know, is 
universal. And I was shocked, also, when I first learned that 
the DC lead problem came to our attention back in January 
through The Washington Post story that broke at that time.
    I was disturbed that it took a newspaper to bring our 
attention to this very public problem, and I am appreciative 
that the Government Reform Committee was able to take initial 
action to hold investigative hearings, and that Chairman 
Gillmor has brought the GAO and other witnesses in before us 
today.
    I think it is important that we learn not only what 
happened in Washington, DC, and why, but that we continue these 
dialogs in a bipartisan way to develop comprehensive policies 
to address both water infrastructure and water contaminants. We 
have known for many years that lead is toxic and can cause 
developmental disabilities.
    As other sources of lead exposure decline, keeping water 
safe from lead remains an outstanding need. While we remove 
lead from paint in homes, we continue to put children at risk 
with the water they use in daycare centers and in schools.
    My concern about lead led me to co-sponsor H.R. 4268, the 
Lead-Free in DC Act. I believe the bill is a good start for 
comprehensive action to combat lead, and I also believe that 
the lead situation exposes major problems with our Nation's 
water infrastructure.
    In a recent poll by Republican pollster Frank Luntz, 91 
percent of those polled believe if a city is willing to invest 
billions annually in highways and airlines, it should be 
willing also to invest in safe drinking water. Despite the 
public support, our water systems are crumbling and decrepid, 
and yet we fail to invest in our infrastructure.
    We have approximately 900,000 miles of pipes of water 
mains; 238,000 water mains break each year. Ten percent of 
treated water is lost because of deteriorated pipes, and we 
can't afford to continue losing 10 percent of treated water 
because we don't invest in our infrastructure, yet the State 
revolving loan fund is funded at $150 million below its 
authorized level. That bothers me.
    If the revolving loan fund was fully funded, California 
could potentially receive an additional $15 million a year for 
infrastructure projects. Fifteen million is a lot of money for 
a State struggling right now with a budget that is broke.
    Other contaminants are also problems in my district. In the 
San Gabriel Valley, which is a part of my district, we have 
major problems with perchlorate, a rocket fuel used largely by 
the military, NASA, and governmental contractors. Instead of 
working to help provide safe drinking water, the Department of 
Defense was here just a few months ago asking for liability 
relief.
    We shouldn't have to fight the contractors of Department of 
Defense for safe water. We should receive support from EPA to 
get safe water. Our water providers can't plan if EPA doesn't 
provide them support, and I am very proud of the work that has 
gone on locally in the district that I represent.
    Through a lot of hard work, the city of Baldwin Park now 
has the Nation's first perchlorate treatment facility. But this 
facility was not achieved without major expense, and 
perchlorate is not the only new contaminant that we must deal 
with.
    The lack of infrastructure and contamination of our water 
supply is a national problem. This solution must address 
funding, infrastructure, and contaminant standards. And I look 
forward to working with Chairman Gillmor and other members of 
this committee to solve these problems.
    Mr. Chairman, I would also like to request unanimous 
consent to submit the opening statement from our ranking 
member, Mr. Dingell.
    [The prepared statement of Hon. John D. Dingell follows:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    It has been many months since we first learned from The Washington 
Post that drinking water in the Nation's capital is contaminated with 
lead and is frequently not fit to drink straight from the tap. Multiple 
hearings have already been held in the House and Senate since the story 
broke. This is the first opportunity, however, that we have had in this 
Subcommittee to deal with this and other pressing drinking water 
issues. This Subcommittee is charged with oversight of drinking water 
matters in the House and so we have a special responsibility to ensure 
that we exercise vigorous oversight to protect the public interest. I 
welcome the chance to begin to get to the bottom of this and other 
pressing drinking water concerns.
    The origin of the drinking water crisis in Washington appears to 
stem in part from problems in management and communications at the 
local and federal level. But the drinking water crisis here in 
Washington also highlights the apparent absence of adequate regulations 
in this area. I, along with Rep. Solis, and several colleagues in the 
U.S. Senate, have asked the GAO to evaluate the effectiveness of the 
lead and copper rule and we are very interested in the results of that 
effort.
    I understand the Environmental Protection Agency (EPA) is also 
currently reviewing the lead regulations and has held a few workshops 
on the matter. I look forward to hearing more about what specific steps 
are being taken and I would like to know what the time-line is for 
action in this effort. Given what may be at stake, including the health 
of our children and grandchildren, I suggest that an aggressive and 
rapid response is in order.
    A broader problem highlighted by the Washington drinking water 
crisis is the neglected and decayed infrastructures of our public water 
systems. These systems protect the public health and provide safe 
drinking water for our citizens, yet are often aging and often in 
disrepair. For example, in Detroit, pipes that were first installed in 
1887--over 100 years ago--are still being used. The EPA reported in 
2001 that the current needs to ensure provision of safe drinking water 
to our people are $102.5 billion and growing--a huge sum of money. 
Billions more will be needed for future years.
    At the last subcommittee hearing on this issue in April 2002, 
witnesses from the Association for State Drinking Water Administrators, 
American Metropolitan Water Association, National League of Cities, and 
the American Water Works Association all supported a $20 billion 
increase over five years in the Drinking Water State Revolving Loan 
Fund authorization. That would increase the $1 billion authorized by 
the 1996 Drinking Water Amendments to $4 billion a year. Some thought 
it should be even higher.
    Against the well-documented financial needs for replacement and 
rehabilitation of aging drinking water infrastructure, the President's 
budget for FY 2005 was only $850 million for the State Revolving Loan 
Fund--$150 million less than the $1 billion Congress authorized when 
the Fund was created. I now understand that Administration budget 
proposals maintain this flat-line funding of $850 million per year for 
the Drinking Water Revolving Loan Fund until 2018. This level ignores 
the needs of our cities and public water systems.
    Yet another threat to our drinking water is EPA's failure to set 
standards for contaminants such perchlorate which we now know are 
widespread and pose a serious threat to public health. The Department 
of Defense is refusing to clean up perchlorate contamination at more 
than 50 facilities nationwide until the EPA sets a maximum contaminate 
level (MCL) for perchlorate. I look forward to hearing what, if 
anything, EPA is doing to address this problem.
    Immediate action is necessary to address the threats to safe 
drinking water that we are currently facing. But we continue to see 
only slow progress and little financial commitment to one of the 
nation's most important resources. Ignoring the problem, or postponing 
needed fixes, will only put the public health at greater risk and make 
eventual corrective action more costly.

    Mr. Gillmor. Without objection, so ordered. And I am very 
pleased that we have here the chairman of the full committee, 
Mr. Barton.
    Chairman Barton. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing about the lead in the District of 
Columbia's drinking water and infrastructure. When the report 
surfaced late last January about the discovery of elevated lead 
levels in the drinking water of our Nation's capital, I was 
very alarmed to find that something that we take for granted, 
such as a glass of water from the tap, could be contributing to 
increased exposure of lead.
    I wondered how this could be going on for the past few 
years. How could the public and the paying consumers of the DC 
Water and Sewer Authority and the Congress have been kept in 
the dark about this for so long?
    As the committee with jurisdiction over the Safe Water 
Drinking Act, I want to applaud you, Chairman Gillmor, for your 
prompt response to this issue, for your request to review the 
issues that face EPA and the DC Water and Sewer Authority. I am 
very pleased that you have requested a separate GAO study to 
help understand the root causes of the District's water 
problems and how to prevent such occurrences in the future.
    Perhaps after we get the results of this report we can 
assess the internal assessments of EPA, WASA, and others, and 
come up with a comprehensive solution to prevent the problem 
from happening in the future. We have begun to shed some light 
on what happened in the past.
    It is my understanding that the Corps of Engineers has 
adopted a new corrosion control treatment process, and it is 
having some success. In June of this year, EPA determined, 
unfortunately, that WASA violated Federal law by failing to 
properly notify the public of unsafe levels of lead in their 
water supply, and they also withheld key test results that 
would have revealed the problem much earlier.
    I understand that a consent agreement has been reached 
between the EPA and WASA in which WASA has agreed to improve 
its public education program, update its data base management 
system, and replace some lead service lines. Also, I am told 
that in June the Corps has begun to test a process that uses a 
phosphate-based corrosion inhibitor that would address the lead 
leaching in the pipes. I understand that work in this area has 
appeared to be successful, at least in the initial stages.
    The review of lead issues in DC also brings up other 
critical issues about the Safe Water Drinking Act. I hope that 
these issues will lead to a healthy discussion on how EPA and 
utilities are sustaining current infrastructure, and the role 
of the Federal Government, the States, and local water 
utilities in providing safe drinking water for all of our 
Nation's 54,000 community-based water systems.
    I want to thank our four witnesses on this first panel for 
appearing today, and the witnesses on the other panels that are 
going to appear after them. I think that their testimony will 
help us develop a comprehensive record from which we can take 
whatever steps are necessary to improve and protect the water 
supply here in the District of Columbia.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [Additional statements submitted for the record follow:]

 Prepared Statement of Hon. C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Thank you, Mr. Chairman, for holding this hearing today.
    Providing safe drinking water for our communities is and should be 
a top priority. We all have heard of DC's water problem, and I am glad 
this committee is holding this oversight hearing to look into the cause 
of the high lead levels and what is being done to correct this problem.
    We are fortunate in Idaho that, according to our State Department 
of Environmental Quality, we do not have a problem with lead in the 
drinking water. Since many of our water systems are newer than DC's, we 
fortunately have not seen similar problems. However, Idaho does have a 
significant problem with naturally occurring arsenic in our water 
systems.
    Idaho is similar to the District in that the EPA runs the clean 
water program. The EPA--not Idaho--is responsible for implementing the 
new arsenic standard of 10 parts per billion, down from 50 parts per 
billion. We are having some problems in Idaho right now with the way 
EPA is implementing this rule. In many cases we are dealing with small 
rural communities with limited resources. Coming down on these 
communities with the heavy hand of the federal government isn't the 
best way to achieve our shared goal of clean water.
    I want to thank Mr. Grumbles for coming into my office earlier this 
week to discuss our problem. I look forward to continuing to work with 
you in addressing the way the arsenic rule is being implemented in 
Idaho. However, I remain concerned that the arsenic regulation will 
have very adverse economic impacts on thousands of rural communities 
across the nation, without addressing legitimate human health concerns. 
Since there is no economically feasible way for many small communities 
to meet this standard, and the new standard itself may result in no 
health benefits, I support allowing each eligible rural community to 
decide whether to comply. That's why I introduced HR 4717, the Small 
Community Options for Regulatory Equity Act.
    I also am hopeful that the committee will consider reviewing the 
science that led to the lower arsenic standard. More scientific studies 
are coming out that raise questions about the earlier analysis. When we 
set regulations such as the arsenic standard, which have such a large 
price tag, we must be sure they are backed up by sound science. I 
understand that the EPA is working on a perchlorate standard. I am 
hopeful that the EPA only moves forward with very sound science to back 
up any decision that is made. Thank you, Mr. Chairman I look forward to 
the testimony from the witnesses.

                                 ______
                                 
 Prepared Statement of Hon. Janice D. Schakowsky, a Representative in 
                  Congress from the State of Illinois

    Thank you, Mr. Chairman, for holding this hearing today. I am happy 
to see that our Subcommittee is looking into the drinking water problem 
in the District of Columbia. The unconscionably high levels of lead 
that D.C. residents have been exposed to have jeopardized the health 
and well-being of thousands of men, women and children. It is crucially 
important that we know how the situation in D.C. progressed to this 
level and that we evaluate appropriate ways to fix this problem. This 
should serve as a lesson for us to prevent similar problems elsewhere 
in the nation.
    Lead is highly toxic and a possible human carcinogen that is most 
dangerous for small children. Lead builds up in their bodies and can 
cause damage to kidneys, nerves and red blood cells. It may also be 
responsible for causing adverse effects on development, growth, 
reproduction, and metabolism by disrupting the endocrine system. The 
District's water authorities attempted to downplay the hazards of lead 
in drinking water because they wanted to ``avoid creating undue public 
concern or alarm.'' In my view, no amount of concern is undue when 
talking about such a major health threat to our children.
    One of the major reasons that the large amount of lead in D.C.'s 
water system was essentially ignored for years was a lack of 
communication between agencies responsible for providing drinking water 
to District residents. However, I urge my Colleagues and our witnesses 
to look past the finger pointing and focus on the underlying problem. 
The fact is that the Environmental Protection Agency's (EPA) rule to 
protect water systems from lead contamination, the Lead and Copper Rule 
(LCR), is weak and that our local water systems are not getting the 
funding they need to provide our communities safe drinking water.
    We must strengthen the LCR. Under the LCR, the Corps of Engineers 
was allowed to use chloramines to disinfect the District's water 
without adequately studying the chemical's impact on their efforts at 
corrosion control. It is now apparent that the change aggravated the 
lead problem. The LCR allowed the Washington Sewer and Water Authority 
(WASA) to not do anything to help homes that tested more than ten times 
over the action level until 10% of the samples exceeded the limit. The 
District's water authorities used the fact that the LCR allows them to 
dismiss some samples as ``invalid'' to avoid having to take action to 
fix the problem sooner. Once the problem in D.C. became public, EPA 
reviewed ``invalid'' samples from other water authorities and ruled 
that several samples were in fact valid. As a result of EPA's review, 
Boston, which was in compliance, was re-classified as above the action 
level.
    While we cannot entirely disregard the irresponsible actions of 
those who knowingly put the public at risk, our role is to provide the 
necessary resources to help support a safe drinking water system for 
the District and the entire country. We have yet to follow through on 
that duty. Replacing lead lines and other remedial actions are 
expensive and our local water systems are already unable to meet the 
needs of our overworked and aging water systems. We can help our local 
water authorities update and improve our drinking water infrastructure 
by funding the State Revolving Loan Fund. The EPA has testified that 
the program needs at least $102.3 billion in additional funding for 
local water utilities just to maintain compliance. President Bush's 
FY05 request was just $850 million--$150 million less than the 
authorized level and under the Draconian budget cuts and caps that we 
have seen in the House this year, the funding picture will likely 
become even bleaker. We cannot ignore this problem any longer.
    Again, Mr. Chairman, thank you for holding this hearing today. I 
look forward to hearing from today's witnesses and then beginning to 
work to make sure that all of our constituents have safe drinking 
water.

    Mr. Gillmor. Thank you, Chairman Barton, and we will now 
proceed to our first panel, and our first witness is Benjamin 
Grumbles, who is the Acting Assistant Administrator for Water 
in the U.S. EPA.
    Mr. Grumbles?

      STATEMENTS OF BENJAMIN H. GRUMBLES, ACTING ASSISTANT 
ADMINISTRATOR FOR WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
      DONALD S. WELSH, ADMINISTRATOR FOR REGION III, U.S. 
  ENVIRONMENTAL PROTECTION AGENCY; THOMAS P. JACOBUS, GENERAL 
  MANAGER, WASHINGTON AQUEDUCT; AND JERRY N. JOHNSON, GENERAL 
    MANAGER, DISTRICT OF COLUMBIA WATER AND SEWER AUTHORITY

    Mr. Grumbles. Thank you, Mr. Chairman, and ranking minority 
member Congresswoman Solis, and also Chairman Barton. I 
appreciate all of your interest and efforts in this, bringing 
us together and calling for an investigation, and helping all 
of us get to the bottom of this important situation. If there 
is a silver lining to this whole situation of lead in drinking 
water in the Nation's capital, it is this.
    It is turning the Nation's attention to an incredibly 
important issue of the health and safety of the Nation's 
drinking water supplies, and also the importance of 
infrastructure, water infrastructure and investing in that 
valuable asset that determines the quality of life for all of 
us in our communities.
    What I would like to do is address some of the broader 
national issues and what we are doing in response to the 
situation. Don Welsh, who is accompanying me, the Regional 
Administrator, EPA Region III, will also address some of the 
more specific issues involving the District and the lead in 
drinking water there.
    Mr. Chairman, I would say a couple of things about how we 
are responding to this situation. First and foremost, everyone 
understands that lead is of grave concern from a public health 
perspective, and EPA places a high priority on reducing 
exposure to lead.
    In the drinking water arena, we have a lead and copper rule 
that was finalized in 1991. When this situation arose in the 
District here, I think it brought a great degree of attention 
to the issue and to the importance of reviewing whether this is 
a national problem, seeing how effective the rule has been over 
the last 13 years, and also seeing how it is implemented and 
whether there should be revisions either to the rule or to the 
guidance.
    EPA is carrying out a national compliance review. This is a 
full throttle review of the existing rule and also the guidance 
that EPA has issued over the years. One of the very first 
things that EPA did was to write to each of the States and to 
get information from the States, because they are the ones, 
with the exception of the District of Columbia and Wyoming, 
they are the ones who are really the front line implementers of 
the drinking water rule and programs with their communities.
    We have the 90th percentile data that we have collected--
that is, the data under the lead and copper rule--to help us 
answer that first question. Is this a pervasive national 
problem? The results so far, Mr. Chairman, are that it is not a 
pervasive national problem. It is an extremely important 
problem in some areas of the country, some local communities, 
but our data indicates that less than 4 percent of the large- 
and medium-sized community water systems have experienced 
exceedances of the 15 parts per billion standard. That doesn't 
mean that we should stop working to reduce that even further, 
but I think it is important to keep that in mind.
    The other key issue is: how well has the rule worked since 
1991? It is important to keep in mind that we are seeing 
reduced numbers of exceedances--exceedances over the 15 parts 
per billion number. We are also seeing that there is a 
reduction in the number of kids who have blood lead levels that 
exceed the 10 micrograms per deciliter standard that has been 
established through CDC and EPA. We are seeing the reductions 
there.
    A lot of that is also attributed to the great work that 
this committee has done, and that the Congress has done, that 
the agency has done, to remove the threats of lead paint and 
also lead in gasoline. But with lead in drinking water, I mean, 
we have seen progress in terms of protecting children.
    One of the other things that we are doing is that we are 
conducting national workshops on key issues, such as the 
difficult challenges that utilities face in complying with the 
multitude of drinking water regulations, the simultaneous 
compliance issue.
    We held a workshop in May in St. Louis on the importance of 
sampling protocols and monitoring protocols. That is such an 
important part, and it is a lesson that all of us can learn on 
the lead situation in the District. How are the monitoring and 
sampling protocols being carried out? Can the public have 
confidence in the numbers? And, most importantly, can the 
public be aware, ahead of the curve, so that appropriate 
precautions and steps can be taken?
    A very high priority of the agency is to look very closely 
at schools and daycare facilities. There are over 100,000 
elementary schools in the country. There are approximately 
500,000 daycare facilities. The important question is, how safe 
is the drinking water in those schools and facilities?
    One of the EPA's priorities, and certainly one of my top 
priorities, is to get all of the information we can from the 
States and the communities and to see how much testing, how 
much monitoring is going on, and what is the quality of the 
drinking water in the schools.
    And I think we need to do more work on that front, and I 
think it needs to be a bipartisan partnership among the 
agencies, the Congress, and the States, and the utilities--
those that provide the drinking water to the customers, 
including the schools and the daycare facilities.
    We are committed to holding additional workshops throughout 
the year. We have--we are scheduling an additional workshop 
with experts on some of the important issues of lead service 
line replacement and schools, what more can be done for schools 
and daycare facilities, and, importantly, public education and 
risk communication.
    I would conclude on the lead front by saying that one of 
the key lessons that we have learned from this, and are 
continuing to learn, is the high importance of effective, 
early, accurate reporting, useful information to the public.
    The last thing, Mr. Chairman, I would like to comment on in 
my time is the importance of infrastructure. This committee was 
instrumental in moving through bipartisan landmark legislation 
in 1996 to set up the Safe Drinking Water Act revolving loan 
funds. We are fully supportive of that model and are pleased 
that the President's budget includes $850 million.
    The Congress has been providing this amount. That is 
certainly one tool--one tool. It certainly won't meet all of 
the needs, but it is a helpful tool to deal with the 
infrastructure needs and investments.
    The last thing I would mention, one of the priorities of my 
office and of the administration, is to promote sustainable 
infrastructure. The President's budget request includes a 
sustainable infrastructure initiative, and what that really 
means is, given that the State--the Federal/state revolving 
fund is not, and cannot be, the sole tool in the tool box to 
address investments in infrastructure needs, we need to promote 
sustainability.
    We need to advance asset management and develop the 
technical, financial, and managerial capacity of the Nation's 
drinking water systems. We need to promote water conservation, 
water use efficiency. One of the priorities of my office is 
advancing a water star program modeled on energy star, 
voluntary water efficiency labeling programs, so that consumers 
will be able to choose smartly to save money, save water, save 
the environment, by selecting appliances or water products that 
use less water. We are very excited about that and look forward 
to working with cities and Congress and others to advance water 
conservation.
    Other components of sustainability include full cost 
pricing. We recognize that there are situations where there 
need to be lifeline rates, and it is an inherently local 
decision as to what the price ought to be. But we want to 
encourage conservation pricing and various mechanisms to help 
with the overall investment of our Nation's infrastructure.
    And the last is taking a watershed-based approach, looking 
at source water protection as a real opportunity to reduce 
problems down the road, treatment costs, and overall pollution 
prevention.
    So, Mr. Chairman, I appreciate the members convening this, 
and your leadership on this effort, and look forward to 
answering any questions that you or your colleagues have.
    [The prepared statement of Benjamin H. Grumbles follows:]

     Prepared Statement of Benjamin H. Grumbles, Acting Assistant 
     Administrator for Water, U.S. Environmental Protection Agency

    Good morning, Mr. Chairman and Members of the Committee. I am 
Benjamin Grumbles, Acting Assistant Administrator for Water at the 
United States Environmental Protection Agency (EPA). I welcome this 
opportunity to speak to the Committee about the issue of lead in 
drinking water, the actions that EPA has been taking at the national 
level to address the matter, and the broader issue of water 
infrastructure. Regional Administrator Welsh will provide you with 
information on the activities underway to address the specific 
situation related to elevated lead levels in the District of Columbia's 
(D.C.'s) drinking water.

                    LEAD AS A PUBLIC HEALTH CONCERN

    EPA places a high priority on reducing exposure to lead. This 
contaminant has been found to have serious health effects, particularly 
for children. Health effects may include delays in normal physical and 
mental development in infants and young children; slight deficits in 
the attention span, hearing, and learning abilities of children; and, 
high blood pressure in some adults (which may lead to kidney disease 
and increased chance of stroke). But pregnant women and children are 
our primary concern. The Centers for Disease Control and Prevention 
(CDC) has identified a blood lead level of 10 micrograms per deciliter 
as the level of concern for lead in children. Nationally, approximately 
2% of children between the ages of 1 to 5 were estimated to have blood 
levels that exceeded the level of concern for the period 1999-2000, a 
significant decrease from the 88% estimated to exceed that level for 
the period between 1976 to 1980. [Surveillance for Elevated Blood Lead 
Levels Among Children--United States, 1997-2001. Centers for Disease 
Control and Prevention. Surveillance Summaries, September 12, 2003. 
MMWR 2003:52 (No. SS-10)].
    The most common source of lead exposure for children today is lead 
in paint, dust, and soil in older housing [see Risk Analysis to Support 
Standards for Lead in Paint, Dust and Soil (EPA 747-R-97-006, June 
1998] This is primarily from housing built in the 1950s and homes with 
pre-1978 paint. Several Federal programs and surveillance and 
prevention programs at the State and local level continue to work 
towards reducing exposure to lead. In addition, EPA works with Federal 
agencies through the President's Task Force on Environmental Health 
Risks and Safety Risks to Children--on implementing a federal strategy 
to prevent childhood lead poisoning.

                         LEAD IN DRINKING WATER

    Although, in most circumstances, the greatest risks are related to 
paint, dust and soil, lead in drinking water can also pose a risk to 
human health. To reduce potential exposure to lead, EPA has set a 
maximum contaminant level goal of zero for lead in drinking water and 
has taken many actions over the last 20 years to reduce lead in 
drinking water. The 1986 Amendments to the Safe Drinking Water Act 
(SDWA) banned the new use of lead solder, and leaded pipes from public 
water supply systems and plumbing, and limited faucets and other brass 
plumbing components to no more than 8% lead. To address lead in 
schools, the Lead Contamination Control Act (LCCA) of 1988 recalled 
drinking water coolers with lead-lined water reservoir tanks, and 
banned new drinking water coolers with lead parts. The 1986 SDWA 
Amendments also directed EPA to revise its regulations for lead and 
copper in drinking water.
    An interim standard for lead in drinking water of 50 micrograms per 
liter, or parts per billion (ppb), had been established in 1975. 
Sampling of customer taps was not required to demonstrate compliance 
with this standard. In 1988, the Agency proposed revisions to the 
standard and issued a final standard in 1991. The revised standard 
significantly changed the regulatory framework. Unlike most 
contaminants, lead is not generally introduced to drinking water 
supplies from the source water. The primary sources of lead in drinking 
water are from lead pipe, lead-based solder used to connect pipe in 
plumbing systems, and brass plumbing fixtures that contain lead. 
Setting a standard for water leaving the treatment plant fails to 
capture the extent of lead leaching in the distribution system and 
household plumbing.
    EPA requires public water suppliers to meet the regulations 
governing treated water quality distributed via the public water 
system. The regulations do not require homeowners to replace their 
plumbing systems if they contain lead. To reduce consumers' lead 
exposure from tap water, EPA used its available authorities to require 
public water suppliers to treat their water to make it as non-corrosive 
as possible to metals in their customers' plumbing systems. These 
treatment requirements were issued in EPA's Lead and Copper Rule (LCR) 
on June 7, 1991.
    The rule requires systems to optimize corrosion control to prevent 
lead and copper from leaching into drinking water. Large systems 
serving more than 50,000 people were required to conduct studies of 
corrosion control and to install the State-approved optimal corrosion 
control treatment by January 1, 1997. Small and medium sized systems 
are required to optimize corrosion control when monitoring at the 
consumer taps shows action is necessary.
    To assure corrosion control treatment technique requirements are 
effective in protecting public health, the rule also established an 
Action Level (AL) of 15 ppb for lead in drinking water. Systems are 
required to monitor a specific number of customer taps, according to 
the size of the system, with a focus on sites that have lead service 
lines or lead-based solder in their plumbing systems. If lead 
concentrations exceed 15 ppb in more than 10% of the taps sampled, the 
system must undertake a number of additional actions to control 
corrosion and to inform the public about steps they should take to 
protect their health. If a water system, after installing and 
optimizing corrosion control treatment, continues to fail to meet the 
lead action level, it must begin replacing the lead service lines under 
its ownership. The rule was subsequently revised in 2000 to modify 
monitoring, reporting and public education requirements, but the basic 
framework, including the action level, was not changed.

  ACTIONS UNDERTAKEN BY EPA HEADQUARTERS TO ADDRESS THE D.C. SITUATION

    As Regional Administrator Welsh will describe, EPA has been working 
with WASA and the Washington Aqueduct, managed by the U.S. Army Corps 
of Engineers, which supplies water to WASA, to identify a treatment 
solution to reduce levels of lead from customer taps in many 
Washington, D.C. homes.
    I fully understand the concerns that Congressional Members and 
Committees and City Leaders have regarding timely and effective public 
notification. EPA is reviewing the actions taken by all parties to 
ensure that we use the lessons learned to prevent such an event from 
taking place in the future--here in D.C. and in other communities 
across the nation. While the situation in D.C. appears to be unique, we 
are continuing to investigate the matter. However, in surveying States 
and regions, we have not identified a systemic problem of increasing 
lead concentrations in tap monitoring conducted by public water 
systems.
    Staff from my program and EPA's Office of Research and Development 
have been working closely with the Region to provide technical 
assistance and are participating on the Technical Expert Working Group 
(TEWG) evaluating potential technical solutions to elevated lead 
levels. My staff convened a peer review panel to carry out an 
independent review of the TEWG's Action Plan. The input of the peer 
reviewers facilitated an acceleration of the technical solution to the 
problem that Regional Administrator Welsh will discuss.

          NATIONAL ACTIONS TO EVALUATE LEAD IN DRINKING WATER

    As head of the national water program, I have directed my staff to 
undertake several major actions to address the specific issue of lead 
in drinking water from a national perspective.

National Review of Compliance and Implementation of the Lead & Copper 
        Rule
    My staff are working with our enforcement and regional drinking 
water program managers to embark on a thorough review of compliance 
with, and implementation of, the LCR. Our review will answer three 
questions:

1. Is there a national problem? Do a significant percentage of systems 
        fail to meet the lead action level? Does a significant 
        percentage of the population receive water that exceeds the 
        lead action level?
2. How well has the rule worked to reduce lead levels in systems over 
        the past 13 years, particularly in systems that demonstrated 
        high lead levels in the initial rounds of sampling?
3. Is the rule being effectively implemented today, particularly with 
        respect to monitoring and public education requirements?
    Our initial focus is to ensure that EPA has complete and accurate 
information on the LCR in its Safe Drinking Water Information System 
(SDWIS). States were required to report specific results of monitoring 
(i.e., 90th percentile lead levels) to EPA for systems serving 
populations greater than 3,300 people beginning in 2002. In March, I 
asked EPA Regional Administrators to work with the States to ensure 
that all available information was loaded into the data system. As of 
June 1, 2004, states had submitted information to SDWIS for 89% of the 
8,667 active systems in the country that serve more than 3,300 people. 
The most recent summary of the data received was made available to the 
public on June 23. For large systems (serving more than 50,000 people), 
the summary indicates that 12 systems, one of which is D.C., exceeded 
the action level during a monitoring period that ended in 2003. Those 
12 systems serve a total of 5.2 million people, although the population 
actually exposed to elevated lead levels in each community is likely 
lower. This is due to the nature of lead occurrence, which is largely 
due to leaching of lead from lead service lines and plumbing fittings 
and fixtures, and thus site-specific to homes that have those fixtures. 
An analysis of data for medium systems (those serving between 3,330 and 
50,000) showed that 76 systems serving a total population of 1 million 
also exceeded the action level during 2003. Overall, we found that only 
3.4% of the systems (27 of 744 large and 237 of 6,958 medium systems) 
for which we have data exceeded the lead action level during one or 
more monitoring periods since 2000.
    Although we are currently seeing problems in the District, it 
appears that the 1991 regulation, which required systems serving more 
than 50,000 to install corrosion control, has been effective in 
reducing lead concentrations, and thus, the public's exposure to lead 
in drinking water. However, even though we have had success in reducing 
exposure, we must remain vigilant to ensure that treatment continues to 
control corrosion and that information on potential risks is 
communicated to the public. EPA continues to collect data and will 
release additional reports later this summer.
    We are reviewing the systems that exceeded the action level in the 
initial rounds of sampling. We will work with our regional staff and 
states to better understand the actions taken by systems to address 
elevated levels of lead and whether those actions have been effective 
in lowering lead levels. Later this year we will embark upon a review 
of state programs to determine if the rule is being effectively 
implemented by those systems that have recently exceeded the action 
level.

Expert Workshops
    Another important part of EPA's national effort is to review 
existing requirements of the rule and associated guidance to determine 
if changes should be made to help utilities and states better implement 
the rule. The provision of safe drinking water is not an easy task. 
Treatment processes must be balanced to address multiple risks. EPA has 
developed guidance to assist systems in selecting among corrosion 
control treatment options and in balancing treatment processes when 
working to achieve simultaneous compliance with different standards. 
EPA has also released guidance to help utilities carry out effective 
public education and monitoring programs.
    To help obtain additional information from experts, EPA is holding 
workshops on several components of the LCR Rule. The first two 
workshops were held in St. Louis, Missouri in mid-May. Thirty experts 
in corrosion control, water treatment, sampling and laboratory analysis 
participated in one or both of the workshops, and more than twenty 
observers attended. The first addressed utility experiences in managing 
simultaneous compliance with multiple drinking water rules and the 
second addressed sampling protocols for the rule. The experts noted 
that additional Agency guidance is needed to aid water systems in 
evaluating treatment changes, including disinfection changes and 
changes to coagulation processes, and the effectiveness of different 
corrosion inhibitors. The experts also identified concerns with 
distribution system maintenance and impacts of household plumbing on a 
system's ability to comply with the rule. Participants suggested that 
EPA review sampling provisions including the tiering criteria that 
identify households for sampling and also suggested additional guidance 
on what monitoring is appropriate to evaluate the effects of treatment 
changes.
    Experts in both workshops also identified issues that they and EPA 
believe warrant expert discussion in future workshops. These issues 
include small system issues, health effects of lead and risk 
communication, lead service line replacement requirements, monitoring 
for lead in schools, and removal of lead from brass alloys used in 
plumbing fixtures and other devices. EPA will hold a workshop on public 
education in September and will schedule meetings on additional 
subjects such as lead service line replacement and lead in schools 
later in the year.

Monitoring for Lead in School Drinking Water
    One of my highest priorities is to use all available tools to 
ensure that America's school children are not exposed to elevated lead 
levels in their drinking water. While States and schools took action in 
the late 1980's and early 1990's to remove harmful lead-lined coolers 
in accordance with the 1988 Lead Contamination Control Act (LCCA), lead 
solder and plumbing fixtures can still contain low levels of lead. 
States and schools should continue to monitor their water outlets to 
ensure that children are protected using EPA's recommended protocol for 
testing water in schools for lead. In March, I sent letters to State 
Directors of Health and Environmental Agencies seeking their help in 
better understanding State and local efforts to monitor for lead in 
school drinking water.
    We heard from 49 states, Puerto Rico and the Navajo Nation and 
provided a summary of the responses to the public this week. Generally, 
states responded that they implemented the requirements associated with 
the LCCA and continue to focus on ensuring that schools with their own 
water system are in compliance with the LCR. A few have expanded 
existing regulatory authorities to better address schools and day care 
facilities and several states have developed specific programs focused 
on improving drinking water quality and environmental health at 
schools. Most states agreed that minimizing lead in drinking water 
consumed by children is important and many are conducting surveys, 
expanding outreach efforts and taking advantage of partnerships to help 
them reach schools. However, states also indicated that it would be 
difficult to expand programs beyond existing efforts because state 
drinking water programs are challenged by shortfalls in funding. We are 
using the responses from states to help us determine if updated or 
additional guidance should be developed to help states and local 
governments conduct more comprehensive monitoring in schools and day 
care facilities.

                     DRINKING WATER INFRASTRUCTURE

    This event has served as a reminder of what Americans generally 
take for granted--that we can turn on our faucets, whenever we want, to 
draw a glass of clean, safe water. It also reinforces the importance of 
discussions Congress, EPA, states, water utilities and other 
stakeholders are having about the nation's water infrastructure 
challenges. The nation faces risks of interruption in service quality 
and public health protection as a result of deterioration of aging 
infrastructure or outdated components, such as the lead service lines 
serving older homes in the District. In 2001, EPA released its second 
drinking water infrastructure needs survey which identified that more 
than $150 billion would be needed over the next 20 years to address 
infrastructure needed to provide service and protect public health, $83 
billion of which was associated with the pipes that carry water to and 
from treatment plants to consumers.
    In 2002, EPA released its Clean Water and Drinking Water 
Infrastructure Gap Analysis, which used information from the Needs 
Survey and other sources. The report estimated that the 20-year 
drinking water infrastructure capital payment need is between $178 
billion to $375 billion. The report also described the potential gap 
that could develop if current levels of spending do not increase to 
keep pace with needs that are increasing in response to aging 
infrastructure and growing and shifting populations. EPA estimated 
that, in the absence of additional spending, the total gap could range 
from $0 to $267 billion, with a point estimate of $102 billion. 
However, the report also estimated how the gap would change if 
utilities took action to increase their revenue. If revenue were to 
increase at a rate of 3% annually, over the rate of inflation, the gap 
could shrink to between $0 to $205 billion, with a point estimate of 
$45 billion.
    While EPA's efforts were aimed at quantifying the gap at the 
national level, the ultimate impacts of funding gaps are felt at the 
local level. Local communities and utilities must make decisions on a 
daily basis to determine how to balance needs and available funding. 
For example, even if corrosion control treatment is effectively 
controlling lead concentrations in drinking water, many water utilities 
may have an ultimate goal of removing lead service lines from their 
service areas. However, utilities must consider that goal within the 
context of funding other public health priorities--to replace aging 
distribution pipes, the failure of which could result in microbial 
contamination, or to install treatment to comply with new and/or more 
stringent drinking water standards. Meeting current and future 
infrastructure needs will require significant levels of commitment on 
the part of local, state and federal governments and an understanding 
of the true investment needs on the part of customers.
    This Administration has made a commitment to continue funding our 
principal drinking water capital financing program, the Drinking Water 
State Revolving Fund program, at $850 million annually through 2018 to 
help capitalize state programs that have already provided more than $6 
billion to finance projects within their states. However, it is clear 
that federal funding will not be able to meet all of the needs. Local 
communities and utilities need to ensure that their operations are 
sustainable for the long-term.
    EPA's Sustainable Infrastructure Initiative, for which we have 
requested funding in the FY 2005 appropriation, is aimed at helping to 
encourage and promote actions that provide for better utility 
management, full-cost pricing of services and efficient use of water. 
Water conservation saves money for families, reduces infrastructure 
costs and protects the environment, which is why EPA and others are so 
enthusiastic about identifying and promoting incentives such as the 
potential new ``Water Star'' program, modeled, in part, on the 
successful Energy Star program. The Sustainable Infrastructure 
Initiative also promotes infrastructure decisions within the context of 
the watershed. For example, utilities and communities need to determine 
how source water protection will help them to avoid expenditures 
related to increasing treatment. EPA looks forward to working with all 
interested parties to implement the initiative and determine how we can 
meet the challenges that face the nation's water infrastructure.

                               CONCLUSION

    Mr. Chairman, this reminds us all of the importance of 
communication--especially with the public. To maintain public health 
and confidence, information communicated to the public must not only be 
accurate, but timely, relevant and understandable. While I believe that 
communication efforts on the part of the Region, the District's 
Department of Health and WASA have improved, there is still much to be 
done to ensure that the city's residents are aware of the steps they 
can take to protect their health.
    The review of compliance and implementation, expert workshops and 
other efforts underway will help the Agency to determine whether it is 
appropriate to develop additional training or guidance or make changes 
as part of our review of existing regulations. Our immediate goal is to 
ensure that the residents and D.C. receive safe water and, more 
generally, that systems and States have the information they need today 
to fully and effectively implement the rule and minimize risks to 
public health.
    We will continue to work closely with Congress, our public service 
partners and concerned citizens to investigate the situation in D.C. 
and to review implementation of the rule nationwide. EPA wants to 
ensure that citizens across the country are confident in the safety of 
their drinking water.
    Thank you for the opportunity to testify this morning. I am pleased 
to answer any questions you may have.

    Mr. Gillmor. Thank you, Mr. Grumbles.
    And we will go to Don Welsh, who is the Region III 
Administrator for EPA.
    Mr. Welsh?

                  STATEMENT OF DONALD S. WELSH

    Mr. Welsh. Good morning, Mr. Chairman, and members of the 
subcommittee. I am Don Welsh, Regional Administrator for Region 
III of the U.S. Environmental Protection Agency.
    Thank you for the opportunity to discuss the important 
issue of lead in DC drinking water and to outline the steps EPA 
and other agencies are taking to resolve the problem. There is 
no higher priority for my office than to continue to work with 
the city and other partners to protect those who live and work 
in the District, and to correct the cause of elevated lead in 
the water.
    To that end, steps are underway to reduce lead levels in 
tap water through corrosion control. Orthophosphate, a chemical 
designed to inhibit corrosion in water lines, was applied to a 
portion of the DC water system on June 1. If all continues to 
go well, the treatment change is projected to be expanded to 
the entire water system on or about August 9.
    Lead levels in the partial system application area in the 
northwest section of the District remain elevated. Corrosion 
control experts have advised that actual reductions in lead 
concentrations may not be seen for 6 months or longer. The 
corrosion inhibitor must have time to buildup a protective 
layer on the pipes in order to be fully effective.
    Meanwhile, the public needs to continue to follow the 
consumer guidance for tap water flushing and the health 
guidance on the use of water filters, where supplied. By way of 
background, the EPA's lead and copper rule requires water 
systems to optimize corrosion control to prevent lead and 
copper from leaching into drinking water.
    To assure corrosion control is effective, the rule 
establishes an action level of 15 parts per billion for lead. 
If lead concentrations exceed 15 parts per billion in more than 
10 percent of the taps sampled, the system must intensify 
sampling and take a number of additional actions to control 
corrosion and to educate the public about steps they should 
take to protect their health. The system must also begin a lead 
service line replacement program.
    Such was the case in the District of Columbia where, over 
the last couple of years, lead concentrations in tap water in 
many homes increased well above the 15 parts per billion action 
level. While WASA took certain actions then to address the 
requirements in the lead and copper rule, a recent compliance 
audit and a review of outreach efforts have identified many 
areas where the Authority's efforts fell short of meeting the 
spirit and, in a number of instances, the letter of the rule.
    We have come a long way over this year in meeting the 
challenges posed by lead in DC drinking water. WASA and the 
city have undertaken a series of activities directed by EPA to 
address the immediate public health threat, including the 
delivery of more than 32,000 water filters and consumer 
instructions to customers with lead service lines and others.
    In addition to these ongoing actions, EPA last month 
entered into an administrative order on consent with WASA that 
will result in further public health safeguards. The provisions 
of the consent order are intended to reinforce the important 
safeguards provided for under the Federal Safe Drinking Water 
Act.
    The order was a result of an extensive 4-month audit of 
WASA's compliance with the lead and copper rule. The audit 
included onsite review of records and detailed evaluation of 
thousands of pages of documents. EPA found that WASA failed to 
comply with a number of lead sampling, public notification, and 
reporting requirements.
    Under the consent order, WASA must accelerate lead service 
line replacement, enhance public education and outreach, and 
improve its monitoring, data management, and customer response 
practices, all beyond the baseline of regulatory requirements.
    The most recent lead and copper compliance testing results 
for the first 6 months of this calendar year were received on 
July 7 and indicated that, once again, the 90th percentile 
action level for lead was exceeded with a value of 59 parts per 
billion.
    In a separate initiative earlier this year, an EPA team 
reviewed WASA's prior education and outreach efforts and 
identified a number of steps WASA can take to achieve more 
effective public education and outreach regarding lead in 
drinking water. In addition to following mandatory 
requirements, and making use of extensive EPA guidance, the 
report recommends that WASA use consultants to help effectively 
inform the public.
    The report also included recommendations for EPA Region III 
to improve our oversight of WASA's public education program, 
and we have revised our standard operating procedures 
accordingly. Other changes in procedure will ensure that a team 
of EPA staff members with a variety of programmatic, 
regulatory, and enforcement expertise sees each compliance 
report filed by WASA and the Washington Aqueduct.
    In addition to our collaborative efforts with the city, EPA 
has taken a number of actions to provide information directly 
to residents and others on the issue of lead in the District's 
drinking water, including the establishment of a special lead 
education program called Lead-Safe DC.
    Finally, EPA has also received results that show the lead 
action level was exceeded during the most recent sampling 
period with 90th percentile results of 19 and 25 parts per 
billion at two locations operated by the Naval District 
Washington, the Navy Yard, and the Nebraska Avenue Complex.
    Naval District Washington, which obtains its water from 
WASA, has taken action to install and maintain water filters, 
notify residents, provide guidance on tap flushing procedures, 
resample locations, take fixtures out of service, and 
investigate potential sources of lead. Working closely with the 
District of Columbia, our public service partners, and 
concerned citizens, we will continue to aggressively act to 
protect residents and resolve the lead problem.
    We are taking action to hasten the day when the citizens of 
the District of Columbia can once again be confident in the 
safety of their drinking water.
    Thank you for the opportunity to present this information 
this morning, and I am pleased to answer any questions that you 
have.
    [The prepared statement of Donald S. Welsh follows:]

Prepared Statement of Donald S. Welsh, Administrator, Region III, U.S. 
                    Environmental Protection Agency

    Good morning, Mr. Chairman and Members of the Subcommittee. I am 
Donald Welsh, Regional Administrator for Region III of the U.S. 
Environmental Protection Agency. Thank you for the opportunity to 
discuss the important issue of lead in D.C. drinking water and to 
outline the steps EPA and other agencies are taking to resolve the 
problem.
    There is no higher priority for my office than to continue to work 
with the city and other partners to protect those who live and work in 
the District and to correct the cause of elevated lead in the water.
    To that end, steps are underway to reduce lead levels in tap water 
through corrosion control. Orthophosphate, a chemical designed to 
inhibit corrosion in water lines, was applied to a portion of the D.C. 
water system on June 1. EPA authorized the action on the advice of a 
Technical Expert Working Group with concurrence by an Independent Peer 
Review Panel of corrosion control specialists. Both the working group 
and the review panel were established by EPA to inform key decisions in 
the process.
    The treatment change has proceeded without incident. There have 
been no known customer complaints of discolored water, and water 
testing reported to us by the D.C. Water and Sewer Authority (WASA) and 
the Washington Aqueduct show no unexpected results. If all continues to 
go well, the treatment change could be expanded to the entire water 
system within weeks.
    Lead levels in the partial system application area in a northwest 
section of the District remain elevated. Corrosion control experts have 
advised that actual reductions in lead concentrations may not be seen 
for six months or longer. The corrosion inhibitor must have time to 
build up a protective layer on the pipes in order to be fully 
effective.
    Meanwhile, the public needs to continue to follow the consumer 
guidance for tap water flushing and the health guidance on the use of 
water filters where supplied. Local agencies and EPA will notify the 
public when these measures are no longer needed.
    The Washington Aqueduct and WASA will maintain the modified 
treatment within set water quality parameters and monitor the system 
closely throughout the partial system application. The additional 
equipment installed by the Aqueduct to help maintain the required pH 
levels in this area continues to perform well.
    If no unresolvable issues are found during the partial system 
application of treatment, the approved plan calls for full system 
application of orthophosphate as soon as feasible. Last month, the 
Washington Aqueduct reported that the current projection is for the 
start of the full application on or about August 9.

                        PROTECTING PUBLIC HEALTH

    By way of background, EPA's Lead and Copper Rule requires water 
systems to optimize corrosion control to prevent lead and copper from 
leaching into drinking water. To assure corrosion control is effective, 
the rule establishes an action level of 15 parts per billion (ppb) for 
lead. If lead concentrations exceed 15 ppb in more than 10 percent of 
the taps sampled, the system must intensify sampling and take a number 
of additional actions to control corrosion and to educate the public 
about steps they should take to protect their health. The system must 
also begin a lead service line replacement program.
    Such was the case in the District of Columbia, where, over the last 
couple of years, lead concentrations in tap water in many homes 
increased well above the 15 ppb action level.
    While WASA took certain actions then to address the requirements in 
the Lead and Copper Rule, a recent compliance audit and a review of 
outreach efforts have identified many areas where the authority's 
efforts fell short of meeting the spirit and, in a number of instances, 
the letter of the rule.
    We have come a long way this year in meeting the challenges posed 
by lead in D.C. drinking water. Prior to the completion of the 
compliance audit and the signing of a resulting consent order, WASA and 
the city had undertaken a series of activities directed by EPA to 
address the immediate public health threat.
    Those activities included:

 The delivery of more than 32,000 certified water filters and consumer 
        instructions to occupants in homes with lead service lines and 
        others. Water filters continue to be sent out automatically, 
        along with a referral to the Department of Health, when tap 
        water test results indicate elevated lead levels.
 Additional tap water sampling in buildings not served by lead service 
        lines, including schools, day care centers, businesses and 
        other facilities.
 A commitment to accelerate the schedule for physically replacing lead 
        service lines in the District.
 A modification of construction methods for service line replacement 
        to ensure they do not pose an undue risk to health in the days 
        or weeks following the replacement, while ensuring compliance 
        with the lead and copper regulation.
 Expedited notification to customers of the results of water sampling 
        at their residences, committing to providing results in 30 days 
        or less.
    In addition to these and other ongoing actions compelled in large 
part by EPA and the city to provide protections and notifications for 
lead in drinking water, EPA last month entered into an Administrative 
Order on Consent with WASA that will result in further public health 
safeguards.

                             CONSENT ORDER

    The provisions of the consent order are intended to reinforce the 
important safeguards provided for under the federal Safe Drinking Water 
Act. The order was the result of an extensive, four-month audit of 
WASA's compliance with the Lead and Copper Rule as far back as 1998. 
The audit included on-site review of records and detailed evaluation of 
thousands of pages of documents that were formally required by EPA. 
During the audit, EPA found that WASA failed to comply with a number of 
lead sampling, public notification and reporting requirements.
    The most serious violation cited in the consent order was WASA's 
failure to report all of the results of its tap water monitoring during 
the period of July 2000 to June 2001. The regulations require that all 
tap water monitoring samples be reported, unless a sample is 
invalidated in accordance with EPA regulations. In this case WASA did 
not obtain the required authorization to omit samples. If the samples 
had been included, WASA would have exceeded the lead action level and 
protective provisions would have been triggered a year earlier, 
including efforts to understand and correct ineffective corrosion 
control.
    Under the consent order, WASA must accelerate lead service line 
replacement, enhance public education and outreach, and improve its 
monitoring, data management and customer response practices--all beyond 
the baseline of regulatory requirements.
    We are in the process of monitoring compliance with the order. To 
date, we have received all required work products on schedule.
    The most recent lead and copper compliance testing results--for the 
first six months of this calendar year--were received on July 7 and 
indicated that once again the 90th percentile action level for lead was 
exceeded with a value of 59 parts per billion lead.

                           IMPROVED OUTREACH

    In a separate initiative earlier this year, an EPA team reviewed 
WASA's prior education and outreach efforts and identified a number of 
steps WASA can take to achieve more effective public education and 
outreach regarding lead in drinking water. In addition to following 
mandatory requirements and making use of extensive EPA guidance, the 
report recommends that WASA use consultants to help effectively inform 
the public.
    The recommendations were designed as key input to WASA's continuing 
efforts to plan and carry out enhancements to drinking water education 
efforts both for regulatory compliance and ``beyond compliance'' 
efforts.
    The report also included recommendations for EPA Region III to 
improve its oversight of WASA's public education program.
    We have revised our standard operating procedures, in part, to 
assure that shortcomings in public outreach are identified earlier and 
corrected. Other changes in procedure will ensure that a team of EPA 
staff members with a variety of programmatic, regulatory and 
enforcement expertise sees each compliance report filed by WASA and the 
Washington Aqueduct.
    We will continue to look for additional ways to strengthen our 
oversight procedures. There have been lessons learned in this process 
that will benefit the agency in the future.
    In addition to our collaborative efforts with the city, EPA has 
taken a number of actions to provide information directly to residents 
and others on the issue of lead in the District's drinking water, 
including the establishment of a special lead education program, Lead 
Safe D.C.

                       NAVAL DISTRICT WASHINGTON

    Finally, EPA has also received results that show the lead action 
level was exceeded during the most recent sampling period with 90th 
percentile results of 19 and 25 ppb at two locations operated by the 
Naval District Washington--the Navy Yard and the Nebraska Avenue 
Complex. Naval District Washington, which obtains its water from WASA, 
has taken action to install and maintain water filters, notify 
residences, provide guidance on tap flushing procedures, resample 
locations, take fixtures out of service and investigate potential 
sources of lead.

                               CONCLUSION

    Working closely with the District of Columbia, our public service 
partners and concerned citizens, we will continue to aggressively act 
to protect residents and resolve the lead problem. We are taking action 
to hasten the day when the citizens of the District of Columbia can 
once again be confident in the safety of their drinking water.
    Thank you for the opportunity to present this information this 
morning. I am pleased to answer any questions you may have.

    Mr. Gillmor. Thank you very much, and we will go to Thomas 
Jacobus. I hope I pronounced that correctly.
    Mr. Jacobus. Yes, sir. That is correct.
    Mr. Gillmor. Who is the General Manager of the Washington 
Aqueduct.

                 STATEMENT OF THOMAS P. JACOBUS

    Mr. Jacobus. Thank you very much, Mr. Chairman. I am Tom 
Jacobus, General Manager of the Washington Aqueduct. I would 
like to just take a few moments to summarize a little bit about 
who we are, what our relationship is, both with EPA as the 
regulator of our operations and our customer in the District of 
Columbia, DC Water and Sewer Authority.
    We are owned and operated by the Army Corps of Engineers, 
which is a historic mission dating back to the inception of the 
water supply. But we are regulated as a public water utility by 
EPA Region III. We operate through the sale of water to our 
customers, and those customers on a wholesale basis are the 
District of Columbia Water and Sewer Authority, Arlington 
County, Virginia, and the city of Falls Church, Virginia.
    Falls Church further sells water and owns and operates the 
distribution system in the immediate area of Fairfax County, of 
surrounding Falls Church, out to the town of Vienna, and Vienna 
is also a customer.
    So there are about a million customers in our distribution 
system, who have distribution systems which they operate, 
buying the wholesale water from us. So all of the activities of 
the Washington Aqueduct are paid for by the sale of water to 
those customers, and all of our activities are regulated by EPA 
Region III.
    As a wholesale water--as a water provider, our interest is 
the same as every other water provider in the United States, 
and that is to provide safe, high-quality drinking water that 
is reliably provided. There are many laws and regulations that 
are imposed, quite rightly, on us, and we have gone to a great 
deal of effort on behalf of our customers to build facilities 
and provide the service that will meet those regulations.
    At the same time, we are trying to provide water that is 
100 percent reliable in the system. We are also making sure it 
is bacteriologically pure, it is properly free of other 
contaminants. We are looking at both chronic and acute effects 
of the water.
    We know that water is corrosive, and we have always had 
some form of corrosion control in the water. In applying our 
operation to the lead and copper rule that was promulgated in 
1991, as you know, we, through a series of experiments, in-line 
water treatment devices at the treatment plants, we determined 
that using pH control--in other words, using lime to change the 
scale of water from basic to acid--actually, the other way, we 
want to make it more basic--that we would achieve sufficient 
corrosion control. And those tests were validated with samples 
taken at the tap.
    So, in 1994, we began what we would--had determined and had 
recommended to EPA as optimal corrosion control treatment at 
the treatment plant serving all of those customers. After a 
series of reviews and analysis, EPA finally gave us a letter of 
authorization, and we have very, very carefully followed the 
chemistry of the water to make sure that we have met the 
optimal corrosion control.
    If I could just jump back in time, in 2000, in November of 
2000, we did change the treatment of the water in order to 
comply with another regulation having to do with disinfection 
byproducts. So when we change the way we disinfect the water 
using a new chemical called chloramine, we had spectacular 
results in lowering the disinfection byproducts, which was the 
intent of the disinfection byproducts rule under the Safe 
Drinking Water Act.
    Then, we find in recent history, in 2000, 2003, results 
reported by WASA that some elevated lead levels were showing 
up. Our corrosion control was working exactly as planned, but 
in the winter, January/February of this year, it became 
apparent that the corrosion control technique that was being 
carefully used and in place was not having a sufficient 
protective effect.
    So we immediately formed a group, a technical working group 
to address the problem comprised of our customers, WASA 
specifically, and then EPA and technical experts from outside. 
We have, as members of the committee this morning have made in 
their statements, started in a portion of our District of 
Columbia service area with a phosphate inhibitor. Its 
application is proceeding satisfactorily from a technical point 
of view. In other words, we are getting the right amount of 
phosphate to the tap. We are not having any secondary effects.
    But as Mr. Grumbles, I believe it was, pointed out, it will 
take many months to actually lay down a layer on the inside of 
the pipe. We expect by mid-August to have that application full 
system-wide, and our internal and external experts are 
confident that we will be able, through the use of this 
corrosion inhibitor, over time to bring the lead levels down.
    So we continue to work very closely with EPA and our 
customers. We are very much aware of the current issues. We are 
very concerned by them, and we are doing everything that we 
can, and we appreciate the support of EPA and our customers to 
get us to a position where the corrosivity of the water is 
reflected in results below the action limit.
    So let me stop there, please, Mr. Chairman, and respond to 
any questions in due course.
    [The prepared statement of Thomas P. Jacobus follows:]

 Prepared Statement of Thomas P. Jacobus, General Manager, Washington 
       Aqueduct, Baltimore District, U.S. Army Corps of Engineers

    Good Morning, Chairman Gillmor and members of the Committee. I am 
Tom Jacobus, the General Manager of Washington Aqueduct.
    We appreciate the opportunity to be here today to report to this 
committee the actions Washington Aqueduct is taking and the progress we 
are making to reduce the elevated concentrations of lead in the 
drinking water found in some homes in the District of Columbia.
    Corrosion control has always been an integral part of the water 
treatment process. After the Lead and Copper Rule was promulgated in 
1991, Washington Aqueduct, based on the recommendations of its 
consultant and in coordination with its wholesale customers, i.e., the 
District of Columbia, Arlington County, Virginia and the City of Falls 
Church, Virginia, conducted studies to determine the optimal corrosion 
control treatment that would meet the requirements of the rule.
    Corrosion control based on maintaining a target pH of the finished 
water through the use of granulated lime was the recommended technique, 
and after a series of reviews and discussions, Region 3 of the United 
States Environmental Protection Agency approved that strategy. 
Washington Aqueduct has paid very close attention to meeting the 
chemistry required by the optimal corrosion control treatment 
designation, and results from samples drawn from the customers' water 
validated the effectiveness of the process for many years.
    However, in 2002 the District of Columbia Water and Sewer 
Authority's sampling under the provisions of the Lead and Copper Rule 
produced results that exceeded the action level for lead. That 
triggered the replacement of a percentage of their lead service lines. 
These results also led the Environmental Protection Agency to begin a 
review of the situation. Washington Aqueduct participated in this 
review by supplying water quality data to the Environmental Protection 
Agency's contractor conducting this investigation.
    In November 2000, Washington Aqueduct added chloramines as a 
secondary disinfectant to come into compliance with the newly 
promulgated Stage I, Disinfectants, Disinfection Byproducts Rule. In 
making that conversion, Washington Aqueduct and its consultants did 
extensive research into potential side effects of using chloramines. As 
a result, we took steps to watch for nitrification in the distribution 
system that could reduce the pH of the water and consequently increase 
the corrosiveness of the water. We saw no evidence that the new 
chloramine disinfection process was increasing the corrosiveness of the 
water via the nitrification process. The chemistry change did, as 
expected, result in significantly lower levels of disinfection 
byproducts.
    However, the lead concentrations found among a large number of 
samples collected by the District of Columbia Water and Sewer Authority 
in 2002 and 2003 did indicate that Washington Aqueduct's optimal 
corrosion control treatment that had previously been working 
successfully to prevent leaching of lead from service lines was no 
longer giving adequate protection.
    Since February 2, 2004, our highest priority has been to reevaluate 
the corrosion control treatment we use to protect the end users of the 
drinking water in the District of Columbia and Northern Virginia from 
the naturally corrosive effects of the water and to develop a treatment 
modification to make the water less corrosive.
    A Technical Expert Working Group consisting of Washington Aqueduct 
and its consultants, the Environmental Protection Agency, the District 
of Columbia Water and Sewer Authority and its consultants, the District 
of Columbia Department of Health, Arlington County, Virginia and the 
City of Falls Church, Virginia, was established to assist Washington 
Aqueduct develop a new corrosion control treatment strategy. 
Incorporating advice from the Environmental Protection Agency's 
independent peer review panel, we have selected a new corrosion 
inhibitor chemistry based on an orthophosphate compound and have begun 
to install equipment that will be used to modify the corrosion control 
treatment in a way that we believe will reduce the concentrations of 
lead in drinking water that remains in contact with lead pipes, lead 
solder joints and fixtures. This will go into place even as lead 
service lines are being replaced.
    In arriving at this treatment change, we have had access to the 
nation's very best scientific and technical talent in this field. We 
appreciate the resources that the Environmental Protection Agency has 
expended to assist not only us but also to look at the larger aspects 
of this issue.
    In the process of doing this, we have worked closely with our 
wholesale customers in the District of Columbia and Virginia, our 
colleagues in the departments of health in the District of Columbia and 
Virginia, and the United States Environmental Protection Agency. We 
have also participated in many meetings throughout the District of 
Columbia to explain to the residents the nature of the problem and our 
approach to a solution.
    A partial system application of the phosphate-based corrosion 
inhibitor in a portion of the District of Columbia Water and Sewer 
Authority distribution system began on June 1, 2004. In mid-August we 
will begin a full system application that will include not only the 
District of Columbia but the Arlington County and the City of Falls 
Church distribution systems in Virginia as well. We are approaching the 
application in two steps to be able to carefully control and evaluate 
the initial application to ensure that the programmed dose of the 
inhibitor does not generate any unexpected secondary effects. One known 
possible effect of the application of the corrosion inhibitor may be 
the localized release of rust from iron pipes. This would result in 
discolored water delivered to the consumer, but it will be short-term 
phenomena and can be managed by flushing the distribution system mains 
as needed. So far in the partial system application no discolored water 
has been observed at the customers' taps.
    As part of our conversion to a corrosion inhibitor, we will be 
installing a series of lead pipe loops made of pipe removed from 
service in the District of Columbia Water and Sewer Authority 
distribution system. They will simulate conditions in the lead service 
lines still in the distribution system under a variety of scenarios. 
These loops will be the basis of scientific studies over the next year 
to evaluate the effectiveness of the treatment change as well as to 
optimize chemical dosage and types. All of this information will be 
shared with the water utility industry, the scientific community, and 
the public to add to the knowledge base on corrosion and corrosion 
chemistry.
    This concludes my testimony. I will be happy to respond to any 
questions.

    Mr. Gillmor. Thank you very much, Mr. Jacobus. And I also 
want to congratulate you on hitting the 5-minute time limit 
almost exactly.
    Let me now go to Jerry Johnson, who is the Executive 
Director of the District of Columbia Water and Sewer Authority.

                  STATEMENT OF JERRY N. JOHNSON

    Mr. Johnson. Good morning, Mr. Chairman, members of the 
committee. I am Jerry Johnson, General Manager of the District 
of Columbia Water and Sewer Authority. And on behalf of the 
Authority, I would like to express our appreciation for the 
subcommittee's interest in this matter.
    Lead in drinking water is a serious interest and concern to 
the Board of Directors, to me as an individual, our managers, 
and every employee of the Authority, as well as our customers. 
And I also recognize that it is a matter that concerns 
policymakers in the Federal, State, and local level.
    Among our many obligations, such as strong stewardship of 
the environment and responsible management of ratepayer 
resources, we take the obligation to distribute clean, safe 
drinking water as our most important mission. I would like to 
provide the committee a very brief update on our activities 
since February of this year.
    We have responded to 67,448 customer calls and e-mails, 
distributed 36,900 water test kits. We have distributed 38,276 
water filters, and continue to provide these filters 
automatically to homeowners whose test results exceed, on 
second draw, EPA action level of 15 parts per billion.
    We have also hosted nearly two dozen community meetings and 
participated in well over two dozen meetings hosted by 
community organizations. We have videotaped two TV cable 
programs, done bi-weekly news briefings, conducted nearly 7,000 
blood lead tests in the District of Columbia, and in the 
conduct of those--an analysis of those lead tests, we found no 
relationship between elevated lead levels and lead in drinking 
water in the District of Columbia. And, thus, it concluded that 
we have not experienced a health crisis, but, rather, a major 
communications issue in the District.
    As you know, there have been several external reviews that 
have been undertaken with the purpose, in whole or part, of 
evaluating the Authority's performance under the lead and 
copper rule. And we have recently received an audit that 
extended back to 1998 by the U.S. EPA, and was conducted and 
concluded with a consent order with a number of specific 
actions, many of which were already planned and/or underway.
    Some of those include committing to commit timely report--
submit timely reports to EPA using language that is required in 
public educational materials, submitting plans to EPA for 
public education programs, replacing additional lead service 
lines in public space over the next 2 years.
    This agreement, in its last instance, is a result of EPA's 
conclusion that had water quality operation interpreted the 
rules for submitting samples appropriately, and done the tests 
differently, then the District would have exceeded the action 
level a year earlier.
    The Authority's Board of Directors has expressed some 
reservations about the consent order. And as it does not 
address the quality of Federal oversight, and specifically 
feels that there was failure to provide timely notice of 
deficiencies of the Authority's program, and that EPA approved 
several of the matters now deemed to be a non-compliance, and 
other areas of non-compliance, WASA sought and received 
guidance from EPA.
    The Board supported the agreement, however, because it 
believes that the agreement brings to closure past issues and, 
like the community pledge, it reflects the focus on the future 
without imposing unnecessary costs and financial penalties--an 
unfair burden on the ratepayers.
    On July 16, the report of the Board of Directors of an 
investigation conducted by Eric H. Holder, Jr., former U.S. 
Assistant Attorney General, was released to the public. Mr. 
Holder found that WASA staff made mistakes, and that they were 
not sufficiently supervised, and that WASA's management made 
decisions to downplay some of the lead monitoring related 
issues as we went to public communication. These matters have 
been corrected.
    The report, however, goes further and generally WASA--that, 
generally, WASA kept EPA informed of the many issues, but EPA 
provided inconsistent responses and failed to raise sufficient 
concerns. And other agencies involved in the water quality 
issue, to include the Health Department, had muted responses 
after learning of the exceedances.
    With respect to resources, WASA will allocate the entire 
Federal revolving loan grant of $11 million to the District for 
the lead replacement program. For 2004, the entire cost of the 
program, including capital support for the Department of Health 
and outreach, was approximately $40 million.
    Acknowledging that the Washington Aqueduct is proceeding 
with plans to attack this problem at its source by adjusting 
the chemistry and treatment process, the Board of Directors 
went much further and voted to physically replace all of the 
city's lead service lines and pipes in public space by 
September of 2010, at a cost of just over $300 million.
    Part of the community water pledge is to enhance 
partnerships with the community, including the private sector. 
And as such, we will announce next week that a national 
financial institution is launching a program of low interest 
loans for low-income homeowners for replacement of the 
privately owned portions of the lead service lines. In 
addition, a public sector grant will be made available from 
other sources to assist low-income residents in the District of 
Columbia.
    Although we have developed in recent months a stronger 
partnership with the District of Columbia, Department of 
Health, the Authority has taken additional steps to ensure that 
we have access to expertise in both health risk information and 
health risk communication.
    We have engaged the George Washington University School of 
Public Health in a very effective partnership to help better 
understand the science behind the lead and copper rule and its 
implications for public health. And we aware of no similar 
relationship anywhere in the country between a water system and 
a non-governmental health institution.
    We have been working with the university to develop a 
workshop on utility and public health--with utilities and 
public health professionals to address questions that range 
from identifying health risks, risk communication, simultaneous 
compliance, on science and policy questions that arose in the 
recent months on the lead and copper rule in order to assist 
the rest of the Nation.
    Mr. Chairman, I continue to believe very strongly that the 
District Government and other responsible entities should look 
very closely at the issues of primacy and further 
responsibility for the production of drinking water in the 
Nation's capital. It is not, from my perspective, a political 
or philosophical issue, when all is said and done, but a very 
important policymakers consideration of fundamental challenges 
that ensure the residents that are served by these entities.
    In closing, our latest action--the latest actions by the 
Authority and the determination to learn the lessons of the 
past signal that we are determined to rebuild customer and 
public confidence in the District of Columbia Water and Sewer 
Authority.
    I thank you, Mr. Chairman, and the committee for your 
attention, and will be pleased to respond to any questions you 
might have.
    [The prepared statement of Jerry N. Johnson follows:]

 Prepared Statement of Jerry N. Johnson, General Manager, DC Water and 
                            Sewer Authority

    Good morning Mr. Chairman, I am Jerry N. Johnson, General Manager 
of the District of Columbia Water and Sewer Authority.
    On behalf of the Authority, I would like to express our 
appreciation for the Subcommittee's interest in this matter.
    Lead in drinking water is of serious interest and concern to the 
Board of Directors, to me, our managers and every employee of the 
Authority, as well as to consumers. It is also a matter that concerns 
policy-makers in federal, state and local government.
    Although the responsibility is shared with the Army Corps of 
Engineers Washington Aqueduct and the Environmental Protection Agency 
(EPA), here in the nation's capital, the District of Columbia Water and 
Sewer Authority is accountable to our customers and to the public when 
it comes to ensuring that drinking water is safe.
    Among our many obligations such as strong stewardship of the 
environment and responsible management of ratepayer resources, we take 
the obligation to distribute clean safe drinking water as our most 
important mission.

                         COMMAND CENTER UPDATE

    I would like to provide the Committee a very brief update on our 
activities since February.
    We have responded to 67,448 customer calls and e-mails since the 
beginning of February 2004.
    As you may know, the sampling required by EPA under the Lead and 
Copper Rule was as low as 50 households and is now 200 households 
annually.
    Our lead Command Center reports that we have received and 
distributed 36,909 water test kits, and nearly 20,000 test kits have 
been returned to us for analysis. We have analyzed and processed 18,683 
customer water samples this year, and the first and second draw sample 
test results remain consistent across all pipe materials with respect 
to lead level concentrations.
    As of July 21, we have distributed 38,276 water filters, and 
continue to provide these filters automatically to homeowner's who 
participate in the sampling program and whose test results exceed on 
the second draw the EPA action level of 15 ppb.

                       AUDITS AND INVESTIGATIONS

    There have been several reviews undertaken this year with the 
purpose, in whole or in part, of evaluating the Authority's performance 
under the Lead and Copper Rule.
    This morning we are participating in our fourth Congressional 
hearing on this topic. The District of Columbia Council has held eleven 
hearings since February 2, 2004.
    We have hosted nearly two-dozen meetings and participated in over 
two-dozen meetings hosted by community organizations. We have also 
taped two videos for broadcast on cable access television and 
participated biweekly news briefings in our effort to keep the public 
informed.
    The Interagency Task Force Chaired by Mayor William's and 
Councilmember Carol Schwartz and the EPA audit have concluded.

                         CONSENT ORDER SUMMARY

    The EPA audit extended back to 1998, and was concluded with a 
consent order that included specific activities that were either 
planned or already underway.
    Under the settlement agreement we have reached with EPA which our 
Board ratified, the Authority agreed to take steps, such as:

 Committing to submit timely reports to EPA and use required language 
        in public education materials;
 Submitting plans to EPA for--
    1. our public education program
    2. encouraging homeowners to submit lead sample tests, particularly 
            those who have had partial service line replacements
    3. continuing our priority replacement program, and
    4. encouraging private side replacements by homeowners;
 Replacing an additional 1,615 service lines in public space in the 
        next two years.
    This last item is the result of EPA's conclusion that had our 
former water quality manager interpreted the rules for submitting 
sample tests to EPA differently, and a small number of additional 
sample test results had been included in the period from 2000 to 2001, 
then the District would have exceeded the action level a year earlier.
    In reaching a settlement agreement with EPA on the next phase of 
the Lead Services Program, we are very pleased to bring a very labor 
intensive and backward-looking review process to a close.

             BOARD OF DIRECTORS RESOLUTION ON CONSENT ORDER

    The Authority's Board of Directors expressed some reservations 
because the consent order does not address the quality of federal 
oversight.
    The Board supported this agreement because it believes that the 
agreement brings closure to past issues, and like the Community Water 
Pledge, it redirects the focus to the future.
    However, the Board did express in the clearest terms its 
disappointment in the Environmental Protection Agency's failure to 
``conduct routine and basic oversight of the Authority from 1998 until 
the Compliance Audit commenced,'' on or about February 8, 2004.
    The Board further noted that as a result:

 That the EPA failed to ``provide timely notice of any deficiencies in 
        the Authority's Lead and Copper Rule program, including its 
        sampling program, public education program reporting forms and 
        time frames for reporting;'' and;
 ``EPA had approved several of the matters deemed to be in 
        noncompliance and for other areas of noncompliance WASA had 
        sought and received guidance from the EPA and proceeded on a 
        course of action with EPA's active consultation.''
    However, this agreement, which did not impose any financial 
penalties that would unfairly burden our ratepayers and ensured that 
the EPA's review would not be open-ended, serves the best interests of 
our customers and the general public.
    Still underway are reviews by the District of Columbia Inspector 
General, and, as you know, the Government Accountability Office.

                             HOLDER REPORT

    Most recently, On July 16, 2004, The Report to the Board of 
Directors on an Investigation conducted under the direction of Eric H. 
Holder, Jr., a partner with Covington and Burling and a former United 
States Assistant Attorney General, was released to the public.
    It is the broadest comprehensive report, to date. It is critical of 
WASA's management, in some instances. However, it is also critical of 
other agencies involved in ensuring appropriate implementation of the 
Lead and Copper Rule.
    This investigation was undertaken on behalf of WASA's independent 
Board of Directors. WASA's executive management and all staff 
cooperated fully with Mr. Holder by providing tens of thousands of 
pages of documents and thousands of e-mails. We sought to honor all 
requests for personal interviews, including a number not initially 
listed as part of the investigation. This was not the case with any of 
the other organizations involved.
    I am continuing to digest the Report fully, but it seems generally 
consistent with my assessment of how WASA, the EPA, the Washington 
Aqueduct and the District of Columbia Department of Health each handled 
lead leaching from some homes' lead service lines, as well as some 
elements of our responsibility to communicate with the public.
    Mr. Holder finds that WASA staff, principally, the WASA Water 
Quality Manager (Seema Bhat) and her supervisors made mistakes, and 
that they were not sufficiently supervised; and that WASA's management 
made decisions to downplay some lead monitoring-related issues in its 
public communications.
    The Report, however, goes much further, specifically stating:
 WASA generally kept the EPA informed on many of the issues discussed 
        below, but the EPA provided inconsistent responses and failed 
        to raise significant concerns . . .''
 ``Other agencies involved in water quality issues--the EPA (and 
        Department of Health)--had a muted response after learning of 
        the exceedance . . .''
 The requirements of the LCR do not effectively ensure public 
        awareness of the potential public health issues . . .''

          SUMMARY OF INFORMATION PROVIDED TO THE SUBCOMMITTEE

    On March 15, 2004, the Subcommittee requested information on lead 
levels in the drinking water and the Authority's actions taken in 
response to exceeding the EPA action level.
    As you know, Mr. Chairman, our responses were fairly lengthy, but I 
would like to briefly summarize them for the Subcommittee:
    There was a very small annual lead service replacement program in 
the District that ranged from 0.5% to 1.5% of the lead service line 
inventory from 1992 to 1997.
    At the time the District exceeded the action level in 2002, the 
best source of information regarding the inventory of lead service 
lines was the Weston Report, commissioned in 1990 for the District of 
Columbia Government (Weston's analysis is based upon known lead 
services, the proximity of other residences to known lead services and 
installation date.)
    Despite the fact that we have undertaken strenuous efforts to 
reconcile and update pipe material records, some of which date back to 
the turn of the last century, Weston remains the best source of 
information.
    WASA will allocate the entire federal revolving fund grant, $11 
million, for the District to the lead replacement program, but we have 
only used local ratepayer funds prior to that time. For 2004, the 
entire cost of the program, including capital, support for the DC 
Department of Health, and outreach, is approximately $40 million.
    With respect to communications, WASA submitted plans for our 
response to the EPA, which were followed by standard activities 
including public service announcements, a bill notice and a bill insert 
(EPA has noted the omission of use of ``significantly'' and 
``unhealthy'' in some of these notices.)
    The Authority also began the physical lead service replacement 
program, launched the largest water sampling program ever undertaken in 
the United States, and established a Hotline to help manage customer 
communications more effectively.
    The Authority policy was and is to notify customers of test sample 
results within 30 days, but we acknowledge that efforts to fine tune 
the information provided to customers in 2003 (6,111 samples) and the 
sheer volume of samples in 2004 (18,683 to date) made meeting this 
objective for every household problematic at times.
    In the fall of 2002, following the trigger of the action level, 
there were discussions among EPA, the Aqueduct, and the Authority 
regarding a study of the optimal corrosion control methodology and why 
it was no longer being achieved.
    WASA and EPA sought the involvement of external expertise. Dr. Mark 
Edwards, Virginia Polytechnic and State University, was hired by the 
EPA. WASA retained Camp, Dresser and McKee, a consulting, engineering 
construction firm, to support WASA's involvement in the project and to 
help evaluate the findings produced by other parties.
    The lead profiles that have been used to reevaluate the EPA 
flushing recommendations as they relate to the District of Columbia, 
are an example of a product of this work.
    Early this year, these experts focused very intensively on this 
effort, and they are now referred to as Technical Expert Working Group. 
Its work has resulted in the Washington Aqueduct proposal to add 
orthophosphate in the treatment process for the District in an effort 
to re-optimize the corrosion control process.
    As you may know, orthophosphate was added as a demonstration 
project to a small part of the distribution system in the northwest 
quadrant the week of July 1.
    We are also pleased to report that we have received, to date, no 
customer calls regarding the appearance of ``red water''--the potential 
side effect of the application of orthophosphate. Pending EPA approval, 
orthophosphate could be added to drinking water for the entire system 
by mid-August.
    In order to inform customers of the Aqueduct's planned application 
of orthophosphate across the entire system, WASA plans to join with the 
Washington Aqueduct, the Department of Health and EPA, in informing the 
media and participating in Technical Expert Working Group community 
meetings.
    WASA has also been using our customer newsletter, reaching out to 
our 125,000 metered customer addresses on the application of 
orthophosphate over the past few months.
    We will also distribute direct mail to every address, update our 
web page, update Authority ``Interactive Voice Response'' (our on hold 
messages), as well as update our customer service and Lead service 
Hotline representatives to effectively respond to customer questions.

       CHLORINE--UNEXPECTED CONTRIBUTOR TO CORROSION OPTIMIZATION

    The Authority's initiative in monitoring lead level concentrations 
during the period from April to May revealed during the annual switch 
from chloramines to Chlorine revealed that lead level concentrations 
had dropped by approximately 30 percent.
    The finding suggests that chlorine may have had an unexpectedly 
strong and positive impact on the corrosion control technology, pH 
adjustment, previously designated by the EPA in 2000.
    Studies are continuing, but the challenges associated with 
simultaneous regulatory compliance, and the lack of national research 
on its challenges, have moved closer to the center of this discussion.

              BOARD ACTION AND WASA COMMUNITY WATER PLEDGE

    Acknowledging that the Washington Aqueduct is proceeding with plans 
to attack this problem at the source by adjusting the chemistry and 
treatment process, the Board of Directors went much further and voted 
to physically replace all the city's lead service line pipes in public 
space by September 30, 2010.
    Also recognizing that any major infrastructure program can be 
disruptive, WASA management is committed to also go well beyond the 
requirements of the law in how we communicate with the public.
    Consistent with our Community Water Pledge, we will work to meet 
the expectations of our residents in communicating clearly and in 
advance to help minimize any disruption and inconvenience by:

1. Issuing a calendar of planned replacements by block and/or 
        neighborhood
2. Contact customers scheduled for replacement individually by letter
3. Place a door hangar on homeowners' doors
4. Contact customers who are part of the replacement program at three 
        intervals: 45-days, 7-days and 48 hours before construction
5. Participate in or host a community meeting in neighborhoods in 
        advance of construction
6. Provide a WASA contact name and number for questions and complaint 
        resolution.
    Part of the Community Water Pledge is to enhance our partnerships 
in our community, including those with the private sector.
    Two weeks ago, we joined Mayor Williams at his weekly press 
briefing to announce a growing partnership with the private sector--the 
General Electric Corporation has donated 12,500 filters to the lead 
services program, joining PUR and Brita who made earlier donations.
    As you may know, the Lead and Copper Rule and EPA mandate that we 
offer homeowners the opportunity to use our contractors to replace the 
private side of lead service lines for as long as the District exceeds 
the Action Level.
    As part of our Community Water Pledge, we expect to announce as 
early as next week that a national financial institution will launch a 
program of low interest loans for low-to-moderate income homeowners for 
the purpose of replacing the privately owned portion of lead service 
lines. Grant funds will also be made available from another source to 
assist low income District residents.
    Although we have developed in recent months a stronger partnership 
with the District of Columbia Department of Health, the Authority has 
taken additional steps to ensure that we have access to expertise in 
the areas of both health risk information, and health risk 
communication.
    We have engaged the George Washington University School of Public 
Health in a very effective partnership to help us better understand the 
science behind the Lead and Copper Rule and its implications for human 
health.
    This strong partnership is helping us to communicate this 
information more effectively to our customers and the general public, 
and we are aware of no similar relationship anywhere else in the 
country between a water system and a non-governmental health 
institution

                       INDUSTRY WORKSHOP PLANNED

    We have been working with the University to develop a symposium or 
workshop for utility and public health professionals in the very near 
term to examine lessons learned from our experience.
    This workshop, which we hope will involve some of the most 
effective and strongest voices in the industry, will address questions 
that range from identifying health risks appropriately and risk 
communication, to simultaneous compliance and the science and policy 
questions that arose in recent months around the Lead and Copper Rule 
and its enforcement.
    Under the Community Water Pledge, WASA has committed to take the 
strongest steps to address the expectations of our customers, which far 
exceeds the requirements of the US EPA. Each of the steps I have 
outlined is ultimately intended to ensure that we live up to that 
commitment.
    There are, however, questions of policy that do not specifically 
relate to the Lead and Copper Rule, itself. I believe they may be 
central to understanding the recent experience in the District of 
Columbia.

                   A UNIFIED WATER SYSTEM AND PRIMACY

    Mr. Chairman, I continue to believe very strongly that the District 
Government and other responsible entities should look very closely at 
the issues of primacy and the future responsibility for water 
production for the nations capital.
    This is not from my perspective a political or philosophical issue. 
When all is said and done, it is important that policy-makers consider 
fundamental challenges, such as ensuring that residents are served by:

1. the best structure for the most effective and seamless operation of 
        the water system;
2. a well-informed regulatory authority with a direct and clear 
        responsibility to serve the local community
3. clear lines of authority and public accountability to local 
        authorities.
    A transfer of authority from federal to local government is no 
panacea--there are no infallible systems, managers or processes, but 
the question of unified management of the water system should be 
thoughtfully and objectively considered.
    Similarly, the issue of federal versus state and local regulation 
and enforcement of the environmental regulations, in particular, are at 
the heart of the goals of the Safe Drinking Water Act.

                               CONCLUSION

    In closing, the latest actions by our Board of Directors, including 
its commissioning and receipt of the Holder Report, and the Authority's 
determination to learn the lessons of the past and put them to use on 
behalf of our customers all signal that with respect to governance, 
management, the sampling program, customer communications and physical 
replacements, we are determined to rebuild customer and public 
confidence in the District of Columbia Water and Sewer Authority.
    Thank you for your attention, Mr. Chairman. I would be happy to 
respond to any questions.

    Mr. Gillmor. Thank you, Mr. Johnson.
    The gentleman from Idaho, Mr. Otter, has requested 
unanimous consent that his opening statement be entered into 
the record. And without objection, hearing none, so ordered.
    We will begin with our questions. I would like to start, 
Mr. Grumbles, with a question for you. Your testimony states 
that EPA is reviewing the actions taken by all parties to 
ensure that we use the lessons learned to prevent such an event 
from taking place in the future.
    Now, this review comes on the heels of the EPA revising 
monitoring, reporting, and public education requirements in 
2000, so a number of questions relating to that. Since you have 
revised the rule, what lessons have you learned that the rule 
did not already contemplate? And what have you done differently 
in Boston, in Portland, in Seattle, that you did not do in 
Washington, DC? And perhaps, most importantly, does Congress 
need to act in any way to support your efforts?
    Mr. Grumbles. Mr. Chairman, I will try to respond to each 
of those questions as best I can. First of all, on the lessons 
learned front, I would say that you can't put a high enough 
price on the importance of accurate, timely, useful, and 
reliable information to the public. Now, EPA did, in 2002, 
pursuant to the rule, develop some additional public education 
guidance.
    But we learned, and are continuing to see, that the more 
robust and the more specific and useful the information the 
better. And a lot of it is emphasizing the tools of risk 
communication and using multiple media markets and mass media. 
But one of the key lessons learned is you can make a bad 
situation much worse by not coming forth early and 
communicating effectively.
    And I think that is certainly one component, and I think a 
key component that will facilitate that is making sure that the 
individual homeowners, those who do have lead service lines, 
know the situation, know what is going on, could get some type 
of information. And I think that as we look at some of the 
cities that have experienced this problem, that is one of the 
lessons we can glean from their experiences is getting more 
information out to the public, and certainly to the States who 
are primarily the ones overseeing the lead and copper rule.
    But from an EPA perspective, one of my top priorities is 
really digging in deep and looking very carefully at the 
monitoring and reporting and public education, public 
notification components of the rule.
    Mr. Gillmor. Thank you.
    Let me go to you, Mr. Johnson. The DC Office of Inspector 
General issued a followup management report on WASA dated 
January 7, 2002, that stated that in tests performed by WASA 20 
percent of the employee drinking water fountains at the Blue 
Plains facility exceeded Federal limits.
    Now, the IG stated that combination appeared to be 
attributed to either the pipe leading to the water fountains or 
the plumbing behind them. The IG report also included an 
employee complaint that yielded tests showing the water level 
to be 400 percent higher for lead than the Federal standard. 
How could a report like that just fall through the cracks?
    Mr. Johnson. Actually, Mr. Chairman, it did not fall 
through the cracks. We determined at the time that that report 
was done that we had a number of fixture problems internal to 
the facilities there. I believe that in the mid 1990's there 
was a recall of a number of different types of water fountains 
in the United States, and we determined that at that time those 
fountains had actually not been replaced. Those fountains were 
then replaced. We have done--conducted a series of tests since 
that time, and the results have come back negative.
    Mr. Gillmor. Thank you.
    We will go to the gentlelady from California, Ms. Solis, if 
she has any questions.
    Ms. Solis. Yes. Thank you so much, Mr. Chairman.
    My question is to Mr. Grumbles from EPA, and I thank you 
for taking the opportunity the other day to come by my office 
and sit down and talk to us.
    I just had--I have several questions, but I wanted to go 
back to something you said earlier regarding data that you are 
currently reviewing or have reviewed from the different States 
that has been submitted to you. You mentioned that they are 
about 90 percent in compliance, the materials that you have 
received, say, from the various States regarding their 
compliance level.
    Mr. Grumbles. And we have this all up on our website. So if 
I say something that is incorrect, not only will I correct it 
for the record, but I also encourage people to visit the 
website. And it is a very important question for clarification.
    We have gotten about--I think 89 or 90 percent of the 
systems we have gotten data from them on their 90 percentile 
information. And so the key, in looking to see if you are 
complying and following the major aspects of the lead and 
copper rule, is this so-called 90th percentile. And that is so 
important, because that is what in a community when they are in 
the testing and monitoring for lead in drinking water, the way 
the rule is written it spells out that, if you do 100 samples, 
you look at the 90th percentile and see whether or not that 
sample is--exceeds 15 parts per billion.
    And what we have found--what we have found in extensive 
review and getting virtually all of the data from the country, 
the States, and their systems in the States, is that it is a 
less than 4 percent of the--less than 4 percent of those 
systems are exceeding that all-important 15 parts per billion.
    Ms. Solis. Okay. My question is: when did you request that 
compliant information from the States? When did that go out? 
When does that notice go out?
    Mr. Grumbles. Well, there are a couple of things going on. 
One is we sent notice to the EPA regions and the States 
probably about 3 months ago, or in March of this year.
    Ms. Solis. Around the time of the DC----
    Mr. Grumbles. Well, yes. One of the--the rule requires 
systems to report their data to their States. That is what the 
1991 rule says. But as we were discovering, the scope of the 
situation here in the District of Columbia, the first thing 
that we wanted to do as the head of the national water program 
was to get as much data as we could, specifically send out a 
separate request for information from all of the systems from 
the States to see how they were doing on that 15 parts per 
billion.
    Ms. Solis. So is it, then, a response to what happened in 
DC that you asked the States, then, to come up with this 
information?
    Mr. Grumbles. I would say unabashedly that our national 
compliance review was a response to the scope of the problem we 
were discovering----
    Ms. Solis. Okay. My----
    Mr. Grumbles. [continuing] in the District.
    Ms. Solis. Okay. Great. My next question is, I understand 
all of this is self-reported, and you have different 
individuals that are involved in compiling that information. In 
the State of California, were there any problems with looking 
at its data and being able to kind of piece that together to 
better understand what is happening in our State, because it 
have different systems that may not all speak the same there?
    Mr. Grumbles. I think you have identified a challenge that 
we, as information managers, face in various parts of the 
country, or in some of our implementation efforts under the 
Safe Drinking Water Act, is making sure that the data systems 
are compatible and talk the same language. And in California, 
we are spending additional time working with the State, so that 
our data systems and their data systems, we can integrate. So--
--
    Ms. Solis. Well, some of that information may not be as 
conclusive and accurate, because of those discrepancies.
    Mr. Grumbles. Well, we want to make sure we get all of the 
data in, and that there aren't discrepancies. But I think we 
have got a pretty good--we have a pretty good picture of the 
overall question nationally.
    Ms. Solis. And is that on your web page, information----
    Mr. Grumbles. Yes.
    Ms. Solis. [continuing] from California? So we can look at 
that and all of the other States as well? But it is not all 
complete. It is not all complete.
    Mr. Grumbles. It is not all complete. It is getting very 
close to that picture.
    Ms. Solis. Okay.
    Mr. Grumbles. We wanted--in the interest of speed, without 
sacrificing quality, we wanted to get up as much information as 
we could, because people want to know, is this a national 
problem? How pervasive could it be?
    Ms. Solis. My next question very quickly, on April 12, 
2004, Mr. Dingell and I wrote to Administrator Leavitt and 
asked why President Bush's budget for FY2005 did not contain 
any funding to implement the New York Watershed Program. As 
Acting Administrator, can you explain why the President's 
budget did not seek funding for the New York Watershed Program?
    Mr. Grumbles. Well, I can certainly express two things. One 
is is that the administration is fully supportive of the 
overall New York City watershed effort and the important 
message of source water protection to help protect the drinking 
water and also reduce the costs of treatment downstream.
    I can also say that, as the appropriations committees are 
familiar with, there are priorities. And one of the 
administration's priorities is to put $850 million into the 
drinking water State revolving fund and to be committed to 
doing that through the year 2018. And that way money can go 
through the States, and the States can identify their intended 
use plans and develop their priorities.
    Ms. Solis. Wouldn't it have been better served had the 
administration initially requested the $850 million up front?
    Mr. Grumbles. We have been requesting the $850 million up 
front. On the State revolving funds, it is something that we 
have been doing over the last several years, and Congress has 
been appropriating that. And our point is that, yes, there are 
billions of dollars in needs across the country. A constructive 
Federal role for the EPA is to provide $850 million, if 
Congress appropriates it, for the State revolving funds.
    And then, through that, the States then get--then use those 
funds, in addition to other drinking water grant programs, to 
address----
    Ms. Solis. For outreach?
    Mr. Grumbles. For outreach and to address specific----
    Ms. Solis. That might help Washington. That might help the 
District to provide information and prevention that is sorely 
needed. I mean, just to hear that the contaminant levels are so 
very high, and have yet to actually come to light, some of the 
other areas in the District that need to be tested around, say, 
the naval yards, those are very disturbing statements. And I 
think they do require some immediate action and relief on the 
part of EPA, and, obviously, the Water Authority as well.
    So I will end with that. I think my time is up.
    Mr. Gillmor. Your time is up, yes.
    Ms. Solis. Thank you, Mr. Chairman.
    Mr. Gillmor. The gentleman from Idaho, Mr. Otter, do you 
have any questions?
    Mr. Otter. Well, thank you very much, Mr. Chairman. Yes, I 
do.
    Let me first begin by thanking Mr. Grumbles for coming by 
my office, and even though we had a vote on it I didn't get to 
discuss some of the things that I wanted to. I do feel that 
there is a glimmer of hope for Idaho and other places in how we 
are treated out there by Region X.
    And I really hope you stay engaged in that, because I have 
absolutely no hope that Seattle is going to solve our problems, 
or is even sensitive to our problems. And we can't get it out 
of Washington, DC, then I don't know what we are going to do.
    Let me--I would ask you one question about--is there any 
relationship between the water quality that we are talking 
about now and the EPA's 6-year permit that they granted to the 
Army Corps of Engineers 2 years ago to dump 200,000 tons of 
sludge into the Potomac River? Is there any relationship 
between those two?
    Mr. Grumbles. You know, Congressman, from an overall 
watershed basis, a lot of things are connected in terms of the 
Clean Water Act and Safe Drinking Water Act, and a priority of 
the agency is to help integrate so that the tools for source 
water protection and the funds for drinking water and clean 
water programs are effectively used, and that we, as managers 
and regulators, look at the issue holistically.
    But I would defer to Don Welsh. He is the Regional 
Administrator who is the regulatory entity overseeing the 
specific facility questions that you just asked.
    Mr. Otter. Mr. Welsh, are you familiar with the permit that 
was issued to the Army Corps of Engineers for the dumping of 
that sludge into the river?
    Mr. Welsh. Generally, yes, sir.
    Mr. Otter. Am I correct, was it 200,000 tons?
    Mr. Welsh. I don't know the exact number.
    Mr. Otter. Was it an annual permit? So they are allowed to 
do this every year?
    Mr. Welsh. They are permitted to discharge the sludge that 
is removed from the water, the----
    Mr. Otter. Sediments.
    Mr. Welsh. The raw water that they bring in to treat for 
drinking water has a lot of sediment in it. And as part of the 
treatment process, they settle that sediment out of the raw 
water.
    Mr. Otter. Would there be suspended lead that would settle 
out of that--lead that had gone into the solution?
    Mr. Welsh. I don't believe so, and it is also that the 
discharge point for that sediment, going back into the river, 
is below the drinking water intake. So it is not a question of 
that recycling into the system and somehow exacerbating this 
lead problem.
    Mr. Otter. I see.
    Mr. Welsh. And we have recently done a new permit for the 
discharge of that material, and it is not discharged during the 
spawning season, which was one of the concerns when we were 
going over the new permit. So even though there continues to be 
discharges, they are less frequent and more controlled than----
    Mr. Otter. That is the habitat of an endangered species 
called the stub-nosed sturgeon, is that----
    Mr. Welsh. Short-nosed sturgeon.
    Mr. Otter. Short-nosed sturgeon. Out in Idaho, short and 
stub is about the same.
    Mr. Welsh, the Covington and Burling report commissioned by 
the WASA mentioned that the EPA Region III was initially 
resistant to allowing WASA to simply test its water lines for 
lead levels, rather than replace them in order to meet the 7 
percent replacement requirement under the Federal rule. Why did 
Region III allow this change in enforcement?
    Mr. Welsh. Yes, sir. We did see that in the report as well, 
and our staff doesn't recall being resistant to it. We may have 
mentioned that it would be preferable to do actual removals 
rather than testout, but----
    Mr. Otter. Mr. Johnson, do you agree with that?
    Mr. Johnson. Well, I think the findings of the report are 
accurate, and I am not absolutely certain where they may have--
who they may have interviewed or where they got the 
information. My understanding was that all of the responses 
that were provided from the United States Environmental 
Protection Agency were in writing, so there should be some 
documentation of that.
    Mr. Welsh. And the rule does contemplate testout, so we 
were asked if they could do that and reviewed the rule and gave 
them the answer that that was permissible in the rule.
    Mr. Otter. From March 26, Mr. Welsh, to April 6 of this 
year, samplings at DC Public Schools had identified 43 drinking 
water fountains and sinks with excessive levels of lead. In 
fact, one of them was 7,300 parts per billion, which is 486 
times the Federal lead action level.
    Recognizing the impact that has been generally accepted, 
the impact that it has on young minds, why wasn't the--what is 
the EPA--what is Region III doing to eradicate that problem?
    Mr. Welsh. When we first began grappling with the situation 
of the high lead levels, we did direct that testing according 
to EPA protocols take place in the DC Public Schools. They did 
the testing, and that is what identified the number of fixtures 
that you mentioned that were exceeding the standard.
    DC did immediately take those fixtures out of service, so 
that the population of concern wouldn't be exposed to drinking 
water from those fixtures. We also directed that they do 
sampling of independent schools, daycare centers, nursing 
homes, to get the same kind of information about those types of 
facilities that were other than the DC Public Schools, and they 
have recently received data back from that. There were a number 
of those that were exceeding the level, and their guidance is 
being sent to take them out of service.
    So the immediate concern is to make sure that the sensitive 
population doesn't continue to be exposed to water with 
elevated lead levels, and DC was very responsive in removing 
those fixtures that did test high from use.
    Mr. Gillmor. The gentleman's time has expired.
    The gentlelady from Illinois?
    Ms. Schakowsky. Yes. Mr. Grumbles, one of the problems with 
the lead and copper rule that appears ripe for a solution is 
that a drinking water system can test repeatedly to look for 
lead lines that are not leaching, and can use those lines that 
are found not to leach for credit, so that they can avoid 
replacing lines that are actually leaching, thus leaving 
families and children to drink water that exceeds those levels.
    This unfortunate approach, it seems to me, provides exactly 
the wrong incentive to drinking water systems and doesn't 
protect the public health. So why would you wait before acting 
to address this problem?
    Mr. Grumbles. Well, I really appreciate you flagging that 
and raising that issue, because that is one of the areas that 
we really want to look at very carefully. We are going to have 
a workshop, an expert workshop, on lead service line 
replacement, but the issue you are raising about the 7 percent 
requirement and the ability to test out or to back off the 
number of lead service lines that actually get physically 
replaced is one that requires a lot of review and scrutiny.
    And I would say that that is one of the areas that we are 
most interested in looking at for possible revision, either 
through our guidance or through a regulation. And that is one 
where we need to hear as well from the utilities. And, I mean, 
they are under a lot of pressure to try to finance and come up 
with a mechanism to actually carry out the intent of the lead 
and copper rule, but I think you have identified one of the 
areas that does benefit from some very----
    Ms. Schakowsky. Well, let me just say that it seems to me 
that this administration is moving more in that direction 
rather than less. For example, with the mercury rules during--
dealing with air pollution that you can--that those standards 
are lowered, and that you can buy credits in order to continue 
to pollute the air, and in this situation you can actually 
continue to provide--I mean, we want to see some action here 
when we have these known contaminants that damage children so 
extensively.
    We know that already, and I hope that you will have a sense 
of urgency about that in moving ahead. I mean, the fact that 
you can have--I thought it is less than 8 percent, and it 
counts as lead-free. Is that not true?
    Mr. Grumbles. You are raising another issue that benefits 
from both congressional and non-congressional conversation, and 
that is the statutory provision that is in the Safe Drinking 
Water Act that defines the acceptable percentage of lead in the 
definition of ``lead-free.'' And it has been several years 
since Congress enacted that provision, and that is one--that is 
definitely on the table to review and to look at. We want to 
engage--we want to get the views of NSF, we want to get the 
views of the regulated community, but the public as well on 
that precise question.
    Ms. Schakowsky. Well, I should hope--actually, I would hope 
that in some ways you would reverse the priority there, that we 
are talking about the public interest. And while I understand 
that the regulated utilities have issues here that clearly need 
to be considered, that we begin from the point of view that 
your job is to protect the public interest.
    Mr. Grumbles. And that is where we begin----
    Ms. Schakowsky. Okay.
    Mr. Grumbles. [continuing] protecting public health and 
making sure that the regulation protects the public health. 
That is----
    Ms. Schakowsky. I understand, and I hope you----
    Mr. Grumbles. [continuing] that it is sustainable, that it 
is implementable and workable. But that is an area that we are 
looking very seriously at and look forward to working----
    Ms. Schakowsky. Okay. Let me ask--bottom line, Mr. Johnson, 
you distributed a number of--are they Britas, basically, that 
you gave to people? Or do you put something on a faucet, or 
what is it? And at what point can we turn on our waters--our 
faucets confidently and just drink right out of them?
    Mr. Johnson. There are responses to a couple of questions. 
There are point-of-use devices manufactured by several 
different companies, and they are a combination of both pitcher 
filter devices as well as tap-mounted devices, and we have 
provided filters for those devices to cover approximately 6 
months of use. And we have now ordered enough to cover another 
6 months of use, assuming that the orthophosphate treatment 
will probably take about 6 months to a year to be effective and 
get us below the action level.
    I would submit, Madam, that in cases where we are talking 
about the utilization of drinking water in any fixture in any 
home anywhere that a few moments of flushing is probably 
warranted. The fixtures that you just mentioned with the 8 
percent allowance, that would have certain fixtures containing 
lead, would certainly generate some, so I would--even if I was 
in a new home, I think I would flush for a moment or so before 
utilizing----
    Ms. Schakowsky. How long is that?
    Mr. Johnson. The current protocol for us, with a person 
with a lead service line, is--we recommend 10 minutes of 
flushing. That is approximately enough time to ensure that 
water has moved through the lead service line and into the--out 
of the fixtures and into the home. That is a once per day kind 
of flushing after the water has been standing in the service 
line for about 8 hours.
    We would also recommend persons who don't have lead service 
lines would flush for a moment, for a minute or so, just to get 
the water out of those fixtures.
    Ms. Schakowsky. Thank you.
    And, Mr. Chairman, could I ask unanimous consent to put my 
opening statement into the record?
    Mr. Gillmor. Without objection----
    Ms. Schakowsky. Thank you.
    Mr. Gillmor. [continuing] so ordered.
    The gentleman from California is recognized.
    Mr. Issa. Thank you, Mr. Chairman, and I think I would like 
to pick up on Ms. Schakowsky's starting point, because I am 
very concerned here that in a sense we are seeing the tip of an 
iceberg, and there may be a considerable amount more. But I 
would like to just quick follow up.
    How much water, if everyone follows your guidelines, will 
we be consuming? And what is the cost of that water? If you 
look roughly at 10 minutes to a big chunk of the city and the 
area, another 1 minute to a bunch of others, I would assume 
that we are talking about a lot of dollars being transferred 
that could pay for lead pipe replacement that, in fact, is 
simply being transferred to the consumer in hopes that they 
reduce the impact of the lead that remains there.
    Mr. Johnson. Well, I would address that in a couple of 
ways. One is that there is a plan in place now for the 
replacement of all lead service lines in public space by 2010, 
which is a policy that was put in place by the Board, so that 
addresses the issue as we deal with it over the long term, and 
we have also worked with some financial institutions to put in 
place some loans to take care of the private portion.
    With respect to the water, the cost of water is something 
less than .6 cents per gallon in the District. So if you had a 
lead service line and you did that flushing twice per day, it 
would probably cost you around $4 a month.
    Mr. Issa. Okay. I just--so $4 a month times 100,000 homes, 
it could be half a million dollars a month of expense 
transferred to the water consumer if they all complied. Is that 
just a ballpark figure?
    Mr. Johnson. I am not--don't know that I am necessarily 
following your math, but it would be logical that----
    Mr. Issa. I am sort of looking at $4 a month. We certainly 
have more than 100,000 affected places to be flushed, so 
$400,000 a month. That is a significant amount of dollars.
    Mr. Johnson. Actually, it is about 23,000 lead service 
lines that are in the District that we would--that would fall 
into that category. So it would be that number times $4.
    Mr. Issa. Okay.
    Mr. Welsh. May I add a small point?
    Mr. Issa. Yes.
    Mr. Welsh. I understand the importance of your concern, and 
it is----
    Mr. Issa. You know, I am a Californian, so water is much 
more dear perhaps in our minds to--we fix leaky faucets in 
California in order to not consume the water.
    Mr. Welsh. I did just want to add that there are some non-
consumptive uses of water that can serve for the flushing 
period. So if you are using the dishwasher or washing machine 
in the house, you can use that period to flush the line, and so 
you are getting the use out of that water that you would get. 
So you can----
    Mr. Issa. Okay. I appreciate it.
    Mr. Welsh. [continuing] reduce it somewhat.
    Mr. Issa. I appreciate that.
    Mr. Johnson. And that is the direction that we have been 
providing to the residents is to use some high-consumptive use 
the first time in the morning.
    Mr. Issa. I guess one of the most disturbing points here is 
I agree with the minority side here that testing is extremely 
important, and I don't think this panel would look down and say 
replace blindly if testing can be the way to target those areas 
that need to be hit first.
    But I am concerned from the Covington and Burling report 
that apparently WASA was able to just invalidate a significant 
portion of the test. Now, if you are doing tests and you are 
allowed to invalidate tests, then you can skew extremely, one 
way or the other. Why is it that any tests are allowed to be 
invalidated without each test being reviewed for how it is 
going to affect the outcome?
    I guess Mr. Welsh would be primary on this.
    Mr. Welsh. The rule does contemplate invalidation of 
samples, and there can be legitimate reasons why you may need 
to invalidate a particular sample--if there was an error in the 
collection of the sample, or the seal was broken. But the rule 
does that in a specific sequence.
    You need to request in writing that that sample be 
invalidated, indicate what that sample is, what the reason was 
for the invalidation, and get approval from the primacy agency. 
In the case of DC, it would be us. In other instances, it would 
be the State--to invalidate those samples for cause. So in this 
case, there was never any written authorization for any 
invalidation, so that procedure was not followed.
    But you can contemplate circumstances where invalidation 
would be appropriate, but you would also want to do followup 
sampling at that source to make sure that----
    Mr. Issa. Right. Have you been able to go back and find out 
whether those samples that were not used, validated for 
whatever reason, are random and thus probably having no 
material effect, or in some way not random?
    Mr. Welsh. Our review--when we did the compliance audit of 
WASA, our review indicated that there were samples that were 
taken but were not in the 50 that were reported for compliance 
purposes to EPA for that sampling period. And had they been 
included that WASA would have exceeded the action level under 
the----
    Mr. Issa. Sure, and I appreciate the outcome, that it did 
have an effect. But the question was: was it a random error 
that just happened to put WASA under the limit? Or should we be 
investigating further whether persons or--a person or persons 
in fact invalidated with, if you will, an intent to somehow 
skew the results, which when we are talking about people's 
health is a matter of great concern. At a minimum, that person 
should no longer be in a position to trust, I think everyone 
would agree.
    Mr. Welsh. Our compliance review indicated that there were 
samples that weren't reported, so we were able to see that 
there was underreporting of samples. We hadn't--we did not 
conclude in our enforcement action intent. It was difficult to 
establish the information to figure out which samples and 
cross-walking the different samples to establish that there 
were--that there was data collected that wasn't reported to us. 
But all that we have established is that there was data that 
was not reported.
    Mr. Issa. Okay. Last--it has to be asked--when we have a 
finding of more than 400 times the allowable limit of lead from 
a particular drinking fountain, how are we following up with 
the affected, potentially affected persons, both immediately 
and the ones who may have been drinking at these drinking 
fountains in the 2 or 3 or 4 years in advance? Is there a 
procedure to go after those who obviously are potentially at a 
health risk when you have that kind? I understand if you have 
30 parts per billion you may not do it, but at 400 times the 
level, what are we doing?
    Mr. Johnson. I can tell you what we have done in the 
District of Columbia. When we got test results back, in all 
cases where there was any test result that was more than 300 
parts per billion, the Health Department was dispatched to that 
particular home to request a blood lead test of all the 
residents of that particular dwelling unit, or, in the cases of 
schools, we sought permission from the parents of children who 
were in the at-risk population, which is below the age of six, 
to do blood lead testing.
    And that has been done extensively throughout the District 
of Columbia, and we have monitored those results, and those 
persons who were involved in that testing.
    Mr. Issa. And what happened?
    Mr. Johnson. We have drawn the conclusion that--and we did 
follow up from anybody who came in with blood lead levels that 
exceeded 10 parts per--10 micrograms per deciliter, which is 
the standard that is established by health officials.
    Then, we did an environmental scan of each of the homes and 
residences, did a series of interviews with the parents and/or 
the affected adult, and in all cases we found--in every single 
case where there was an elevated blood lead level we found that 
there was something other than water that was contributing to 
that problem in the environment. Either there was renovation 
that was taking place at the home, there was lead paint in the 
home, there was lead in soil that was around the home, the 
parents worked in some environment which transferred lead from 
their working environment to the home.
    We did the same testing in daycare centers throughout the 
District of Columbia as well.
    Mr. Issa. Thank you, Mr. Johnson.
    Thank you, Mr. Chairman. I think that was the most 
informative of all the answers so far, and I look forward to 
reading the rest of the record.
    Mr. Grumbles. Mr. Chairman, could I----
    Mr. Gillmor. Yes, Mr. Grumbles.
    Mr. Grumbles. I just wanted to add to Congressman Issa--the 
issue you raised about, what are we doing when we have such 
high, extreme level exceedances, is one of the issues that we 
are very interested in reviewing in terms of the current rule, 
because it is one thing contemplating a response when there is 
a 16 or 17 part per billion level.
    There might be under consideration another more extensive 
protocol or approach when there is 400 or 500 parts per 
billion. And I just appreciate the point you were making about 
water conservation. As we look for leak detection systems, we 
find that communities, a small community in Pennsylvania, when 
they went through a leak detection program, they weren't 
flushing because of lead. They were just losing water in their 
pipes.
    They were able to save 50 to 60 percent of their water and 
energy, their cost to run this, and the community benefited 
from that. So I appreciate you making that point about water 
efficiency and conservation.
    Mr. Gillmor. Before I recognize the gentleman from Texas, 
let me say we have a couple more questioners, and as we have 
three panels, then we will have to close this one. But I do 
sense that some members do have other questions. I would like 
to ask the panel--Mr. Grumbles, Mr. Welsh, Mr. Jacobus, and Mr. 
Johnson--if you would all be willing to answer in writing 
questions that members may submit later.
    Thank you very much.
    The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman, and I would like to ask 
unanimous consent to have my statement placed in the record.
    Mr. Gillmor. Without objection, so ordered.
    Mr. Green. An earlier hearing of this subcommittee dealt 
with reauthorization of a portion of the Safe Drinking Water 
Act, and from that testimony, if I can get it out, it talked 
about the champagne of New York waters. And I think that is a 
good followup to this one. I don't know what we would call our 
DC waters that we are having to drink since New York and we 
authorized for the champagne.
    But, Mr. Grumbles, Mr. Ramaley of the Association of 
Metropolitan Water Agencies testimony later will state that 5 
percent of the Safe Water Drinking Act's funding goes to 
metropolitan areas, but there are 20 percent of the Nation's 
drinking water improvement needs.
    And how can--what can we do, or what can you do, to assist 
metropolitan areas like DC or Houston, for example, to prevent 
public health situations such as what we have seen here? And do 
we need to increase funding or increase focus on metropolitan 
areas? Or is the status quo under the Safe Drinking Water Act--
is that fine with the EPA?
    Mr. Grumbles. The status quo is not something that is fine. 
I think our charge is to increase the velocity of environmental 
progress and success in the Safe Drinking Water Act. Part of 
the way to do that is to provide $850 million a year through 
2018 for the drinking water State revolving funds that the 
States can then use a prioritization plan to target those areas 
that are in most need.
    The other thing, Congressman, is to focus in on source 
water protection and key areas. It is basically to follow the 
needs urban areas have. EPA fully acknowledges that the 
drinking water infrastructure gap is a very large one, and it 
requires Federal funding, but it requires smarter approaches as 
well, and State and local funding. It is not just water use 
efficiency, which can be a tremendous tool in the toolbox for 
urban areas, to have more efficient plumbing or to have pricing 
mechanisms.
    But it is also looking at better ways to integrate funding 
programs under the Clean Water Act, Safe Drinking Water Act, so 
your point about the urban needs and drinking water 
infrastructure needs is a very valid one, and it requires 
funding from all levels, and, more than that, some smarter 
approaches about full cost pricing and asset management.
    We have found that, and GAO has reported that, it may not 
be a silver bullet, but the concept of asset management, being 
able to go out and in a more systematic way--as many utilities 
are doing in the country--can translate into significant 
savings, and, therefore, less of a need for Federal funding 
when funding is very tight. And it can involve doing things 
like looking at which pipes--sometimes the oldest pipes aren't 
the ones that need to be replaced the soonest, but things like 
that we fully endorse.
    Mr. Green. Well, I appreciate not only for the large 
agencies like Washington or Houston, but I have a very urban 
area with small municipalities that sometimes do not have the 
tax wealth or the ability to do some of that. And we worked at 
our EPA regional office now for the dozen years I have been in 
Congress to see how we can do that and package that.
    But you are right there is--and EPA does continue to 
provide assistance to some of these authorities that make those 
suggestions. Because of the resources going into large agencies 
like Houston or Washington, they have the resources of some of 
our smaller municipalities, even in urban areas, that need that 
assistance that we get from oftentimes our State water 
authorities, but also EPA.
    Mr. Grumbles, you indicate in your testimony that EPA is 
conducting a national review of the compliance and 
implementation of the lead and copper rule. How long do you 
estimate it will take to complete that review and its 
recommendations?
    Mr. Grumbles. We are committed to doing it right, to get it 
done the right way, and that means that we don't want to 
prejudge the outcome. I personally want to be able to have some 
pretty clear ideas as to what possible areas we should revise, 
like what types of guidance. I think there are some great 
opportunities to provide clear or additional guidance.
    In terms of the rule, how to--or whether to revise the 
rule, I think we are developing some pretty specific detailed 
lists. We do benefit from discussion from the public on a lot 
of those issues, but my goal is to try to get as quickly as 
possible, but in the right way, to a point where we can provide 
some type of initial answer to that question: does the rule 
need to be revised?
    Mr. Green. Okay. It would appear that some issues may not 
require survey before action is warranted. For example, we 
understand that EPA staff--from EPA staff that EPA guidance is 
more stringent than the lead and copper rule under public 
communication requirements, and EPA is working on further 
recommendations for additional guidance. Is that correct?
    Mr. Grumbles. We are looking specifically at additional 
guidance to provide greater direction for communities. That is 
one of the areas that is a priority is developing additional 
guidance, not waiting for a long array of public meetings but 
moving forward in some discrete areas.
    Mr. Green. Mr. Chairman, I appreciate--let me follow up 
with, given the critical importance, particularly what happened 
here in Washington, went under public communication, went under 
the lead and copper rule, high lead levels are allowed to 
remain in drinking water for extended periods of time. Why 
wouldn't EPA require, as opposed to simply recommend, effective 
public communication strategy immediately? Is that what you are 
doing?
    Mr. Grumbles. Well, we do require public communication, and 
the rules do contemplate effective public communication. The 
smarter the country gets, the more we all learn from these 
experiences, is that there are great dividends that can be paid 
by getting into greater specificity and providing additional 
guidance or workshops bringing in the public to share 
experiences on how best--how to make it the most effective 
possible.
    And so that is going to be a priority. That is an area that 
we really want to pursue. I would say, Congressman, on the 
schools and daycare facilities issue, that is one where our 
goal at EPA is really, unlike it has ever been done before, to 
bring together the teachers and the school administrators and 
to share experiences and lessons about how best to sample and 
monitor and to get everyone informed about safe drinking water 
in schools. And that is the type of----
    Mr. Green. But is guidance mandatory from EPA to the local 
agency? Do you----
    Mr. Grumbles. By its very nature, guidance is not 
enforceable. It is meant to be supplemental and informative and 
helpful to complement the regulations and the statute.
    Mr. Gillmor. The gentleman's time has expired.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Gillmor. The gentleman from Michigan.
    Mr. Stupak. Mr. Chairman, I ask that my opening statement 
be made part of the record.
    Mr. Gillmor. Without objection, hearing none, so ordered.
    Mr. Stupak. Thank you.
    Mr. Grumbles, several weeks ago the GAO--Government 
Accounting Office--released a report finding that the Defense 
Department is failing to sample and clean up contamination from 
munitions constituents such as perchlorate at its bases around 
the country. Do you believe the Department of Defense policy of 
no systematic sampling and no clean up of perchlorate 
contamination at DoD facilities is protecting our drinking 
water supplies?
    Mr. Grumbles. Congressman, I haven't read that specific 
report. I am generally familiar with this extremely important 
issue about compliance----
    Mr. Stupak. Okay.
    Mr. Grumbles. [continuing] with the----
    Mr. Stupak. But do you believe they should have systematic 
sampling?
    Mr. Grumbles. I believe that there should be, for all 
facilities and responsible parties that may have--may be 
polluting, there needs to be an approach to monitor and to 
check to see what is being released----
    Mr. Stupak. So they should have a policy on sampling and 
cleaning up, right?
    Mr. Grumbles. Well, I am not sure what the current state of 
play is on whether they have a policy. I can tell you----
    Mr. Stupak. GAO says they don't have a policy. Do you think 
they should have a policy?
    Mr. Grumbles. They should continue to work with the EPA and 
with their State regulators to have an approach.
    Mr. Stupak. No, no, no. The question is: should they a 
policy?
    Mr. Grumbles. I think there should be a basic--it makes----
    Mr. Stupak. Makes sense, doesn't it?
    Mr. Grumbles. [continuing] common sense to have some----
    Mr. Stupak. Sure.
    Mr. Grumbles. [continuing] basic approach to monitoring----
    Mr. Stupak. Sure.
    Mr. Grumbles. [continuing] emissions. I can't speak to the 
details, and I don't know what the----
    Mr. Stupak. Okay. I just asked if there should be a policy. 
I think you agree with me there should be. So doesn't it make 
more sense to have a policy to prevent migration of 
contaminants like perchlorate and clean them up before they 
spread through a whole aquifer and show up in tap water in 
someone's home?
    Mr. Grumbles. I think that one of the reasons that 
Superfund or other environmental statutes can claim success is 
that they take the overall approach of prevention is a lot less 
costly and easier to achieve than after-the-fact remediation.
    Mr. Stupak. Sure. So DoD should have a policy, then, to 
prevent the migration of contaminants before it gets in 
someone's home, right?
    Mr. Grumbles. I am sure they have a basic approach or 
philosophy on preventing----
    Mr. Stupak. Well, I don't want an approach or a philosophy. 
I want a policy in place that can be enforced. Don't you agree 
there should be a policy in place we can enforce to prevent 
migration of, like, perchlorate into aquifers and into tap 
water?
    Mr. Grumbles. I think EPA would expect no less than in 
working with its sister agency--DoD--that they have----
    Mr. Stupak. Okay. I am glad you work with them, but don't 
you think there should be a policy?
    Mr. Grumbles. I think there should be a policy. I am not 
sure what that entails or what you mean by that.
    Mr. Stupak. Okay.
    Mr. Grumbles. But I----
    Mr. Stupak. Well, policy that would prevent migration of 
contaminants, like perchlorate, to get into aquifers and 
pollute people's homes, so when they turn on their tap water it 
can be safe. That is the same thing we are talking about here 
in DC. So there should be a policy like that, should there not?
    Mr. Grumbles. I think the current Federal laws would 
require no less than to have some--a basic approach to prevent 
contamination and spreading.
    Mr. Stupak. I don't mean to argue with you, but I don't 
want a filibuster from you either. All I am asking for is a 
policy. Basic approach is a lot different than a policy, isn't 
it? Policy is something you can enforce. DoD doesn't have one, 
and at their bases they have 24 million acres that they have 
used for testing and firing munitions.
    And there is a lot of contamination, and for years we have 
been sitting here just trying to get them to clean up places 
like Camp Lejeune. And they won't do it, because there is no 
policy. Don't you think you should--EPA should enforce the 
policy and get these places cleaned up?
    Mr. Grumbles. For instance, with groundwater contamination, 
I think EPA would vigorously seek to ensure that the Defense 
Department complies with requirements under the Safe Drinking 
Water Act or other environmental statutes.
    Mr. Stupak. So why hasn't the EPA done it? In the seven 
places--six of the seven sites that were visited, they have 
high levels of perchlorate contamination. None of them were 
conducting cleanup actions specifically directed at 
perchlorate.
    Mr. Grumbles. Congressman, I think that the perchlorate 
issue is a very serious one, and groundwater contamination and 
all of the health effects associated with it. I think the 
Superfund office and other offices at EPA are better equipped 
to deal with specific questions that you are raising, but I can 
assure you that as we look at the challenges of perchlorate we 
are interested in not just pollution prevention and working 
with Federal and non-Federal entities but also getting to key--
the key question of health effects, risk assessment, level of 
occurrences, and meaningful opportunities----
    Mr. Stupak. Well, let me ask you this question.
    Mr. Grumbles. [continuing] to reduce the risk.
    Mr. Stupak. There are at least 50 Defense Department 
facilities with perchlorate contamination in the groundwater or 
surface water. Some of the Defense--Department of Defense 
facilities, as you mentioned, are on the Superfund list. Others 
like the Aberdeen Proving Ground, the perchlorate contamination 
migrated offsite and affected drinking water supplies. I 
mentioned Camp Lejeune.
    We also know that NASA and the Department of Energy are 
cleaning up perchlorate contamination of groundwater at 
facilities in California. However, DoD is refusing to clean up 
its perchlorate contamination of groundwater until the EPA 
promulgates a maximum contaminant level for perchlorate. When 
does the EPA intend to promulgate the rules of a maximum 
contaminant level for perchlorate? When are you going to do 
that?
    Mr. Grumbles. We are going to--we are committed to getting 
all of the information we can as quickly as possible. I don't 
have a specific date or timeframe for you. But as you and your 
colleagues know, the----
    Mr. Stupak. But you have been working on that MCL for a 
long time. When are you going to do it?
    Mr. Grumbles. Well, first, we need to get some input from 
the experts at the National Academy of Sciences on the health 
risks, so that can inform us in our decision as to what is the 
right number----
    Mr. Stupak. Yes. But, see, my concern is it is a lot like 
the Canadian trash coming in here. For 13 years, EPA has been 
saying they are going to enforce it soon. It is 13 years later. 
And when they testified last year they said it would be soon. 
And now they came and testified the other day again, and when I 
asked the question they said it would be soon.
    I really have a problem with ``soon,'' especially when I am 
dealing with the EPA, because soon never comes. How about some 
definite timelines that we can expect that this proposed rule 
on MCL for perchlorate will be----
    Mr. Grumbles. We want to make sure we get the science right 
and do it as quickly as possible. We are expecting to get the 
National Academy of Sciences report in January. After that, 
Congressman, in reviewing the occurrence data base that we 
have--and what we have to date indicates that perchlorate is in 
22 States, I believe, across the country. There are problems 
with that, so we have to review that, and then go through the 
regulatory review process and make that determination.
    That can take, in order for it to be sustainable and to 
hold up in court, if it is challenged by industry or by 
somebody----
    Mr. Stupak. Sure.
    Mr. Grumbles. [continuing] it takes some time to do that. 
But we--that doesn't mean that things can't be done while we 
are going through that very extensive, deliberative Safe 
Drinking Water Act process.
    Mr. Stupak. Well, how long does it take to be sometime? How 
long is sometime?
    Mr. Grumbles. Well----
    Mr. Stupak. I got soon now, and that is at least 14 years. 
So what is sometime?
    Mr. Gillmor. Well, I don't know how long it will take to 
get your definition here, but the gentleman's time has expired.
    Mr. Stupak. I know it has been 14 years; I am still 
waiting. Thank you.
    Mr. Gillmor. Your time has expired, so----
    Mr. Grumbles. Well, I would just offer to the Congressman, 
I certainly get the message that you are making. And in terms 
of talking about the timeframe and the necessary legal steps 
that need to be taken under the Safe Drinking Water Act, I 
can't talk to the steps under other statutes or programs. I 
would be happy--I would welcome the opportunity to follow up 
with you and committee staff on that front.
    Mr. Gillmor. Yes. And all the witnesses have agreed to 
answer questions in writing. So I am sure that the gentleman 
from Michigan will get his answer soon.
    That concludes the hearing with this panel. I want to thank 
all of you for coming and for your very helpful testimony.
    We would like to ask the second panel, which is John 
Stephenson of the General Accountability Office----
    Mr. Johnson. Mr. Chairman, I would----
    Mr. Gillmor. Yes, Mr. Johnson.
    Mr. Johnson. [continuing] seek consent of the committee to 
allow me to amend my testimony to include--my written testimony 
to include the blood lead level test results that have been 
done in the District of Columbia, if there is no objection.
    Mr. Gillmor. Without objection, that will be entered in the 
record as part of your testimony.
    Mr. Johnson. Thank you.
    Mr. Gillmor. If you are ready, Mr. Stephenson will begin, 
and we are very pleased to have with us on this panel John 
Stephenson, who is the Director of Natural Resources and 
Environment Team for the General Accountability Office.
    Mr. Stephenson?

  STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
  AND ENVIRONMENT TEAM, UNITED STATES GENERAL ACCOUNTABILITY 
                             OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman, and members of the 
committee. At the request of this subcommittee, as you know, we 
are about 2 months or so into examining issues concerning lead 
in drinking water in general, and the situation in Washington, 
DC in particular. My testimony today contains our preliminary 
observations on these issues, and highlights areas for further 
examination.
    Although rarely the sole cause of lead poisoning, lead in 
drinking water can significantly increase a person's total lead 
exposure. EPA estimates that drinking water is the source of 
about 20 percent of Americans' lead exposure, but that it may 
be as high as 60 percent for infants who drink baby formulas or 
concentrated juices that are mixed with water.
    The delivery of safe drinking water to residents requires 
that water systems and regulators work cooperatively in 
fulfilling the requirements of the Safe Drinking Water Act. 
Lead in drinking water is regulated under the Act's 1991 lead 
and copper rule. The rule requires water systems to treat their 
water to limit its corrosiveness, monitor tap water supplies 
for evidence of elevated lead levels, which is 15 parts per 
billion as you have heard, and report this information.
    If over 10 percent of the samples exceed this level, as was 
the case in the District, specific actions are required such as 
public notification and education, increased sampling, and lead 
line replacement.
    In March, you asked that we, one, examine the current 
structure and level of coordination among key government 
entities in the District of Columbia; second, that we determine 
how public notification and outreach have been conducted in the 
District as compared to other systems facing similar 
circumstances; three, assess what is being done to identify and 
track at-risk populations; four, evaluate the state of research 
on lead exposure and how this might help inform other drinking 
water utilities of potential problems in their systems.
    In summary, here is what we have found so far. As to 
coordination, it is clear that the responsible entities, 
particularly EPA and the District's Water and Sewer Authority--
WASA--could have better coordinated and communicated timely and 
accurate information in the years preceding the current 
controversy.
    In fact, it is noteworthy that WASA and EPA, as you just 
heard, have recently agreed to take steps to improve 
coordination. WASA, for example, will improve tap water 
sampling and reporting procedures, and EPA will change the way 
in which it handles compliance data from WASA and oversees its 
public notification efforts.
    Our future work will also examine the interrelationships 
among the other key agencies, such as the Washington Aqueduct 
and the District's Department of Health. As to public 
notification, EPA acknowledges that its efforts to oversee 
WASA's notification procedures could have been better. Other 
water systems facing elevated lead levels used public 
notification and education practices that were much more 
comprehensive than WASA's.
    For example, you have already mentioned the Massachusetts 
Water Authority in Boston, the Portland Water Bureau. Their 
public notification efforts included, for example, tailoring 
their communications to varied audiences in their service 
areas, testing the effectiveness of their communication 
materials, and linking demographic and infrastructure data to 
identify populations at greatest risk from lead in drinking 
water.
    As to the tracking of at-risk populations, WASA and the 
Health Department face challenges in collecting the information 
needed to identify District citizens at greatest risk from lead 
in drinking water. There is partial information on which 
customers have lead service pipes--as you hear Mr. Johnson, 
about 23,000 lines--and more information is being collected on 
over 27,000 more lines of unknown material.
    However, efforts to better link data on at-risk populations 
with data on customers with lead service pipes is just 
beginning.
    Finally, as to lead exposure research, while much is known 
about the hazards of lead in the human body and about how lead 
from paint, soil, and dust enter the body, little research has 
been done to determine actual lead exposure from drinking 
water. And the information that does exist is dated.
    Our future work will examine the plans of EPA and other 
organizations, research institutions, to fulfill this key 
information gap. We plan to issue a more comprehensive report 
to the subcommittee on these and other issues later this year, 
Mr. Chairman.
    That concludes the summary of my statement, and I will 
answer questions as well now.
    [The prepared statement of John Stephenson follows:]

 Prepared Statement of John B. Stephenson, Director, Natural Resources 
         and Environment, U.S. Government Accountability Office

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to discuss our work to date on the issues surrounding 
elevated levels of lead in Washington, D.C. drinking water. At the 
request of this Subcommittee, we are examining issues concerning lead 
in drinking water generally and the situation in Washington, D.C., in 
particular. Our testimony today lays out our preliminary observations 
on these issues and highlights areas of further examination.
    Although rarely the sole cause of lead poisoning, lead in drinking 
water can significantly increase a person's total lead exposure. EPA 
estimates that drinking water is the source of about 20 percent of 
Americans' lead exposure, but that it may be as high as 60 percent for 
infants who drink baby formulas and concentrated juices that are mixed 
with water. Adults who drink water with high lead concentrations could 
develop kidney problems or high blood pressure. Developing fetuses, 
infants and young children are more vulnerable to lead from all 
sources, including drinking water. Their exposure to lead may delay 
their physical or mental development.
    The delivery of safe water to residents requires that water systems 
and regulators work cooperatively in fulfilling the requirements of the 
Safe Drinking Water Act.<SUP>1</SUP> In most cases, states have primary 
oversight and enforcement authority under the Act. Lead in drinking 
water is regulated under the Act's 1991 Lead and Copper 
Rule.<SUP>2</SUP> The rule requires water systems to treat their water 
to limit its corrosiveness, monitor tap water samples for evidence of 
elevated levels of lead, and report this information to their state. In 
addition, drinking water systems may consult with state health agencies 
when communicating with their customers about health risks from 
drinking water.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. 300f-300j.
    \2\ 40 C.F.R. pt. 141, subpart I. The Lead and Copper Rule 
established an action level of 15 parts per billion (ppb) for lead in 
drinking water. Under the rule, the action level is exceeded if lead 
levels are higher than 15 ppb in over 10 percent of tap water samples 
taken. For each monitoring period, a system must report the lead level 
at the 90th percentile of homes monitored. For example, if a system 
monitors 100 homes, it sorts its results from the lowest to the highest 
concentrations and reports the concentration it observed in the 90th 
sample.
---------------------------------------------------------------------------
    The relationship between regulators and water systems is more 
complicated in the District of Columbia, where the Washington Aqueduct, 
owned by the U.S. Army Corps of Engineers, draws and treats water from 
the Potomac River. The Aqueduct sells the treated water to the District 
of Columbia Water and Sewer Authority (WASA), which distributes it to 
District residents. The Environmental Protection Agency's (EPA) 
Region--III Office in Philadelphia, Pennsylvania, has primary oversight 
and enforcement authority for the District's public water systems. The 
District of Columbia's Department of Health, while having no formal 
role under the Safe Drinking Water Act, is responsible for educating 
District residents on potential health risks.
    In the District, the Washington Aqueduct treats drinking water and 
monitors for most contaminants, while WASA monitors tap water samples 
for lead and reports these results to EPA's Philadelphia Office. Tap 
water monitoring is important because, unlike most drinking water 
contaminants, lead is not generally introduced to drinking water 
supplies from source water. Rather, lead leaches into drinking water as 
it travels through lead service pipes, over pipe joints connected with 
lead-based solder, and through brass plumbing fixtures that contain 
lead. According to EPA, its Philadelphia Office is responsible for 
providing technical assistance to the Aqueduct and WASA on how to 
comply with federal regulations; ensuring that they report the 
monitoring results to EPA by required deadlines; taking enforcement 
actions if violations occur; and using those enforcement actions to 
return the water systems to compliance in a timely fashion.
    Significant concerns were raised in early 2004 about how federal 
and local agencies were carrying out their responsibilities under the 
Safe Drinking Water Act. At that time, the local media reported that a 
number of tap water samples showed elevated levels of lead.
    You asked that we (1) examine the current structure and level of 
coordination among key government entities that implement the Safe 
Drinking Water Act's regulations for lead in the District of Columbia, 
and identify any improvements to increase efficiency and 
accountability, (2) determine how other drinking water systems that 
exceeded the EPA action level for lead have conducted public 
notification and outreach, (3) assess the availability of data 
necessary to determine which adult and child populations are at 
greatest risk of exposure to elevated lead levels, and what information 
WASA is gathering to help track their health, (4) evaluate the state of 
research on lead exposure, and how this information could help inform 
other drinking water utilities of potential problems in their systems.
    To respond to these questions, we are interviewing key officials 
and staff with the federal and local agencies responsible for managing 
drinking water and monitoring health for lead exposure in Washington, 
D.C., including officials at EPA's headquarters and in its Philadelphia 
Office, WASA, the Washington Aqueduct, and the D.C. Department of 
Health. We are also (1) reviewing records documenting key activities 
and interactions among these agencies, and examining their current 
responses to the lead problem, (2) contacting academic and non-
governmental experts in lead contamination, and (3) examining how other 
water systems facing similar circumstances notified and educated their 
customers on lead health risks, and how they interacted with federal, 
state, and local agencies to respond to the problem. Many of the facts 
and circumstances surrounding the District's lead controversy are the 
subject of active litigation. Accordingly, we do not take a position on 
these issues and on how they bear on the question of interagency 
coordination and communication, and instead report them only as stated 
by the affected parties.
    We are here to present our preliminary observations on these 
issues. We will report our final findings and any recommendations we 
may develop at a later date. In summary:
     Providing safe drinking water requires that water systems, 
regulators, and public health agencies fulfill individual roles, yet 
work together in a coordinated fashion. It is particularly important 
that these entities report and communicate information to each other in 
a timely and accurate manner. Recent public statements and corrective 
actions by the responsible entities, particularly EPA and WASA, clearly 
indicate that coordination could have been better in the years 
preceding the current controversy. As our work continues, we will seek 
to examine (to the extent appropriate) specific ways in which improved 
coordination between EPA and WASA could help both agencies better 
fulfill their responsibilities. We will also examine interrelationships 
among other key agencies (such as the Aqueduct and the D.C. Department 
of Health); how other water systems in similar situations interacted 
with federal, state, and local agencies; and what the experiences of 
these other jurisdictions may suggest concerning how improved 
coordination can better protect drinking water in the District of 
Columbia.
     Other water systems facing elevated lead levels used public 
notification and education practices that appear to offer lessons for 
conducting outreach to water customers, including those in the District 
of Columbia. For example, some of the practices of the two systems we 
have begun to examine--the Massachusetts Water Resources Authority and 
the Portland Water Bureau--include tailoring their communications to 
varied audiences in their service areas, testing the effectiveness of 
their communication materials, and linking demographic and 
infrastructure data to identify populations at greatest risk from lead 
in drinking water.
     WASA faces challenges in collecting the information needed to 
identify District citizens at greatest risk from lead in drinking 
water. Specifically, it has partial information on which of its 
customers have lead service pipes, although it is currently in the 
process of obtaining more complete information. In our future work, we 
will examine the efforts of other water systems to go one step further 
by linking data on at-risk populations (such as pregnant mothers, 
infants, and small children) with data on homes suspected of being 
served by lead service pipes and other plumbing fixtures that may leach 
lead into drinking water.
     Much is known about the hazards of lead in the human body and 
about how lead from paint, soil, and dust enter the body. However, 
little research has been done to determine actual lead exposure from 
drinking water, and the information that does exist is dated. In our 
future work, we will examine the plans of EPA and other organizations 
to fill this key information gap.

                               BACKGROUND

    Lead is unusual among drinking water contaminants in that it seldom 
occurs naturally in source water supplies like rivers and lakes. 
Rather, lead enters drinking water primarily as a result of the 
corrosion of materials containing lead in the water distribution system 
and in household plumbing. These materials include lead service pipes 
that connect a house to the water main, household lead-based solder 
used to join copper pipe, and brass plumbing fixtures such as faucets.
    The Safe Drinking Water Act is the key federal law protecting 
public water supplies from harmful contaminants. The Act established a 
federal-state arrangement in which states may be delegated primary 
implementation and enforcement authority (``primacy'') for the drinking 
water program. Except for Wyoming and the District of Columbia, all 
states and territories have received primacy. For contaminants that are 
known or anticipated to occur in public water systems and that the EPA 
Administrator determines may have an adverse impact on health, the Act 
requires EPA to set a non-enforceable maximum contaminant level goal 
(MCLG) at which no known or anticipated adverse health effects occur 
and that allows an adequate margin of safety. Once the MCLG is 
established, EPA sets an enforceable standard for water as it leaves 
the treatment plant, the maximum contaminant level (MCL). The MCL 
generally must be set as close to the MCLG as is ``feasible'' using the 
best technology or other means available, taking costs into 
consideration.
    The fact that lead contamination occurs after water leaves the 
treatment plant has complicated efforts to regulate it in the same way 
as most contaminants. In 1975, EPA set an interim MCL for lead at 50 
parts per billion (ppb), but did not require sampling of tap water to 
show compliance with the standard. Rather, the standard had to be met 
at the water system before the water was distributed. The 1986 
amendments to the Act directed EPA to issue a new lead regulation, and 
in 1991, EPA adopted the Lead and Copper Rule.
    Instead of an MCL, the rule established an ``action level'' of 15 
ppb for lead in drinking water, and required that water systems take 
steps to limit the corrosiveness of their water. Under the rule, the 
action level is exceeded if lead levels are higher than 15--ppb in over 
10 percent of tap water samples taken. Large systems, including WASA, 
generally must take at least 100 tap water samples in a 6-month 
monitoring period. Large systems that do not exceed the action level or 
that maintain optimal corrosion control for two consecutive 6-month 
periods may reduce the number of sampling sites to 50 sites and reduce 
collection frequency to once per year. If a water system exceeds the 
action level, other regulatory requirements are triggered. The water 
system must intensify tap water sampling, take additional actions to 
control corrosion, and educate the public about steps they should take 
to protect themselves from lead exposure. If the problem is not abated, 
the water system must annually replace 7 percent of the lead service 
lines under its ownership.
    The public notification requirements of the Safe Drinking Water Act 
are intended to protect public health, build trust with consumers 
through open and honest sharing of information, and establish an 
ongoing, positive relationship with the community.<SUP>3</SUP> While 
public notification provisions were included in the original Act, 
concerns have been raised for many years about the way public water 
systems notify the public regarding health threats posed by 
contaminated drinking water. In 1992, for example, we reported, among 
other things, that (1) there were high rates of noncompliance among 
water systems with the public notification regulations in effect at 
that time and (2) notices often did not clearly convey the appropriate 
information to the public concerning the health risks associated with a 
violation and the preventive action to be taken.<SUP>4</SUP> The 1996 
Amendments to the Safe Drinking Water Act attempted to address many of 
these concerns by requiring that consumers of public water supplies be 
given more accurate and timely information about violations and that 
this information be in a form that is more understandable and useful.
---------------------------------------------------------------------------
    \3\ Public Notification Handbook, EPA Office of Water (EPA 816-R-
00-010, June 2000).
    \4\ U.S. General Accounting Office, Drinking Water: Consumers Often 
Not Well-Informed of Potentially Serious Violations, GAO/RCED-92-135 
(Washington, D.C. June 1992).
---------------------------------------------------------------------------
    Drinking water is provided to District of Columbia residents under 
a unique organizational structure:
     The U.S. Army Corps of Engineers' Washington Aqueduct draws water 
from the Potomac River and filters and chemically treats it to meet EPA 
specifications. The Aqueduct produces drinking water for approximately 
1 million citizens living, working, or visiting in the District of 
Columbia, Arlington County, Virginia, and the City of Falls Church, 
Virginia. Managed by the Corps of Engineers' Baltimore District, the 
Aqueduct is a federally owned and operated public water supply agency 
that produces an average of 180 million gallons of water per day at two 
treatment plants located in the District. All funding for operations, 
maintenance, and capital improvements comes from revenue generated by 
selling drinking water to the District of Columbia, Arlington County, 
Virginia, and the City of Falls Church, Virginia.
     The District of Columbia Water and Sewer Authority buys its 
drinking water from the Aqueduct. WASA distributes drinking water 
through 1,300 miles of water mains under the streets of the District to 
individual homes and buildings, as well as to several federal 
facilities directly across the Potomac River in Virginia. From its 
inception in 1938 until 1996, WASA's predecessor, the District of 
Columbia Water and Sewer Utility Administration, was a part of the 
District's government. In 1996, WASA was established by District of 
Columbia law as a semiautonomous regional entity. WASA develops its own 
budget, which is incorporated into the District's budget and then 
forwarded to Congress. All funding for operations, improvements, and 
debt financing come from usage fees, EPA grants, and the sale of 
revenue bonds.
     EPA's Philadelphia Regional Office has primary oversight and 
enforcement responsibility for public water systems in the District. 
According to EPA, the Regional Office's oversight and enforcement 
responsibilities include providing technical assistance to the water 
suppliers on how to comply with federal regulations; ensuring that the 
suppliers report the monitoring results to EPA by the required 
deadlines; taking enforcement actions if violations occur; and using 
those enforcement actions to return the system to compliance in a 
timely fashion.
     The District's Department of Health, while having no formal role 
under the Act, is responsible for identifying health risks and 
educating the public on those risks.

 COORDINATION AMONG AGENCIES IS CRITICAL TO ENSURE SAFE DRINKING WATER

    Providing safe drinking water requires that water systems, 
regulators, and public health agencies fulfill individual 
responsibilities yet work together in a coordinated fashion. It is 
particularly important that these entities report and communicate 
information to each other in a timely and accurate manner. In the case 
of drinking water in the District of Columbia, one of the key 
relationships is the one between WASA, the deliverer of water to 
District customers, and EPA's Philadelphia Office, the regulator 
charged with overseeing WASA's compliance with drinking water 
regulations. Of particular note, one of WASA's key obligations is to 
monitor the water it supplies to District customers through a tap water 
sampling program, and to report these results accurately and in a 
timely manner to EPA's Philadelphia Office. As EPA itself has noted, 
one of the Philadelphia Office's key obligations is to ensure that WASA 
understands the reporting requirements and reports monitoring results 
by required deadlines.
    It is noteworthy that WASA and EPA have taken or agreed to take 
steps that are clearly intended to improve communication and 
coordination between the agencies. For example:
     Under the Consent Order signed by EPA and WASA on June 17, 2004, 
WASA agreed to improve its format for reporting tap water samples by 
ensuring that the reports include tap water sample identification 
numbers, sample date and location, lead and copper concentration, 
service line materials, and reasons for any deviation from previously 
sampled locations. The monitoring reports are also to include the 
laboratory data sheets, which contain the raw test data recorded 
directly by the laboratory. Under the Order, WASA also agreed to submit 
to EPA for comment a plan and schedule for enhanced information, 
database management, and reporting. The plan is to describe how 
monitoring reports will be generated, maintained, and submitted to EPA 
in a timely fashion.
     EPA's Philadelphia Office has altered the way in which it will 
handle compliance data from WASA and the Washington Aqueduct. According 
to the office, compliance data from both water systems will now be sent 
to those in the Office responsible for enforcing the Safe Drinking 
Water Act, so as to separate the enforcement/compliance assurance 
function from the municipal assistance function.
    Aside from the tap water monitoring issue, EPA's Philadelphia 
Office acknowledges that its oversight of WASA public notification and 
education efforts could have been better, noting that ``In hindsight, 
EPA should have asked more questions about the extent, coverage and 
impact of DC WASA's public education program, and reacted to fill the 
public education gaps where they were evident.'' <SUP>5</SUP> To 
address the problem, the Philadelphia Office reported on its website 
that it will have to make some improvements in the way it exercises its 
own oversight responsibilities.<SUP>6</SUP> Suggested improvements 
include obtaining written agreement from WASA to receive drafts of 
education materials and a timeline for their submission, reviewing 
drafts of public education materials for compliance with requirements, 
as well as effectiveness of materials and delivery, and acquiring 
outside expertise to assist in evaluating outreach efforts.
---------------------------------------------------------------------------
    \5\ Letter from William C. Early, Regional Counsel, EPA Region III, 
to Eric H. Holder, Jr., Covington & Burling (June 25, 2004) attaching 
EPA's Response to May 13, 2004, letter from Covington & Burling, 
Response #26.
    \6\ http://www.epa.gov/dclead/pep--recommendations.htm.
---------------------------------------------------------------------------
    As our work continues, we will seek to examine (to the extent it 
does not conflict with active litigation) other ways in which improved 
coordination between WASA and EPA could help both agencies better 
fulfill their responsibilities. We will also examine interrelationships 
that include other key agencies, such as the Aqueduct and the D.C. 
Department of Health. We will also examine how other water systems in 
similar situations interacted with federal, state, and local agencies. 
These experiences may offer suggestions on how coordination can be 
improved among the agencies responsible for protecting drinking water 
in the District of Columbia.

 EXPERIENCES OF OTHER WATER SYSTEMS HIGHLIGHT EFFECTIVE WAYS TO INFORM 
                         AND EDUCATE THE PUBLIC

    WASA is not the first system to exceed the action level for lead. 
According to EPA, when the first round of monitoring results was 
completed for large water systems in 1991 pursuant to the Lead and 
Copper Rule, 130 of the 660 systems serving populations over 50,000 
exceeded the action level for lead. EPA data show that since the 
monitoring period ending in 2000, 27 such systems have exceeded the 
action level.<SUP>7</SUP> As part of our work, we will be examining the 
innovative approaches some of these systems have used to notify and 
educate their customers. I would like to touch on the activities of two 
such systems, the Massachusetts Water Resources Authority and the 
Portland, Oregon, Water Bureau. Each of these systems has employed 
effective notification practices in recent years that may provide 
insights into how WASA, and other water systems, could improve their 
own practices.
---------------------------------------------------------------------------
    \7\ EPA Office of Ground Water and Drinking Water, Summary: Lead 
action level exceedences for medium (3,300-50,000) and large (>50,000) 
public water systems (Updated as of June 1, 2004).
---------------------------------------------------------------------------
Massachusetts Water Resources Authority
    The Massachusetts Water Resources Authority (MWRA) is the wholesale 
water provider for approximately 2.3 million customers, mostly in the 
metropolitan Boston area. Under an agreement with the Massachusetts 
Department of Environmental Protection, monitoring for lead under the 
Lead and Copper Rule occurs in each of the communities that MWRA serves 
and the results are submitted together. Initial system-wide tap water 
monitoring results in 1992 showed a 90th percentile lead concentration 
of 71 ppb (meaning 10 percent of its samples scored at this level and 
above). According to MWRA, adjustments in corrosion control have led to 
a reduction in lead levels, but the 90th percentile lead concentration 
in MWRA's service area has still been above the action level in four of 
the seven sampling events since early 2000.
    According to an MWRA official, the public education program for 
lead in drinking water is designed to ensure that all potentially 
affected parties within MWRA's service area receive information about 
lead in drinking water. He noted, for example, that while the Lead and 
Copper Rule requires that information be sent to consumers in their 
water bills, the large population of renters living in MWRA's service 
area often do not receive water bills. Therefore, MWRA included 
information about lead in its consumer confidence report, which is sent 
to all mailing addresses within the service area. Additionally, MWRA 
uses public service announcements, interviews on radio and television 
talk shows, appearances at city councils and other local government 
agency meetings, and articles in local newspapers to convey 
information. MWRA also conducted focus groups to judge the 
effectiveness of the public education program and continually makes 
changes to refine the information about lead in drinking water.
    An MWRA official also noted that MWRA focuses portions of its lead 
public education program on the populations most vulnerable to the 
health effects of lead exposure. For example, MWRA worked with 
officials from the Massachusetts Women, Infants and Children 
Supplemental Nutrition Program (WIC) to design a brochure to help 
parents understand how to protect their children from lead in drinking 
water. Among other things, the brochure includes the pertinent 
information in several foreign languages, including Spanish, 
Portuguese, and Vietnamese. The WIC program also includes information 
on how to avoid lead hazards when preparing formula.

Portland Water Bureau
    The Portland Water Bureau provides drinking water to approximately 
787,000 people in the Portland metropolitan area, nearly one-fourth of 
the population of Oregon. Since 1997, the city has exceeded the lead 
action level 6 times in 14 rounds of monitoring. According to Bureau 
officials, the problem stems mainly from lead solder used to join 
copper plumbing and from lead in home faucets. Portland's system has 
never had lead service lines, and the Water Bureau finished removing 
all lead fittings within the water system's control in 1998.
    The Portland Water Bureau sought flexibility in complying with the 
Lead and Copper Rule. The state of Oregon allowed the Water Bureau to 
implement a lead hazard reduction program as a substitute for the 
optimal corrosion control treatment requirement of the Lead and Copper 
Rule. Portland's lead hazard reduction program is a partnership between 
the Portland Water Bureau, the Multnomah County and Oregon State health 
departments, and community groups. According to Portland Water Bureau 
officials, the program consists of four components: (1) water treatment 
for corrosion control; (2) free water testing to identify customers who 
may be at significant risk from elevated lead levels in drinking water; 
(3) a home lead hazard reduction program to prevent children from being 
exposed to lead from lead-based paint, dust, and other sources; and (4) 
education on how to prevent lead exposure targeted to those at greatest 
risk from exposure.
    As the components suggest, the program is focused on reducing 
exposure to lead through all exposure pathways, not just through 
drinking water. For example, the Water Bureau provides funding to the 
Multnomah County Health Department's LeadLine--a phone hotline that 
residents can call to get information about all types of lead hazards. 
Callers can get information about how to flush their plumbing to reduce 
their lead exposure and can request a lead sampling kit to determine 
the lead concentration in the drinking water in their home. The Water 
Bureau also provides funding for lead education materials provided to 
new parents in hospitals, for billboards and movie advertisements 
targeted to neighborhoods with older housing stock, and to the 
Community Alliance of Tenants to educate renters on potential lead 
hazards. Each of these materials directs people to call the LeadLine if 
they need additional information about any lead hazard. The Water 
Bureau evaluates the results of the program by tracking the number of 
calls to the LeadLine, and by surveying program participants to 
determine their satisfaction with the program and the extent to which 
the program changed their behavior.
    In January 2004, the Portland Water Bureau sent a targeted mailing 
to those residents most likely to be affected by lead in drinking 
water. The mailing targeted homes of an age most likely to contain 
lead-leaching solder where a child 6 years old or younger lived. 
Approximately 2,600 postcards were sent that encouraged residents to 
get their water tested for lead, learn about childhood blood lead 
screening, and reduce lead hazards in their homes. Water Bureau 
officials said that they obtained the information needed to target the 
mailing from a commercial marketing company, and that the commercial 
information was inexpensive and easy to obtain.

        WASA FACES CHALLENGES IN IDENTIFYING AT-RISK POPULATIONS

    In an ideal world, a water utility such as WASA would have several 
different types of information that would allow it to monitor the 
health of individuals most susceptible to the health effects of lead in 
drinking water. The utility would know the location of all lead service 
lines and homes with leaded plumbing (pipes, solder and/or fixtures) 
within its service area. The utility would also know the demographics 
of the residents of each of these homes. With this information, the 
utility could identify each pregnant woman or child six years old or 
younger who would be most likely to be exposed to lead through drinking 
water. These individuals could then be educated about how to avoid lead 
exposure, and lead exposure for each of these individuals could then be 
monitored through water testing and blood lead testing.
    Unfortunately, WASA and other drinking water utilities do not 
operate in an ideal world. WASA does have some information on the 
location of lead service lines within its distribution area. Its 
predecessor developed an inventory of lead service lines in its 
distribution system in 1990 as part of an effort to identify sampling 
locations to comply with the Lead and Copper Rule. According to WASA 
officials, identifying the locations of lead service lines was 
difficult because many of the records were nearly 100 years old and 
some of the information was incomplete. According to this 1990 
inventory, there were approximately 22,000 lead service lines. WASA 
updated the inventory in September 2003, and estimated that it had 
23,071 ``known or suspected'' lead service lines. WASA subsequently 
identified an additional 27,495 service lines in the distribution 
system made of ``unknown'' materials. Consequently, there is some 
uncertainty over the actual number and location of the lead service 
lines in WASA's distribution system. The administrative order that EPA 
issued in June 2004 requires WASA to further update its inventory of 
lead service lines.
    Regardless of the information WASA has about the location of lead 
service lines, according to WASA officials, WASA has little information 
about the location of customers who are particularly vulnerable to the 
effects of lead. The District's Department of Health is responsible for 
monitoring blood lead levels for children in the District. Officials 
from the Department of Health told us that they maintain a database of 
the results of all childhood blood lead testing in the District, and 
have studied the distribution of blood lead levels in children on a 
neighborhood basis. However, according to a joint study by the D.C. 
Department of Health and the Centers for Disease Control and Prevention 
(CDC) published in March 2004, it is difficult to discern any effect of 
lead in drinking water on children's blood lead levels because the 
older homes most likely to have lead service lines are also those most 
likely to have other lead hazards, such as lead in paint and dust. This 
joint study also described efforts by the Department of Health and the 
United States Public Health Service to conduct blood lead monitoring 
for residents of homes whose drinking water test indicated a lead 
concentration greater than 300--ppb. None of the 201 residents tested 
were found to have blood lead levels exceeding the levels of concern 
for adults or children, as appropriate.

Researchers Face Gaps in Knowledge Regarding the Risks Posed by Lead in 
        Drinking Water
    A good deal of research has been conducted on the health effects of 
lead, in particular on the effects associated with certain pathways of 
contamination, such as ingestion of leaded paint and inhalation of 
leaded dust. In contrast, the most relevant studies on the isolated 
health effects of lead in drinking water date back nearly 20 years--
including the Glasgow Duplicate Diet Study on lead levels in children 
upon which the Lead and Copper Rule is partially based.<SUP>8</SUP> 
According to recent medical literature and the public health experts we 
contacted, the key uncertainties requiring clarification include the 
incremental effects of lead-contaminated drinking water on people whose 
blood lead levels are already elevated from other sources of lead 
contamination and the potential health effects of exposure to low 
levels of lead. As we continue our work, we will examine the plans of 
EPA and other organizations to fill these and other key information 
gaps.
---------------------------------------------------------------------------
    \8\ Lacey R.F., et al. Lead in Water, Infant Diet and Blood: The 
Glasgow Duplicate Diet Study. The Science of the Total Environment, 41 
(1985) 235-257.
---------------------------------------------------------------------------
    Lead is a naturally occurring element that, according to numerous 
studies, can be harmful to humans when ingested or inhaled, 
particularly to pregnant and nursing women and children aged six or 
younger. In children, for example, lead poisoning has been documented 
as causing brain damage, mental retardation, behavioral problems, 
anemia, liver and kidney damage, hearing loss, hyperactivity, and other 
physical and mental problems. Exposure to lead may also be associated 
with diminished school performance, reduced scores on standardized IQ 
tests, schizophrenia, and delayed puberty.
    Long-term exposure may also have serious effects on adults. Lead 
ingestion accumulates in bones, where it may remain for decades. 
However, stored lead can be mobilized during pregnancy and passed to 
the fetus. Other health effects in adults that may be associated with 
lead exposure include irritability, poor muscle coordination and nerve 
damage, increased blood pressure, impaired hearing and vision, and 
reproductive problems.
    There are many sources of lead exposure besides drinking water, 
including the ingestion of soil, paint chips and dust; inhalation of 
lead particles in soil or dust in air; and ingestion of foods that 
contain lead from soil or water. Extensive literature is available on 
the health impacts of lead exposure, particularly from contaminated air 
and dust. CDC identified in a December 2002 Morbidity and Mortality 
Weekly Report the sources of lead exposure for adults and their 
potential health effects.<SUP>9</SUP> In a September 2003 Morbidity and 
Mortality Weekly Report, CDC identified the most prevalent sources of 
lead in the environment for children, and correlated high blood lead 
levels in children with race, sex, and income bracket.<SUP>10</SUP> The 
surveys suggest that Hispanic and African-American children are at 
highest risk for lead poisoning, as well as those individuals who are 
recipients of Medicaid. Dust and soil contaminated by leaded paint were 
documented as the major sources of lead exposure. Children and adults 
living in housing built before 1950 are more likely to be exposed to 
lead paint and dust and may therefore have higher blood lead levels.
---------------------------------------------------------------------------
    \9\ Centers for Disease Control and Prevention. Morbidity and 
Mortality Weekly Report: Adult Blood Lead Epidemiology and 
Surveillance--United States 1998-2001. 13 December 2002.
    \10\ Centers for Disease Control and Prevention. Morbidity and 
Mortality Weekly Report: Surveillance for Elevated Blood Lead Levels 
Among Children--United States 1997-2001. 12 September 2003.
---------------------------------------------------------------------------
    Articles in numerous journals have reported on the physical and 
neurological health effects on children of lead in paint, soil, and 
dust. The New England Journal of Medicine published an article in April 
2003 that associated environmental lead exposure with decreased growth 
and delayed puberty in girls.<SUP>11</SUP> In 2000, the Journal of 
Public Health Medicine examined the implications of lead-contaminated 
soil, its effect on produce, and its potential health effects on 
consumers.<SUP>12</SUP> Lead can also enter children's homes if other 
residents are employed in lead contaminated workplaces. In 2000, 
Occupational Medicine found that children of individuals exposed to 
lead in the workplace were at higher risk for elevated blood lead 
levels.<SUP>13</SUP> The EPA has aided in some similar research through 
the use of its Integrated Exposure Uptake Biokinetic Model for Lead in 
Children (IEUBK). This model predicts blood lead concentrations for 
children exposed to different types of lead sources.<SUP>14</SUP>
---------------------------------------------------------------------------
    \11\ Sherry G. Selevan, Deborah C. Rice, Karen A. Hogan, Susan Y. 
Euling, et al. ``Blood lead concentration and delayed puberty in 
girls.'' The New England Journal of Medicine. Boston: Apr 17, 2003. 
Vol. 348, Iss. 16; pp. 1527-1536.
    \12\ Prasad LR, Nazareth B. ``Contamination of Allotment Soil with 
Lead: Managing Potential Risks to Health.'' Journal of Public Health 
Medicine. 22(4) December 2000: 525-30.
    \13\ Chan, J, et al. ``Predictors of Lead Absorption in Children of 
Lead Workers.'' Occupational Medicine. Vol 50, Issue 6, 398-405, 2000.
    \14\ U.S. Environmental Protection Agency. The IEUBK Model 
http:www.opa.gov/superfund/programs/lead/ieubk.htm 16 April 2004.
---------------------------------------------------------------------------
    According to a number of public health experts, drinking water 
contributes a relatively minor amount to overall lead exposure in 
comparison to other sources. However, while lead in drinking water is 
rarely thought to be the sole cause of lead poisoning, it can 
significantly increase a person's total lead exposure--particularly for 
infants who drink baby formulas or concentrated juices that are mixed 
with water from homes with lead service lines or plumbing systems. For 
children with high levels of lead exposure from paint, soil, and dust, 
drinking water is thought to contribute a much lower proportion of 
total exposure. For residents of dwellings with lead solder or lead 
service lines, however, drinking water could be the primary source of 
exposure. As exposure declines from sources of lead other than drinking 
water, such as gasoline and soldered food cans, drinking water will 
account for a larger proportion of total intake. Thus, according to 
EPA, the total drinking water contribution to overall lead levels may 
range from as little as 5 percent to more than 50 percent of a child's 
total lead exposure.<SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ U.S. Environmental Protection Agency. Lead and Copper Rule. 
The Federal Register. Vol. 56 NO. 110, 7 June 1991.
---------------------------------------------------------------------------
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other Members of this 
Subcommittee may have at this time.

    Mr. Gillmor. Thank you very much, Mr. Stephenson, and also 
thank you for your work. We talked about the Massachusetts 
Water Resources Authority and the Portland Water Bureau and DC 
WASA. How could these three systems have had such different 
levels of response when all were seeking to comply with 
notification requirements of the lead and copper rule? Where do 
you see any gaps in the regulation as it is currently drafted?
    Mr. Stephenson. The EPA guidance to water authorities has 
prescribed language for use in public notification. And it was 
used in WASA's case, but essentially the minimum requirements 
were met. There are much more opportunities to, as those other 
facilities did, test the effectiveness of your public 
communication and go the extra mile to make sure the public is 
getting the message.
    Mr. Gillmor. So basically what you are saying is WASA just 
didn't follow through in the way that the others did?
    Mr. Stephenson. Yes, both WASA and EPA, in its oversight of 
the public notification, also could have improved.
    Mr. Gillmor. You state WASA faces challenges in collecting 
information needed to identify District citizens at greatest 
risk from lead in the drinking water. In your initial 
assessment, did you see the potential infrastructure in place 
for WASA to link data on at-risk populations? Were they 
suspected of being serviced by lead service pipelines?
    Mr. Stephenson. Not yet. We are going to cover that issue 
in our continuing research for the subcommittee. It is 
difficult to do. Portland, for example, actually used marketing 
data to determine who lived in the various houses, and then 
matched that with the houses that had lead service lines and 
were able to do a very good job of cross-walking the data 
between those two. We are not there yet in the District.
    Mr. Gillmor. In your opinion, what was the fundamental 
breakdown in the coordination of activities between WASA, 
Washington Aqueduct, and EPA, Region III, that led to a very 
delayed response and also the improper notification of lead 
levels in the District?
    Mr. Stephenson. That is very hard to say. The courts are 
probably going to decide some on this issue as well. But EPA is 
in a unique oversight role here. In most cases, the States have 
primacy for oversight, so the States oversee the drinking water 
facilities. So this oversight role for EPA over a drinking 
water facility is atypical and unique to the District of 
Columbia.
    But we think, in addition to just pure oversight and how 
good the sampling is, there needs to be sort of a collaborative 
relationship between the water provider and the overseer as 
well, and we didn't see that communication in this case.
    Mr. Gillmor. That was lacking here, yes. A number of 
witnesses on our next panel will testify about infrastructure 
needs and about increases in Federal funding. I think that 
critical to those needs is a better assessment of utilities 
asset management plans. Has GAO looked into funding incentive 
options and proposals for better asset management?
    Mr. Stephenson. Not the incentive options yet. We do have 
an outstanding request that we haven't begun working on yet on 
alternative funding and financing opportunities. We did do a 
piece, as Mr. Grumbles mentioned, on asset management, which 
showed how facilities could better manage themselves and more 
constructively do capital replacement of their infrastructure 
and collect some of the funding that they needed in the rate 
structure itself. And we have also done work on the safe 
drinking water revolving fund.
    Mr. Gillmor. Okay. Thank you very much.
    The gentlelady from California.
    Ms. Solis. Thank you, Mr. Chairman.
    Thank you, also, Mr. Stephenson, for coming here today and 
assisting us with trying to decipher how we go about attempting 
to address this very important issue. And my question to you 
is--back in fiscal year 2000, President Clinton requested $825 
million for the drinking water revolving loan fund. Am I 
correct that in constant dollars, 2003 dollars, that the 
equivalent is actually about $873 million?
    Mr. Stephenson. If you adjust it to today's dollars, that 
is about right, yes.
    Ms. Solis. And am I correct that President Bush's $850 
million budget request for fiscal year 2005 would only be worth 
$830.7 million in constant dollars for 2003?
    Mr. Stephenson. Yes, I believe that is right.
    Ms. Solis. Okay. One of the concerns that we are hearing I 
think today is that, while we are able to possibly go up to a 
million dollars through the fund----
    Mr. Stephenson. A billion.
    Ms. Solis. The President has not requested that. And, in 
fact, for the next several years, if you take this out to 2018 
at that same level, he is going to flatline and just propose 
that, that we are really going to be pushing back the value of 
funding that should be made available to really try to address 
this $100 billion gap that currently exists right now. Is that 
correct?
    Mr. Stephenson. That is true. It is a revolving fund that 
does build in total size and is paid back, portions of it are. 
There are certain allowances within the Act, that, for example, 
can give disadvantages community--a grant as opposed to a loan. 
Up to 30 percent of the money can be used for that, so there is 
a lot of depletions to the fund. It is not all paid back. But 
the fund does slowly build in size.
    Ms. Solis. We heard from the witness representing the DC 
water area, and my understanding is that they would potentially 
need about $300 million alone, just to begin to provide new 
piping.
    Mr. Stephenson. Yes. Short of recovering all of that in the 
rate structure, the revolving fund is the only option.
    Ms. Solis. Right. And at that rate, we would be depleting, 
obviously, these resources even quicker----
    Mr. Stephenson. Theirs and others, yes.
    Ms. Solis. [continuing] the sooner we find out where there 
may be other hotspots in the country.
    One of the things that I was really deeply concerned about 
is the use of the fund and how it could help provide for not 
just grants but further education programs that might be useful 
to residents who obviously may not know that they are currently 
in one of these areas, whether it be a school district or a 
home or even a place of employment, and what kinds of things 
could be offered through this process.
    Mr. Stephenson. There are specific percentages of amounts 
that can be spent for exactly that purpose for education and 
outreach, and a small portion for administration of the 
revolving fund.
    Ms. Solis. What percentage is that?
    Mr. Stephenson. I will have to get it for you for the 
record. I think it is fairly high, but I am not sure, like 15 
percent.
    Ms. Solis. Fifteen percent. And my question would be, then, 
because we have such diversity in some of our communities, and 
even here in Washington, DC, sometimes you need to tailor the 
message to the individual communities and neighborhoods. There 
is a recent large influx of Spanish speakers, for example, and 
would monies be made available to provide materials in 
different languages?
    Mr. Stephenson. That is something that is permissible. The 
States get an allocation based on set formulas, and then the 
States dole that out to the individual communities and the 
facilities. But it is permissible that if the State approves 
it, they could use the money for those purposes.
    Ms. Solis. Okay. One of the concerns I have also is that in 
the case here in Washington, DC, many consumers had to actually 
bear the burden of paying a little bit--not a little bit, 
perhaps a lot more money. The ratepayers are clearly affected 
in this circumstance. Is there a way that the revolving fund 
could also be utilized to provide some remedy for areas that 
are affected that dramatically? Especially with respect to, 
say, low income or underserved areas.
    I am thinking more that we have a similar program that 
exists right now for one of our utilities, the Liheap Program. 
If there might be a potential of looking at maybe some creative 
ideas to deal with this potential problem as it starts to 
possibly surface in other parts of the country.
    Mr. Stephenson. The uses for the fund are fairly well 
specified in the Act. However, there are additional water funds 
and grants that can be used for those purposes.
    Ms. Solis. One of the things that I am also concerned about 
is the fact that many of our water purveyors eat a lot of these 
costs themselves. And some do it for the right reasons, 
obviously, and we commend them. What are your thoughts on 
providing incentives so that we do sufficiently provide some 
balance here as well for those that are actually in the 
industry.
    Mr. Stephenson. I am not following exactly what you mean.
    Ms. Solis. Well, in many cases, we have--some of our water 
districts, for example, in my area in the San Gabriel Valley 
provide many outreach efforts and incentives to try to inform 
the community about conservation, about the importance of 
drinking water, the quality.
    Might there be opportunities to allow for some incentives 
to be set aside for that particular basis to provide for more--
how could I say--sustained funding for some of our water 
purveyors who are also in many cases feeling the pinch, the 
economic pinch, and especially of monies that are not readily 
coming out of our Federal Government into the States. That 
obviously has an impact.
    Mr. Stephenson. Yes. I would say that sounds like a good 
idea. Again, there are--at the Federal level, there are non-
discretionary grants, and several of those go to water 
facilities for doing exactly what you are talking about, better 
education, better communication, training, etcetera. So it is--
although not embodied in the Safe Drinking Water Act revolving 
fund per se--within that limit of the 15 percent or so that is 
allowed for education and outreach activities.
    Ms. Solis. I want to also thank you for making yourself 
available to our staffs for your work.
    Mr. Stephenson. You are welcome.
    Ms. Solis. Thank you.
    Mr. Gillmor. The gentleman from Idaho.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Stephenson, some folks have been arguing that more 
funding in the drinking water loan fund for the Washington area 
system to access would have averted this problem. Is that your 
opinion?
    Mr. Stephenson. Say that again.
    Mr. Otter. That more money in the fund, the loan fund, 
would have actually averted this problem.
    Mr. Stephenson. I don't think you can draw that conclusion. 
Again, the fund----
    Mr. Otter. But isn't that the conclusion that folks, 
including at least the direction of some of the questions from 
the previous questioners----
    Mr. Stephenson. It seems so. But, again, the revolving fund 
is allocated on specific formulas as laid out in the Safe 
Drinking Water Act. The States all know what they are going to 
get as does the District of Columbia.
    Mr. Otter. Precisely. And as quick and as, you know, that 
you can remember, what is the actual record on the amount of 
money that Bush has asked for and that Clinton asked for?
    Mr. Stephenson. In total?
    Mr. Otter. Yes.
    Mr. Stephenson. It has been $850 million a year from the 
Bush Administration I think consistently.
    Mr. Otter. And how much from the Clinton Administration?
    Mr. Stephenson. I don't have that exactly. When----
    Mr. Otter. Well, let me just ask this----
    Mr. Stephenson. In 1997, the Clinton Administration offered 
$1.275 billion, and then it was $725-, $775-, $820-.
    Mr. Otter. So, you know, it could be even less that the 
Clinton Administration asked for, and not as may have been 
suggested that Bush has caused the fund to go anemic.
    Mr. Stephenson. Well, unless you adjust for inflation, then 
you could probably argue that the Clinton Administration has 
provided a little bit more funding.
    Mr. Otter. Thank you.
    Mr. Stephenson. But it has been very similar.
    Mr. Otter. Thank you, Mr. Chairman.
    Similar, is your opinion, though.
    Mr. Stephenson. Yes.
    Mr. Otter. Thank you, Mr. Chairman. I yield back.
    Mr. Gillmor. The gentleman yields back.
    And, Mr. Stephenson, very much appreciate the work that you 
have done on this issue and for being here. Thank you.
    Mr. Stephenson. Thank you.
    Mr. Gillmor. We will ask our panelists on panel three if 
they could come forward.
    I want to welcome the panelists. We appreciate all of you 
being here, and we will go straight to your testimony. And 
first would be Jay Rutherford, who is the Director of Water 
Supply Division, State of Vermont, representing the Association 
of State Drinking Water Administrators.
    Mr. Rutherford?

   STATEMENTS OF JAY L. RUTHERFORD, DIRECTOR OF WATER SUPPLY 
    DIVISION--VERMONT, ASSOCIATION OF STATE DRINKING WATER 
   ADMINISTRATORS; BRIAN L. RAMALEY, DIRECTOR, NEWPORT NEWS 
 WATERWORKS, ASSOCIATION OF METROPOLITAN WATER AGENCIES; AARON 
 COLANGELO, STAFF ATTORNEY, NATURAL RESOURCES DEFENSE COUNCIL; 
 DONALD L. CORRELL, PRESIDENT AND CEO, PENNICHUCK CORPORATION, 
NATIONAL ASSOCIATION OF WATER COMPANIES; LYNN STOVALL, GENERAL 
    MANAGER, GREENVILLE WATER SYSTEM, AMERICAN WATER WORKS 
   ASSOCIATION; AND BRUCE P. LANPHEAR, CINCINNATI CHILDREN'S 
                    HOSPITAL MEDICAL CENTER

    Mr. Rutherford. Good morning, Mr. Chairman, and committee 
members. My name is Jay Rutherford. I am Director of Vermont's 
Drinking Water Program. I am also the past President of the 
Association of State Drinking Water Administrators or ASDWA, 
and I am speaking to you today on its behalf.
    ASDWA represents the drinking water programs in all 50 
States and territories in their efforts to ensure the provision 
of safe drinking water to more than 275 million consumers 
nationwide. Today I will talk about three key things. First is 
concerns related to the lead and copper rule. Second is 
strategic approaches to meeting water infrastructure needs. And 
the third is the consideration of State needs to meet Safe 
Drinking Water Act requirements.
    Based on the recent events here in Washington, DC, States 
have reviewed the performance of water systems in their States, 
and we have found that the events here are not reflective of a 
widespread national issue. Nevertheless, States would like to 
work with EPA and other stakeholders to review the lead and 
copper rule and ensure that the public is protected from lead 
in drinking water.
    Overall, we believe that the general basis to the lead and 
copper rule, which is a treatment technique rule as opposed to 
a maximum contaminant level, is appropriate, and that the rule 
does not require major revisions. We do think that certain 
aspects of the rule may need adjustment and streamlining, 
however.
    EPA, States, and local communities should buildupon 
existing programs to educate the public about the hazards of 
lead and the various routes of lead exposure. States would also 
consider additional regulatory or policy changes to address 
lead at sensitive sites such as schools and daycares. And, 
finally, States think EPA should investigate whether the so-
called lead-free standard of 8 percent lead content is too 
high, and, if feasible, to seek its reduction.
    In addition to existing regulations, there are a number of 
emerging contaminants such as perchlorate and TBE that need to 
be tracked and addressed in order to continue to ensure public 
health protection. States support the overall structure set 
forth in the 1996 amendments to the Safe Drinking Water Act for 
addressing emerging contaminants.
    However, where there are contaminants of nationwide 
significance that may warrant national regulatory efforts, we 
urge EPA to resolve the various scientific and engineering 
issues as quickly as possible to eliminate the need for State-
by-State individual standards.
    Turning to the issue of funding for drinking water 
infrastructure, States believe that the drinking water State 
revolving loan fund program, in place for less than 10 years, 
has been a real success story in funding infrastructure 
improvements as well as providing funds for key elements of the 
Act's implementation.
    We believe that the drinking water SRF should continue to 
be the primary funding vehicle for infrastructure projects 
rather than create new ones. Additional funding is certainly 
needed, and we encourage Congress to direct such funding to the 
drinking water SRF, since States are in the best position to 
determine priority of projects and to work directly with water 
utilities.
    Among the more challenging utility issues are those posed 
by small and very small systems, which have poor economies of 
scale and are thus often hit hard by new regulations or 
infrastructure requirements. States are very sensitive to the 
concerns of these systems, but believe that the most 
appropriate way to address their needs is through the existing 
structure of the Act, including a number of special provisions 
with the drinking water SRF.
    Given the importance of this program, States believe that 
the drinking water SRF program should be reauthorized, 
preferably for at least 10 years, and it be adequately funded. 
Through 2003, the drinking water SRF has only been funded at 58 
percent of the authorized level. In addition, our written 
testimony identifies several no-cost structural changes to the 
Act that we think are needed to allow more efficient and 
effective use of appropriated funds.
    My third theme today is State drinking water resources. It 
is a favorite of mine. Our State programs are facing the same 
type of crisis as the utilities they oversee. We oversee 
ongoing compliance and technical assistance efforts for over 
160,000 water systems. States are also working on an array of 
proactive initiatives to protect public health from source to 
tap, ranging from source water assessments and controls to 
technical assistance with treatment and distribution, and 
finally to--through efforts to improve overall system capacity.
    And, further, since September 2001, State drinking water 
programs have worked with all of our public water systems to 
ensure that critical drinking water infrastructure is 
protected. States need to do all of these activities and take 
on new ones, while responding to pressures at home to further 
cut their budgets and streamline their workforces.
    In the current economic climate, State drinking water 
programs can no longer sustain, much less increase, their 
productivity without adequate Federal support. In the 2003 
report, ASDWA documented a shortfall of approximately $230 
million between the funds available to the States and the 
amount that they felt was needed to fully implement the State 
drinking water programs. This gap is projected to grow to 
approximately $370 million in 2 more years.
    Mr. Chairman, a strong drinking water program supported by 
the Federal-state partnership will ensure that the quality of 
drinking water in this country will not deteriorate, and will, 
in fact, continue to improve, so the public can be assured that 
a glass of water is safe to drink no matter where they live or 
travel.
    States are willing and committed partners to this process. 
Additional Federal financial assistance is needed, however, to 
meet new regulatory and security needs. We appreciate the 
opportunity to meet with the subcommittee today, and we are 
ready to work with you and your staff to ensure the continued 
protection of public health through safe drinking water.
    Thank you.
    [The prepared statement of Jay L. Rutherford follows:]

Prepared Statement of Jay Rutherford, Director, Water Supply Division, 
   Vermont Department of Environmental Conservation on Behalf of the 
           Association of State Drinking Water Administrators

                              INTRODUCTION

    Good morning. My name is Jay Rutherford and I am the Director of 
the Water Supply Division for the Vermont Department of Environmental 
Conservation. I am here today as the past President of the Association 
of State Drinking Water Administrators (ASDWA). ASDWA represents the 
drinking water programs in each of the fifty states and territories in 
their efforts to ensure the provision of safe, potable drinking water 
to more than 275 million consumers nationwide. ASDWA's primary mission 
is the protection of public health through the effective management of 
state drinking water programs that implement the Safe Drinking Water 
Act (SDWA). My focus for today's testimony revolves around three key 
themes:

 Addressing concerns related to the Lead and Copper Rule
 Strategic approaches to meet water infrastructure needs
 Consideration of state needs to meet Safe Drinking Water Act 
        requirements

 CHALLENGING ISSUES FOR STATE DRINKING WATER ADMINISTRATORS: LEAD AND 
                   COPPER RULE; EMERGING CONTAMINANTS

The Lead and Copper Rule
    There are an array of very challenging elements that comprise state 
drinking water programs. Among the more challenging is the lead and 
copper rule. Based on the recent events in Washington, D.C., states 
have reviewed the performance of water systems in their states and 
determined that the events in our nation's capitol are an isolated 
anomaly and not indicative of a wide-spread national issue. 
Nevertheless, states welcome the opportunity to work with EPA and other 
interested stakeholders to review the Lead and Copper Rule and ensure 
that the public is protected from lead in drinking water. Overall, 
states believe that the general construct of the Lead and Copper Rule 
is appropriate and that the rule does not require major revisions. Key 
state perspectives on the Lead and Copper Rule include:

 Action Level, Not an Maximum Contaminant Level (MCL): The rule 
        construct should retain an action level for lead (as opposed to 
        setting an at-the-tap MCL for lead).
 Public Education: EPA, states, and local communities should build 
        upon and enhance existing programs to educate the public about 
        the hazards of lead and the different ways people are exposed 
        to lead.
 Need for Research: Additional research is needed to better understand 
        some of the key issues related to lead in drinking water and 
        remediation options.
 Definition of ``Lead-Free'': EPA should investigate whether it would 
        be feasible to reduce the lead percentages included in the SDWA 
        that pipes and fittings can contain and still be considered 
        lead-free (currently 8.0%) and, if it is deemed feasible, work 
        with Congress to amend the SDWA accordingly. In addition, 
        Congress and EPA should review the current statutory and 
        regulatory provisions and time frames with respect to lead 
        service line replacement.
 Lead in Schools and Day Cares: States would consider changes to 
        existing approaches to better address lead at sensitive sites 
        such as schools and day cares, but believe that these 
        facilities should be addressed separately from the typical 
        distribution system requirements.

Emerging Contaminants
    In addition to existing regulations, there are a host of emerging 
contaminants--such as perchlorate and MTBE--that need to be tracked and 
addressed in order to continue to ensure public health protection. 
States support the overall structure set forth in the 1996 amendments 
to Safe Drinking Water Act (i.e., the Contaminant Candidate List) for 
addressing emerging contaminants. However, where there are contaminants 
of nationwide significance that may warrant national regulatory 
efforts, states urge EPA to resolve the various scientific and 
engineering issues needed for national determinations as expeditiously 
as possible. States often don't have the luxury of waiting for the 
deliberative process to play out at the national level and are often 
forced to expend resources to develop their own regulatory levels in 
the interim.

  STRATEGIC APPROACHES TO MEETING DRINKING WATER INFRASTRUCTURE NEEDS

    Turning to the issue of funding for drinking water infrastructure, 
I would like to touch upon state perspectives on the Drinking Water 
State Revolving Loan Fund (DWSRF) program. We believe the DWSRF, a 
proactive program in place for less than 10 years, has been a real 
success story in funding infrastructure improvements as well as 
providing funds for key elements of SDWA implementation. Based on this 
success, we believe that the DWSRF should continue to be the primary 
funding vehicle for construction of drinking water infrastructure. We 
do not believe that creating new funding vehicles would comport well 
with the momentum developed by the DWSRF program. While additional 
funding is certainly needed, we would encourage Congress to direct such 
funding to the DWSRF program. States are in the best position to 
determine the priority of projects for support by the DWSRF and to work 
directly with water utilities in this regard.
    Among the more challenging utility issues are those posed by small 
systems. Small systems frequently have poorer economies of scale and 
thus are often hard hit by new rule provisions and associated 
infrastructure requirements. States are very sensitive to the concerns 
of these systems, but believe the most appropriate way to address their 
needs is through the existing structure of the SDWA, including a number 
of special provisions of the DWSRF. For instance, loan subsidies as 
described in the current statute, including--principal forgiveness, may 
be necessary for--disadvantaged communities, particularly small 
communities.
    In light of the importance of this program, states believe that the 
DWSRF program should be reauthorized for a significant period of time, 
preferably at least ten years. This will enable firm, long-term 
commitments to be made by states to support the program. In view of the 
current uncertainties about the duration of the program into the 
future, it is exceedingly difficult for state drinking water program 
managers to commit the staff and resources needed to support this 
program over the long term. Although the SDWA authorized a total of 
$9.6 billion for Fiscal Years 1995 through 2003, only $5.52 billon was 
appropriated through Fiscal Year 2003. [Need to update this figure for 
2004.]
    In addition to a long term reauthorization of the fund, states 
believe that there are several non-monetary, structural changes in the 
SDWA that are needed to allow more efficient and effective use of 
appropriated funds. We recommend that Congress make several specific 
changes to the DWSRF portion of the SDWA as follows:

 Remove the additional matching requirements (beyond the 20% match 
        already required for the fund) from the 10% set-aside for 
        undertaking certain state drinking water program activities.
 Increase allowable set-aside usage for loan administration from 4% to 
        6% and allow this set-aside to be used for loan administration 
        or other eligible uses.
 Expand the allowable uses of the 15% set-aside funds related to 
        source water assessment programs to include updating 
        assessments and undertaking implementation activities 
        associated with source water protection areas.
 Extend the time interval between the Needs Surveys from the current 
        four years to six years, with an option for states to perform 
        more frequent surveys if they so desire.
    In addition to these specific changes, we also advocate a number of 
other non-legislative changes in the way that the DWSRF program is 
administered. We would recommend, for instance, that the administrative 
requirements for use of the fund (largely addressed in Federal 
regulations and guidance) be as streamlined as possible.

      STATE DRINKING WATER PROGRAM NEEDS TO MEET SDWA REQUIREMENTS

    So, how does all of this affect state drinking water primacy 
programs? The short answer is that states are facing the same type of 
crisis as the utilities that they oversee.
    States are responsible for oversight of ongoing regulatory 
compliance and technical assistance efforts for 160,000 public water 
systems to ensure that potential health based violations do not occur 
or are remedied in a timely manner. States are also implementing an 
array of proactive initiatives to protect public health from ``source 
to tap''--including source water assessments and controls; technical 
assistance with water treatment and distribution; and enhancement of 
overall water system capacity. Further, since September 2001, state 
drinking water programs have accepted additional responsibilities to 
work with all public water systems to ensure that critical drinking 
water infrastructure is protected and that plans are in place to 
respond to a variety of possible emergency scenarios.
    States must accomplish all of these activities and take on new 
responsibilities while responding to escalating pressures to further 
cut their budgets, streamline their workforces, and operate with less 
state-provided financial support. State drinking water programs have 
always been expected to do more with less and states have always 
responded with commitment and ingenuity. However, in the current 
economic climate, state drinking water programs can no longer sustain--
much less increase--their productivity without Federal support.
    Data to support this crisis condition can be found in the 2003 
document entitled Public Health Protection Threatened by Inadequate 
Resources for State Drinking Water Programs: An Analysis of State 
Drinking Water Programs Resources, Needs, and Barriers. This 
compilation of a 50-state self analysis documents a shortfall of 
approximately $230 million between the funds available to states and 
the amount needed to fully implement state drinking water programs. 
This ever-widening gap is projected to grow to approximately $370 
million by 2006.
    Historically, state drinking water programs have received 
approximately 85-87 percent of authorized funding levels to support 
their SDWA mission. States must contribute a 25 percent match to be 
able to receive Federal PWSS program funds for regulatory oversight and 
20 percent to receive their DWSRF funding allocation. Because the needs 
are so great, states also bring additional dollars to the table through 
fee programs, general fund allocations, and other sources. However, 
many states no longer have the luxury--or ability--to continue to 
overmatch their contributions to support and sustain Federal programs.
    Let us not forget that the point of all of this is public health 
protection. A strong drinking water program supported by the Federal-
state partnership will ensure that the quality of drinking water in 
this country will not deteriorate and, in fact, will continue to 
improve--so that the public can be assured that a glass of water is 
safe to drink no matter where they travel or live. States are willing 
and committed partners. Additional Federal financial assistance is 
needed, however, to meet new regulatory and security needs. In 1996, 
Congress provided the authority to ensure that the burden would not go 
unsupported. In 2004, ASDWA asks that the promise of that support be 
realized.
    ASDWA appreciates the opportunity to provide this testimony to the 
Subcommittee for its consideration and stands ready to work with the 
Subcommittee to ensure the continued protection of public health 
through provision of safe drinking water.

    Mr. Gillmor. Thank you very much, Mr. Rutherford.
    Brian Ramaley, who is Director of the Newport News 
Waterworks and representing the Association of Metropolitan 
Water Agencies.
    Mr. Ramaley?

                  STATEMENT OF BRIAN L. RAMALEY

    Mr. Ramaley. Thank you, and good morning. My name is Brian 
Ramaley. I am the Director of Newport News Waterworks.
    Mr. Gillmor. I apologize, Mr. Ramaley, for----
    Mr. Ramaley. That is quite all right. I am testifying 
today, as the chairman indicated, on behalf of the Association 
of Metropolitan Water Agencies, or AMWA, on whose Board of 
Directors I serve.
    Newport News Waterworks is a regional water provider for 
400,000 people in southeastern Virginia. AMWA is a nonprofit 
organization of the largest publicly owned drinking water 
systems in the United States, whose members collectively serve 
more than 110 million Americans with safe drinking water.
    Lead in drinking water typically comes from lead service 
lines or lead fittings, fixtures, or solder in home plumbing. 
EPA's lead and copper rule required large water agencies to 
optimize their systems to reduce the corrosive characteristics 
of their water with respect to lead. If, after optimizing, a 
system still finds lead at more than 15 parts per billion in 10 
percent or more of home tap water samples, it must reduce lead 
exposure through public education and replacing the lead 
service lines it owns.
    This regulatory approach recognizes that corrosion control 
through chemical treatment is a very effective way for water 
systems to minimize lead exposure. For example, using zinc 
orthophosphate as a corrosion inhibitor and adjusting pH, my 
utility, Newport News Waterworks, which disinfects with 
chloramines, was able to lower our lead levels at our 
customers' taps to below detection limits. Our 90 percent level 
is below detection limits, and well below EPA's action level.
    Lead service line removal can also be effective in reducing 
lead exposure, but water systems rarely, if ever, have control 
over the customer's portion of the lead service line or the 
customer's indoor plumbing, which are private property. Paying 
for the replacement of both the public and private parts of a 
service line present significant economic and legal burdens for 
community water systems.
    The national cost to replace the 2 to 5 million lead 
service lines in the United States would be between $13 and $18 
billion today, estimated, for both the public and private 
service lines, not including indoor plumbing. Some utilities 
have proactively replaced their lead service lines, but others 
have not had the resources to do so.
    Newport News Waterworks replaced all of our more than 1,000 
known lead service lines before for the lead and copper rule 
took effect in the early 1990's. However, in older cities with 
many more lead service lines, it has not been possible for 
those cash-strapped utilities facing huge infrastructure needs 
to do so.
    The current monitoring and response requirements have 
worked well in most municipalities and reduced lead exposure 
through drinking water. Those systems experiencing difficulties 
have many successful models to follow, and EPA and the States 
have the authority to step in where necessary. An issue that 
makes compliance difficult, however, is the level of lead 
contained in, and leaching from, home plumbing fixtures.
    The 1996 amendments to the Safe Drinking Water Act allow 
plumbing manufacturers to establish their own voluntary 
standard for leaching from their fixtures. The leaching level 
they chose was 11 parts per billion as compared to EPA's action 
level at the tap of 15 parts per billion. And the Act defines 
lead-free, as has been mentioned here previously for fixtures, 
as containing as much as 8 percent lead. These are areas that 
clearly offer opportunity for improvement.
    Lead service line removal is only one of many 
infrastructure costs confronting the Nation's drinking water 
systems. EPA estimates that drinking water systems will need to 
spend $154 to $446 billion to replace aging infrastructure 
through the year 2019. But there are many other national 
estimates of similar magnitude.
    Regulatory mandates are also driving infrastructure 
spending needs upward. New regulations protect public health 
and the environment, but they come with enormous costs that 
must be paid. Looming investments for local water agencies to 
protect their facilities and consumers from potential terrorist 
attacks add to the cost of water infrastructure. Security 
consultants estimate that water systems in the U.S. that serve 
100,000 or more people will have to spend more than $1 billion 
on security measures alone, and some estimates are even higher.
    Despite the needs of large municipal systems, most Federal 
drinking water assistance is reserved for smaller water 
systems. We encourage Congress to increase its assistance to 
metropolitan systems that have received only 5 percent of 
drinking water State revolving funds allocated since the 
program started, despite those systems accounting for 20 
percent of the targeted need.
    Thirty States do not provide any assistance whatsoever to 
metropolitan systems. With increased funding, water systems 
will endure fewer main breaks, safer drinking water, and 
cleaner drinking water sources. Significant investments must 
come from the national economy through a long-term funding 
source. Increased Federal assistance for water infrastructure 
helps protect public health but also increases jobs--about 
47,500 jobs for every billion dollars spent on infrastructure.
    We appreciate this committee's attention to the serious 
matter of drinking water, and we hope that you and your 
colleagues in the House and Senate can develop a mutually 
acceptable proposal for the sake of safe drinking water and 
American jobs.
    Thank you.
    [The prepared statement of Brian L. Ramaley follows:]

    Prepared Statement of Brian L. Ramaley, Director, Newport News 
  Waterworks, Va. on Behalf of the Association of Metropolitan Water 
                                Agencies

                              INTRODUCTION

    Good afternoon. Thank you for inviting us to testify and for your 
interest in drinking water infrastructure.
    My name is Brian Ramaley. I am the Director of the Newport News 
Waterworks and an officer and board member of the Association of 
Metropolitan Water Agencies, on whose behalf I am testifying today.
    Newport News Waterworks is the regional water provider for Hampton, 
Newport News, Poquoson and parts of York and James City counties. We 
serve safe drinking water to 400,000 people in southeastern Virginia.
    The Association of Metropolitan Water Agencies (AMWA) is a 
nonprofit organization of the largest publicly owned drinking water 
systems in the United States. Our members collectively serve more than 
110 million Americans with safe drinking water.

                                  LEAD

    Lead that is found in tap water can originate from three sources: 
lead service lines, which are the smaller pipes running from water 
mains to customer meters; home plumbing fixtures; and lead solder in 
the home.
    Under the U.S. Environmental Protection Agency's Lead and Copper 
Rule, water agencies serving 50,000 or more people must optimize their 
systems to reduce corrosivity. If, in spite of optimization, a system 
still detects more than 15 parts per billion (ppb) in 10 percent of 
home tap water samples, it must reduce lead exposure by educating the 
public and replacing the lead service lines it owns. (Samples are 
collected at the customer's tap after the water sits unused for several 
hours, typically first thing in the morning. This is intended to 
represent the worst case for potential lead exposure in that particular 
residence. The number of samples required and the frequency of 
collection are based on the size of the water system and past results.)
    The regulatory approach laid out in the Lead and Copper Rule 
recognizes that corrosion control--through the use of chemical 
corrosion inhibitors and pH adjustment--has been determined to be a 
very effective way for water systems to minimize lead exposure from 
homeowners' plumbing fixtures and lead service lines. For example, by 
using a zinc and phosphate-based corrosion inhibitor and carefully 
controlling pH, Newport News Waterworks, which disinfects with 
chloramines, has limited lead levels at our customers' taps at well 
below the EPA action level and in most cases below detectable amounts.
    The Lead and Copper Rule also recognizes that water systems rarely, 
if ever, have direct control over the customer's portion of the lead 
service line or the customer's indoor plumbing. Lead service line 
removal can be effective, but removing the whole line can be 
problematic, and replacement of the customer's portion of the service 
line is not currently required under the law. Replacing the customer's 
portion of the service line (on private property) requires the 
homeowner's permission, which is not always provided in spite of high 
lead levels. Agreeing with a homeowner to not replace his or her 
private plumbing may leave the water system open to legal claims by 
other inhabitants or the house's future owners, particularly if legal 
requirements for service line replacement are extended to include the 
homeowner's private line in the future.
    What's more, paying for the removal and replacement of customers' 
lead service lines presents a significant burden on water systems--most 
of which are part of local government. In many cases, the water utility 
was not responsible for installing a lead service line on private 
property. Contractors and developers may have used lead service lines. 
Regardless, the bottom line is that the part of the service line on a 
homeowner's property is just that--the homeowner's property. Therefore, 
while the utility may do the work, the cost of replacing the whole line 
should be shared by the utility and the homeowner in proportion to the 
work required on public and private property.
    Lead service lines were commonly used until about 70 years ago, 
because they were relatively less expensive than other options and very 
malleable. In 1897, about half of all American municipalities had lead 
services lines. When they are found today, they are typically connected 
to very old homes. According to a 2002 survey by the American Water 
Works Association (AWWA), 56 percent of existing customer service lines 
are made of copper while only 3.3 percent are made of lead.
    According to a 1994 American Water Works Association Research 
Foundation (AwwaRF) report, there were, at that time, between 2.3 
million and 5.1 million lead service lines in use in the United States. 
The national cost to replace the lead service lines under the control 
of both the utilities and homeowners was estimated to be between $10 
billion and $14 billion in 1994 (or between $13 billion and $18 billion 
today).
    Some utilities have aggressively targeted replacement of lead 
service lines under their control, but others have not had the 
resources to do so. Newport News Waterworks replaced more than 1,000 
known lead service lines before the Lead and Copper Rule took effect. 
Any newly discovered lines are replaced immediately in our system. 
However, in older cities with many more lead service lines, this has 
not been economically viable for cash-strapped utilities facing huge 
infrastructure needs.
    With regard to lead, it is clear to AMWA and its members that 
mandating replacement of privately owned lead plumbing will create 
financial and operational difficulties for many utilities. Currently 
mandated monitoring and response mechanisms have worked well in most 
municipalities to reduce lead exposure to our consumers. Recent EPA 
data show that less than four percent of 7,702 systems that each serve 
more than 3,300 people have exceeded the action level for lead since 
2000. Those systems experiencing difficulties have many successful 
models to follow and are proceeding quickly down that path.
    Increasing exposure and making compliance difficult, however, is 
the level of lead contained in and leaching from home plumbing fixtures 
into consumers' homes. The 1996 amendments to the Safe Drinking Water 
Act allowed plumbing manufacturers to establish their own voluntary 
standard for leaching from their fixtures. The leaching level they 
chose was 11 parts per billion. And the Act defines ``lead-free'' 
fixtures as containing as much as eight percent lead.

                  DRINKING WATER INFRASTRUCTURE NEEDS

    The infrastructure needs confronting the nation's drinking water 
systems are enormous. The Water Infrastructure Network (WIN) report, 
Clean & Safe Water for the 21st Century, and its follow up, Water 
Infrastructure Now: Recommendations for Clean and Safe Water in the 
21st Century, estimate that drinking water utilities across the nation 
collectively need to spend about $24 billion per year for the next 20 
years on infrastructure, largely for buried pipelines, for a total of 
$480 billion. WIN's analysis also concluded that drinking water systems 
currently spend $13 billion per year on infrastructure, leaving an $11 
billion annual gap between current spending and overall need.
    In the Environmental Protection Agency's 2002 infrastructure gap 
analysis, the agency estimated that drinking water systems will spend 
between $154 billion and $446 billion through 2019.
    According to a 2002 survey by AMWA, 32 metropolitan systems alone 
reported that they must spend $27 billion over the next five years on 
drinking water and wastewater infrastructure. For instance, Cleveland, 
Ohio must spend up to $700 million; Columbus, Ohio, $253 million; New 
Orleans, $1.2 billion; Kansas City, Mo., over $500 million; Denver, 
$363 million; Chicago, $600 million; Austin, $568 million; Phoenix, 
$1.28 billion; and Omaha, Nebraska, $355 million. In 2002, Detroit 
reported that its capital expenditures for drinking water projects 
would be $1.4 billion over the next five years and $2.9 billion would 
be spent for wastewater projects. Washington, D.C. will have to spend 
almost $2 billion over the next 10 years, plus more than a billion 
dollars to meet EPA wet weather requirements.
    The total length of pipe for water mains in the United States is 
nearly 900,000 miles, according to AwwaRF. Age is the primary reason we 
are confronted with such high estimates of infrastructure spending 
needs. From the late 1800s to the late 1960s, most water mains were 
made of cast iron. Now much of that pipe has reached the end of its 
life, and water systems are more often experiencing main breaks and 
water loss. AwwaRF estimates there are approximately 238,000 water main 
breaks each year and, on average, water systems lose 10 percent of 
their treated drinking water, mostly due to deteriorated pipes.
    Newport News Waterworks has nearly 2,000 miles of pipeline in its 
system. Our capital investment needs, though small compared to the 
cities I just listed, have averaged more than $10 million dollars per 
year over the last fifteen years.
    Regulatory mandates are another reason for such high infrastructure 
spending needs. New drinking water regulations to remove arsenic from 
drinking water and to control microbial contamination and disinfection 
byproducts will better protect public health, but they come with 
enormous costs.

                             WATER SECURITY

    Compounding these financial burdens are the looming investments 
local water agencies will be forced to make to help protect their 
facilities and consumers from potential terrorist attacks. The American 
Water Works Association estimates that water systems will need to spend 
approximately $1.6 billion on immediate next steps. These steps include 
fencing around facilities and reservoirs, security doors and locks, 
intruder alert systems, better lighting, surveillance cameras to 
monitor entry ways and sensitive facilities, access control and 
barricades around key facilities. Some systems already have some or all 
of these measures in place, while others are in the process of 
installing them.
    According to security consultants in the water sector, studies of 
17 large utilities project overall security costs ranging from $750,000 
to $91 million, averaging $15.5 million per utility. AMWA roughly 
estimates that water systems will spend an average of $8 to $11 per 
individual in a service area to improve security. Another study by 
security consultants estimates that the 450 drinking water systems in 
the United States serving 100,000 or more people will have to spend 
approximately $1.2 billion to harden their facilities against possible 
attacks.

                       METROPOLITAN WATER SYSTEMS

    Most federal drinking water assistance is reserved for smaller 
water systems, and we encourage Congress to increase its assistance to 
metropolitan systems--systems serving 100,000 people or more. Programs 
at USDA serve only rural systems, and EPA's drinking water state 
revolving fund (SRF) is primarily used to resolve regulatory compliance 
problems at small systems. According to EPA, metropolitan systems 
received only five percent of drinking water SRF assistance, even 
though these systems accounted for 20 percent of the estimated needs. 
Thirty states do not provide any assistance to metropolitan systems.
    There are two key reasons why metropolitan water systems do not 
benefit from the drinking water SRF. First, the Safe Drinking Water Act 
directs drinking water SRF funding to systems unable to meet drinking 
water regulations and protect public health. The more common problem 
metropolitan systems face is simply the need to replace aging 
infrastructure. And while aging infrastructure can contribute to public 
health concerns, the drinking water SRF primarily assists small systems 
facing acute problems. The second reason metropolitan systems do not 
benefit from the drinking water SRF is that there just isn't enough 
money in the program.
    Even while the drinking water SRF program is authorized at the 
relatively modest amount of $1 billion, EPA has not asked for and 
Congress has not appropriated more than $850 million for the program.

                               SOLUTIONS

    A lack of increased federal infrastructure funding risks 
jeopardizing public health and the security of our infrastructure. Safe 
drinking water is the first line of defense against deadly waterborne 
viruses, and adequate infrastructure is the key component in the 
effort. Furthermore, with increased funding, water systems will endure 
fewer main breaks and better protect our families from security 
threats.
    To pay these large infrastructure costs, drinking water systems 
across the country will need to rely on a multi-pronged approach 
consisting of rate increases, federal and state funding, asset 
management, consolidation and regionalization, and more efficient use 
of water, among others.
    Water rates are increasing all over the country, but household 
budgets can only absorb so much. Publicly owned utilities are also 
becoming more efficient, and most are engaged in asset management 
programs to help prepare for the future. Beyond these steps, the 
solutions must include a significant investment from the resources of 
the nationwide economy through a long-term funding source. An expanded 
national commitment would account for the external costs endured by 
utilities, such as the cost to treat nonpoint source agricultural 
pollution, MTBE and perchlorate.
    EPA's solution to the infrastructure crisis is to encourage 
administrative improvements at utilities. This and rate increases will 
help to some extent, but they will never be enough. That's why AMWA and 
its 50 other coalition partners in the Water Infrastructure Network 
strongly urge Congress to pass bipartisan legislation to significantly 
increase federal assistance to drinking water and wastewater systems, 
particularly those serving metropolitan areas.
    Not only will increased federal assistance help protect public 
health and the environment, but it will also increase jobs. According 
to government leaders, about 47,500 jobs are created for every $1 
billion spent on infrastructure in the United States.
    We appreciate your attention to the serious matter of drinking 
water infrastructure. We hope that you and your colleagues in the House 
and Senate can develop a mutually acceptable proposal for the sake of 
safe drinking water and American jobs.

    Mr. Gillmor. Thank you, Mr. Ramaley.
    And the next witness is Aaron Colangelo, who is Staff 
Attorney for the National--Natural--National Resources Defense 
Council, otherwise known as NRDC.
    Mr. Colangelo?

                  STATEMENT OF AARON COLANGELO

    Mr. Colangelo. Mr. Chairman, and members of the 
subcommittee, thank you for the opportunity to testify. I am 
Aaron Colangelo. I am a Staff Attorney with the Natural 
Resources Defense Council. NRDC is a national, nonprofit, 
public interest organization with over 500,000 members, and the 
NRDC is dedicated to protecting public health in the 
environment.
    In response to high lead levels in DC water, WASA and EPA 
both missed opportunities to control the contamination in DC, 
both violated drinking water regulations and Federal law, and 
both failed to notify the public of the health threats in a 
timely or meaningful way. In light of these failures, Congress 
should require EPA to establish an MCL, or maximum contaminant 
level, for lead, which will create a clear and enforceable 
legal limit for lead contamination.
    In addition, as many witnesses and members have noted 
earlier this morning, a deteriorating drinking water 
infrastructure in the country has contributed to this public 
health crisis, and has increased the challenge of providing 
safe and affordable drinking water.
    Significant targeted expenditures are necessary, and this 
could include creative financing and creative utility 
management options to start meeting some of these mounting 
infrastructure needs. Finally, a comprehensive reauthorization 
of the Safe Drinking Water Act is necessary to fund key 
components of the Act, including national primary drinking 
water regulations, State revolving funds, technical assistance 
to small water systems, and other provisions.
    Full funding for each of these programs, and many others, 
is integral to successful implementation of the Safe Drinking 
Water Act, and authorization for each of them expired in 2003.
    EPA testified earlier this morning that lead contamination 
is not a national problem. However, EPA's survey of medium and 
large water systems found that at least 10.2 million people are 
served by systems that have lead contamination problems, and 
these are the numbers with only 80 percent of the survey 
results in so far. NRDC believes that this is a national 
problem with lead in drinking water, and it deserves EPA's full 
and immediate attention.
    Earlier witnesses--Mr. Johnson from WASA--mentioned that 
the WASA Board commissioned Eric Holder and a team of his 
colleagues from Covington and Burling to review the lead in 
drinking water crisis in DC and to make recommendations to help 
prevent future problems. The Holder report outlines dozens of 
missteps by both WASA and EPA.
    Among the most striking findings of the Holder report is 
that WASA considered ways to manipulate the lead in drinking 
water numbers at least four times over the past 4 years, and 
this is another reason that an MCL, or maximum contaminant 
level, is a more effective and better and less manipulable 
standard. In particular, WASA improperly invalidated five 
samples in 2000 to 2001, any of which, had they been included, 
would have caused WASA to exceed the lead action level in 2000 
and may have brought this issue to the public's attention years 
earlier.
    There are other indications in the Holder report that WASA 
considered other types of efforts. For example, testing in the 
winter when lower temperatures would mean that lead levels were 
lower in the pipes, expanding the sample size to try to dilute 
the exceedances, or excluding homes with historically high 
levels.
    For the first of these, the invalidation of five samples in 
the 2000 to 2001 testing period, it is clear that WASA did 
that, and there has been no clear explanation why. For the 
remaining three, it is unclear whether WASA did eventually 
attempt to address the exceedance problems in that way, but the 
mere fact that WASA was considering these options is troubling 
and demonstrates that WASA may have been more concerned with 
the administrative burdens of remedying the lead contamination 
problem than with the clear and obvious threat that the 
contamination posed to public health in the District. Having an 
MCL would prevent this kind of thing from happening.
    Also troubling, the Holder report found that, from 
reviewing e-mails and other correspondence between EPA and 
WASA, EPA often knew of WASA's violations of the lead rule and 
endorsed them, and it wasn't until after The Washington Post 
expose in January, and the subsequent community outrage, that 
EPA reevaluated the situation and declared that WASA had 
violated the rules.
    As the report finds, EPA's muted response and missed 
opportunities materially contributed to the problem. EPA knew 
as early as August 2001 that high lead levels were being found 
in DC drinking water.
    In recent months, WASA has asserted that lead in drinking 
water isn't much of a problem, because most people's exposure 
to lead comes from other sources. And earlier today Mr. Johnson 
of WASA testified that DC's lead problem is not a health 
problem, but instead is only a communications issue.
    This is incorrect for several reasons. First, the Holder 
report found this argument to be a distraction that was part of 
WASA's larger efforts to divert attention and downplay the risk 
of lead in drinking water. And, second, the CDC has recently 
analyzed data from DC and found that there is reason to be 
concerned about lead in DC drinking water.
    Another reason to be concerned is that this was the same 
argument that was used to justify maintaining lead in gasoline 
for decades, long past when it had been discovered to be a 
significant and wholly avoidable public health problem.
    Fourth, as recently confirmed by the CDC, the science is 
trending toward the conclusion that very low levels of lead, as 
low as 2 or 3 micrograms per deciliter, pose a health problem 
and can cause measurable and irreversible health effects.
    Also, in response to the argument that the Aqueduct witness 
made earlier today, that chloramines were necessary to control 
disinfection byproducts, increased lead contamination is not 
the necessary outcome of efforts to control other contaminants 
like disinfection byproducts. By improving source water 
protection, enhancing water infrastructure, and modernizing 
treatment technology, the Corps could resolve both of these 
risks at the same time.
    The suggestion of a tradeoff between higher disinfection 
byproducts on the one hand and higher lead levels on the other 
presents a false choice. Also----
    Mr. Gillmor. Mr. Colangelo, could I ask you to try to wrap 
up? Because we are over the time limit, but I also don't want 
to cut out anything important you want to say. But if you could 
try to wrap up.
    Mr. Colangelo. Sure, Mr. Chairman, I will wrap up.
    Mr. Gillmor. We heard the definition of ``soon'' earlier, 
so hope you can wrap up soon.
    Mr. Colangelo. I will wrap up sooner.
    I would just like to mention perchlorate quickly. Several 
members asked about perchlorate earlier this morning. 
Perchlorate is a widespread drinking water contaminant, and it 
is incorrect to say that the Superfund office is best equipped 
to deal with it. I will just make three quick points, and then 
I can--I will be happy to answer any questions about 
perchlorate or any of these other issues.
    First, perchlorate has been used in 49 States and detected 
in the environment in at least 30, and it is not being cleaned 
up in many of these States.
    Second, there is no MCL for perchlorate. EPA recently 
declined to even begin the process of setting an MCL for 
perchlorate, and that means that no maximum contaminant level 
will come for at least 6 years, which is when the process would 
be begun. There is no need to wait for the NAS review before 
beginning that process. When the NAS information comes in, it 
can be incorporated into the MCL standard-setting process.
    And, third, there is a significant problem of EPA and other 
government agencies failing to inform the public about 
perchlorate contamination. EPA imposed a gag order early last 
year barring its scientists from discussing perchlorate. NRDC 
has filed 15 FOIA requests seeking information about 
perchlorate, which have been stonewalled by EPA, the Department 
of Defense, and several White House offices, and we think that 
in addition to keeping important information from the public 
this is exacerbating a public health threat.
    Thank you.
    [The prepared statement of Aaron Colangelo follows:]

    Prepared Statement of Aaron Colangelo, Staff Attorney, Natural 
                       Resources Defense Council

    Thank you for the opportunity to testify. I am Aaron Colangelo, a 
Staff Attorney with the Natural Resources Defense Council (``NRDC''). 
NRDC is a national non-profit public interest organization with over 
500,000 members, dedicated to protecting public health and the 
environment.

                                SUMMARY

    Lead contamination in the District of Columbia is a significant 
public health problem. The D.C. Water and Sewer Authority and the 
Environmental Protection Agency both missed opportunities to contain or 
remedy this contamination, failed to comply with drinking water 
regulations and federal law, and failed to notify the public of the 
health threats in a timely or meaningful way. In light of this failure 
to respond properly to lead contamination, Congress should carefully 
oversee EPA's implementation of its drinking water responsibilities and 
insist on full and effective enforcement of the Safe Drinking Water 
Act. EPA's inaction in response to lead and other drinking water 
contaminants has exacerbated environmental health threats.
    Furthermore, a comprehensive reauthorization of the Safe Drinking 
Water Act is necessary to fund national primary drinking water 
regulations, State Revolving Funds, technical assistance to small water 
systems, and other important components of the act. Full funding for 
these programs is integral to successful implementation of the SDWA, 
and authorization for each of them expired in 2003. Finally, the 
nation's deteriorating drinking water infrastructure has increased the 
challenge of providing safe and affordable drinking water across the 
country and, in the case of lead in D.C., has contributed to at least 
one public health crisis. NRDC proposes significant, targeted 
expenditures and creative financing and utility management options 
below to start meeting some of the mounting infrastructure needs. 
Immediate congressional action is necessary to begin to address 
infrastructure shortfalls.

I. THE DISTRICT'S LEAD IN DRINKING WATER CRISIS THREATENS PUBLIC HEALTH 
                     AND DEMANDS BETTER OVERSIGHT.

    The local drinking water lead crisis poses serious public health 
risks to thousands of residents of the national capital area. The 
Environmental Protection Agency (``EPA'') has not fulfilled its 
obligation to aggressively oversee the safety of D.C.'s water supply, 
to ensure that the public is fully apprised of the health threats posed 
by lead in drinking water, and to enforce the Safe Drinking Water Act 
(``SDWA''). This raises important questions about the adequacy of EPA's 
drinking water program not only in D.C., but across the country. The 
U.S. Army Corps of Engineers' Washington Aqueduct Division (``Corps'') 
has failed to treat the water it delivers to D.C. and neighboring 
Northern Virginia communities sufficiently to ensure that the water is 
not corrosive, in order to reduce lead contamination. The D.C. Water 
and Sewer Authority (``WASA'') failed to act promptly or adequately in 
response to the lead contamination crisis, and neglected to adequately 
and clearly inform the public about the lead problem. A report 
commissioned by the WASA Board of Directors released last week, the 
``Holder Report'', concluded that WASA failed to act promptly after it 
detected high lead levels in D.C. drinking water, and subsequently 
downplayed the scope of the lead contamination and the health threats 
it posed in communications with the public. The nation's capital's 
water supply should be the best in the world, an international model. 
Instead, it is among the worst big city supplies in the nation.
    It should not be assumed, however, that Washington is the only city 
in the U.S. affected by lead or other important tap water problems. 
Although EPA has asserted that lead contamination is not a national 
problem, its own survey of medium and large public water systems shows 
that up to 10.2 million people are served by utilities with lead 
contamination problems. The Lansing, Michigan water utility recently 
announced that it is replacing 14,000 lead service lines because of 
contamination concerns, and several other cities have struggled with 
lead contamination in recent years, including Seattle, greater Boston, 
St. Paul, Minnesota, Bangor, Maine, Madison, Wisconsin, Ridgewood and 
Newark, New Jersey, Oneida, New York, and many others. Yet EPA 
maintains no accurate, up-to-date national information on this issue; 
national drinking water databases required by EPA rules are incomplete 
and out of date. Furthermore, EPA has failed to address state failures 
to comply with federal reporting rules, making effective EPA oversight 
and enforcement impossible.
    School systems in many cities across the country--including in 
Seattle, Boston, Baltimore, Philadelphia, and Montgomery County, 
Maryland--have found serious lead contamination problems, but often 
have been slow to inform parents and resolve the problem. Many school 
systems have entirely failed to comply with the Lead Contamination 
Control Act of 1988's mandate to test school water for lead and replace 
coolers that serve lead-contaminated water. EPA and many states have 
done a poor job of ensuring that the EPA lead rule and the school 
testing and cooler programs are fully implemented. Moreover, the 
Washington D.C. crisis and experience in other cities highlight that 
the EPA lead rule and public education requirements are difficult to 
enforce and ultimately ineffective.
    Data published by the Centers for Disease Control and Prevention 
(``CDC'') recently found that there are--reasons to be concerned 
about--lead in D.C. tap water.<SUP>1</SUP> The CDC analyzed 85,000 
blood lead screenings reported to D.C. since 1998. Although severe 
acute lead poisoning from drinking water exposure was not found, blood 
lead levels in D.C. children who drink water in homes served with lead 
lines did not decrease, whereas they did decrease in children served by 
non-lead lines. This suggests to health experts that lead in tap water 
is likely contributing to higher blood lead levels in some children in 
the District. As Mary Jean Brown, the lead poison prevention chief at 
the CDC, stated to the Washington Post: ``There is no safe level of 
lead. Even a small contribution, especially in small children, is not 
something that we want to happen . . . We don't want to increase the 
blood lead levels of those individuals by even 1 microgram if it can be 
prevented.'' Avram Goldstein, Blood Levels Affected by Disinfectant: 
Study Cites Impact on D.C. Children, Washington Post at B1 (March 31, 
2004). Because of deficiencies in the D.C. blood lead monitoring 
program, and because blood lead levels begin to drop fairly shortly 
after exposure is stopped (with time, much of the lead deposits in bone 
and soft tissue), it is possible that more serious problems were simply 
undetected. It is important to note that new data published in major 
medical journals the past few years show that the most significant 
adverse health effects are seen at levels below 10 micrograms per 
deciliter in blood, where lead has been linked to reduced cognitive 
function, poor school performance, and learning disabilities in 
children.
---------------------------------------------------------------------------
    \1\ CDC, Blood Lead Levels in Residents of Homes with Elevated Lead 
in Tap Water--District of Columbia (April 2, 2004), online at http://
www.cdc.gov/mmwr/preview/mmwrhtml/mm
5312a6.htm.
---------------------------------------------------------------------------
    Furthermore, it is incorrect to assert that lead in drinking water 
is not a problem because it will comprise only a minority of most 
children's total exposure to lead. First, this was the same argument 
used to justify keeping lead in gasoline for decades, which is now 
acknowledged to have been a major (and wholly avoidable) source of lead 
exposure for millions.<SUP>2</SUP> Second, for a significant percentage 
of people, their only exposure to lead is through drinking water, and 
high levels in drinking water alone can cause health problems. Third, 
as noted above and confirmed by the CDC, science is trending towards 
the conclusion that very low levels of lead in blood--as low as two to 
three micrograms per deciliter--can cause measurable and irreversible 
health effects.
---------------------------------------------------------------------------
    \2\ Gerald Markowitz & David Rosner, Deceit and Denial: The Deadly 
Politics of Industrial Pollution at 29, 35 (2002).
---------------------------------------------------------------------------
    Below, we summarize some key problems with the responsible 
agencies' reactions to the lead crisis, and the actions that need to be 
taken to resolve the problem locally and to avoid possible repetition 
of the problem nationally:
    EPA--The EPA bears a special responsibility for addressing the D.C. 
water crisis, because the agency has primary responsibility for 
drinking water protection in the city. EPA must go beyond its recent 
Consent Order with WASA, discussed below, and take stronger emergency 
enforcement action against WASA and the Corps. EPA's dealings with WASA 
and the Corps lack the clarity, detail, and enforceability needed to 
ensure that this problem is promptly resolved. An enforcement order 
should be issued that would both mandate immediate actions to deal with 
the lead crisis in the short term, and require a comprehensive top-to-
bottom review of both WASA and Corps operations, with an eye towards 
effecting positive structural changes in the long term.
    EPA has failed to ensure prompt and accurate public education and 
reporting on lead problems, and there are substantial questions, 
confirmed in the Holder Report, about whether EPA adequately oversaw 
WASA's lead monitoring and sample invalidations. EPA also failed to 
promptly and adequately review--or to insist upon updating--the Corps' 
corrosion control program. It is unclear whether EPA insisted upon an 
adequate and accurate materials survey, and EPA reportedly allowed WASA 
to avoid lead service line replacement by taking advantage of a 
regulatory loophole.
    EPA has been slow to force WASA to redo its invalid school testing, 
or to mandate testing of day care centers or private schools. The EPA 
lead rule itself, which is drafted in a way that makes it very 
difficult to enforce, needs to be substantially strengthened. In 
addition, as noted above, EPA's data reporting systems are inadequate, 
to the point that EPA management cannot accurately and timely answer 
simple questions, such as ``which public water systems are above the 
lead action level and which are replacing lead service lines?'' EPA 
also has done little to ensure that school testing for lead has been 
carried out nationally, perhaps in part due to a court ruling casting 
doubt on the constitutionality of the program: Acorn v. Edwards, 81 
F.3d 1387 (5th Cir. 1996) (holding that a SDWA provision requiring 
states to develop lead testing programs for schools and day care 
centers violates the Tenth Amendment as an unconstitutional 
conscription of state agencies to perform federal regulatory 
functions).
    By a Consent Order negotiated last month, EPA and WASA outlined a 
list of steps that WASA must take to address the lead contamination 
problem. This Consent Order includes basic requirements that 
essentially compel WASA to comply with the EPA Lead and Copper Rule in 
the future, and take some minor additional steps in an attempt to 
redress WASA's past failure to comply. See In the Matter of D.C. WASA, 
EPA Docket No. SDWA-03-2004-0258DS, Administrative Order for Compliance 
on Consent (``Consent Order''). However, the EPA and WASA Consent Order 
falls short of the steps necessary to resolve the D.C. lead in drinking 
water crisis. In particular, the Consent Order fails to include any of 
the following necessary components:

 expedited, valid testing of all schools and day care centers;
 expanded testing of multiple family and single family homes and 
        apartments beyond those with lead service lines;
 reissued accurate, understandable notices to consumers of lead 
        levels, health risks, and options to avoid lead;
 professional installation and maintenance of certified filters for 
        homes with lead service lines or high lead levels in their 
        water, and that have young children, pregnant women, women who 
        expect they may become pregnant, and other high risk 
        individuals;
 an aggressive, honest, ongoing public education campaign developed 
        with public input;
 a comprehensive third-party review of all available records and 
        archives to determine whether the D.C. materials survey 
        correctly identifies all locations where lead components were 
        used;
 an expedited third-party review of the Corps' corrosion control and 
        disinfection byproduct control strategy, with mandatory 
        implementation of solutions by specified dates certain; and
 a top-to-bottom third party expert review of WASA and the Corps' 
        water quality, source water, and overall performance, including 
        a detailed review of their implementation of past consultant 
        recommendations, Comprehensive Performance Evaluations, and 
        sanitary surveys, and recommendations for long-term compliance 
        with current and upcoming rules and water quality objectives. 
        The review should seek public input and should be published.
    Each of these recommended agency actions was first proposed by a 
coalition of public health, environmental, and other public interest 
organizations, of which NRDC is a member, in February 2004. For a more 
detailed discussion, see the LEAD Coalition recommendations attached at 
Appendix A below.
    Army Corps of Engineers--The Corps has failed to ensure that its 
water is adequately treated to reduce its corrosivity and to thereby 
reduce lead levels in Washington and the Northern Virginia suburbs that 
it serves. The Corps has repeatedly responded to water quality problems 
by adopting the cheapest and often least effective band-aid solutions. 
Instead of using orthophosphate or other sophisticated corrosion 
inhibiters, as recommended by its consultants, the Corps chose to 
simply adjust water pH with lime, a cheaper and apparently less 
effective alternative.
    In addition, instead of moving towards advanced treatment such as 
granular activated carbon filters and UV light or ozone disinfection, 
or membranes to reduce cancer-causing (and possibly miscarriage and 
birth defect-inducing) disinfection byproducts, and to more effectively 
remove the dangerous parasite Cryptosporidium and other contaminants, 
the Corps opted for the cheapest and least effective choice. It simply 
added ammonia to its chlorine to make chloramines. The switch to 
chloramines did slightly reduce chlorination byproduct levels, but also 
appears to have increased corrosivity of the water and therefore 
increased lead problems. It should be noted that, contrary to the 
inaccurate assertions of some critics, the EPA rules setting new limits 
on disinfection byproducts were not the result of ``extremist 
environmentalist'' efforts, but were negotiated by a diverse regulatory 
committee over a several-year period. The committee included major 
water utility trade associations, chlorine manufacturers, health 
departments, public health experts, states, local officials, and 
environmentalists (see 1998 agreement in principle at http://
www.epa.gov/safewater/mdbp/mdbpagre.html). Furthermore, increased lead 
contamination is not the necessary outcome of efforts to combat 
disinfection byproducts. By improving source water protection, 
enhancing water infrastructure, and modernizing treatment technology, 
the Corps could resolve both of these risks at the same time. The 
suggestion of a tradeoff between higher disinfection byproducts on the 
one hand and higher lead levels on the other presents a false choice.
    WASA--WASA's response to the lead crisis has been slow, plagued by 
misleading statements to the public and to senior D.C. officials, and 
often characterized by missteps and non-compliance with EPA rules. EPA 
has recently listed six alleged violations of federal regulations that 
may have contributed to the lack of public knowledge. See EPA Non 
Compliance Letter to WASA, dated March 31, 2004, available online at 
http://www.epa.gov/dclead/johnson-letter2.htm. The Holder Report 
outlines other clear WASA violations of federal regulations and 
thoroughly documents years of WASA inaction and inappropriate action in 
response to test results showing high lead levels. In particular, the 
Holder Report (at page 88) notes that WASA deliberately changed the 
required language in its public service announcements regarding lead 
``in ways that downplayed the health issue.''
    WASA's conflicting advice to customers (such as a February 9, 2004 
letter to all customers telling them to flush their water for 15-30 
seconds, followed by a public announcement a few days later to flush 
lead lines for 10 minutes, followed a few days later by a 
recommendation that pregnant women and children under six served by 
lead service lines should use a filter) confused and justifiably upset 
citizens. WASA's invalid testing of city schools, in which virtually 
all samples were taken after water was flushed for 10 minutes (with the 
likely effect of reducing or eliminating lead levels) should be 
disregarded, and WASA should instead conduct a valid school and day 
care testing program. At the mayor's and EPA's insistence, WASA has now 
said it will do additional school testing.
    WASA announced on July 1, 2004 that it intends to replace all lead 
service lines on public property by 2010, and will encourage homeowners 
to replace lead service lines on private property as well. Although 
overdue, this is a positive first step. However, since local and 
federal authorities have approved and encouraged the private use of 
lead service lines in D.C. for over 100 years, we believe that WASA 
should fully remove all of the lead service lines at its expense (with 
federal assistance, as outlined below), instead of stopping at the 
property line. A comprehensive third-party public review of WASA's lead 
program and all water quality operations is also needed.
    Congress--We urge Congress to help D.C. and EPA to fund the 
response to the lead crisis, including lead service line replacement 
and upgrades to the D.C. and Corps water infrastructure. Congress also 
should respond to the national water infrastructure problem through 
national legislation and increased appropriations. In addition, 
Congress should vigorously oversee EPA's drinking water program, 
including its national implementation of the lead rule and its 
enforcement and data collection programs. Members of this Committee 
should urge their colleagues on the Appropriations Committee to 
increase funding for EPA drinking water programs, and particularly for 
drinking water enforcement. We also urge Congress to insist that EPA 
take emergency enforcement action against WASA and the Corps, as 
discussed below.
    Specifically, among the actions that we believe Congress should 
take to address problems raised by the lead crisis are:
Water Infrastructure or Grants/Trust Fund Legislation
 Congress should substantially increase the Drinking Water State 
        Revolving Fund authorization and appropriations (now funded at 
        $850M; authorization of $1B expired in 2003).
 Congress should adopt a broad water infrastructure bill and/or water 
        infrastructure trust fund legislation.
 Congress should adopt targeted legislation for lead rule compliance/
        lead service line replacement and filters for D.C. residents at 
        least, since the federal government approved and oversaw the 
        installation of the lead lines.
 Congress should require the Corps of Engineers to pay for D.C. lead 
        service line replacement, since the Corps built the system and 
        operates the treatment plant that is providing corrosive water. 
        Also, federal agents (federally-appointed Commissioners and 
        engineers) approved and sometimes required lead service lines 
        in D.C.
 Congress should adopt new legislation that provides grants to needy 
        water systems, like the Gibbons-Udall bill (H.R. 1178, 107th 
        Congress) and the Reid-Ensign bill (S. 503, 107th Congress), 
        which would create a small public water system assistance 
        program to provide technical assistance, help maintain level 
        costs for consumers, and enable regulatory compliance.
Fix Lead Pipe and Fixtures provision in the SDWA
 Congress should redefine ``lead free'' in SDWA  1417(d) to mean 
        really lead free (i.e. no lead added, and no more that 0.1 or 
        0.25% incidental lead--as required by Los Angeles and Bangor, 
        Maine)
 Congress should fix the public notice provisions in SDWA  
        1417(a)(2), which clearly have been inadequate (as shown by the 
        D.C. experience)
Fix the SDWA lead in schools and day care provisions (SDWA  1461-
        1463)
 Congress should redefine ``lead free'' in the Lead Contamination 
        Control Act (LCCA), which added SDWA  1461, to mean really 
        lead free (0.1% or 0.25%, see above)
 Congress should order an EPA review of SDWA  1462 implementation and 
        effectiveness of lead fountain recall provision in all states
 Congress should clarify SDWA  1461-63 to eliminate any doubts about 
        constitutionality raised by the decision in Acorn v. Edwards, 
        81 F.3d 1387 (5th Cir. 1996), holding that requiring states to 
        develop school and day care lead testing plans violates the 
        Tenth Amendment;
 Congress should require ongoing retesting of all schools and day care 
        centers in light of Acorn and the resulting widespread non-
        compliance by states, and new info on lead leaching.
Fix the EPA Lead Rule & Associated Regulations
 Adopt a 10 or 15 ppb MCL at the tap. There was an MCL (50 ppb) until 
        1991.
 As a clearly second-best alternative, the EPA lead rule needs serious 
        overhaul:
 Require immediate review of corrosion control programs for systems 
        that make treatment changes, and also require review 
        periodically;
 Change monitoring requirements so systems cannot go for years without 
        testing, and to clarify and strengthen test methods, site 
        selection, and number of tests (50 or 100 per city are not 
        enough);
 Strengthen and overhaul the inadequate public education and public 
        notice requirements in 40 C.F.R. 141.85;
 Require full lead service line replacement, or at a minimum require 
        water systems that approved, authorized, or required use of 
        lead service lines to replace those lines if they are 
        contributing to lead over the action level;
 Require in-home certified filters to be provided to high-risk people 
        who have high lead levels, with water system-supplied 
        maintenance in accordance with 40 C.F.R. 141.100;
 Eliminate the loophole that allows systems to count homes tested at 
        below 15 ppb as if their lead service lines were replaced 
        (``testing in lieu of replacement'') in implementing the 7% per 
        year lead service line replacement provision;
 Require an overhaul and upgrade of EPA's compliance & data tracking.
Fix the Consumer Confidence Report & Right to Know Requirements
 EPA's right to know and consumer confidence report rules need to be 
        overhauled and strengthened. WASA's report declared on the 
        cover ``Your Drinking Water is Safe'' and buried the facts. No 
        one knew of the problem. Similar problems have been documented 
        for water systems across the country.
Fix SDWA Standards Provisions
 Congress should require that standards protect pregnant women, 
        children, vulnerable people;
 Congress should overhaul the new contaminant selection and six year 
        standard review provisions. These provisions have been complete 
        failures since 1996.

    II. AGING WATER INFRASTRUCTURE REQUIRES IMMEDIATE ATTENTION AND 
                          SIGNIFICANT FUNDING.

    Comprehensive water infrastructure legislation, consistent with 
smart growth and water conservation principles, is urgently needed. 
Many drinking water quality and affordability problems can be traced to 
inadequate and aging infrastructure. As noted above, Congress should 
adopt a broad water infrastructure bill or water infrastructure trust 
fund legislation. Any infrastructure legislation should preserve public 
control of all water assets.
    Many cities' water mains and collection systems are 100 years old 
or more, according to EPA review. These aging pipes burst, leak 20 
percent or more of their water, and can allow bacteria growth or 
catastrophic failure leading to contamination. Because of this aging 
infrastructure, there are 200,000 water main breaks per year in the 
United States.
    Over 90 percent of U.S. city water supplies continue to use pre-
World War I technology to treat drinking water, according to an NRDC 
analysis of city treatment systems. Existing treatment often fails to 
remove significant contaminants from drinking water, including 
pesticides such as atrazine, industrial chemicals such as TCE or 
perchlorate, and inorganics such as arsenic or nitrates. Old water 
system pipes, including lead service lines, often leach lead into 
drinking water. Old-fashioned treatment techniques using free chlorine 
disinfection create high levels of disinfection byproducts, 
contaminants that are known to cause cancer and are linked to higher 
rates of miscarriage and birth defects.
    About $1 trillion is needed for drinking water and wastewater 
infrastructure upgrades and rehabilitation over the next 20 years, 
according to the Water Infrastructure Network (a coalition of cities, 
states, utilities, and others). The annual funding shortfall for 
drinking water investment is about $11 billion--and an additional $12 
billion for wastewater investment--according to the WIN study. A 2002 
Congressional Budget Office review was more conservative in its 
estimates, but still found huge 20-year needs of $232 to $402 billion 
for drinking water infrastructure investment, and $260 to $418 billion 
for sewage collection and treatment infrastructure needs. These 
dramatic water infrastructure funding gaps are outlined in Appendix B, 
below.
    NRDC endorses both creative financing options and more efficient 
infrastructure management to start to resolve this urgent problem. 
Increasing State Revolving Fund monies is a necessary first step, and 
municipal bond reform could encourage easier and more tax-exempt bond 
funding of water infrastructure. NRDC also recommends green bonds--
lower interest federal bonds that could fund infrastructure needs. In 
addition, progressive water rates that charge the heaviest industrial 
users more per gallon, instead of less, could be used to establish a 
water infrastructure trust fund. Finally, incentives for green 
infrastructure could provide source water protection and lower-cost 
stormwater solutions that would limit the burden on existing drinking 
water and wastewater systems.

      III. A COMPREHENSIVE REAUTHORIZATION OF THE SDWA IS NEEDED.

    It is important that Congress conduct a comprehensive review and 
reauthorization of the SDWA as a whole. The 1996 SDWA Amendments 
created and authorized numerous new drinking water programs, and 
revised and reauthorized many existing programs, but these 
authorizations expired in 2003. This subcommittee recently considered a 
bill to reauthorize the New York City Watershed Protection Program. 
NRDC strongly supports continued funding for this watershed program, 
but we also believe that it is critical to reauthorize all of the 
important provisions of the SDWA. Each of the following important 
authorizations expired in 2003 and have not been reauthorized:
    Drinking Water Regulations. The heart of the SDWA's drinking water 
program, section 1412 authorizes $35 million/year for studies and 
analyses to support the standard-setting program for establishing 
national primary drinking water regulations to protect public health.
    State Revolving Fund. The biggest expired authorization is $1 
billion/year for the drinking water State Revolving Fund, which was 
established in section 1452 to allow states to operate revolving funds 
that finance loans (and limited grants to disadvantaged communities) to 
facilitate compliance with EPA drinking water rules or to significantly 
further health protection objectives of the SDWA.
    Operator Certification. This program, established in section 1419 
by the 1996 SDWA Amendments, authorizes $30 million/year for EPA grants 
to states to run programs to ensure the proficiency and certification 
of drinking water system operators.
    Capacity Development. Another program established by the 1996 
Amendments (section 1420), authorizes $5 million/year for small system 
technology assistance grants and $1.5 million/year for the small system 
capacity development program.
    Sole Source Aquifer Demonstration Program. The sole source aquifer 
program in section 1427 authorizes $15 million/year for grants to 
protect underground aquifers that are the sole or primary source of 
drinking water for a region against contamination.
    State Wellhead Protection Programs. Section 1428 authorizes $30 
million/year for states to develop and implement wellhead protection 
programs to defend public water supply wells against contamination.
    State Ground Water Protection Grants. The 1996 Amendments 
authorized, in section 1429, $15 million/year in grants to states to 
develop and implement state programs to ensure coordinated and 
comprehensive protection of ground water resources.
    Technical Assistance to Small Water Systems. Section 1442(e) 
authorizes $15 million/year in funding to assist small systems to 
achieve and maintain compliance with national primary drinking water 
regulations.
    State Grants for Public Water System Supervision Programs. Section 
1443(a)(7) authorizes $100 million/year in grants to states to run 
their drinking water programs to supervise the safety of public water 
systems.
    State Grants for Underground Injection Control Programs. Section 
1443(b)(5) authorizes $15 million/year to carry out their underground 
injection control programs that regulate activities such as injection 
of millions of gallons of hazardous waste underground.
    National Assistance Program for Water Infrastructure and 
Watersheds. The 1996 Amendments unconditionally authorized $25 million/
year (and authorized another $25 million/year in any fiscal year for 
which the State Revolving Fund is 75% funded) for grants to states to 
provide technical and financial assistance for the construction, 
rehabilitation, and improvement of public water systems and for source 
water protection programs, in SDWA  1441.
    Records, Inspections, and Monitoring. The SDWA also authorizes $10 
million/year for monitoring for levels of unregulated contaminants in 
drinking water, in  1445(a)(2).
    Source Water Petition Program. Section 1454 authorizes $5 million/
year for grants to states to carry out programs under which water 
systems or municipalities may submit a petition to get funding for 
source water protection programs.
    Drinking Water Studies. Section 1458 authorizes $12.5 million/year 
for studies of waterborne disease, health effects of contaminants on 
pregnant women, infants, children, the elderly, and other vulnerable 
populations, and other important issues regarding the potential impacts 
of drinking water contaminants on public health.
    Thus, it is clear that there are many important drinking water 
programs whose authorizations have expired, and that deserve 
Congressional review and reauthorization.

  IV. AFFORDABILITY CAN BE ACHIEVED THROUGH INNOVATIVE SOLUTIONS THAT 
             PRESERVE EQUAL ACCESS TO SAFE DRINKING WATER.

    NRDC strongly believes that all Americans deserve water that is 
safe to drink and affordable. NRDC recognizes the special challenges 
faced by small water systems and believes that the best approach to 
dealing with small system affordability issues is to encourage 
cooperative strategies, innovative small system package treatment and 
source protection, and targeted public funding. A blanket exemption for 
certain contaminants for small systems is not a viable approach, and 
would inappropriately create a ``second tier'' of lower quality tap 
water for the users of small systems.
    In many areas of the country, cooperative strategies such as 
regionalization and consolidation would substantially help resolve 
affordability concerns by achieving greater economies of scale and 
making the provision of drinking water more efficient. To promote 
drinking water affordability, we also endorse a program that would help 
low-income consumers pay for their water bills--a Low Income Water 
Assistance Program (``LIWAP'')--similar to the existing Low Income 
Heating and Energy Assistance Program (``LIHEAP''). Furthermore, NRDC 
endorses increasing funding for the Drinking Water State Revolving Fund 
(``DWSRF''), with special consideration given to assisting small 
systems.
    EPA convened a National Drinking Water Advisory Council (``NDWAC'') 
Work Group on National Small Systems Affordability Criteria in 2002. 
The Work Group was asked to provide advice to the NDWAC, which in turn 
provided recommendations to EPA in a July 2003 report. In this report, 
the NDWAC recommended that EPA rely on cooperative strategies, targeted 
funding to disadvantaged communities, a LIWAP, and other methods to 
address the affordability problem without creating a less-protected 
class of drinking water consumers. NRDC supports the conclusions of the 
NDWAC affordability report.

   V. EPA'S FAILURE TO REGULATE PERCHLORATE THREATENS PUBLIC HEALTH.

    Nearly eight years after the 1996 SDWA Amendments, EPA has failed 
to set a single new drinking water standard, or even propose to start 
adopting one, under SDWA section 1412. Yet a number of contaminants--
including perchlorate, for example--have now been detected at risky 
levels in millions of Americans' tap water. Congress should direct EPA 
to set an MCL for perchlorate.
    Perchlorate is a widespread toxic chemical that is used in large 
quantities in rocket fuel, as well as in explosives, road flares, and 
fireworks. Perchlorate blocks iodine from entering the thyroid gland, 
thereby interfering with normal thyroid hormone production. Because 
normal levels of thyroid hormone are critical to the development of the 
brain, perchlorate poses especially high risks to newborn babies and 
fetuses, and to people who already have thyroid problems or iodine 
deficiency, including 15 percent of U.S. women of childbearing age. 
Scientific evidence shows that low-level perchlorate exposure causes 
health risks. Studies dating back to 1952 show that perchlorate 
disrupts the thyroid and can cause adverse health effects. Perchlorate 
affects thyroid hormone levels at very low concentrations: in one 
study, investigators could not rule out effects in rats at the 
miniscule dose of 0.01 mg/kg/day.
    Epidemiological studies show noteworthy effects in newborns exposed 
to perchlorate in utero. In one study, California infants whose mothers 
drank water contaminated with perchlorate at 1-2 parts per billion 
showed altered levels of thyroid hormones. In a second study, conducted 
by the Arizona Health Department, infants born in a city with low 
levels of perchlorate contamination in the drinking water (below 10 
parts per billion) showed significantly different thyroid hormone 
levels than infants born in another Arizona city with no perchlorate 
contamination.<SUP>3</SUP> Both iodide deficiency and changes in 
thyroid hormone levels can cause irreversible damage to infant and 
fetal brains; even small changes in maternal thyroid hormone levels can 
decrease IQ in the child.<SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ Brechner R, Parkhurst G, Humble W, Brown M, Herman W. Ammonium 
Perchlorate Contamination of Colorado River Drinking Water Is 
Associated with Abnormal Thyroid Function in Newborns. Journal of 
Occupational and Environmental Medicine. 2000; 42:777-782.
    \4\ Porterfield SP. Vulnerability of the developing brain to 
thyroid abnormalities: Environmental insults to the thyroid system. 
Environmental Health Perspectives 102 (Supp 2): 125-130, 1994. Dussault 
JH, Ruel J. Thyroid hormones and brain development. Ann Rev Physiol 
49:321-334, 1987.
---------------------------------------------------------------------------
    Perchlorate has been used in significant quantities in at least 49 
states, and was released into the environment in at least 30 states. It 
contaminates over 20 million Americans' drinking water--in, for 
example, Los Angeles, San Diego, Phoenix, Las Vegas, and much of 
Southern California--above EPA's draft safe level. It is thus an 
extremely widespread and dangerous pollutant.
    In addition to causing widespread tap water contamination, 
perchlorate has found its way into the nation's food supply, and has 
been detected in fruits, vegetables, fish, animal feed, and milk 
(perchlorate has been reported in both human breast milk and in cows 
milk). Lettuce has been shown to absorb and retain perchlorate 
contained in irrigation water, and recent reports find that perchlorate 
also accumulates in melons, blackberries, strawberries, cucumbers, 
soybeans, and mustard greens in the same manner. It likely also 
contaminates and accumulates in other crops for which no test results 
have been conducted or made public.
    A single facility in Henderson, Nevada has created an unprecedented 
perchlorate contamination plume--polluting Lake Mead and the entire 
Colorado River downstream of the Hoover Dam, as well as the drinking 
water of at least 15 million people in Southern California, Nevada, and 
Arizona. Despite years of cleanup efforts overseen by the State of 
Nevada, 200 pounds of perchlorate per day continue to enter the 
Colorado River from this site in Henderson, averaging 3 tons a month of 
additional contamination. To NRDC's knowledge, this plume affects more 
people than any other single drinking water contamination source in the 
United States. A second, slightly smaller perchlorate plume has also 
been found in Henderson; this one has not yet reached the Colorado 
River, but soon will if aggressive cleanup efforts are not put in 
place.
    To date, the Environmental Protection Agency's response has been to 
do little or nothing about the perchlorate contamination crisis. It has 
spent 18 years evaluating and re-evaluating the health risks posed by 
perchlorate-contaminated drinking water. In July 2003, EPA closed its 
multi-year perchlorate review by refusing to establish an enforceable 
drinking water standard for the chemical, saying more study is needed. 
Also in 2003, EPA requested that the National Academy of Sciences (NAS) 
review perchlorate's health effects. The NAS review panel included 
several scientists who, as lobbyists or expert witnesses for the 
defense industry, had clear financial conflicts of interest. So far in 
the course of the NAS review, two panel members have been forced to 
resign because of direct industry ties and financial conflicts of 
interest. See Peter Waldman, Perchlorate Panel Member Resigns, Wall 
Street Journal (June 11, 2004). However, at least one other panel 
member with direct industry connections and a financial stake in the 
perchlorate review has been allowed to remain on the panel.
    Also last year, EPA management issued a gag order to agency staff 
banning scientists from publicly discussing the risks posed by 
perchlorate. The order came on the heels of the release of two 
studies--one conducted by EPA--revealing perchlorate contamination in 
lettuce grown with water from the Colorado River. In addition to 
mismanaging the standard-setting process, the EPA has not made cleanup 
or regulatory action on perchlorate a priority. Thus, plumes across the 
country have languished for years without adequate attention.
    EPA and the Department of Defense have stonewalled public efforts 
to learn more about the scope of perchlorate contamination nationwide. 
To get more information about the government's action (and inaction) on 
perchlorate, NRDC filed several Freedom of Information Act requests 
with government agencies for details on the extent of contamination, 
health risks, and government coordination with defense industry 
contractors. EPA and the Department of Defense refused to answer these 
information requests for over a year, requiring NRDC to file a lawsuit 
this spring to force a response. The agencies' refusal to release 
information about perchlorate contamination deprives the public of 
important information about a threat to public health.

                               CONCLUSION

    Congress should carefully oversee EPA's implementation of its 
drinking water responsibilities and insist on full and effective 
enforcement of the Safe Drinking Water Act. EPA's inaction or delayed 
action in response to lead, perchlorate, and other contaminants in 
drinking water has exacerbated environmental health threats. 
Furthermore, a comprehensive reauthorization of the SDWA is needed to 
fund the heart of the statute's drinking water program--national 
primary drinking water regulations--as well as every other important 
component of the act. Finally, the nation's deteriorating drinking 
water infrastructure has increased the challenge of providing safe and 
affordable drinking water across the country and, in the case of lead 
in D.C., has contributed to at least one public health crisis. The 
significant, targeted expenditures and creative financing and 
management proposals outlined above are necessary to start meeting some 
of the mounting infrastructure needs.

                               APPENDIX A

                    LEAD COALITION'S RECOMMENDATIONS

    Lead Emergency Action for the District (LEAD), a coalition of local 
and national health, environmental, and other citizen organizations of 
which NRDC is a member, recommended the following actions in February. 
The EPA and WASA Consent Order of June 2004 does not satisfy any of 
these recommendations.
1. The U.S. Environmental Protection Agency (EPA) has the 
        responsibility to immediately take enforcement action against 
        WASA to ensure our health is protected, and should initiate a 
        full criminal and civil enforcement investigation.
    The EPA has primary responsibility for overseeing the safety of the 
District's drinking water supply. Unlike its vigorous actions to 
resolve microbiological threats a decade ago, the agency has shirked 
its responsibility in response to the recent lead problem. The EPA 
should immediately initiate an enforcement action under its emergency 
order authority (which allows the EPA to enforce when there is an 
imminent health threat, requiring no finding of a violation of law), 
and should initiate a parallel criminal and civil enforcement 
investigation. The EPA order should mandate several specific actions, 
including enforceable deadlines for:

(a) Expedited, valid testing of all schools and day care centers, both 
        first draw and flush samples.
(b) Expanded testing of homes beyond those with lead service lines. 
        WASA should arrange free water lead tests for all D.C. 
        residents. (This is what the New York City Department of 
        Environmental Protection has been doing for more than 10 
        years.) Notice of these free lead tests should be drafted in 
        consultation with EPA and the public, and should note the 
        health implications of elevated lead levels in water and the 
        threat from lead paint in D.C.
(c) Reissued accurate, understandable notices to consumers of lead 
        levels, health risks, and options to avoid lead, by mail and 
        through broadcast media. WASA should be required to immediately 
        notify all D.C. households whether they are believed to have 
        lead service lines or not, what the risks are, and should 
        arrange for free lead testing of any tap water on request. 
        Notices similar to those recently sent to lead service line 
        customers should be sent to customers who are not believed to 
        have lead service lines noting that there still may be a risk 
        of lead contamination, and offering to arrange for free lead 
        testing.
(d) Professional installation and maintenance of certified filters for 
        homes with lead service lines or high lead levels in their 
        water, and that have young children, pregnant women, women who 
        expect they may become pregnant, and other high risk 
        individuals.
(e) An aggressive, honest, ongoing public education campaign developed 
        with public input. This should include several specific 
        requirements, such as:
    i) WASA should send all D.C. residents a detailed city-wide map of 
            all areas with known or suspected lead service lines with 
            accompanying health and other explanations.
    ii) WASA should disclose detected lead levels on the city-wide map, 
            and should provide real time monitoring results for lead 
            and all contaminants found in its water.
    iii) WASA must notify any home with a lead service line that has 
            been found to have excessive lead in an appropriate water 
            test that it is eligible for free lead service line 
            replacement, and the schedule for replacement. The notice 
            should also note whether WASA is responsible for only part 
            of the service line replacement or full service line 
            replacement under D.C. law.
    iv) EPA and WASA must issue notices that publicly recommend that 
            those pregnant women, or parents of young children, with 
            lead service lines or whose water lead levels are in excess 
            of EPA's Action Level (or some other reasonable safety 
            level), should obtain blood screening for lead for their 
            children. This is not an emergency that would require going 
            to the emergency room, but it is a matter of importance, 
            and blood tests for lead levels should be provided by the 
            D.C. Department of Health.
(f) A comprehensive third-party review of all available records and 
        archives to determine whether the D.C. materials survey 
        correctly identifies all locations where lead components were 
        used;
(g) An expedited third-party review of the Corps' corrosion control and 
        disinfection byproduct control strategy, with mandatory 
        implementation of solutions by specified dates certain; and
(h) A top-to-bottom third party expert review of WASA and the Corps' 
        water quality, source water, and overall performance, including 
        a detailed review of their implementation of past consultant 
        recommendations, Comprehensive Performance Evaluations, and 
        sanitary surveys, and recommendations for long-term compliance 
        with current and upcoming rules and water quality objectives. 
        The review should seek public input and should be published.
2. EPA should immediately take enforcement action against the Army 
        Corps of Engineers' Washington Aqueduct and order it to 
        aggressively treat the water to reduce lead leaching.
    The EPA's 1991 lead and copper regulations require the Washington 
Aqueduct to treat our water in order to reduce its corrosivity; less 
corrosive water should mean less lead leaching from pipes. While the 
Corps and WASA do have a corrosion control program (albeit one that 
reportedly was reviewed by the EPA far later than envisioned by the 
1991 rules), it is obvious that it must be critically examined and 
improved. Recent changes in water treatment at the Washington Aqueduct 
(apparently made after the corrosion control plan went into effect), 
aimed at reducing disinfection byproducts, may have altered the 
chemistry of the city's water. An urgent independent review of the 
corrosion control plan is warranted, with EPA-ordered steps to 
implement recommended actions. Deadlines should be established for 
completion of the review and implementation of its recommendations, and 
the results should be made public as soon as they are completed. When 
WASA was constituted, it entered into a governance agreement with the 
city of Falls Church and Arlington County over Washington Aqueduct, 
with oversight over expenses and actions. WASA and other customers 
should long ago have insisted upon improvements in the Washington 
Aqueduct's corrosion control program.
3. WASA must re-conduct its testing of District school water to be sure 
        that all drinking water fountains and all faucets used for 
        consumption in District schools and day care centers are 
        tested--both first draw and flushed samples--within two weeks.
    WASA's recent water test results were highly misleading because 
more than 97 percent of the samples taken were from faucets and 
fountains flushed for 10 minutes. Since no student flushes a fountain 
for 10 minutes before taking a drink, flushing water for a test sample 
would create misleading samples and test results. (Flushing often will 
reduce or eliminate lead levels in large buildings.) Since infants and 
young children are most vulnerable to lead poisoning, schools and day 
care centers should be top priorities for testing.
4. EPA and Congress should help WASA and the D.C. government fund home 
        treatment units or bottled water for pregnant women and infants 
        under age 6 in households that have lead service lines or lead 
        in the drinking water at levels above the EPA action level.
    There are likely thousands of pregnant women and young children 
under the age of 6 who are drinking tap water that contains lead at 
levels higher than 15 parts per billion, EPA's action level. These 
people need a safe alternative water supply until the problem has been 
resolved. The D.C. government, EPA and Congress should fund alternative 
water supplies for high-risk water drinkers. Bottled water is not 
necessarily any safer than tap water unless it is independently tested 
and confirmed to be pure, and many filters are not independently 
certified to remove the levels of lead found in many D.C. homes' water. 
Therefore, EPA should assist residents by assuring that any alternative 
water supply (such as bottled water) is indeed free of lead and other 
harmful contaminants, or that a filter is independently certified (see 
www.nsf.org) to take care of lead. It should be noted that NSF 
certifies only that lead levels up to 150 ppb will be reduced to below 
10 ppb; there is no guarantee for reducing levels above 150 ppb. 
Finally, it is critical that WASA and other officials involved ensure 
that there is a follow-up program for maintenance of filters, since 
poorly maintained filters can fail to remove lead or even make 
contamination worse.
5. WASA should expedite replacement of lead service lines, and the City 
        Council should review policies on replacement of the 
        homeowner's portion of the line.
    Under EPA's lead and copper rule, WASA reportedly has begun to 
implement its obligation to replace 7 percent of the District's lead 
service lines (or to test and clear homes served by lead service lines 
as containing less than 15 ppb lead in their water) each year. At this 
pace it will take nearly 15 years--until about 2018--for WASA to 
replace all the city's lead service lines. In the meantime, thousands 
of pregnant women, infants and children could be consuming water with 
excessive lead levels. We strongly urge that the lead service line 
replacement program be aggressively expedited. A schedule should be 
published, with objective criteria for which lines will be replaced 
first (presumably based primarily upon replacement of those lines 
posing the greatest public health risk first). Federal and city general 
funds should be set aside for this program to augment promised rate 
increases on our water bills. WASA customers should not foot the entire 
bill, since the decisions to approve the use of lead service lines were 
made with the explicit approval and oversight of federal officials who 
were overseeing the construction of the city's water lines and supply. 
There was a vigorous public debate about the safety of lead service 
lines stretching back to the 1890s, yet federal officials who ran the 
city supply decided to use lead lines. District officials also should 
consider using the city's multimillion dollar rainy-day fund to help 
pay for service line replacements.
    In addition, the City Council should review WASA's and the city's 
policy about lead service line replacement for the portions of the line 
that are supposedly owned by homeowners. Evidence is mounting that 
partial lead service line replacement often will not solve the problem, 
and actually can make lead levels worse by shaking loose lead in the 
pipes and causing galvanic corrosion that may exacerbate lead problems.
    Under recent EPA rule changes, it is apparently up to the City 
Council to determine how much of the service line should be replaced by 
WASA. In 1991, EPA originally required full lead service line 
replacement unless the water utility could prove that it did not 
control part of the line, in which case it was to replace only that 
portion that the utility controlled. After being sued successfully by a 
water industry group, the EPA changed the rules to provide that it is 
largely a question of local law what portion of the lead service line 
is the responsibility of the water utility. We believe that it is only 
fair that since many of the lead service lines were installed from the 
1890s through the 1940s under the direction, approval and control of 
the District and federal officials, those authorities should be 
responsible for replacing them, not homeowners. The cost to homeowners 
of their portion of lead service line replacement could be thousands of 
dollars, but it is far more efficient and cost-effective to replace the 
entire service line at once, rather than digging up yards twice. This 
is a question that deserves a full public airing by the City Council.
6. The City Council should create a permanent citizen water board for 
        water to oversee WASA and the Washington Aqueduct, to address 
        longstanding problems with D.C.'s water supply.
    In 1996, the Natural Resources Defense Council (NRDC), Clean Water 
Action (CWA), and the DC Area Water Consumers Organized for Protection 
(DC Water COPs) issued a report, based in large part on city and 
federal records obtained under the Freedom of Information Act. That 
report found serious ongoing problems with the District's water, and 
identified likely problems that could occur in the future. Among the 
current and future problems noted were lead contamination, bacteria and 
parasites, cloudiness (turbidity) in the water--which may indicate poor 
filtration and can interfere with disinfection--and disinfection 
byproducts that cause cancer and may cause birth defects and 
miscarriages. The report also noted that the Washington Aqueduct's 
water treatment plants need a major infusion of funds to modernize and 
upgrade treatment, and that the District has ancient and deteriorating 
water pipes leading to water main breaks, regrowth of bacteria, and 
lead problems. Those pipes must be replaced. In addition, the WASA-
operated sewage collection and treatment systems have serious 
inadequacies, including major problems whenever stormwater runoff 
overloads the treatment plant's capacity, causing raw sewage to flow 
into the Anacostia and Potomac rivers.
    In the wake of the D.C. citywide boil-water alerts in 1993 and 1996 
due to turbidity and bacteria problems, and EPA's enforcement orders 
issued thereafter, comprehensive sanitary surveys and engineering 
reviews by outside contractors found a series of serious problems with 
our water treatment and distribution system. These reviews recommended 
hundreds of millions of dollars in improvements in the city's water 
supply system.
    While the city has addressed some of the most pressing problems, it 
has not made many of the important investments needed to repair local 
water infrastructure. We strongly recommend that the City Council 
establish a citizen water board to oversee the city's water supply and 
sewer system. The board should oversee not only steps to improve our 
drinking water system, but also WASA's storm water and sewer 
obligations, because of the overall competition for water 
infrastructure dollars and need to focus on whole watershed and ``sewer 
shed'' solutions. This board--like those created by some states to 
oversee electric and other utilities--should be funded with a small 
surcharge on water and sewer bills, and should be wholly independent of 
WASA and the Washington Aqueduct. It should include independent 
engineering and public health experts and citizen activists interested 
in drinking water, and should issue an annual progress report on WASA's 
and the Washington Aqueduct's performance, progress and problems.
7. The City Council must improve its oversight of WASA.
    The District's City Council is responsible for overseeing WASA's 
day-to-day activities, and has failed to do its job over recent years 
to make sure that WASA is carrying out its responsibilities to deliver 
safe drinking water and to safely collect and fully treat city sewage. 
More aggressive City Council oversight is needed to avoid continued 
problems with WASA.
8. The mayor should make tap water and all environmental protection a 
        high priority.
    The mayor should make drinking water safety, sewage collection and 
treatment and environmental protection a high priority. The mayor bears 
some responsibility for ensuring that WASA is doing its job. He has 
many ways to influence WASA's board and daily operations, and should 
insist on regular briefings and updates on how the city is fulfilling 
its obligations to provide these most basic city services.
9. Consumers, health, and citizens groups should be on the blue ribbon 
        commission, and should recommend people to serve on the panel.
    The announced ``independent'' panel to review WASA's embarrassing 
performance in addressing the lead problem has instead morphed into an 
internal review panel of city officials, including two of the WASA 
officials who so obviously have failed to do their jobs. In order to 
avoid a panel that merely papers over the problems and whitewashes the 
lead crisis, LEAD is calling upon city officials to name independent 
experts, consumers, citizen groups and environmentalists to the panel.
10. The EPA, CDC, the D.C. Dept of Health and the City Council should 
        establish a joint task force with citizen participation, to 
        evaluate the extent of lead poisoning from all sources in the 
        District, and its environmental justice implications, 
        particularly for low-income African-American and Latino 
        households.
    According to expert estimates, the District has widespread lead 
poisoning, affecting perhaps tens of thousands of District children. 
Because of the city's demographic and economic realities, most of these 
children are African American and Latino. The District and federal 
officials should establish a joint task force, with citizens and 
medical experts, to evaluate the extent of the problem and its 
environmental justice implications, and to recommend actions to remedy 
it.
[GRAPHIC] [TIFF OMITTED] T5462.001

    Mr. Gillmor. Thank you.
    Our next witness is Donald Correll, who is the President 
and the CEO of Pennichuck Corporation, and he is representing 
the National Association of Water Companies. And he is 
represented by one of our distinguished colleagues, Charlie 
Bass.
    Charlie, do you have anything----
    Mr. Bass. If the chairman would be kind enough to yield 
slightly out of order, I want to welcome you here. And I 
apologize, I have an unbreakable commitment at noon. And so if 
the chair would be so good as to allow me to invite Mr. Correll 
to visit me later on after he has testified, I would love to 
hear what he has to say.
    I want to thank you for being here today. Pennichuck 
Waterworks is a great constituent and provides water service 
for the city of Nashua.
    And I thank the chairman for yielding to me for that 
comment.
    Mr. Gillmor. Thank you, Mr. Bass.
    Mr. Correll?

                 STATEMENT OF DONALD L. CORRELL

    Mr. Correll. Thank you. Mr. Chairman, members of the 
committee, thank you for the invitation to testify today before 
your committee. My name is Don Correll, and I am President and 
CEO of Pennichuck Corporation.
    Pennichuck was founded in 1852 and has grown to become the 
largest investor-owned water company in the State of New 
Hampshire, serving a population of 120,000 people in 22 
communities in southern New Hampshire and in Massachusetts. 
Pennichuck is, in fact, the oldest, continuously operating 
business in the State of New Hampshire.
    I am testifying today on behalf of the National Association 
of Water Companies. The NAWC is the only national organization 
exclusively representing all aspects of private and investor-
owned water industry. The NAWC has more than 150 members, which 
in turn own or operate thousands of utilities in 38 States 
around the country.
    I commend the subcommittee for tackling the complex issue 
of drinking water safety, and specifically the lead problems we 
have seen. Many of these issues are related to the broader 
infrastructure problem this committee has been looking at for 
quite some time, and let me start there and then I will talk 
specifically about the lead.
    Cities, towns, and utilities face a major challenge over 
the next several decades replacing aging and worn-out drinking 
water infrastructure. According to the EPA, utilities will 
spend hundreds of billions of dollars over the next 2 decades 
replacing the aging infrastructure. The Congressional Budget 
Office and the GAO have done similar studies, and their cost 
estimates are similar to the EPA's.
    Utilities and localities must take the lead in addressing 
this infrastructure challenge by assessing the many 
organizational, managerial, and financial tools at their 
disposal. Clearly, the Federal Government has a role in 
assisting in this challenge, but that role should not be to 
take on the major financial responsibility for infrastructure 
replacement.
    This would cause a drain on the U.S. Treasury for something 
that should continue to be the responsibility of our industry, 
municipalities, and our customers. Instead, the Federal 
Government's role should be to encourage utilities to pursue 
smart management practices that will lead utilities to 
efficient operations, good service, and economic self-
sustainability.
    These practices include utility consolidation, sound asset 
management, public-private partnerships, and full cost of 
service rates. In my written statements, I go into these four 
areas in depth. However, due to our time constraints today, I 
will only touch on two. However, I encourage the subcommittee 
to keep in mind all of these practices when considering and 
debating any infrastructure legislation down the road.
    Let me talk first about asset management. Utilities manage 
their infrastructure assets, such as pipelines and other 
equipment, to maximize the useful life of the assets, increase 
efficiency, minimize costs, and maintain service to customers. 
Careful management of assets is essential if we are to 
successfully meet the infrastructure financing challenge.
    Successfully managing our system in Pennichuck, which now 
amounts to over 500 miles of mains for a century and a half, I 
can assure you that we have consistently applied sound 
management practices in managing the assets of our company. 
However, many localities do not have in place such asset 
management plans. In fact, the GAO has estimated that as many 
as 25 percent of all utilities do not have such a plan.
    This is an area where there is much room for improvement, 
and Congress should, therefore, encourage as part of the SRF 
funding process the implementation of sound asset management 
practices.
    Another area I would like to spend a moment on is public-
private partnerships. Municipalities, large and small, all over 
the country have realized great savings and success through 
partnerships with private firms. These partnerships take many 
forms, but can be broadly broken down into three categories--
privately owned utilities regulated by State and Federal 
institutions, municipal utilities contracting out small 
portions of their operations such as billing and meter reading, 
and multi-year, all-inclusive management contracts wherein a 
private firm runs and manages most or all of the aspects of a 
municipally owned utility.
    Cost savings that localities have realized over the years 
from such arrangements range up to 40 percent, which could free 
up much-needed capital for infrastructure replacement without 
burdening either the customers or the American taxpayer. 
Congress should encourage utilities to consider and pursue 
these creative public-private partnerships.
    Another role in the Federal Government--for the Federal 
Government, and specifically for Congress, in passing 
legislation to eliminate the State volume caps on private 
activity bonds and water and wastewater--for water and 
wastewater projects. While I know that is a change in the tax 
code that is not under the jurisdiction of this committee, such 
a change is perhaps the simplest and most effective way to 
provide capital for infrastructure projects.
    In fact, billions of investment dollars would be stimulated 
by this tax change, but it will cost the Federal Government 
less than $150 million over 10 years according to the Joint 
Committee on Taxation.
    Now, let me turn just for a moment on the lead issue. The 
NAWC does not have all the details on what has transpired in 
Washington. We do, however, believe that this is an important 
issue, and that an independent study of the drinking water lead 
contamination incidence should be undertaken to evaluate what, 
if any, changes may need to be made in the law or regulation.
    Based on recent U.S. EPA data, there is no reason at this 
time to believe that there is a nationwide problem that would 
require changes to the SDWA, and the NAWC believes that the 
corrosion control under the lead and copper rule has been an 
effective means of reducing exposure to drinking water.
    The current requirements protect public health, and the 
U.S. EPA is currently engaged in an extensive national review 
of the lead and copper rule implementation to identify how well 
the rule is performing across the Nation and what gaps exist in 
Federal guidance and regulation. We should not consider 
revising the lead and copper rule until at least that review is 
completed.
    We appreciate the leadership role that this subcommittee 
has taken to address water infrastructure problems, and we also 
appreciate the concern that you have expressed regarding the 
need for cost effective solutions. And we look forward to 
working with the committee to meet these challenges and to move 
the industry to economic self-sufficiency.
    Thank you.
    [The prepared statement of Donald L. Correll follows:]

Prepared Statement of Donald L. Correll, President and CEO, Pennichuck 
                              Corporation

    Mr. Chairman and members of the subcommittee, thank you for the 
invitation to testify before you today.
    My name is Donald Correll. Since August of 2003 I have served as 
President and CEO of Pennichuck Corporation. Pennichuck Water Works was 
founded in 1852 and has grown to become the largest investor-owned 
water company in the state of New Hampshire, serving a population of 
120,000 people in 22 communities throughout southern New Hampshire and 
in Massachusetts.
    Pennichuck Corporation is a holding company with five wholly owned 
operating subsidiaries. The Company is comprised of three private water 
utilities, Pennichuck Water Works, Inc., Pittsfield Aqueduct Company 
and Pennichuck East Utility that are regulated by the New Hampshire 
Public Utilities Commission, and two non-regulated companies, 
Pennichuck Water Service Company and The Southwood Corporation. 
Pennichuck is the oldest continuously operated company in New 
Hampshire.
    Prior to joining Pennichuck, from 1990 to 2001, I served as 
Chairman and CEO of United Water, one of the largest water service 
companies in the United States with operations and investment in 19 
states, Canada, Mexico and the UK. I also serve as an advisory director 
with Underground Solutions Inc., a water technology and service 
company, based in Sarver, Pennsylvania, which is involved in the water 
infrastructure industry.
    I am testifying today on behalf of The National Association of 
Water Companies, NAWC is the only national organization exclusively 
representing all aspects of the private and investor-owned water 
industry. The range of our members' business includes ownership of 
regulated drinking water and wastewater utilities and the many forms of 
public-private partnerships and management contract arrangements. NAWC 
has more than 150 members, which in turn own or operate thousands of 
utilities in 38 States around the country.

                       ROLE OF THE PRIVATE SECTOR

    The private sector has long played a vital role in the provision of 
water in our nation, and stands ready to do much more. The privately 
owned water utility business traces its roots back to before the very 
existence of our nation. And today, one out of every six Americans 
receive their drinking water service from a private water company.
    However, outright private ownership is but one-model localities can 
pursue as a means of addressing their infrastructure challenges. 
Another large and growing option is some form of public-private 
partnerships, including contract operations, wherein the municipality 
retains ownership of the asset; in this case a water utility and its 
infrastructure, but the management and operations of the facility are 
contracted out to a private company.
    Management contract or public-private partnership arrangements 
between municipalities and private companies represent a newer model 
(started in the 1970s), and have become hugely popular in a very short 
period of time. Today, private firms operate more than 2,400 publicly 
owned water and wastewater facilities for nearly 2,000 municipalities. 
Such arrangements have proven to be very popular with municipalities 
and enjoy a 90% contract renewal rate.
    History has shown that the private sector can and does provide the 
public with safe and efficient water service through market-based 
solutions. The private water industry has been on the cutting edge of 
technical innovation and research. Furthermore, in this time of 
increased utility security awareness, the private sector has once again 
been on the forefront of these initiatives, bringing to the industry 
firsthand security experience derived from working in some of the 
world's hot spots.

            THE AGING INFRASTRUCTURE CHALLENGE AND SOLUTIONS

    NAWC commends the Subcommittee for tackling the complex issue of 
safe drinking water and specifically the lead problems we have seen. 
Many of the issues are related to the broader infrastructure problem 
this committee has been looking at for some time. Let me start there, 
and then I will talk specifically about the lead issue.
    It has been well established from a number of sources that cities, 
towns and utilities face a major challenge over the next several 
decades replacing aging and worn-out drinking water infrastructure. 
According to the EPA infrastructure gap analysis, issued in 2002, 
drinking water systems will spend between $154 and $446 billion through 
2019. Wastewater systems will spend between $331 and $450 billion over 
that same period. In addition to EPA, the Congressional Budget Office 
and the General Accounting office have done studies on the country's 
infrastructure challenge and their cost estimates are similar to EPA's.
    Utilities and localities must take the lead in addressing this 
infrastructure challenge by accessing the many organizational, 
managerial and financial tools at their disposal. Clearly, the Federal 
Government has a role in assisting with this challenge, but that role 
does not need to be taking on the major financial responsibility for 
infrastructure. Instead the role should be to encourage utilities to 
pursue smart business-like management practices including improving 
operating efficiencies to free up cash for infrastructure replacement, 
charging what it costs to provide the service including capital 
investments, selecting cost-effective infrastructure replacement 
technologies, and implementing an infrastructure replacement program 
that will assure the utility's viability.
    Public-private partnerships can often provide a proven model for 
accomplishing all of the above. Direct government loan assistance to 
utilities is another government role, but, like the Drinking Water-SRF, 
should be carefully managed and targeted only where and when necessary. 
An inappropriate role of government would be to subsidize the water 
industry indefinitely with a massive federal grant program, as some 
have advocated.
    Grants are a very inefficient method of providing assistance to 
utilities. Grants send the wrong conservation signals and can result in 
bad management practices,
    The Construction Grants Program of the 1970s had many problems, 
which could very likely be reborn if a similar program were 
reconstituted. Those problems included procurement regulations that 
discounted quality for the sake of lowest price, lack of reliable 
capital replacement accounts to ensure that funds exist for future 
replacement (such as today), and little local buy-in or ownership on 
the part of grant recipients, which resulted in sometimes wildly 
overbuilt systems and wasted tax dollars.
    The best means for providing federal funds are the State Revolving 
Loan Funds along with the use of creative and innovative solutions. We 
can make considerable progress toward solving our infrastructure needs 
by avoiding the mistakes of the past and securing our water 
infrastructure for the future. I encourage Congress therefore to retain 
the State Revolving Loan Funds as the primary conduit of assistance to 
water utilities.
    Congress should also ensure that Federal assistance is used to 
encourage strong management practices by water utilities. This should 
include full cost of service rates, asset management, consolidation and 
support for public-private partnerships.

Full Cost of Service Rates
    Across the country, many water utilities are charging customers 
water rates that are misleading and do not cover the cost of providing 
the service. This has resulted in a devaluation of water as resource, 
which not only causes utilities to rely on federal subsidies for 
investment in infrastructure replacement, but also sends the wrong 
signals to consumers about the value of water and the need for 
conservation.
    In some cases the actual cost of providing water service is greater 
than the rates charged by utilities. In fact, Dr. Janice Beecher of 
Beecher Policy Research said before this Subcommittee in March of 2001
        ``. . . when municipalities provide electricity and natural gas 
        services, revenues exceed total capital and operating 
        expenditures. For water and sewer services . . . total 
        expenditures exceed revenues. The findings generally suggest 
        that municipal water customers do not cover expenditures 
        through rates and other user charges.''
    Also, in a study on this issue released by the General Accounting 
Office, they found the amount of funds obtained from user charges and 
other local sources of revenue was less than the full cost of providing 
service for over a quarter of drinking water utilities. Indeed many 
municipalities pride themselves on their low rates, and publish their 
comparative rates as being lower than other when in fact, they are not 
charging the full cost of service.
    This clearly demonstrates the need for full cost of service rates. 
Utilities must be able to generate the revenue needed to cover costs 
and invest in replacing aging infrastructure. This can only happen when 
we are charging customers the true cost of the services provided.
    However, NAWC recognizes that increasing rates will put low-income 
families at risk of not being able to afford their water bills. To 
address this, NAWC supports a federal water rate payer assistance 
program modeled after the Low-Income Home Energy Assistance Program 
(LIHEAP).
    However, we do not believe that the increased rates will be an 
overwhelming burden for most Americans. According to the Congressional 
Budget Office, Americans currently pay roughly 0.5% of their total 
household income for water and wastewater service. This is 
significantly less than other utility costs, which range from 2% to 5% 
of household income, and suggest room for increases.

Asset Management
    Generally, privately owned and operated utilities manage their 
infrastructure assets, such as pipelines and other equipment to 
maximize the useful lives of the assets, increase efficiency, minimize 
costs, and maintain service to customers. Careful management of assets 
is essential if we are to successfully meet the infrastructure 
financing challenge. However, many localities do not have in place such 
asset management plans. In fact the General Accounting Office has 
estimated that as many as 25% of all utilities do not have such a plan.
    Since good management of assets can go along way toward avoiding an 
infrastructure-financing gap as well as addressing the infrastructure 
replacement challenge, NAWC believes utilities should adopt such 
practices. Congress should therefore encourage, as part of the SRF 
Funding process, the implementation of sound asset management 
practices.

Consolidation
    There are over 50,000 community water systems in the United States 
today, many of which are very small. In many, but not all cases, the 
financial challenges facing these utilities can be addressed by 
improving their economies of scale through consolidation. By tying 
consideration of SRF funding to consolidation, Congress will encourage 
utilities to put aside parochial interests, expand their vision and 
improve the service to customers. Over the last five years, Pennichuck 
has consummated dozens of acquisitions of smaller systems, many of 
which would not have financially viable over the long-term. It is 
important to note, that consolidation does not work everywhere, and is 
not the answer for all problems. However, it is clear that 
consolidating ownership and/or management functions with other 
facilities can streamline a utility and save money.

Public-Private Partnerships
    Municipalities large and small all over the country have realized 
great savings and success through partnerships with private firms. 
These partnerships take many forms, from contracting out small portions 
of a utility's operations such as billing or meter reading, to multi-
year all inclusive management contracts wherein a private firm runs and 
manages all aspects of a municipally owned utility, to the transfer of 
assets to a private company. Cost savings that localities have realized 
over the years from such arrangements range up to 40%, freeing up much 
needed capital for infrastructure replacement, without burdening either 
the customer or the American taxpayer. Likewise these arrangements have 
often allowed municipalities to avoid significant rate adjustments 
while still meeting the higher EPA water quality standards.
    Therefore Congress should, whenever appropriate, encourage the 
development of such partnerships as a tool for addressing our 
infrastructure replacement challenges.

Access to State Revolving Loan Funds for Private Water Companies
    Access to the DW-SRF (and the Clean Water SRF for that matter) 
should be based on need and need alone. The ownership of the utility 
should not be a factor. After all, it's the taxpayers, all taxpayers, 
not just those of municipal utilities that fund The SRFs.
    When Congress established the DW-SRF in 1996 they knew that the 
benefits of the SRF would flow to the customers of privately owned 
utilities, not the owners or stockholders. And this is working well in 
many states. NAWC has many examples of privately owned utilities 
working with States, receiving SRF assistance and extending service to 
underserved or badly served populations. These are some of the best 
examples of public-private partnerships.
    However, we regret to report that there are still ten States 
(Alabama Arkansas, Colorado, Georgia, Kansas, Mississippi, North 
Carolina, Oklahoma, Tennessee, Wyoming) that, despite Congress's clear 
intent, do not allow private utilities access to the DW-SRF. 
Incredibly, these States are still allowed to use private utilities in 
their needs survey, and thus receive SRF capitalization grant funds 
based on this private utility need, a need they have no intention of 
meeting. NAWC believes that Congress should only allow EPA to provide 
SRF allocation grants to the States for the needs the State is willing 
to actually meet. If a State does not allow private utility access to 
the DW-SRF, EPA should reduce their allocation grant accordingly.
    Also, I must report that in some of the states that allow private 
access to the SRF, there are often burdensome application requirements 
and fees that, in some cases, municipal utilities don't face. Also in 
some States, their priority lists clearly favor municipally owned 
utilities, and the needy private utilities often receive little or no 
funding.
    These processes are not in line with Congressional intent when you 
granted private utility access to the SRF. We hope to continue working 
with you on these issues.

Private Activity Bonds
    Another role that the federal government, and specifically Congress 
can play is passing legislation to eliminate the state volume caps on 
Private Activity Bonds (PABs) for water and wastewater projects, thus 
providing billions of dollars in capital that can be used to invest in 
water infrastructure replacement. Changing the tax code and exempting 
water and sewage facilities from the state volume caps could be one of 
the most productive incentives Congress can provide to stimulate 
infrastructure investment and replacement. In fact, billions of 
potential investment will be stimulated by the tax change but it will 
cost the federal government less than $150 million over ten years, 
according to the Joint Committee on Taxation.
    I understand that this issue does not fall under the jurisdiction 
of this Committee, however it is an important tool for addressing the 
infrastructure challenge, and therefore, I wanted to bring it to your 
attention.

                        LEAD AND DRINKING WATER

    Lead is a naturally occurring metal that was used regularly in a 
number of industrial capacities for most of the 20th Century. Lead was 
used as a component of paint, piping (including water service lines), 
solder, brass, and as a gasoline additive until the 1980's. According 
to the U.S. Environmental Protection Agency (USEPA), lead paint and the 
contaminated dust and soil it generates is the leading household source 
of lead exposure today. Research has confirmed that lead is highly 
toxic. Ingestion of lead can pose a serious health risk to humans, 
especially children.
    Lead contamination in drinking water almost always occurs after 
water has left the treatment plant when it travels through piping and 
plumbing containing lead. Water is naturally corrosive, and in some 
cases will corrode the pipes and plumbing through which it passes, 
picking up lead. This corrosion can occur in home fixtures as well.
    To control the corrosion, and thus the lead in water, many public 
water systems add a corrosion inhibitor such as zinc orthophosphate to 
the water. While this is often effective as a means of corrosion 
control, it does have a downside, which is increased phosphate content 
in wastewater in that community.
    NAWC has a number of recommendations to address the lead issue 
before this Subcommittee. Our recommendations closely follow those of 
the American Water Works Association, including the idea that EPA must 
rethink the ``Silo'' approach to regulation. Today rules are generally 
developed in isolation from one another, without consideration to the 
potential interconnectivity one rule may have with another. The recent 
experiences some communities have had with lead may be due to the 
drawbacks of the silo approach. We believe a holistic approach to 
drinking water regulation is needed that takes into account 
simultaneous compliance with existing drinking water and environmental 
regulations. In addition to this, NAWC recommends the following:

1. NATIONAL LEAD REDUCTION STRATEGY.
    NAWC advocates a comprehensive approach to reducing lead 
contamination from all sources. Congress should require a respected 
body such as the Centers for Disease Control to complete a 
comprehensive study of lead exposure from all sources, and to develop a 
national strategy to reduce lead exposure from all significant sources. 
Such research should include a determination of the contribution to 
lead in drinking water from lead service lines, pipes inside the home, 
and plumbing fixtures.
    NAWC also strongly advocates a continuing public education program 
concerning all sources and hazards of lead exposure and effective 
protective measures. Public education is a key component of a lead 
exposure reduction strategy. Water suppliers, working in cooperation 
with local and state public health officials and others, can help 
deliver the needed messages on the dangers of lead and the part 
everyone has to play in reducing risks. Since most lead contamination 
occurs inside the home from paint chips and dust or comes from home 
plumbing, increased public awareness is especially important.

2. OPTIMIZATION OF CORROSION CONTROL.
    NAWC advocates the treatment technique of optimizing corrosion 
control as the best way of reducing exposure from lead in drinking 
water. Determining the corrosivity of water is complex and depended on 
several characteristics of the water. Lead contamination of drinking 
water is primarily the result of lead in home plumbing and fixtures 
beyond the control of a drinking water utility. The means available to 
drinking water systems to mitigate the degradation of water passing 
through pipes and fixtures in home plumbing is through implementation 
or modification of the corrosion control process. This can be done by 
adjusting the finished water's pH and alkalinity or by adding corrosion 
inhibitors.
    If source water were the only way lead could enter drinking water, 
establishing a maximum contaminant level (MCL) for a utility to meet at 
the plant or in the distribution system would be sufficient to protect 
public health as it is for the majority of regulated contaminants. If 
lead were to occur in source waters, it could be removed in the 
treatment process. Public water systems are clearly responsible for and 
can control water quality at treatment facilities. However, the major 
source of lead in drinking water is not source water, it is lead from 
plumbing systems and faucets in homes that are beyond the control of 
drinking water utilities. The contribution of lead service lines to 
lead contamination is uncertain.
    Some have suggested establishing an MCL for lead at the end user's 
tap. This would have the effect of holding water suppliers legally 
responsible not only for lead sources that they cannot control but also 
the mistakes, omissions, and even illegal activities of others. There 
is still lead solder in home plumbing although it was banned in 1986. 
Studies have shown that brass faucets holding lead free water for an 
eight-hour period can leach lead into water at levels of 10 ppb and 
higher. Grounding of electrical circuits in homes to water pipes and 
galvanic action between two dissimilar metals may increase corrosion 
that could cause lead to leach into the water. Customers who soften 
their water or otherwise change its corrosivity can affect the lead 
content of the water. These types of problems cannot be solved by an 
MCL at the tap or in the public water system. Each of these by 
themselves or in combination can cause lead to leach into drinking 
water. The SDWA limits EPA authority to regulating public water 
systems. A tap within a residence is not and should not be considered 
to be part of a public water system.
    The SDWA also specifically prohibits USEPA from imposing both an 
MCL and a treatment technique for the same contaminant. Therefore NAWC 
advocates a lead control strategy of optimizing corrosion control in 
conjunction with public education and a lead service line replacement 
program as the best method to protect public health.

3. REPLACEMENT OF LEAD SERVICE LINES.
    NAWC advocates lead service line removal as a means of reducing 
lead contamination in drinking water when the lead service line is 
significantly contributing to lead contamination. However, lead service 
line replacement is complicated by the ownership of the lines. In some 
instances, the water utility owns the entire line. In others, the 
property owner owns the entire service line. And in still other cases, 
part of the lead service line is owned by the utility and part by the 
property owner.
    A public water system can only be held legally liable for replacing 
the service line or part of the service line owned by the utility. A 
public water system has no legal means to compel a property owner to 
replace a lead service line or portion of a lead service line. 
Requiring a water utility to remove privately owned lead service lines 
raises constitutional legal issues with regard to private property and 
eminent domain. All agree that partial replacement of a lead service 
increases lead levels in water and should be avoided. Further, removing 
a lead service line may not reduce lead contamination of drinking 
water. Tests have revealed high lead levels in homes that have no lead 
service line and low to no measurable lead contamination in homes with 
lead service lines. Removing lead service lines alone is not the 
complete solution to reducing lead exposure from drinking water.
    Because of the costs involved and the likelihood there will be 
little or no public health benefit in some cases, lead service removal 
programs should focus on removing lead service lines owned by a utility 
that are significantly contributing to lead contamination as a high 
priority.

4. INDEPENDENT STUDY OF LEAD PROBLEMS AND LEGISLATIVE AND REGULATORY 
        CHANGES.
    NAWC advocates an independent study of the drinking water lead 
contamination incidents to evaluate what if any changes may need to be 
made in the law or regulation. Based on recent USEPA data (http://
www.epa.gov/safewater/lcrmr/lead--data.html) there is no reason, at 
this time, to believe that there is a nationwide problem that would 
require changes to the SDWA. The current SDWA requirements protect 
public health and USEPA currently is engaged in an extensive national 
review of the Lead and Copper Rule implementation to identify how well 
the rule is performing across the nation and what gaps exist in federal 
guidance and regulation. The Lead and Copper Rule should not be revised 
until this review is completed.
    NAWC recommends that Congress direct an independent study of the 
high lead levels in the District of Columbia water system be conducted. 
This could be done very soon in an appropriations bill.

                               CONCLUSION

    We appreciate the leadership role that this Subcommittee has taken 
to address water infrastructure problems, and we also appreciate the 
concern that you have expressed regarding the need for cost-effective 
solutions. These are long-term challenges, and we look forward to 
working with the Committee to achieve long-term solutions that will 
allow the drinking water industry to stand on its own two feet.

    Mr. Gillmor. Thank you very much, Mr. Correll.
    We will have Mr. Lynn Stovall, who is General Manager of 
the Greenville Water System, representing the American Water 
Works Association.

                    STATEMENT OF LYNN STOVALL

    Mr. Stovall. Thank you, Mr. Chairman. My name is Lynn 
Stovall. I am the General Manager for the Greenville Water 
System in Greenville, South Carolina, and the past President of 
the American Water Works Association.
    I am here today on behalf of AWWA. The association and its 
more than 4,700 utility members commend you for holding this 
hearing to address lead contamination in drinking water 
infrastructure and other challenges facing community drinking 
water systems and their customers.
    In our written statement, we summarized our views on lead 
in drinking water infrastructure. This morning I would like to 
highlight a few of the recommendations in our written 
statement.
    With regard to lead in drinking water, we know that lead 
can pose serious health risks, and that certain groups, 
including children, are more susceptible than others to lead 
contamination. Even though the Centers for Disease Control 
reports that drinking water is a minor source of elevated blood 
lead levels, drinking water utilities take the issue very 
seriously.
    Our recommendations, and the steps that we are taking as an 
industry leader, are spelled out in my testimony. But they 
include a recommendation for a nationwide lead education and 
reduction effort that focuses on all sources of lead, not just 
drinking water.
    AWWA cannot speak to the specifics of the situation in 
Washington, DC, as that matter is still under investigation. We 
can say that the problem experienced in Washington, DC does not 
appear to be widespread or nationwide in scope.
    While it may be appropriate to strengthen the lead and 
copper rule in certain respects, based on lessons learned in 
Washington thus far, the current rule does protect health and 
its basic structure, a treatment technique coupled with an 
action level, represents the most appropriate way to address a 
Federal standard for lead in drinking water. I would add that 
EPA appears to be proceeding in an appropriate and measured 
fashion on this issue at this time.
    AWWA has a number of recommendations to address the lead 
issue. First and most importantly, we advocate a comprehensive 
nationwide approach to reducing lead contamination from all 
sources. This should involve a program of research and public 
education concerning the sources of lead, the dangers of lead 
exposure, and protection against lead contamination from all 
sources, such as paint, dust, drinking water, and others.
    It is important that the program not be limited to drinking 
water, since drinking water is not a major source of lead 
exposure. We advocate the use of treatment techniques by all 
utilities to control corrosion, to reduce exposure to lead in 
drinking water.
    We support replacement of lead service lines that 
significantly contribute to high lead levels in the home. We 
advocate a holistic approach to the development and 
implementation of drinking water regulations to minimize the 
extent to which regulations can interfere with each other. We 
propose an independent study of the drinking water lead 
contamination incidence in Washington, DC to determine what 
caused this incident and what lessons can be learned from it.
    I would also like to briefly summarize our statement with 
respect to infrastructure. The American Water Works Association 
has long been committed to the proposition that utilities 
should be self-sustaining through their rates and other local 
charges, and we remain committed to that principle. Healthy 
water systems will offer safe water at a cost that people are 
willing to pay for, and will not rely on Federal support, at 
least over the long term.
    Having said that, we know that some water systems will 
require assistance as they make the transition from the rates 
they now charge that make the system locally sustainable. Some 
communities face especially severe problems due to large 
amounts of stranded assets resulting from significant 
population declines in the service territory.
    Federal requirements to remediate combined sewer overflows 
and other Federal mandates also exacerbate funding problems in 
many communities. AWWA has estimated that the Nation needs to 
invest an additional $250 to $300 billion over the next 30 
years in drinking water infrastructure beyond the current 
levels of investment.
    AWWA has a number of recommendations to begin addressing 
this infrastructure gap. We believe there are roles for all 
levels of government and for community water systems themselves 
focusing on rates, asset management, and so forth.
    With respect to the Federal Government, we recommend an 
increase in support for meeting new standards, meeting homeland 
security needs of community water systems, and replacing or 
rehabilitating aging infrastructure. Assistance in the form of 
very low or no interest loans with a 30- to 40-year repayment 
period is an appropriate way to deliver such assistance.
    Federal regulators, or States if they are administering the 
assistance, should retain the authority they now have to make 
loans or combinations of grants and loans and to use other 
financing tools to leverage public and private capital.
    Again, we thank you for holding this hearing this morning 
on drinking water issues. AWWA stands ready to work with this 
committee to develop responsible and fair solutions to the 
challenges facing America's community water systems. I would be 
pleased to answer any questions or provide additional material 
to the committee.
    [The prepared statement of Lynn Stovall follows:]

 Prepared Statement of Lynn Stovall, General Manager, Greenville Water 
  System, Greenville, South Carolina on Behalf of the American Water 
                           Works Association

                              INTRODUCTION

    Good morning Mr. Chairman. I am Lynn Stovall, General Manager of 
the Greenville Water System in Greenville, South Carolina. I am here 
today on behalf of the American Water Works Association (AWWA). AWWA 
appreciates the opportunity to present its views on drinking water 
infrastructure needs and other salient issues.
    AWWA was founded in 1881 and is the world's largest and oldest 
scientific and educational association representing drinking water 
supply professionals. The association's 57,000 members are comprised of 
administrators, utility operators, professional engineers, contractors, 
manufacturers, scientists, professors and health professionals. The 
association's membership includes over 4,700 utilities that provide 
over 80 percent of the nation's drinking water. AWWA and its members 
are dedicated to providing safe, reliable drinking water to the 
American people.
    AWWA and its members commend you for holding this hearing to 
address such important issues as lead and sustaining the nation's aging 
water infrastructure. We believe few environmental activities are more 
important to the health of this country than assuring the protection of 
our water supplies and the treatment, distribution and consumption of a 
safe, healthful and adequate supply of drinking water.

                  LEAD CONTAMINATION OF DRINKING WATER

    Recently, there has been much interest in Congress about the 
elevated levels of lead found in drinking water in Washington, DC. Much 
of the discussion has centered on the lead service lines between the 
distribution system and the home plumbing, and whether or not they are 
a significant source of lead in drinking water. We cannot speak to the 
specifics of the situation in Washington, DC. The matter is still under 
investigation and AWWA has no direct knowledge of the cause of the 
elevated lead levels found in tests of drinking water in Washington, 
DC, or any remedial action that has been taken or should be taken in 
that instance. Nor does AWWA have any information that would suggest 
that the problem experienced in Washington, DC, is occurring in other 
public water systems across the country. We can, however, provide 
general information concerning the sources of lead in drinking water 
and what has been done and can be done to reduce exposure to lead in 
drinking water.
    AWWA and its members emphatically support lead exposure reduction 
measures that promote public health. We have a long history of 
promoting measures and research to eliminate or reduce exposure to lead 
through drinking water. AWWA supported amendments to the SDWA to 
eliminate lead contamination in school drinking water and prohibit 
drinking water coolers that were not lead free. Through the AWWA 
Research Foundation (AwwaRF), public water supplies have spent 
approximately $3.4 million dollars on research projects related to lead 
and copper corrosion. AwwaRF plans to spend over $2.5 million more on 
additional research. A summary of the funding for AwwaRF projects 
related to the Lead and Copper Rule is attached to this statement.

           BACKGROUND ON LEAD CONTAMINATION OF DRINKING WATER

    Lead is a naturally occurring metal that was used regularly in a 
number of industrial capacities for most of the 20th century. Lead was 
used as a component of paint, piping (including water service lines), 
solder, brass, and as a gasoline additive until the 1980's. According 
to the U.S. Environmental Protection Agency (USEPA), lead paint and the 
contaminated dust and soil it generates is the leading household source 
of lead exposure. Research has confirmed that lead is highly toxic. 
Ingestion of lead can pose a serious health risk to humans, especially 
children. Health risks linked to lead ingestion include increased blood 
pressure, reduced I.Q. levels, brain damage, loss of hearing, stunted 
physical growth, reduced learning power, premature births, low birth-
weight, fertility problems, and miscarriages. Since 1974, average lead 
concentration in human blood has been reduced almost 75 percent, 
primarily as the result of removal of lead from gasoline and lead 
solder from cans.
    Lead contamination almost always occurs after water has left the 
treatment plant when it travels through piping and plumbing containing 
lead. Water is naturally corrosive, and in some cases will corrode the 
pipes and plumbing through which it passes. This corrosion can occur in 
home fixtures as well. If these fixtures are made of materials, like 
brass, which contain lead, the fixtures can add dissolved lead to the 
drinking water. Brass fixtures and lead-based solder used in household 
plumbing prior to 1986 are significant sources of lead exposure in 
drinking water. Grounding of electrical circuits in homes to water 
pipes and galvanic action between two dissimilar metals may increase 
corrosion that could cause lead to leach into the water. Customers who 
soften their water or otherwise change its corrosivity can affect the 
lead content of the water.
    In 1986, Congress passed amendments to the Safe Drinking Water Act, 
effectively banning the continued use of lead in materials used in 
drinking water systems. This legislation prohibited the use of pipe, 
solder or flux containing lead and required specific public 
notification about the presence of lead in its drinking water or 
drinking water system.
    In 1991, USEPA published the Lead and Copper Rule (LCR), to require 
water utilities to reduce and maintain the corrosivity of water in 
order to minimize the leaching of lead from pipes and plumbing into 
drinking water. The LCR requires public water systems to monitor first 
flush lead levels in a predetermined number of homes based on system 
size. The homes where monitoring is to occur are selected based on the 
high likelihood that they will have lead service lines or plumbing that 
contains solder with high concentrations of lead. Based on data from 
this monitoring pool of homes, a public water system must meet a 15 
parts per billion (ppb) action level at the 90th percentile for taps 
monitored. Based on the initial monitoring and analysis under the 
revised LCR, public water systems determined the needed process to 
maintain ``optimal corrosion control.'' The primacy agency reviewed and 
approved the proposed control strategies and must approve subsequent 
changes.
    If a public water system exceeds the 15ppb action level, it is 
required to develop and undertake a lead service line replacement 
program. The LCR requires that a system replace 7 percent of the lead 
service lines which the system owns each year until all such lines have 
been replaced, or until tap water monitoring indicates that its 90th 
percentile lead level is equal to or less than 15ppb action level.
    As part of a corrosion control strategy, many public water systems 
add a corrosion inhibitor such as zinc orthophosphate to the water. 
While this is often effective as a means of corrosion control, it does 
increase the phosphate content in wastewater in that community. 
Phosphate is a limiting nutrient in many surface waters to which 
wastewater is discharged and is regulated under the Clean Water Act 
because of its high potential to contribute to the eutrophication of 
our lakes and rivers.

                      AWWA RECOMMENDATIONS ON LEAD

    While some improvements to the Lead and Copper Rule may be possible 
and may prove to be warranted, the basic structure of the rule--a 
treatment technique and an action level--is sound. And we believe that 
EPA is responding in an appropriate manner to the lead issues that have 
been raised in Washington, D.C. In addition, AWWA advocates the 
following measures to help reduce lead exposure from drinking water:

6. NATIONAL LEAD REDUCTION STRATEGY: First and most importantly, we 
        advocate a comprehensive national approach to reducing lead 
        contamination from all sources. This should involve a program 
        of research and public education concerning the sources of, 
        dangers of, and protection against lead contamination from all 
        sources such as paint, dust, drinking water, and others. It is 
        important that the program not be limited to drinking water, 
        since drinking water is not the major source of lead exposure.
7. OPTIMIZATION OF CORROSION CONTROL: We advocate the use of corrosion 
        control treatment techniques by all utilities to reduce 
        exposure to lead in drinking water.
8. REPLACEMENT OF LEAD SERVICE LINES: We support replacement of lead 
        service lines that significantly contribute to high lead levels 
        in the home.
9. HOLISTIC APPROACH TO DRINKING WATER REGULATIONS: We advocate a 
        ``holistic'' approach to the development and implementation of 
        drinking water regulations to minimize the extent to which 
        regulations can interfere with each other.
10. INDEPENDENT STUDY OF D.C. LEAD PROBLEMS AND LEGISLATIVE AND 
        REGULATORY CHANGES: We propose an independent study of the 
        drinking water lead contamination incident in Washington, DC, 
        by a group such as the National Academy of Engineering, to 
        determine what caused this incident and what lessons may be 
        learned from this.

1. NATIONAL LEAD REDUCTION STRATEGY.
    AWWA advocates a comprehensive approach to reducing lead 
contamination from all sources. We believe that Congress should require 
a respected body such as the Centers for Disease Control to complete a 
comprehensive study of lead exposure from all sources, and to develop a 
national strategy to reduce lead exposure from all significant sources. 
Such research should include a determination of the contribution to 
lead in drinking water from lead service lines, pipes inside the home, 
and plumbing fixtures.
    In addition, AWWA proposes a priority national public education 
campaign aimed at measures and steps people can take to protect 
themselves from significant sources of lead contamination. AWWA 
believes that a national coordinated campaign involving all concerned 
federal agencies and state and local governments will provide 
significant public health benefits.
    AWWA also strongly advocates a continuing public education program 
concerning all sources of lead exposure and effective protective 
measures. Public education is a key component of a lead exposure 
reduction strategy. Water suppliers, working in cooperation with local 
and state public health officials and others, can help deliver the 
needed messages on the dangers of lead and the part everyone has to 
play in reducing risks. Since most lead contamination occurs inside the 
home from paint chips and dust or comes from home plumbing, increased 
public awareness is especially important.
    In the mid-1980's, AWWA launched the ``Get the Lead Out'' campaign 
to raise the level of lead contamination awareness among consumers. We 
created informational material for utilities to give their customers. 
We now have consumer information about lead contamination in drinking 
water on the AWWA website. Concerned consumers can take several 
precautionary steps to limit possible exposure to lead from their home 
plumbing. Flushing the tap if a faucet has gone unused for more than a 
few hours and not using water from the hot water tap for cooking or 
drinking are simple methods to avoid high lead levels. The longer water 
stands in a faucet, the more lead can be dissolved and hot water 
dissolves lead at a faster rate than cold water. AWWA recommends that 
concerned consumers have their water tested by a State-certified 
laboratory to determine if lead is leaching into their drinking water 
from their home plumbing. Consumers should be advised of these 
precautions even if the water system results from lead testing do not 
exceed the USEPA ``action level'' of 15 ppb in more than ten percent of 
homes tested. Although it is not a specific requirement in the LCR, a 
water utility should notify a customer of the results of lead testing 
of the consumer's tap.

2. OPTIMIZATION OF CORROSION CONTROL.
    AWWA advocates the treatment technique of optimizing corrosion 
control as the best way of reducing exposure from lead in drinking 
water. Determining the corrosivity of water is complex and dependent on 
several characteristics of the water. Lead contamination of drinking 
water is primarily the result of lead in home plumbing and fixtures 
beyond the control of a drinking water utility. The means available to 
drinking water systems to mitigate the degradation of water passing 
through pipes and fixtures in home plumbing is through implementation 
or modification of the corrosion control process. This can be done by 
adjusting the finished water's pH and alkalinity or by adding corrosion 
inhibitors.
    If source water were the only way lead could enter drinking water, 
establishing a maximum contaminant level (MCL) for a utility to meet at 
the plant or in the distribution system would be sufficient to protect 
public health as it is for the majority of regulated contaminants. If 
lead were to occur in source waters, it could be removed in the 
treatment process. Public water systems are clearly responsible for and 
can control water quality at treatment facilities. However, the major 
source of lead in drinking water is not source water. It is lead from 
plumbing systems and faucets in homes that are beyond the control of 
drinking water utilities. The contribution of lead service lines to 
lead contamination is uncertain.
    Some have suggested establishing an MCL for lead at the end user's 
tap. This would have the effect of holding water suppliers legally 
responsible not only for lead sources that they cannot control but also 
the mistakes, omissions, and even illegal activities of others. There 
is still lead solder in home plumbing although it was banned in 1986. 
Studies have shown that brass faucets holding lead free water for an 
eight-hour period can leach lead into water at levels of 10 ppb and 
higher. Grounding of electrical circuits in homes to water pipes and 
galvanic action between two dissimilar metals may increase corrosion 
that could cause lead to leach into the water. Customers who soften 
their water or otherwise change its corrosivity can affect the lead 
content of the water. These types of problems cannot be solved by an 
MCL at the tap or in the public water system. Each of these by 
themselves or in combination can cause lead to leach into drinking 
water. The SDWA limits EPA authority to regulating public water 
systems. A tap within a residence is not and should not be considered 
to be part of a public water system.
    The SDWA also specifically prohibits USEPA from imposing both an 
MCL and a treatment technique for the same contaminant. Therefore, AWWA 
advocates a lead control strategy of optimizing corrosion control in 
conjunction with public education and a lead service line replacement 
program as the best method to protect public health.

3. REPLACEMENT OF LEAD SERVICE LINES.
    AWWA advocates lead service line removal as a means of reducing 
lead contamination in drinking water when the lead service line is 
significantly contributing to lead contamination. However, lead service 
line replacement is complicated by the ownership of the lead service 
lines. In some instances, the water utility owns the entire line. In 
others, the property owner owns the entire service line. And in still 
other cases, part of the lead service line is owned by the utility and 
part by the property owner. A public water system can only be held 
legally liable for replacing the service line or part of the service 
line owned by the utility. A public water system has no legal means to 
compel a property owner to replace a lead service line or portion of a 
lead service line. Requiring a water utility to remove privately owned 
lead service lines raises constitutional legal issues with regard to 
private property and eminent domain. All agree that partial replacement 
of a lead service increases lead levels in water and should be avoided. 
Further, removing a lead service line may not reduce lead contamination 
of drinking water. Tests have revealed high lead levels in homes that 
have no lead service line and low to no measurable lead contamination 
in homes with lead service lines. Removing lead service lines alone is 
not the complete solution to reducing lead exposure from drinking 
water. Because of the costs involved and the likelihood there will be 
little or no public health benefit in some cases, lead service removal 
programs should focus on removing lead service lines owned by a utility 
that are significantly contributing to lead contamination as a high 
priority.
    When the LCR was promulgated in 1991, USEPA estimated that it would 
cost $1.5-6.25 billion nationally ($2.1-$8.65 billion in 2003 dollars) 
to remove lead service lines. The LCR estimate is for replacement that 
will occur as a result of the rule. The USEPA estimate is based on the 
assumption that 8,300 of the 15,000 systems with lead service lines 
will be required to replace some lead service lines at a per service 
line costs of $900-$1,800. A later study conducted by the AWWA Research 
Foundation in 1994 estimated that there were a total of some 2.3 to 5.1 
million lead service lines in the nation. Removal of the utility owned 
portion of the lead service line would cost $3.4 to $5.1 billion 
nationally ($4.2-$6.3 billion in 2003 dollars). Replacement of all lead 
service lines, including the portions owned by property owners and by 
utilities, would cost approximately $10-$14.1 billion nationally 
($12.3-$17.5 in 2003 dollars).
    Some property owners may be unable to afford the cost and local or 
state restrictions may prevent a public water system from paying for or 
financing the lead service line removal. A public water system has 
access to the Drinking Water State Revolving Fund (DWSRF) to fund 
removing lead service lines that it owns. A property owner may not have 
such easy access to fund lead service line replacement. In 1991, AWWA 
recommended in testimony that Congress consider enacting a tax credit 
for property owners who must pay for the removal of lead service lines. 
We still believe this is a good idea that is in the interests of public 
health in this country.
    The cost to consumers of removing lead service lines is in addition 
to the cost of replacing aging drinking water infrastructure. These 
many and expensive infrastructure costs to the consumer that we 
discussed earlier in this testimony present a complicated challenge to 
local governments in their efforts to remove lead service lines.

4. HOLISTIC APPROACH TO DRINKING WATER REGULATIONS.
    AWWA advocates a holistic approach to drinking water regulations 
that considers simultaneous compliance with existing drinking water 
regulations and other environmental regulations. The recent experience 
in Washington, DC, with lead contamination is one example of the 
pitfalls of the ``silo'' approach to drinking water regulation. By 
``silo'' we mean developing a rule in isolation and not completely 
understanding its connectivity to other regulations. Without having all 
of the data necessary for a complete technical analysis, it appears 
that treatment changes (enhanced coagulation and switching to 
chloramines) the utility instituted to comply with the Stage 1 
Disinfectants and Disinfection By-Products Rule (DBPR) may have 
contributed to the increased levels of lead in the district's drinking 
water.
    Potential problems with the Lead and Copper Rule (LCR) stemming 
from treatment changes made to comply with the Stage 1 DBPR were known 
at the time that regulation was finalized. In AWWA's comments on the 
Notice of Data Availability (NODA) for the Stage 1 DBPR in 1998, and 
again in our comments on the proposed LCR technical corrections in 
1998, AWWA recommended that the enhanced coagulation requirements for 
Stage 1 DBPR include greater flexibility for states and utilities in 
determining the most appropriate treatment approach for simultaneous 
control of organics, disinfection by-products, and corrosion.
    USEPA expects to finalize the Long Term 2 Enhanced Surface Water 
Treatment Rule (LT2ESWTR) and the Stage 2 Disinfectants and 
Disinfection Byproducts Rule (DBPR) in early 2005. These rules specify 
a range of treatment and management strategies to reduce disease 
associated with Cryptosporidium and other pathogenic microorganisms 
while at the same time avoiding dangerous levels of disinfectant 
byproducts. Many more utilities will switch to chloramines or make 
other major treatment changes to comply with the Stage 2 DBPR. The 
effect of these rules on compliance with the LCR was not a 
consideration in their development.
    Furthermore, the recently released study by USEPA's Office of 
Research and Development (ORD), The Occurrence of Disinfection By-
Products (DBPs) of Health Concern In Drinking Water: Results of a 
Nationwide DBP Occurrence Study, found alternative treatment methods, 
such as chloramine and ozone, create as many as 50 new, and possibly 
more risky, DBPs. Little health effects information is available on 
these new DBPS. In both Stage 1 DBPR and Stage 2 DBPR, there has been a 
consistent and progressive shift to alternative disinfectants for 
compliance. Unfortunately, this new research now suggests that there 
may well be significant, and as yet unquantified, undesirable health 
risks associated with this shift to alternative disinfectants.
    The arsenic regulation provides another example of the ``silo'' 
approach to drinking water regulation. California has a more stringent 
classification of hazardous waste than the rest of the nation. This 
classification system was in place during the development of the 
arsenic regulation. AWWA and many California utilities, in formal 
comments on the proposed rule, advised USEPA that this regulation was 
going to result in the production of tons of hazardous waste in 
California. USEPA's approach to the hazardous waste issue was that this 
classification system was California's problem and this issue didn't 
need to be addressed in the national regulation. As a result, the costs 
to dispose of the hazardous waste from the California utilities were 
not included in the estimated national cost of compliance. Now, based 
on the latest research, treatments to remove arsenic generate both 
solid and liquid hazardous wastes, and the estimated costs to properly 
dispose of these wastes from California utilities alone are equivalent 
to EPA's estimated national cost of compliance.
    Section 1412 (b)(5) of the SDWA states that rule writers must 
consider risk tradeoffs in setting an MCL. In particular, they must 
consider risk tradeoffs if the levels of other contaminants are raised 
or they interfere with the efficacy of treatment techniques or 
processes that are used to comply with other regulations. Consequently, 
AWWA believes that the agency should adequately consider negative 
consequences of regulatory actions, particularly with respect to 
potential human health impacts. This issue is particularly acute when 
regulations are driven by potential or poorly understood risks, such as 
DBP regulations.
    AWWA urges USEPA to appropriately consider simultaneous compliance 
with existing drinking water regulations when a new drinking water 
regulation is finalized. Additionally, USEPA should appropriately 
account for the impacts from existing environmental regulations when it 
finalizes a new national drinking water regulation. We believe that a 
holistic approach to drinking water regulations will provide better 
public health protection.

5. INDEPENDENT STUDY OF D.C. LEAD PROBLEMS AND LEGISLATIVE AND 
        REGULATORY CHANGES.
    AWWA advocates an independent study of the drinking water lead 
contamination incident in Washington, DC, to evaluate what if any 
changes may need to be made in the law or regulation. Earlier this 
year, Delegate Norton (DC) introduced H.R. 4268, the Lead-Free Drinking 
Water Act of 2004. AWWA supports the purpose of the bill to improve 
protection of public health by reducing exposure to lead contamination 
in drinking water. However, AWWA believes that before legislation is 
enacted, Congress needs to know for sure what caused the elevated lead 
levels in the District of Columbia water system. At this time, it is 
difficult to determine if H.R. 4268 could have prevented the current 
high levels of lead in the District of Columbia water system. Solutions 
proposed in the bill could be addressing issues that were not the cause 
of the high lead levels and miss entirely the actual cause that needs 
to be corrected. For instance, why were lead levels high in some homes 
without lead service lines and low in some homes with lead service 
lines? Why did the lead levels vary so widely for the same tap tested 
at different intervals? This would lead one to believe that other 
factors were the cause of or involved in the high lead levels. There is 
no reason, at this time, to believe that the high lead level problem in 
the District of Columbia is a nationwide problem that would require 
changes to the SDWA. AWWA believes that the current SDWA requirements 
protect public health and USEPA currently is engaged in an extensive 
national review of the Lead and Copper Rule implementation to identify 
how well the rule is performing across the nation and what gaps exist 
in federal guidance and regulation. In May, USEPA convened a panel of 
experts in St. Louis, Missouri, to address the issues involved in 
complying with the Lead and Copper Rule and will publish the results. 
AWWA supports these efforts by USEPA. The Lead and Copper Rule should 
not be revised until this review is completed.
    Many of the reforms suggested in H.R. 4268 can be accomplished in 
the regulatory process rather than by statute. AWWA has concerns about 
mandating scientific and technological regulatory procedures in 
legislation. Scientific knowledge and technology change--sometimes very 
rapidly. When these become embedded in statute, advances in scientific 
knowledge become very difficult to address. The Lead and Copper Rule is 
not perfect, and AWWA can support changes to make it a better and more 
effective regulation in some areas. However, we recommend that the 
regulatory changes proposed in H.R. 4268 be addressed in the regulatory 
process.
    AWWA recommends that Congress direct an independent study of the 
high lead levels in the District of Columbia water system be conducted. 
This could be done very soon in an appropriations bill.

AWWA Leadership on Lead
    AWWA's leadership in reducing lead exposure through drinking water 
continues to the present. In June of this year, AWWA adopted an action 
plan to address lead contamination in drinking water. Our plan includes 
the following activities:

A. Developing and distributing a framework for utilities:
     Addressing simultaneous compliance with the Lead and Copper rule 
            (LCR) and other rules; and
     Evaluating possible changes to optimized corrosion control, such 
            as introduction of an alternative corrosion inhibitor.
B. Developing and distributing information to utilities on ways to 
        encourage customers in lead service line replacement;
C. Developing and distributing information to assist utilities in 
        providing useful information to customers about lead and the 
        LCR;
D. Developing and distributing information to utilities on how to 
        assist schools and daycare centers evaluate and address high 
        lead levels in their facilities;
    We believe that the results of this action plan will be of great 
benefit to public health in the United States and will be of assistance 
to EPA in making any needed improvements to the LCR.

           SUSTAINING OUR AGING DRINKING WATER INFRASTRUCTURE

    Another critical issue facing community water systems involves 
sustaining the nation's aging drinking water infrastructure. In 
previous testimony in Congress and in our report entitled Dawn of the 
Replacement Era: Reinvesting in Drinking Water Infrastructure, 
published in May 2001, AWWA called for a new partnership for investing 
in drinking water infrastructure. AWWA recommended changing and 
expanding the existing Drinking Water State Revolving Fund to 
significantly increase federal funding for projects to repair, replace, 
or rehabilitate drinking water infrastructure to include the aging 
distribution system.
    The events of September 11, 2001, have added a new dimension to the 
protection of drinking water and infrastructure needs. Public water 
systems now face significant costs to increase the security of the 
nation's community water systems. AWWA estimates that drinking water 
utilities need to spend approximately $1.6 billion immediately to 
protect water systems' critical assets with improved perimeter security 
and access controls. This does not include the capital costs of 
upgrades to address vulnerabilities identified in vulnerability 
assessments such as hardening pumping stations, chemical storage 
buildings, transmission mains, adding redundant infrastructure, or 
relocating facilities and pipelines.
    A safe and secure drinking water infrastructure is one resource 
that all Americans rely on every day. It is a cornerstone of both our 
economic well-being and our public health. Largely buried underground 
and invisible, it is also a resource many have taken for granted.

FEDERAL MANDATES AND THE CONTEXT FOR DRINKING WATER AND WASTEWATER 
        INFRASTRUCTURE FUNDING ISSUES
    Both drinking water and wastewater utilities face enormously 
expensive federal mandates that set the context for all other funding 
issues. The drinking water community faces a complex array of expensive 
new federal requirements and new standards, including standards for 
arsenic, radon, disinfection byproducts, enhanced surface water 
treatment, and others. Wastewater utilities also face enormously 
expensive federal mandates, such as those relating to Combined Sewer 
Overflows (CSO) and Sanitary Sewer Overflows (SSO).
    For both water and wastewater utilities, these needs significantly 
skew financing for other investments, including the replacement of 
aging pipes, appurtenances, and other infrastructure. Many local 
ratepayers may be seriously challenged to pay for these mandates, and 
the full cost water service can cause lower-income customers to delay 
or defer other spending. This in itself can cause serious health 
effects if low-income customers defer or avoid visits to the doctor, 
don't fill prescriptions, etc., in order to pay the water bill. In many 
cases, it appears that spending for clean water mandates has ``driven 
out'' a community's ability to raise rates for drinking water needs. 
Because federal mandates have consumed the ratepayer's budget, more 
routine repair and replacement of drinking water infrastructure has 
been deferred in many cases.
    We believe that significant federal assistance, including grants, 
is appropriate to help meet the cost of these very expensive federal 
mandates on water and wastewater utilities. We would point out that, in 
the case of CSO and SSO mandates, federal support for the cost of those 
requirements is not only justified in the community receiving federal 
support, it also lowers costs for drinking water utilities downstream 
in the form of improved water quality. This is especially true in 
critical source water protection areas.

                  DRINKING WATER INFRASTRUCTURE NEEDS

    The American Water Works Association (AWWA) has long been committed 
to the proposition that utilities should be self-sustaining through 
rates and other local charges. We believe that a healthy utility will 
be locally self-sustaining and not dependent on federal assistance.
    Having said that, we also recognize that new security concerns, 
combined with the cost of compliance with federally mandated 
regulations and the aging of many water systems, drive the need to 
greatly increase the level of investment in water-related 
infrastructure. AWWA recognizes that there is a gap between current 
investment and levels of investment that are required to sustain 
adequate drinking water service over the long run. Research has shown 
that this gap is real, and in the coming decades approaches $300 
billion above and beyond what water utilities are already spending. 
Moreover, this gap is growing. The gap does not apply to every utility 
and does not affect all utilities in the same way. But many utilities 
are affected, and the solution properly involves all levels of 
government as well as utilities themselves.
    Notwithstanding AWWA's commitment to full cost recovery through 
rates, some water systems will require assistance to make the 
transition from current levels of investment to full sustainability 
through rates and other local charges. This need is especially great in 
systems with large amounts of stranded assets resulting from 
significant population declines in their service territories or large 
federal mandates for investment to remediate combined sewer overflow 
(CSO) problems.
    The federal government should renew its commitment to significant 
support for compliance with health-protective standards, security, and 
the repair and replacement of aging drinking water infrastructure. AWWA 
recommends that:

1. The United States provide assistance to community water systems in 
        the form of very low or no-interest loans with a 30-to-40 year 
        repayment period. The federal government, or the states if the 
        program is administered through them, should also retain 
        current authority to make grants and loans in combination and 
        to use other financing tools to leverage public and private 
        capital.
2. Congress clarify that projects to meet standards; to address 
        security needs; and to repair, replace, or rehabilitate 
        drinking water infrastructure are eligible for assistance.
3. All community water systems be eligible for assistance, regardless 
        of size or type of ownership.
4. Repayment terms and conditions be reasonable. They may include 
        demonstrations of system viability and ability to repay a loan.
5. The application process and other procedures for those wishing to 
        access these funds be streamlined and minimized.
6. There be a designated allocation in the program for large systems 
        similar to the one in current law for small systems (15 
        percent), unless there are insufficient projects to use 
        earmarked funds in a given year.
7. Funds be available and encouragement given for voluntary 
        consolidation among water systems where such consolidation is 
        practical and cost-effective.
8. At least $15 billion over the next five years be provided in federal 
        assistance to community water systems for the purposes 
        described above.

                             LEAKING PIPES

    The way we manage our water resources to serve human needs has a 
major impact on the quality of the natural environment and the costs 
that ratepayers must bear. Water conservation is a major public policy 
concern because of the significant environmental benefits and energy 
and cost savings to be gained. Saving water is saving dollars. The 
facilities that we have built to dam, divert, transport, pump and treat 
water are among the largest infrastructure engineering projects on 
earth and are a great part of the cost of drinking water. Aging 
distribution systems can be a source of water loss that drives up the 
cost of water. The cost of the lost water is reflected in the need 
build more or larger treatments plants to produce more water, to pump 
more water at increased energy costs and to build more storage capacity 
for drinking water needs. Studies have shown that conserving water 
through such things as replacing aging infrastructure with leaking 
pipes can help delay the need for developing expensive new drinking 
water supply and treatment facilities. An AWWA Research Foundation 
report in 1994 conservatively estimated the cost of lost water alone to 
be $2.8 billion per year nationally ($3.5 billion in 2003 dollars). A 
1995 Western Canada Water and Wastewater Association report on leak 
detection estimated that a water savings of 4 percent to 20 percent 
could be achieved through the elimination leaks from the distribution 
system. When the cost of lost water, energy costs and the cost of 
avoiding new infrastructure are added together, the money invested in 
replacing aging leaking infrastructure is a good return on investment 
for the nation.

                               CONCLUSION

    America needs a new partnership for reinvesting in drinking water 
infrastructure. There are important roles at all levels of government. 
To help reduce the burden on consumers, many water utilities have made 
great strides in efficiencies, with some utilities achieving a 20-
percent savings, or more, in operations and maintenance. Water 
utilities will continue to reduce costs, seek cost-effective financing, 
and employ innovative management strategies. And AWWA does not expect 
that federal funds will be available for 100 percent of the increase in 
spending facing the nation's water utilities.
    AWWA remains committed to the principle of full cost recovery 
through rates. Regardless, there will remain communities that can't 
make the transition to sustainability through local rates without 
federal assistance. Due to needs for investment in health-protective 
standards, security projects, repair and replacement of infrastructure, 
and demographic changes, many utilities will be very hard pressed to 
meet their capital needs without some form of federal assistance. Much 
of our investment need is driven by federal mandates and new security 
needs. The nation has already accepted the principle that the federal 
government should help pay for what it requires other levels of 
government to do. Over the next 20 years, it is clear that Safe 
Drinking Water Act (SDWA) and Clean Water Act (CWA) compliance 
requirements and infrastructure needs will compete for limited capital 
resources. New security concerns, combined with the aging of many water 
systems, plus the capital cost of compliance with federally mandated 
regulations, such as lead service line replacement, drive the need to 
greatly increase the level of investment in water-related 
infrastructure now. Compliance, security and infrastructure needs under 
the SDWA and CWA can no longer be approached as separate issues. 
Solutions need to be developed in the context of the nation's total 
drinking water and wastewater compliance, security and infrastructure 
needs.
    AWWA and its members thank you for holding this hearing concerning 
the infrastructure needs of America's drinking water utilities and lead 
contamination of drinking water. AWWA pledges to work with Congress to 
develop a responsible and fair solution to the nation's growing 
drinking water infrastructure security challenges and eliminating lead 
contamination of drinking water. We thank you for your consideration of 
our views.
    This concludes the AWWA statement on drinking water infrastructure 
needs and other salient issues. I would be pleased to answer any 
questions or provide additional material for the subcommittee.

    Mr. Gillmor. Thank you very much.
    And we will now go to Dr. Bruce Lanphear of the Cincinnati 
Children's Hospital Medical Center, and it is always nice to 
see a Buckeye on the panel.
    Doctor?

                 STATEMENT OF BRUCE P. LANPHEAR

    Mr. Lanphear. Thank you, Mr. Chairman.
    During the past 3 decades, the percent of children in the 
United States who have blood lead levels in excess of 10 
micrograms per deciliter has declined by over 80 percent due to 
regulations phasing out leaded gasoline, lead solder in 
plumbing, and banning leaded paint used in housing and other 
products.
    As a result of this decline, some have concluded that lead 
is a problem of the past. But research that has been conducted 
over the past decade has made it clear that lead toxicity 
remains a major public health problem, and it is this I would 
like to focus on for my testimony.
    The current definition of lead toxicity, defined as a blood 
level of 10 micrograms per deciliter or higher, was based on 
numerous studies. It was estimated, for example, that an 
increase in children's blood lead from 10 to 20 micrograms per 
deciliter was associated with a 2.5 to 3-point decline in their 
intellectual abilities.
    Unfortunately, this action level is often misconstrued as 
evidence that there are no adverse effects below 10 micrograms 
per deciliter. In a recent study published last year in The New 
England Journal of Medicine, we reported that an increase in 
children's blood levels from less than one microgram per 
deciliter up to 10 micrograms per deciliter--that is, an 
increase entirely below the CDC's action level--was associated 
with a 7.5 IQ point deficit in children.
    These findings were confirmed in a pooled analysis 
involving over 1,300 children from seven prospective studies 
conducted across the world. In review of these data, the CDC 
recently proclaimed, although in a loud whisper I would say, 
that more likely than not there is no threshold for the adverse 
consequences of childhood lead exposure. To put that in another 
way, over 90 percent of children in the United States who are 
adversely affected or harmed by lead exposure never meet or 
exceed the CDC action level of 10 micrograms per deciliter.
    This makes lowering lead in drinking water and other 
sources extremely important. Yet for reasons that are unclear 
and scientifically inaccurate, the CDC did not change the 
action level, nor did they alter recommendations to protect 
children from lead exposure, whatever the source.
    Was this because it was not justified? Or was it because 
the members of the CDC Lead Advisory Committee were handpicked 
by the lead industry?
    Young children, as we have heard, are especially vulnerable 
to lead exposure. Children's blood lead levels rise rapidly 
between 6 and 12 months of age due to the confluence of 
mouthing behaviors and increasing mobility. Nevertheless, lead 
is a systemic toxin that affects all ages.
    For example, it has been estimated that survivors of 
childhood lead poisoning were twice as likely to die from 
cardiovascular disease as adults compared with the general 
population. Childhood lead exposure is a risk factor for 
delinquency and criminal behavior. Lead exposure during 
pregnancy is a risk factor for miscarriage or spontaneous 
abortion.
    The cost of childhood lead poisoning is staggering. It has 
been estimated that the cost is over $40 billion each year in 
the United States. To protect children from lead toxicity, it 
is essential to identify lead hazards before a child is unduly 
exposed. The alternative--to wait until a child develops lead 
poisoning--is no longer defensible. Lead standards for house 
dust, paint, soil, and water are fundamental to prevent lead 
poisoning, but they must be based on scientific evidence.
    Today, most lead standards were driven by what was 
believed--and I emphasize believed--to be feasible to achieve, 
not what was proven, to protect children or pregnant women. For 
example, in 2001, the U.S. EPA set the floor lead standard at 
40 micrograms per square foot. Numerous studies have found that 
over 15 percent of children at that level will develop a blood 
lead level in excess of 10 micrograms per deciliter.
    Thus, the EPA's lead standards do not adequately protect 
children. Indeed, they provide an illusion of safety.
    In 1991, in the lead and copper rule, the U.S. EPA 
recognized that our water lead standard may not adequately 
protect pregnant women and children.
    It is increasingly important to shift our efforts toward 
the prevention of childhood lead toxicity by eliminating 
environmental exposures to lead. To protect children and 
pregnant women from the toxic effects of lead, we should set 
standards for lead contaminant in house dust and water that are 
proven to protect children.
    We should conduct national, State, and community surveys to 
identify and prioritize the elimination of lead hazards. For 
communities that exceed a threshold of exposure, we should 
require screening of housing units for lead hazards, including 
lead and water, before children are unduly exposed. We should 
mandate lead screening and housing after major renovation 
projects or when water treatment processes are altered.
    We should ban all non-essential uses of lead, including 
water service valves, meters, and fittings. And, finally, we 
need to improve communication. I don't mean to belittle the 
problem of lead contamination in the DC water supply, but the 
failed communication you have experienced is but the tip of the 
iceberg. From my perspective, we can no longer trust the 
scientific advisory committees of the U.S. EPA or the CDC.
    These advisory committees have been contaminated by 
industry, by the lead industry, to protect their own interests 
at the expense of our children's health.
    Thank you.
    [The prepared statement of Bruce P. Lanphear follows:]

Prepared Statement of Bruce P. Lanphear, Cincinnati Children's Hospital 
                             Medical Center

    During the past three decades, the percent of U.S. children who 
have blood lead levels > 10 mg/dL has declined by over 80% following 
the elimination of leaded gasoline, lead solder used in plumbing and 
canned foods, and leaded paint used in housing and other consumer 
products. Lead is a confirmed toxin, but some have argued that lead 
toxicity is a problem of the past. Research conducted over the past 
decade has made it clear that lead toxicity remains a major public 
health problem:

 Despite the decline in children's blood lead levels, lead toxicity 
        remains epidemic among some children who live in older housing.
 There is no discernible threshold for lead toxicity; indeed, lead-
        associated deficits in children's intellectual function are 
        incrementally greater at blood lead < 10 mg/dL, the CDC action 
        level.
 There is increasing data linking lead exposure with other diseases, 
        including delinquency, tooth decay and cardiovascular disease.
    It is increasingly important to shift our efforts toward the 
prevention of childhood lead toxicity by eliminating environmental 
exposures to lead. To protect children and pregnant women from the 
toxic effects of lead we should:

 Promulgate scientifically-based standards for lead-contaminated house 
        dust and water. Existing EPA lead standards were based on what 
        was believed to be feasible to achieve; they are not adequate 
        to protect children.
 Conduct national, state and community surveys of housing to identify 
        and prioritize the elimination of residential lead hazards.
 Require screening of housing units for lead hazards (paint, dust, 
        soil and water) before children are unduly exposed, after lead 
        hazard controls or renovation in communities that exceed a 
        threshold of exposure.
 Ban all non-essential uses of lead, including water service valves, 
        meters and fittings.

Sequela of Lead Poisoning
    In the early 1900's, it was believed that if a child survived lead 
poisoning, they would recover completely. Then, in 1943, Byers and Lord 
reported that the effects of childhood lead poisoning were not limited 
to symptoms associated with acute lead poisoning (1). Nineteen of 20 
children who had ``recovered'' from lead poisoning failed high school 
or had behavioral problems. In 1979, Needleman and his co-workers found 
that children with higher tooth lead concentrations were more likely to 
be rated unfavorably by teachers for distractibility, persistence in 
work, organizational ability, dependence, impulsivity, daydreaming, and 
ability to follow directions (2). In a follow-up study, they reported 
that children in the higher tooth lead group were 6-times more likely 
to have a reading disability and 7-times more likely to drop out of 
school than those in the lower group (3).
    Lead is a confirmed neurotoxin. Experimental studies, both in 
rodents and non-human primates, have since documented lead-related 
deficits at low-level lead exposure and established these to be direct 
effects of lead (4-7). Moreover, the preponderance of epidemiologic 
studies consistently shows persistent and deleterious effects of low-
level lead exposure on brain function (8-14). The current definition of 
an elevated blood lead concentration of 10 mg/dL or higher, as defined 
by the US Centers for Disease Control and the World Health 
Organization, was based on adverse outcomes from numerous cross-
sectional and prospective studies (15, 16). It was estimated that there 
is a 2.5 to 3 point IQ decrement linked with an increase in blood lead 
from 10 mg/dL to 20 mg/dL (15, 16). The Centers for Disease Control 
recognized that there was no discernable threshold for the adverse 
effects of lead exposure, but set 10 mg/dL as an action level (16). 
Unfortunately, this action level is often misconstrued as evidence that 
there are no adverse effects below 10 mg/dL. Indeed, some pediatricians 
consider blood lead concentrations below 10 mg/dL to be ``normal''. But 
contemporary children have a body lead burden that is 10 to 100 times 
higher than pre-industrial humans (17).
    There is no evidence of a threshold for the adverse consequences of 
childhood lead exposure. Schwartz reported that lead-associated 
cognitive deficits and hearing loss occur at blood lead levels below 10 
mg/dL (18, 19). In a meta-analysis, the observed decrement was greater 
for studies with children having blood lead levels below 15 mg/dL 
compared to those with children having higher blood lead levels (18). 
In an analysis of NHANES III, the lead-associated reading deficit 
increased, from ``1.0 point per 1 mg/dL increase in blood lead for the 
entire sample to -1.7 point per 1 mg/dL increase for the subgroup with 
blood lead levels below 5 mg/dL (20). In a prospective study, an 
increase in lifetime mean blood lead level from < 1 to 10 mg/dL was 
associated with a 7.4 point IQ deficit (21). Moreover, consistent with 
the earlier studies, the lead-associated cognitive deficits associated 
with each 1 mg/dL increase in blood lead level were greater at blood 
lead concentrations below 10 mg/dL (18, 20-22). Although there are 
several plausible mechanisms to explain these findings, the specific 
mechanism is unclear (7).

Behavioral Problems
    There is no ``behavioral signature'' of low-level lead toxicity, 
but a consistent pattern of lead-induced abnormalities is emerging 
(23). Antisocial, delinquent behavior during childhood and adolescence 
is a product of many variables (24-25). But there is increasing 
evidence that lead toxicity plays a role in its epigenesis (26-30). In 
a cross-sectional study, Needleman and coworkers found that adolescents 
with higher bone lead concentrations had higher scores for delinquent 
and aggressive behaviors (29). In a prospective cohort study, Dietrich 
and coworkers reported that higher blood lead levels in childhood were 
associated with 4.5 more episodes of delinquent behaviors that posed a 
risk for arrest in the prior 12 months compared with those who had the 
lowest blood lead levels (30).
    There is also evidence that lead is a reproductive toxin. In one 
study, lead was associated with spontaneous abortion at blood lead 
levels < 40 mg/dL, the level considered acceptable for an adult woman. 
Compared with pregnant women whose blood lead concentration was < 5 mg/
dL, women who had blood lead levels between 10 mg/dL and 14 mg/dL were 
at a 5-fold increased risk for spontaneous abortion (31). Women who had 
blood lead levels > 15 mg/dL were at over 10-fold increased risk for 
spontaneous abortion (31).

Developmental vulnerability
    Young children and fetuses are especially vulnerable to the adverse 
effects of some environmental neurotoxins (32). Critical processes 
occur in the central nervous system during fetal development and early 
childhood, including synaptogenesis, myelination and programmed 
apoptosis (33). Some investigators found that blood lead in early 
childhood were better predictors of cognitive deficits (9), whereas 
others reported that blood lead levels in older childhood were better 
predictors (8, 10, 21). Blood lead concentration in early childhood 
tracks closely with subsequent blood lead levels (8, 10, 21). Thus, the 
larger effects observed in older children may be due to chronicity of 
exposure (23). Although the question of whether children are more 
vulnerable to the toxic effects of lead exposure during the first 2 
years of life is unresolved, they do ingest more lead and may absorb it 
more efficiently than older children and adults (34-35). Thus, efforts 
to prevent lead toxicity must occur prior to birth (36).

Rationale for Shifting to Primary Prevention
    Despite the dramatic decline in children's blood lead levels there 
are substantial numbers of children in the US who are exposed to 
unacceptably high levels lead contamination in their environments (37-
39). There is also considerable evidence that lead is a systemic toxin. 
It has been estimated, for example, that for every 1 mg/dL decline in 
the population mean blood lead level, there would be 635,000 fewer 
persons with hypertension, 3200 fewer with myocardial infarctions, 1300 
fewer strokes and 3300 fewer deaths annually in the United States (40). 
Survivors of childhood lead poisoning were twice as likely to die from 
cardiovascular disease compared with the general population (41). 
Dental caries, linked with lead exposure in both experimental and 
epidemiologic studies, was estimated to account for over 2.5 million 
cases of tooth decay in U.S. children (42-43). Other major problems are 
linked with lead exposure, including spontaneous abortions (44), 
impaired motor development (45-46), and growth retardation (47). 
Finally, investigators of a randomized, controlled trial of succimer 
(DMSA) did not find any neurobehavioral benefit of chelation for 
children who had blood lead levels between 20 mg/dL and 44 mg/dL (48). 
Collectively, the results of these studies argue that our efforts to 
prevent impairments associated with low-level lead exposure should 
emphasize primary prevention, which contrasts with current practices 
and policies that rely almost exclusively on secondary prevention 
efforts.
    The cost of childhood lead poisoning is staggering. Landrigan and 
co-workers have estimated that the annual cost of lead poisoning among 
US children is over $40 billion (49). This estimate does not include 
recent findings indicating that the drop in IQ is greater for each 1 
mg/dL increase in blood lead at levels below 10 mg/dL (20-22). Nor does 
it include other anticipated benefits, such as reductions in 
cardiovascular disease, stunted growth, tooth decay and delinquent 
behaviors (29-30, 40-47).

Prevention of Lead Exposure
    The steps to prevent childhood lead exposure are, in theory, 
simple. The first step is to identify major sources of lead exposure. 
Second, because lead is ubiquitous--it can be found in house dust and 
residential soil throughout the country--it is necessary to identify 
unacceptable or hazardous levels of lead in sources that children 
encounter. The third step is to conduct screening to identify housing 
or products that contain lead hazards. Screening children to identify 
those with undue lead exposure is important, but it should be used as a 
safety net, not the major prevention effort. The fourth step is to 
develop and test interventions to reduce or eliminate lead exposures. 
Finally, regulations and policies are needed to identify lead hazards 
and implement the interventions.

Sources of Lead Exposure
    Paint is the major source of childhood lead poisoning in the United 
States. Paint that was used on both the interior and exterior of houses 
through the 1950s, and continuing to some extent through the 1970s, 
often contained high concentrations of lead (50). Children with blood 
lead above 55 mg/dL were 10-times more likely to have paint chips 
observable on abdominal radiographs than children who had blood lead 
levels below this value (51). The majority of preschool children with 
blood lead over 25 mg/dL were reported to put paint chips in their 
mouth (52). Paint is also the major source for lead-contamination of 
house dust, which is the major pathway for lead intake among children 
(53-56).
    Lead-contaminated soil is an important source of lead intake for 
urban children. Soil ingestion, reported to occur in 26% urban children 
(34), is a risk factor for higher blood lead concentration (55, 57). 
Children living in former or active mining, milling and smelter 
communities are at risk for lead exposure via lead-contaminated soil 
(58-59). In a pooled analysis of 12 studies, there was an estimated 3.8 
mg/dL increase in blood lead concentration for every 1000 ppm increase 
in soil lead concentration (55). The variation in the reported 
relationship of lead-contaminated soil is due to a number of factors, 
including the age of children studied, adjustment for the contribution 
of lead intake from other sources, and mouthing behaviors.
    Lead in water is an important source of lead intake for children 
and pregnant women. The EPA standard for lead in water is 15 mg/L (ppb) 
in residential water and 20 ppb in public drinking fountains (60). In a 
prospective study of 248 children followed from 6 to 24 months, 
children who were exposed to water lead > 5 ppb had blood lead 
concentrations 1.0 mg/dL higher than children with water lead levels < 
5 ppb (34). In a study in Glasgow, tap water was the main source of 
raised maternal blood lead concentrations, accounting for 76% of 
maternal blood lead levels above 10 mg/dL (61). Intake of lead-
contaminated water is, by itself, unlikely to cause a child to have 
blood lead levels > 10 mg/dL. Still, it is an important source of lead 
intake for young children and pregnant women in many communities. 
Indeed, as predicted, water is becoming an increasingly important 
source of childhood lead exposure as other sources of lead intake 
decline (62). Furthermore, because lead exposure is cumulative and 
there is no apparent threshold for the adverse effects of lead 
exposure, all sources of lead exposure must eventually be eliminated.

Ingestion and Absorption
    There is large variation in the ingestion and absorption of lead 
during the first two years of life. Children's blood lead levels rise 
rapidly between 6 and 12 months of age, peak between 18 months to 36 
months, then gradually decline (34, 63). The peak in children's blood 
lead levels is due to the confluence of normal mouthing behaviors and 
increasing mobility (34). Lead-contaminated water and floor dust is a 
source of lead intake throughout early childhood, but lead-contaminated 
dust on windowsills is not a major source of intake until the second 
year of life, when children stand upright (34). Soil ingestion, as 
reported by parents, peaks between 12 and 18 months and diminishes 
thereafter (34). Younger children absorb lead more efficiently than 
older children (35).

Residential Standards
    Under section 403 of Title X, the U.S. Congress mandated the 
Environmental Protection Agency (EPA) to promulgate health-based lead 
standards. There are at least four reasons to develop residential lead 
standards (36). First, residential standards are necessary to identify 
lead hazards before a child is unduly exposed. The alternative, to wait 
until a child is unduly exposed, is no longer defensible. Second, they 
are critical for the management of children who are identified as 
having undue lead exposure. If environmental testing is not done, the 
major source(s) of environmental lead exposure may be overlooked. More 
importantly, it is clear that attempts to reduce lead exposure can 
actually result in increased contamination of a child's environment and 
blood lead concentration. Clearance dust tests should therefore be 
conducted after remodeling or renovation, abatement or a lead hazard 
control to protect children. Finally, standards serve as a benchmark to 
compare the effectiveness and duration of various lead hazard controls. 
Unfortunately, if standards remain voluntary, they are unlikely to be 
implemented and will not protect children from undue lead exposure.
    Most lead standards were driven by what was believed to be feasible 
to attain, not because they were shown to protect children. In 1976, 
the CPSC set the residential paint lead concentration at .06% because 
there was evidence that paint could be manufactured with this smaller 
amount of contamination (64). Similarly, data used to estimate the safe 
level of lead in water may not adequately protect pregnant women and 
children (34, 60). In 1992, Congress mandated EPA to set health based 
standards for residential lead hazards. The residential standards 
promulgated by EPA (65) were, once again, based on what was believed to 
be feasible to attain rather than scientific data shown to protect 
children (36).
    In 2001, the US EPA promulgated residential lead standards of 40 
mg/ft\2\ for floors and 250 mg/ft\2\ for window sills (65). Data from 
epidemiologic studies show that 5% of children have a blood lead level 
 10 mg/dL at a median floor dust lead level of 5 mg/ft\2\ (54-55). At 
a floor standard of 50 mg/ft\2\, 20% of children were estimated to have 
a blood lead level  10 mg/dL (55). Children who were exposed to floor 
dust lead levels  25 mg/ft\2\ were at 8-times greater risk of having 
blood lead levels  10 mg/dL compared with those exposed to levels 
below 2.5 mg/ft\2\ (34). Thus, EPA's lead standard for floors do not 
adequately protect children. Indeed, these standards dictate the levels 
of lead-contamination considered ``normal'' or ``low'', and they 
provide an illusion of safety.

Steps to Eliminate Subclinical Lead Toxicity
    A comprehensive strategy for the primary prevention of childhood 
lead poisoning should include several components.

1. Empirically-Based Lead Standards
    The promulgation of health-based lead standards is essential. These 
standards should be developed using epidemiologic data. These standards 
must be required and enforced; ``voluntary'' standards will not protect 
children from undue lead exposure.

2. Establish Screening Programs
    Housing should be screened before a child is unduly exposed, after 
lead hazard controls or renovation (36). Screening housing units by 
using dust samples, visual inspection, and water sampling in select 
communities should be incorporated into housing codes. Screening should 
be required prior to approval of federal subsidies for housing in 
communities that exceed a threshold determined to protect children and 
pregnant women.

3. Trials to Prove Lead Hazard Controls Protect Children
    Once residential lead hazards are identified, it is essential to 
have safe and effective methods to eliminate them. Too often, we have 
relied on expert opinion about what is safe or effective.

4. Strategy to Identify and Target Residential Lead Hazards
    Conduct national, state and community surveys of housing need to 
identify and prioritize the elimination of residential lead hazards. 
There should be plans for the remediation of lead-contaminated housing 
and replacement of leaded plumbing. Lead-safe work practices should be 
adopted and taught to homeowners, contractors, painters and persons who 
maintain housing.

5. Ban all non-essential uses of lead.
    For far too long, we have allowed children to be exposed to lead. 
While there has been some progress in reducing lead pollution from 
leaded gasoline, lead-based paint and canned foods, children continue 
to be unduly exposed to environmental lead. It is time to ban all non-
essential uses of lead, including water service valves, meters and 
fittings.
    Despite dramatic reductions in children's blood lead levels, 
childhood lead exposure remains a major public health problem. As 
foretold by Turner in 1908, educational efforts alone are inadequate to 
prevent undue lead exposure in children (66). The current lead 
poisoning prevention strategy largely ignores existing scientific 
evidence indicating that our efforts should emphasize primary 
prevention using environmental controls to make lead-contaminated 
paint, soil and water inaccessible before a child is unduly exposed. 
For too long, we have simply passed out brochures or instructed mothers 
to ``clean their houses better'' to reduce their child's risk of lead 
poisoning. For too long, we have relied on ``voluntary'' standards and 
allowed lax enforcement of existing standards. Most federal agencies 
involved in lead poisoning prevention acknowledge that primary 
prevention is preferable, yet our efforts continue to focus on 
screening children for elevated blood lead levels and controlling lead 
hazards only after a child has been unduly exposed. Until we shift our 
efforts toward the primary prevention of childhood lead exposure, we 
will inadvertently but knowingly continue to use children as biologic 
indicators of substandard housing (67).

                               References

    1. Byers RK, Lord EE. Late effects of lead poisoning on mental 
development. Am J Dis Child 1943:66:471-484.
    2. Needleman HL, Gunnoe C, Leviton A, et al. Deficits in 
psychologic and classroom performance of children with elevated dentine 
lead levels. N Engl J Med 1979;300:689-95.
    3. Needleman HL, Schell A, Bellinger D, Leviton A, Allred EN. The 
long-term effects of exposure to low doses of lead in childhood: An 11-
year follow-up report. N Engl J Med 1990;322:83-88.
    4. Rice DC. Lead-induced changes in learning: Evidence for 
behavioral mechanisms from experimental animal studies. Neurotoxicology 
1993;14:167-178.
    5. Cory-Slechta D. Relationships between Pb-induced changes in 
neurotransmitter system function and behavioral toxicity. 
Neurotoxicology 1997;18:673-88.
    6. Rice DC. Parallels between attention deficit hyperactivity 
disorder and behavioral deficits produced by neurotoxic exposure in 
monkeys. Environ Health Perspect 2000; 108 Suppl 3:405-408.
    7. Lidsky TI, Schneider JS. Lead neurotoxicity in children: basic 
mechanisms and clinical correlates. Brain. 2003;126:5-19.
    8. Baghurst PA, McMichael AJ, Wigg NR, et al. Environmental 
exposure to lead and children's intelligence at the age of seven years. 
N Engl J Med 1992;327:1279-1284.
    9. Bellinger DC, Stiles KM, Needleman HL. Low-level lead exposure, 
intelligence and academic achievement: A long-term follow-up study. 
Pediatrics 1992;90:855-861.
    10. Dietrich KN, Berger OG, Succop PA, Hammond PB, Bornschein RL. 
The developmental consequences of low to moderate prenatal and 
postnatal lead exposure: intellectual attainment in the Cincinnati Lead 
Study cohort following school entry. Neurotoxicol Teratol 1993;15:37-
44.
    11. Factor-Litvak P, Wasserman G, Kline JK, et al. The Yugoslavia 
prospective study of environmental lead exposure. Environ Health Persp 
1999;107:9-15.
    12. Wasserman GA, Liu X, Lolacono NJ, et al. Lead exposure and 
intelligence in 7-year-old children: the Yugoslavia Prospective Study. 
Environ Health Perspect 1997;105:956-962.
    13. Fulton M, Raab G, Thomson G, Laxen D, Hunter R, Hepburn W. 
Influence of blood lead on the ability and attainment of children in 
Edinburgh. Lancet 1987;1:1221-1226.
    14. National Research Council. Lead Exposure in Infants, Children 
and Pregnant Women. National Academy Press, 1993
    15. World Health Organization, International Programme on Chemical 
Safety. Environmental Health criteria 165--inorganic lead 1995, Geneva, 
Switzerland.
    16. Centers for Disease Control. Preventing Lead Poisoning in Young 
Children: A statement by the Centers for Disease Control, October 1991. 
Atlanta, GA: U.S. Department of Health and Human Services.
    17. Patterson CC. Contaminated and natural lead environments of 
man. Arch Environ Health 1965;11:344-360.
    18. Schwartz J. Low-level lead exposure and children's IQ: A meta-
analysis and search for a threshold. Environ Res 1994;65:42-55.
    19. Schwartz J, Otto D. Lead and minor hearing impairment. Arch 
Environ Health 1991;46:300-305.
    20. Lanphear BP, Dietrich KN, Auinger P, Cox C. Cognitive deficits 
associated with blood lead levels < 10 mg/dl in U.S. children and 
adolescents. Public Health Reports 2000;115:521-529.
    21. Canfield RL, Henderson CR, Cory-Slechta DA, Cox C, Jusko TA, 
Lanphear BP. Intellectual impairment in children with blood lead 
concentrations below 10 micrograms per deciliter. N Engl J Med 
2003;348:1517-1526.
    22. Bellinger DC, Needleman HL. Intellectual impairment and blood 
lead levels. N Engl J Med 2003;349:500-502.
    23. Bellinger D, Dietrich KN. Low-level lead exposure and cognitive 
function in children. Pediatric Annals 1994;23:600-605.
    24. Moffitt TE. Adolescence-limited and life-course-persistent 
antisocial behavior: a developmental taxonomy. Psychol Rev 1993; 
100:674-701.
    25. Moffitt TE. Measuring children's antisocial behaviors. JAMA 
1996; 275:403-404.
    26. Denno D. Biology and Violence. New York: Cambridge University 
Press, 1990.
    27. Rutter M. A children's behaviour questionnaire for completion 
by teachers: preliminary findings. J Child Psychol Psychiatry 1967; 
8:1-11.
    28. Sciarillo WG, Alexander G, Farrell KP. Lead exposure and child 
behavior. Am J Public Health 1992; 82:1356-60.
    29. Needleman HL, Reiss JA, Tobin MJ, Biesecker GE, Greenhouse JB. 
Bone lead levels and delinquent behavior. JAMA. 1996;275:363-369.
    30. Dietrich K, Ris M, Succop P, Berger O, Bornshein R. Early 
exposure to lead and juvenile delinquency. Neurotox Teratol 
2001;23:511-518.
    31. Borja-Aburto VH, Hertz-Picciotto I, Rojas Lopez M, Farias P, 
Rios C, Blanco J. Blood lead levels measured prospectively and risk of 
spontaneous abortion.Am J Epidemiol. 1999;150:590-597.
    32. Dietrich KN. Environmental chemicals and child development. J 
Pediatr 1999;134:7-9.
    33. Dobbing, J. (1981). The later development of the brain and its 
vulnerability. In J.A. Davis & J. Dobbing (Eds.). Scientific 
foundations of Paediatrics. 2nd Edition. London: Heinemann.
    34. Lanphear BP, Hornung R, Ho M, Howard CR, Eberly S, Knauf K. 
Environmental lead exposure during early childhood. Journal of 
Pediatrics 2002;140:40-47.
    35. Ziegler EE, Edwards BB, Jensen Rl, Mahaffey KR, Fomon SJ. 
Absorption and retention of lead by infants. Pediat Res 1978;12:29-34.
    36. Lanphear BP. The paradox of lead poisoning prevention. Science 
1998;281:1617-1616.
    37. Sargent JD, Brown MJ, Freeman JL, Bailey A, Goodman D, Freeman 
DH. Childhood lead poisoning in Massachusetts communities: Its 
association with sociodemographic and housing characteristics. Am J 
Public Health 1995;85:528-534.
    38. Lanphear BP, Byrd RS, Auinger P, Schaffer S. Community 
characteristics associated with elevated blood lead levels in children. 
Pediatrics 1998;101:264-271.
    39. Brown MJ, Shenassa E, Matte TD, Catlin SN. Children in Illinois 
with elevated blood lead levels, 1993-1998, and lead-related pediatric 
hospital admissions in Illinois, 1993-1997. Public Health Rep. 
2000;115:532-536.
    40. Schwartz J. Lead, blood pressure, and cardiovascular disease in 
men. Arch Environ Health 1995;50:31-37.
    41. McDonald JA Potter NU. Lead's legacy? Early and late mortality 
of 454 lead-poisoned children. Arch Environ Health 1996;51:116-121.
    42. Watson GE, Davis BA, Raubertas RF, Pearson SK, Bowen WH. 
Influence of maternal lead ingestion on caries in rat pups. Nat Med. 
1997;3:1024-1025.
    43. Moss ME, Lanphear BP, Auinger P. Association of dental caries 
and blood lead levels among the U.S. population. JAMA 1999;281:2294-
2298.
    44. Borja-Aburto VH, Hertz-Picciotto I, Rojas Lopez M, Farias P, 
Rios C, Blanco J. Blood lead levels measured prospectively and risk of 
spontaneous abortion. Am J Epidemiol 1999;150:590-597.
    45. Dietrich KN, Berger OG, Succop PA. Lead exposure and the motor 
developmental status of urban six-year-old children in the Cincinnati 
Prospective Study. Pediatrics 1993;91:301-307.
    46. Wasserman GA, Musabegovic A, Liu X, Kline J, Factor-Litvak P, 
Graziano JH. Lead exposure and motor functioning in 4(1/2)-year-old 
children: the Yugoslavia prospective study. J Pediatr 2000;137:555-561.
    47. Ballew C, Khan LK, Kaufmann R, Mokdad A, Miller DT, Gunter EW. 
Blood lead concentration and children's anthropometric dimensions in 
the Third National Health and Nutrition Examination Survey (NHANES 
III), 1988-1994. J Pediatrics 1999;134:623-630.
    48. Rogan WJ, Dietrich KN, Ware JH, et al. The effect of chelation 
therapy with succimer on neuropsychological development in children 
exposed to lead. N Engl J Med. 2001;344:1421-1426.
    49. Landriigan PJ, Schechter CB, Lipton JM, Fahs MC, Schwartz J. 
Environmental pollutants and disease in American children: Estimates of 
morbidity, mortality, costs fro lead poisoning, asthma, cancer and 
developmental disabilities. Env Health Persp 2002:110:721-728.
    50. Clark S, Bornschein R, Succop P, Roda S, Peace B. Urban lead 
exposures of children in Cincinnati, Ohio. Chemical Speciation 
Bioavailability 1991;3:163-171.
    51. McElvaine MD, DeUngria EG, Matte TD, Copley CG, Binder S. 
Prevalence of radiographic evidence of paint chip ingestion among 
children with moderate to severe lead poisoning, St Louis, Missouri, 
1989 through 1990. Pediatrics 1992;89:740-742.
    52. Shannon MW, Graef JW. Lead intoxication in infancy. Pediatrics 
1992;89:87-90.
    53. Lanphear BP, Roghmann KJ. Pathways of lead exposure in urban 
children. Environmental Research 1997;74:67-73.
    54. Lanphear BP, Weitzman M, Winter NL, Eberly S, Yakir B, Tanner 
M, Emond M, Matte TD. Lead-contaminated house dust and urban children's 
blood lead levels. Am J Public Health 1996;86:1416-1421.
    55. Lanphear BP, Matte TD, Rogers J, et al. The contribution of 
lead-contaminated house dust and residential soil to children's blood 
lead levels: A pooled analysis of 12 epidemiologic studies. 
Environmental Research 1998;79:51-68.
    56. Sayre JW, Charney E, Vostl J, et al. House and hand dust as a 
potential source of childhood lead exposure. Am J Dis Child 1974; 
127:167-170.
    57. Aschengrau A, Beiser A, Bellinger D, Copenhafer D, Weitzman M. 
The impact of soil lead abatement on urban children's blood lead 
levels: phase II results from the Boston Lead-In-Soil Demonstration 
Project. Environ Res 1994;67:125-148.
    58. Landrigan PJ, Gehlbach SH, Rosenblum BF, et al. Epidemic lead 
absorption near an ore smelter: the role of particulate lead. New Engl 
J Med 1975;292:123-129.
    59. Lanphear BP, Succop P, Roda S, Henningsen G. The Effect of Soil 
Abatement on Blood Lead Levels in Children living near a Former 
Smelting and Milling Operation. Public Health Reports 2003;118:83-90.
    60. U.S. Environmental Protection Agency. Drinking water 
regulations--maximum contaminant level goals and national primary 
drinking water regulations for lead and copper; Final Rule. Federal 
Register 1991;56:26460-26564.
    61. Watt GCM, Britton A, Gilmour WH, et al. Is lead in tap water 
still a public health problem? An observational study in Glasgow. BMJ 
1996;313:979-981.
    62. Levin R, Schock MR, Marcus A. Exposure to Lead in US Drinking 
Water. Trace Substances Environ Health 1989;319-344.
    63. Clark CS, Bornschein RL, Succop P, Que Hee SS, Hammond PB, 
Peace B. Condition and type of housing as an indicator of potential 
environmental lead exposure and pediatric blood lead levels. Environ 
Res 1985; 38:46-53.
    64. Committee on Toxicology, Assembly of life Sciences, National 
Research Council. Recommendations for the prevention of lead poisoning 
in children. Nutrition Rev 1976;34:321-327.
    65. U.S. Environmental Protection Agency. 40 CFR part 745. Lead; 
identification of dangerous levels of lead: Final Rule. Federal 
Register 2001;66:1206-1240.
    66. Turner AJ. Lead poisoning in childhood. Australasian Med 
Congress (Melbourne) 1908:2-9.
    67. Barltrop D. Children and lead. AJDC 1974;127:165-166.

    Mr. Gillmor. Thank you very much, Doctor, and we appreciate 
you coming.
    Let us proceed to the first round of questions. My first 
question would be for you, Mr. Rutherford. I believe that ASDWA 
opposes a maximum containment level standard for lead in 
drinking water. Is that correct?
    Mr. Rutherford. Our recommendation is that we retain the 
aspect of the rule with an action plan, and so forth.
    Mr. Gillmor. All right. And, Mr. Stovall and Mr. Correll, 
Mr. Ramaley, would you agree with that assessment by Mr. 
Rutherford?
    Mr. Correll. Yes.
    Mr. Stovall. Yes.
    Mr. Ramaley. Yes.
    Mr. Gillmor. All right. And back to Mr. Rutherford, you did 
mention that ASDWA is willing to work with EPA on reviewing the 
lead and copper rule, because certain revisions need to be made 
to the rule. Could you elaborate on what revisions you think 
need to be made?
    Mr. Rutherford. I think we need to review the rule, and I 
am not sure it necessarily--what specific changes we might need 
to make. But we did have 2 or 3 suggestions for that, and the 
one that I think is most important is that the current rule 
requirements related to non-transient, non-community water 
systems, which in many States are typically schools and places 
where people go every day to work, it is not--if those systems 
are part of a host system, it is not clear how well those are 
being sampled. And we may want to look at special provisions 
for those kinds of places.
    If they have their own sources of supply, they are already 
testing under the lead and copper rule, but the others aren't. 
So that would be the most significant recommendation that we 
would make. And then we have a couple of others that mostly 
would kind of reduce some of the reporting burden and some 
ongoing monitoring that wouldn't be necessary. But that one in 
particular is one that I would like to most explore with the 
agency.
    Mr. Gillmor. Thank you very much.
    And, Mr. Colangelo, I think it is apparent from today's 
testimony that there is not a consensus for creating an MCL for 
lead in drinking water. You had testified that a second best 
alternative, the EPA rule needs a serious overhaul. And what 
suggestions specifically would you make for that overhaul?
    Mr. Colangelo. Well, NRDC's position is that, first, the 
lead and copper rule should be replaced by an MCL. And the 
situation in DC is a perfect example of why, under the lead and 
copper rule, if under 10 percent of the samples are over the 
action level that is no problem. But if over 10 percent are 
over the action level, that is a problem.
    And so what happened in 2000 to 2001, 5 out of 52 samples 
came in----
    Mr. Gillmor. That not my question.
    Mr. Colangelo. Sure. Assuming that----
    Mr. Gillmor. My question was: what specific suggestions 
would you make for the overhaul?
    Mr. Colangelo. Assuming that there is no MCL, I think one 
of the first things we would do to change the lead and copper 
rule is to make lead-free really mean lead-free as opposed to 
up to 8 percent of fittings and solder can be lead. So our 
first step would be lead-free should really mean lead-free.
    I think we would also require more clear and better public 
education efforts, and what we see from what happened in DC is 
that sending notices to The Washington Post and The Washington 
Times, even if it did include the required language, that 
wasn't sufficient. And when we have access to e-mail or 
internet or cable news, there are other ways and there are more 
creative ways to make the public aware of the problem. So that 
once WASA did start to tell people about it it doesn't linger 
in the background, and it really does get some attention.
    So those are two of the most important things we would 
change, and other changes are outlined in our written 
testimony.
    Mr. Gillmor. Thank you.
    And now, Mr. Stovall, your written testimony talks about 
funding concerns for security need at drinking water delivery 
facilities. And during our committee's consideration of a 
bioterrorism bill that provided standards and funding for 
drinking water utilities to upgrade their systems to confront 
new terrorism issues, AWWA and other drinking water utilities 
argued that putting funding in the drinking water revolving 
fund would chill activity, and a better method would be direct 
funding.
    Now, with the lack of funds that you have identified in 
SFR, and the need to be able to face terror quickly, why are 
you now advocating for a system that you would consider both 
underfunded and too slow? Has something changed?
    Mr. Stovall. No, sir, nothing particularly has changed. The 
concept of using the SRF mechanism to get money to systems all 
across the country, large and small, is a very valid and 
effective one, and has proven to be extraordinarily successful. 
That is an avenue that can help direct some funds perhaps 
toward hardening our systems.
    But mostly for large capital investments that had to do 
with hardening a system, water system in particular, that would 
significantly deplete those funds under the SRF. Funds are 
scarce. Other needs exist. And if heavy hardening is required, 
perhaps other funding mechanisms may be appropriate.
    Mr. Gillmor. Thank you very much. My time has expired, and 
I would just take note of the fact that bells are going off, 
which indicates that we are going to do a series of votes. But 
hopefully we can conclude and still be over there in time to 
vote.
    Let me go to the ranking member for questions.
    Ms. Solis. Thank you. I don't know if I should say saved by 
the bell.
    Because I feel like we really need to have a much longer 
discussion. But I wanted to ask our witness, Dr. Lanphear, if 
you could describe to me at what levels would water be lead-
free that would not be harmful to children? At what parts per 
billion could you identify?
    Mr. Lanphear. Well, I think I would reflect what EPA said 
back in 1991, that the goal should be zero. Now, that is going 
to take some time, but I think we are at a point now where 
there has been----
    Mr. Gillmor. Could you use the mike, if you don't mind.
    Mr. Lanphear. Yes, I am sorry. I would first reflect what 
the EPA said 10 or more years ago that the goal should be zero. 
I think the question is, now that we have made some progress in 
reducing the levels over the past 10 or more years, can we now 
set new goals? And I would suggest, from the standpoint of 
children's health, yes, it would be worthwhile and important to 
do so.
    When we look at the relationship of lead contaminated water 
and children's blood lead levels, even after taking into 
account paint, income of the family, mouthing behaviors, and so 
forth, there is no threshold. There is no apparent threshold. 
At any level it will, to a greater or lesser extent, increase 
children's blood lead levels and pregnant women's blood lead 
levels.
    We also see no threshold when it comes to looking at the 
impact of lead exposure on children's intellectual abilities. 
And so I would say and agree with the EPA that the goal should 
be as close to zero as we can get it over the next decade or 
more.
    Ms. Solis. And I know some States are doing a much better 
job in trying to educate. Could you elaborate on maybe some 
innovative things that other parts of the country are doing to 
help address this?
    Mr. Lanphear. I am not sure. I would say that for the most 
part we are doing a good job anywhere in the country except 
where there are strong community groups who are pushing for 
changes. Right now, I get 2 to 3 phone calls a week from moms 
mostly.
    I don't have any place to turn them to. I have to provide 
answers to them, because CDC has not responded to what their 
concerns are, and that is mothers are becoming more and more 
concerned about lower blood lead levels, whereas our Federal 
agencies have not responded to those new studies as of yet.
    Ms. Solis. Could you tell me what the impact of the 300 ppb 
would be? What effect does that have over a short period of 
time for a child, or a pregnant mother?
    Mr. Lanphear. When you say 300 ppb--oh, in terms of the 
water lead levels of 300 parts per billion.
    Ms. Solis. Yes. It was found here in DC.
    Mr. Lanphear. Yes. It is very hard, because we don't have 
specific data on that. I could go to a paper and provide you 
with one estimate. I think one of the points that has been made 
here is that if water--if lead contaminated water was the only 
source, except in very unusual cases, it is unlikely that that 
child will have a blood lead level that exceeds 10 micrograms 
per deciliter. So that is not really what we are talking about 
as much as incremental increases.
    Now, I would say if you go back to a Boston study where 
children in their first year of life who had blood lead levels 
in excess of 25 micrograms per deciliter, many of them, it was 
believed at the time, had levels that were excessive because of 
lead in water. They did not do a thorough job, though, of 
trying to explore other sources.
    It is clear, though, that lead in water is an important 
source. Our estimates from our study in Rochester, New York, 
suggested, as the EPA did, about 20 percent of a child's blood 
lead level, children in the first 2 years of life, comes from 
lead and water. But it is also clear that as other sources are 
reduced, the amount from lead and water will increase, or the 
proportion of a child's lead exposure will increase.
    Ms. Solis. And my next question is for Mr. Stovall. It 
sounds to me as though you are suggesting that there is going 
to be a big gap in funding if we continue on this path. What is 
your opinion about the current request that is being made by 
this administration for the revolving fund?
    Mr. Stovall. Well, certainly, we would like to see that 
funded a little bit higher.
    Ms. Solis. At what level?
    Mr. Stovall. Well, I would have to--I will be happy to get 
back to you, but I would like to obtain that information 
through our Water Utility Council and provide that data to you, 
what the recommended number would be. But it is--again, there 
is----
    Ms. Solis. But would you say that it is not currently 
sufficient?
    Mr. Stovall. I think we would need to take a look at the 
sufficiency of it. I don't know that I could make a 
determination at this juncture whether it is or is not.
    Ms. Solis. Mr. Correll, I would ask you the same question.
    Mr. Correll. We would certainly support higher levels over 
time. I don't have a specific recommendation of a dollar amount 
today. Our major issue in the past has been to make sure that 
everyone had equal access to the State revolving funds.
    Ms. Solis. And would you say that as well, Mr. Ramaley?
    Mr. Ramaley. I think at the current levels of $850 million, 
and considering that a very small percentage of that actually 
goes to municipal systems which are the largest, where most 
lead service lines are located, it is clearly not adequate for 
that. I think some of the estimates that have been made for a 
revolving fund, if the intent is to address lead service line 
replacement issues, would have to be in the order of magnitude 
of perhaps $15 billion over 5 years.
    Ms. Solis. Yes. And I believe that is what, Mr. Stovall, 
you are reporting here in your testimony. You are actually 
saying that at least $15 billion over the next 5 years should 
be provided in Federal assistance to community water systems.
    Mr. Stovall. Yes.
    Ms. Solis. That is correct?
    Mr. Stovall. That is correct.
    Ms. Solis. And Mr. Rutherford?
    Mr. Rutherford. The Association has made a recommendation 
that the SRF be funded at $2 billion per year. And failing 
that, certainly the full authorization amount as well. We have 
also recommended that we make up for the shortfalls over the 
last 7 years of the fund as well.
    Ms. Solis. All right. And, Mr. Colangelo, could you talk a 
little bit about the maximum contaminant level and what that 
would mean if EPA were to come up with something, so that we 
could begin to structure something and start to address some of 
the issues that were raised.
    Mr. Colangelo. Sure. Under the Safe Drinking Water Act, EPA 
would set both a maximum contaminant level goal, which is 
aspirational, and then a maximum contaminant level, which is 
considered feasible and affordable. I think for lead it is 
clear that a maximum contaminant level goal would be zero, and 
then EPA would set an MCL of either 10 or 15 based on all of 
the science.
    And what that would mean is that, for example, in the case 
of DC, if there were detections that came in over 15, those 
wouldn't be okay as long as they were fewer than 10 percent, as 
is currently the case. Under the lead and copper rule, those 
would be violations of the MCL. So any detection coming in over 
the level is a violation. It would be more enforceable and less 
subject to the kind of vagaries of the data that we saw in the 
past few years in WASA.
    Mr. Gillmor. Time has expired.
    Ms. Solis. Thank you.
    Mr. Gillmor. Let me just make one brief comment on 
authorization levels. I mean, we could authorize $100 billion 
or a trillion and make us look good. But what ultimately counts 
is how much money actually gets squeezed out in the budget, and 
that is not something we do.
    I am going to keep the record open for 7 days for any 
members to submit further questions. We would appreciate if you 
could answer any questions that might be submitted, hopefully 
in a timely fashion. We would like to be able to close the 
record on the hearing in 30 days.
    I want to express my appreciation, and the appreciation of 
the subcommittee, for all of you coming and for your helpful 
testimony.
    Thank you very much.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

    Association of State Drinking Water Administrators Responses to 
 Questions of the Subcommittee on Environmental and Hazardous Materials

    Question 1. You mention the importance of addressing lead pathways 
in drinking water to daycare centers and schools. Has ASDWA been a 
partner in EPA's efforts under the Lead Contamination Control Act 
(LCCA) and other initiatives headed by Mr. Grumbles to address these 
concerns? Do you believe these are effective and what else should be 
done?
    Response: Yes, ASDWA and states have been partners with EPA in 
these efforts and stand ready to work with the Agency and other 
drinking water stakeholders to explore ways to continue to reduce 
waterborne lead exposure at schools and daycare centers. In response to 
a March 18, 2004 letter from Mr. Grumbles on this topic, states 
indicated that, in general, they implement the requirements associated 
with the LCCA and continue to focus on ensuring that schools with their 
own water systems are in compliance with the Lead and Copper Rule 
(LCR). Some states have gone well beyond existing Federal regulatory 
requirements to further improve drinking water quality and 
environmental health at schools and daycares--including expanded 
monitoring activities, replacement of lead-lined water coolers, 
outreach efforts, and partnerships with other organizations. However, 
states have also indicated that, without significant additional Federal 
funding, it will be difficult to continue to expand these programs, in 
view of the currently inadequate Federal support for state drinking 
water programs. (See response to question #3 below.)
    We believe the various lead reduction program initiatives 
undertaken by states have been effective, but it is difficult to 
quantify their effectiveness, since exposure to lead via drinking water 
is only one route of lead exposure, and, in many cases, not the 
principal route of exposure. States do not have a specific set of 
national initiatives in response to the ``what else should be done'' 
portion of your question, but look forward to discussions of such next 
steps in the coming months.
    Question 2. Many people are concerned that the information in the 
Safe Drinking Water Information System (SDWIS) database is incomplete. 
Do you agree? If so, what are states doing to eliminate gaps in 
information that EPA needs in order to get a more complete 
understanding of the national drinking water picture?
    Response: In April 2004, EPA released a report entitled ``Data 
Reliability Analysis of the EPA Safe Drinking Water Information System/
Federal Version and Plan.'' That report indicated that the drinking 
water data in the federal database (``SDWIS-FED'') were accurate (i.e., 
the available data in the Federal system agreed with the information in 
state databases) but were incomplete (not all of the data that should 
have been in the Federal system were there). There were a variety of 
reasons for this situation, including technical difficulties in 
transferring data from states to the Federal system. States and EPA are 
currently working together to review the findings of the report and 
determine how to implement the recommendations contained therein to 
improve data quality.
    Historically, most state drinking water data have been stored in 
state-developed data management systems and periodically transferred to 
the Federal database (SDWIS-FED). Over the past decade, EPA has 
developed and made available to states a data management tool, known as 
SDWIS-STATE, for tracking drinking water compliance data at the state 
level. In response, many states have converted their data management 
systems from unique, state-developed systems to SDWIS-STATE. The pace 
of such conversions has picked up dramatically in recent years to the 
point where we expect, within the next year or two, that approximately 
40 states will be using SDWIS-STATE. This situation should greatly aid 
in the uniformity and compatibility of data management and data 
transfer between states and EPA.
    Another promising initiative that will significantly aid state and 
EPA efforts in this regard is an overall effort currently underway to 
modernize SDWIS and streamline the way data are expressed, transferred, 
and stored. The principal components of this new network will be 
developed and in place over the next two years (many are already 
available and being used) and we expect to see some fairly dramatic 
improvements in data reliability as a result. Additionally, states have 
been working with EPA to ensure that lead data in the EPA database are 
current and accurate.
    Question 3. The last time you testified before our committee you 
talking about specific numbers that should be allocated to the Drinking 
Water Revolving Loan Fund. Your testimony on July 22nd clearly stated 
ASDWA's support for the reauthorization of the DWSRF as the primary 
vehicle for drinking water infrastructure. Turning to state resources, 
two years ago, you mentioned a ``funding gap'' of $220 million to $300 
million by Fiscal Year 2005 in the federal Public Water Supply 
Supervision (PWSS) grant level. Since we are there, could you please 
tell us how clear your crystal ball was on that day and what you expect 
in upcoming years?
    Response: You have accurately captured our overall point of view 
with respect to drinking water infrastructure. As noted in our 
testimony of July 22nd before your Subcommittee, we believe that the 
DWSRF should continue to be the primary funding vehicle for 
construction of drinking water infrastructure. We do not believe that 
creating new funding vehicles would comport well with the momentum 
developed by the DWSRF program. While additional funding is certainly 
needed, we would encourage Congress to direct such funding to the DWSRF 
program. EPA's drinking water infrastructure gap estimates for the next 
twenty years range from $178 billion to $475 billion (depending upon 
the set of assumptions one makes). Under any set of projections, the 
needs are great and adequate funding of this important program should 
be a priority, in our view.
    You also asked about state drinking water program resources. I'm 
afraid the figures cited in your question (a state resource gap of $300 
million in FY 2005) are not those that I mentioned in my testimony. 
Please allow me to clarify the record. In ASDWA's testimony before the 
House Appropriations Committee--both this year and last--we referred to 
ASDWA's state resource needs report, entitled ``Public Health 
Protection Threatened by Inadequate Resources for State Drinking Water 
Programs.'' This report was a census of all 50 states (i.e., rather 
than an extrapolation of information from a limited number of states.) 
Thus, we believe the numbers to be quite accurate for a study of this 
type. The overall findings in that report were that a gap of 
approximately $230 million existed in 2002 between the funds available 
to administer state drinking water programs and the funds actually 
available. That funding gap is projected to grow to approximately $370 
million by 2006. State resources continue to be severely strapped and I 
would estimate that the gap by 2006 will be at least the amount we 
projected a few years ago. The PWSS Federal grant program used to 
constitute the lion's share of funding needed to run state programs but 
has made up a steadily decreasing share, since Federal funding has 
essentially been ``flat'' for the past several years. Meanwhile, the 
demands on state drinking water programs have increased dramatically 
since the enactment of the 1996 amendments to the Safe Drinking Water 
Act and the advent of all of the security needs in the wake of the 
events of September 11, 2001.
    In addition to PWSS grant funds, many states are able to fund 
substantial elements of their state drinking water programs from 
various ``set-asides'' allowed by the DWSRF. These set-asides are fixed 
percentages of the fund that may be used by states for various state 
program activities such as providing technical assistance to drinking 
water systems; developing and implementing drinking water system 
capacity development programs; and administering drinking water system 
operator certification programs. Thus, sustained and enhanced funding 
for the DWSRF programs, as advocated above, not only provides loan 
funds for critical infrastructure needs but also helps address part of 
the state drinking water program resource gap I have described.
    Question 4. Your organization is responsible for enforcing the 
drinking water laws of the Federal government in your state. Mr. 
Johnson [of the D.C. Water and Sewer Authority], argued that the 
District of Columbia should be given primacy to operate their drinking 
water program. In view of their past performance, do you think they 
have the wherewithal to do it?
    Response: States may apply for ``primacy'' to administer federal 
drinking water regulations, provide they meet the requirements set 
forth in the Federal regulations at 40 CFR Section 142, Subpart B. The 
requirements include state regulations (that must be at least as 
stringent as their Federal counterparts), adequate authority to enforce 
these regulations, and a variety of technical and programmatic 
capabilities. Please also note that a state cannot apply for primacy 
for only a single rule (such as the Lead and Copper Rule). States must 
seek primacy approval for all Federal drinking water regulations.
    ASDWA is not in a position to judge whether or not the District of 
Columbia has the wherewithal to operate such a program in light of 
recent events. If the District wished to pursue this course of action, 
they would need to compile a primacy application that met all of the 
relevant regulatory requirements and submit this to U.S. EPA. The 
Agency would then need to carefully evaluate this application and make 
the appropriate finding.
                                 ______
                                 
                          Natural Resources Defense Council
                                                    August 18, 2004
The Honorable Paul E. Gillmor, Chairman
Subcommittee on Environment & Hazardous Materials
1203 Longworth House Office Building
Washington, DC 20515
    Dear Representative Gillmor, thank you for the opportunity to 
testify before the Subcommittee last month for the hearing entitled 
``Tapped Out? Lead in D.C. and the Providing of Safe Drinking Water.'' 
This letter is in response to your letter of August 3, 2004, requesting 
that NRDC answer the four follow-up questions listed below.
    Question 1. Can you describe for us the relationship between the 
water distribution system and protection of the public health, be it 
wastewater or drinking water?
    Response: Deteriorating or inadequate drinking water distribution 
systems, particularly in combination with deteriorating or inadequate 
sewage pipes, can pose significant public health risks that need to be 
addressed by EPA rules. First, aging infrastructure causes more than 
200,000 water main breaks per year, which can cause back-siphoning of 
contaminants and infiltration of contaminated water from groundwater 
through pressure loss. This is an especially troublesome issue when a 
water main break occurs near leaking sewage lines. Second, poorly 
maintained and aging pipes can lead to biofilms, regrowth, 
nitrification, and resulting buildup of bacteria and perhaps other 
pathogens. Scientific studies, including those of Dr. Pierre Payment (a 
leading international drinking researcher at the prestigious Institut 
Armand-Frappier in Canada), indicate that a significant percentage of 
diarrheal disease and gastrointestinal distress may be caused by 
bacteria and pathogens in the water distribution system. Third, 
inadequate infrastructure also can create problems with microbial 
regrowth due to water age from, for example, dead ends in distribution 
pipes and lack of turnover in water storage. Fourth, as seen in D.C. 
recently, lead contaminates drinking water by leaching from lead 
service lines, goosenecks, and other lead components in old pipes. 
Fifth, cross connections can cause chemical and microbial contaminants 
to reach drinking water. Sixth, plastic pipes can allow permeation of 
solvents and organic chemicals that contaminate groundwater in 
brownfields or near leaking underground storage tanks (``LUST''). 
Seventh, uncovered finished water reservoirs in some cities can allow 
serious bacterial and other contamination by birds and surface water 
runoff.
    EPA and industry consultants have prepared a series of white papers 
that outline each of these potential adverse public health consequences 
of inadequate infrastructure in greater detail. See EPA, Distribution 
System White Papers, at http://www.epa.gov/safewater/tcr/
tcr.html#distribution.
    Question 2. In light of Mr. Grumbles testimony, assessing the 
pervasiveness of the lead contamination problem nation-wide, what is 
your estimation of the remaining threat of lead in the water 
distribution system?
    Response: There are significant problems with lead in many cities. 
EPA has not done a good job of keeping on top of the problem and 
assuring adequate monitoring and follow-up in cities that are at or 
close to the action level. Mr. Grumbles testified during the 
subcommittee hearing that lead in drinking water is not a national 
problem. However, EPA's survey of medium and large systems has found 
that at least 10.2 million people are served by systems with lead 
contamination problems. Moreover, NRDC believes that careful auditing 
and monitoring of other cities will likely turn up additional lead 
problems.
    Question 3. Do you agree with the assessment of some other 
witnesses that water service, in particular drinking water, has been 
under priced?
    Response: Drinking water is cheaper in most cities than other 
utilities including cable TV, telephones, cell phones, electricity, 
gas, etc. We are generally living off infrastructure investments made 
by earlier generations. In some cases, the price charged for water does 
not reflect the full cost of delivering the water, and as more water 
infrastructure investments are made, these costs are likely to increase 
in many areas. However, as we move towards higher water prices due to 
the need to replace and upgrade aging infrastructure, it is important 
to keep in mind that some low-income members of society will have 
difficulty paying their increasing water bills and other necessities. 
We recommend the establishment of a Water HELP (HElp for Low-income 
People) Program akin to the LIHEAP program for energy assistance, and 
lifeline rates for low-income residents. Furthermore, NRDC endorses 
increased funding for the Drinking Water State Revolving Fund, with 
special consideration given to assisting small systems. Finally, 
comprehensive water infrastructure assistance legislation, including 
creative solutions to the funding gap, is needed to help cities and 
towns pay for their needed water infrastructure improvements.
    Question 4. Do you or NRDC have any independent quantification of 
what you see as the drinking water funding gap?
    Response: No. We rely upon the estimates provided by EPA, the Water 
Infrastructure Network, and the Congressional Budget Office.
    Thank you very much for the opportunity to testify and to answer 
these follow-up questions.
            Sincerely,
                                                    Aaron Colangelo
                                 ______
                                 
 Thomas Jacobus, General Manager, Washington Aqueduct, U.S. Army Corps 
                 of Engineers, Response for the Record

    Question 1. Your testimony states that the Washington Aqueduct 
recently switched to a new corrosion inhibitor chemistry based on an 
orthophosphate compound over the use of chloramines. Could you please 
tell us what the disinfectant by-product trade-off is between the 
current chemical regime and the one used before? If the current 
chemical treatment protocol remains effective, would you recommend that 
it become a more permanent feature?
    Response: I should clarify that for our entire service area, 
Washington Aqueduct expects to begin feeding orthophosphate as a 
corrosion inhibitor on August 23, 2004. For a small area in the 
District of Columbia, we began a partial system application of 
orthophosphate on June 1, 2004. That independent local application will 
cease when the full system application begins since the full system 
application will cover this smaller area as well.
    The decision to add a corrosion inhibitor was independent of the 
decision to switch from chlorine to chloramine as a distribution system 
disinfectant. The corrosion inhibitor and the disinfectant are both 
important parts of the overall treatment process, but they do very 
different, and independent things. The corrosion inhibitor reduces the 
naturally corrosive effect of the water when it comes into contact with 
pipe and plumbing surfaces. The disinfectant kills bacteria that could 
cause gastrointestinal distress in humans.
    The planned full application of orthophosphate as a corrosion 
inhibitor is a new step to enhance the optimal corrosion control 
treatment, which heretofore has been accomplished by the use of lime to 
raise the pH of the water leaving the plant.
    The change in secondary disinfectant was undertaken in response to 
the Disinfectants and Disinfection Byproducts Rule, which reduced the 
allowable concentration of total trihalomethanes in the distribution 
system. Prior to the fall of 2000, the Washington Aqueduct used free 
chlorine for both primary (treatment plant) and secondary (distribution 
system) disinfection. Since November 1, 2000, Washington Aqueduct has 
used free chlorine for primary disinfection and chloramine for 
secondary disinfection. Since converting to chloramines we have 
observed a dramatic decrease in disinfection by-product formation. 
Previously, the District of Columbia distribution system's running 
annual average for total trihalomethanes was 75 micrograms/liter; since 
converting to chloramines, the running annual average is now 40 
micrograms per liter.
    We intend to continue to use chloramine to keep the disinfection 
byproducts low, and we expect that the addition of the orthophosphate 
corrosion inhibitor will over time (in the presence of the chloramine 
disinfectant) reduce leaching from lead surfaces by establishing a 
mineral film on those surfaces.
    Question 2. Is the orthophosphate regime simply the fastest 
combination to achieve the reductions in lead or is it the most 
effective? Please explain what other alternatives were contemplated for 
this situation and why they were not used? What has this treatment 
regime meant for intended water line replacement? Is replacing all the 
lead service lines a reasonable thing to do if such progress is being 
made?
    Response: In terms of corrosion inhibitors in use around the United 
States there is no one chemical that has been shown to be faster than 
another. The orthophosphate regime is the most commonly used corrosion 
inhibitor, and it has been extremely successful in reducing corrosion 
potential nation-wide. Zinc orthophosphate was contemplated; however, 
there were some concerns regarding zinc's impact on biological 
wastewater treatment. After consultation with nationally regarded 
experts, we recommended to EPA Region III that we use orthophosphate as 
the corrosion inhibitor. They have subsequently issued us an interim 
Optimal Corrosion Control Treatment directive incorporating 
orthophosphate, which we will follow.
    Other inhibitors (such as silicates) were ruled out through the 
desktop corrosion study as not being as effective for the water quality 
of treated Potomac River water in terms of corrosion abatement.
    Corrosion scientists working for EPA and in private industry with 
whom we have consulted have offered some ideas about the role chlorine 
may play in creating a lead oxide coating in service lines. That would 
suggest that the use of free chlorine in conjunction with an 
orthophosphate corrosion inhibitor might form protective scales more 
expeditiously than the corrosion inhibitor in the presence of 
chloramine. In order to comply with the EPA rule on disinfection 
byproducts it will not be possible to change the disinfectant from 
chloramine to chlorine. Were we to do so, the levels of total 
trihalomethanes would exceed current regulatory standards. Lowering the 
trihalomethanes levels was the purpose of conversion to chloramine as 
the distribution system disinfectant in the fall of 2000. However, 
Washington Aqueduct, in cooperation with Region III of the 
Environmental Protection Agency plans to conduct a study to see what 
combination of other treatment changes might be possible in the future, 
to allow free chlorine to be used. While that is being studied, more 
scientific research can be done on the aforementioned hypothesis.
    Under EPA regulations, once a system's required monitoring under 
the Lead and Copper Rule achieves levels below the action level for two 
consecutive periods (one year in the case of the District of Columbia) 
it is possible to suspend the replacement of lead service lines. This 
is based on the logic that the passivating chemical (i.e., the 
orthophosphate) has done its job and lead release has been reduced to 
the limits in the rule. However, the decision to cease lead service 
line replacement is in the hands of the District of Columbia Water and 
Sewer Authority and EPA Region III, not Washington Aqueduct. We will 
continue to feed an appropriate dose of corrosion inhibitor regardless 
of what decision is made about lead service line replacement.
    I must defer to the District of Columbia Water and Sewer Authority 
Board of Directors and the Authority's General Manager to comment on 
what they believe is reasonable in this regard. However, I would say 
that the issue of the public portion versus the private portion of the 
lead service line is important. If only the public portion is replaced, 
there still will be water flowing through lead pipes. From our 
perspective, that is why it is so important that we continue to achieve 
optimal corrosion control treatment for water leaving the treatment 
plants.
    Question 3. Your testimony states that the District of Columbia, 
Arlington County, and Falls Church all conducted studies to determine 
the optimal corrosion control. Did all of them decide on the same 
treatment regime? Did any of them ask for something else and, if so, 
what was it?The intent of my testimony concerning the initial studies 
done to determine an appropriate optimal corrosion control treatment in 
response to the 1991 Lead and Copper Rule was to point out that 
Washington Aqueduct consulted with its customers and kept them apprised 
of the results and recommendations of Washington Aqueduct's consultant. 
Those jurisdictions took no active part in conducting those studies. 
But what they did do was to evaluate the consequences in their 
wastewater collection and treatment systems of the use of a phosphate-
based inhibitor. Since at the time of the study all three customers 
were meeting the Lead and Copper Rule action level, they individually 
informed EPA Region III that they were in favor of Washington Aqueduct 
using pH control with lime.
    Response: In the analysis and decision-making of the last few 
months, all of Washington Aqueduct's wholesale customers, as members of 
the technical expert working group have agreed to proceed with the 
phosphates. As I said in the response to the previous question, 
Arlington County did raise the question about the suggested use of zinc 
orthophosphate and their concerns were evaluated and the group and the 
independent peer review panel accepted the use of orthophosphates, 
without the zinc, as the chemical to use as part of the optimal 
corrosion control treatment revisions now approved by the Environmental 
Protection Agency.
    Question 4. Your testimony mentions that the Washington Aqueduct 
paid ``very close attention'' to water chemistry and the samples taken. 
If that was the case, was the Washington Aqueduct curious at all when 
D.C. WASA was able to get under the Federal lead action level for 2001 
when it seemed almost certain from several other reports that they 
would exceed it? Did the Aqueduct and D.C. WASA ever compare notes or 
samples to see if the results tracked each other?
    Response: The Washington Aqueduct organization is both vigilant and 
engaged with respect to its water production responsibilities. We are 
keenly aware of maximum contaminant limit thresholds that apply to both 
production and distribution system water quality. We look daily at our 
customers' performance under the Total Coliform Rule and their monthly 
and quarterly and annual compliance with the Disinfectants and 
Disinfection Byproducts Rule and consult with both them and EPA Region 
III routinely and by exception to alert them to any signs of impending 
rule violation or a matter potentially affecting public health.
    When we analyzed lead and copper samples for our customers, the 
laboratory chief would immediately notify the customers' water quality 
managers (this would include DC WASA of course) if any lead sample was 
greater than 15 micrograms/liter.
    But unlike the other rules, with these lead samples, no individual 
value necessarily created an exceedance of the Lead and Copper Rule. 
Since we were not managing the number of samples drawn, we therefore 
were not able to monitor what was occurring at the 90th percentile.
    We have certainly learned from the experience in 2004 that we could 
have been more engaged to help our customers, and we are making new 
efforts to systematically share more information with each other on 
these and other quality water production issues. For example, reports 
that went from WASA to EPA will now be shared with Washington Aqueduct 
so that we get a look at the bigger picture.
    All during this time, Washington Aqueduct was operating under an 
Optimal Corrosion Control Treatment (OCCT) regime that had been 
directed by EPA. We paid very close attention to the chemistry that 
would achieve compliance with that OCCT. That is what I was referring 
to in my testimony. We do not have authority to change treatment 
independently. We need EPA's approval. So it is important that the 
Washington Aqueduct, DC WASA, and EPA are able to evaluate the 
situation from a common perspective. That certainly is a lesson learned 
and it will improve in the future.
    Question 5. Your testimony mentions that the high lead levels in 
D.C. drinking water in 2002 and 2003 ``indicated that Washington 
Aqueduct's optimal corrosion control treatment'' was ``no longer giving 
adequate protection.'' What actions did the Washington Aqueduct take in 
2002 after D.C. WASA reported that their lead levels exceeded Federal 
standards? If lead samples were showing problems in 2001 and 2002, why 
did it take until 2004 until the Corps executed a change in the 
corrosion control treatment?
    Response: In my testimony about the protectiveness of our optimal 
corrosion control treatment, I was attempting to be retrospective in 
drawing a conclusion from all of the analysis we had done in early 
2004. Thus, my comment was meant simply to be about the effectiveness 
of our corrosion treatment in 2002 and 2003; my statement was not 
intended to (falsely) suggest that in 2002 we knew the treatment was 
not effective and that we waited until 2003 to act on that knowledge.
    The Washington Aqueduct plant operations group prepares weekly 
reports that evaluate water chemistry and those reports are routinely 
sent to Aqueduct managers so we can pay very close attention to 
chemical dosages and equipment maintenance to ensure that we are 
efficiently operating within the acceptable range of water chemistry 
that achieves the optional corrosion control treatment as approved by 
EPA. We were therefore focusing more on the plants' operation and 
relying on the customers to do their lead sampling. Had we worked more 
collaboratively, I now believe we could have started work on a revised 
treatment sooner.
    Washington Aqueduct was contacted by consultants hired by DC WASA 
and EPA Region III in 2003 to investigate the increased levels in lead 
in compliance samples from the DC WASA system. We shared water quality 
data and information on the treatment process with them and cooperated 
in their study. That study was the starting point for the accelerated 
work started in February 2004 that has now resulted in a revised 
Optimal Corrosion Control Treatment, which will incorporate a corrosion 
inhibitor in addition to the use of lime to adjust pH.
    What still remains to be understood is whether the simultaneous 
compliance with the Lead and Copper Rule and the Disinfectants and 
Disinfection Byproducts Rule and our decision to reduce Total 
Trihalomethanes through the use of chloramine as the secondary 
disinfectant in 2000 actually contributed to the lead leaching problem. 
It has been speculated that chloramines can indirectly cause water to 
become more corrosive through a process called nitrification, and the 
distribution system was monitored to ensure that this was not 
happening. I believe our decision to change disinfection chemistry was 
based on the best professional judgment available.
    As I described in my response to the previous question, we did know 
that specific samples were above 15 micrograms/liter but we did not 
have the complete data set from DC WASA from which to draw general 
conclusions about fundamental changes in lead release. Since we did not 
have any indication that our other customers were seeing higher lead 
levels, there was no mutual understanding that there might be a problem 
with the corrosion control treatment.
    Question 6. Your testimony states that the Corps is approaching the 
treatment protocol in two steps to ensure that unexpected ``secondary 
effects'' are controlled. Could you please explain what these might be? 
Other than rust, are there any other serious public health issues that 
might arise from these activities?
    Response: There are two major secondary effects that might occur. 
One is dissolution of rust and localized discoloration of water. That 
is a transient phenomenon and easily handled through flushing. The 
other potential effect is increased levels of coliform bacteria in the 
distribution systems. This would be caused by the sloughing of biofilms 
from the interior surfaces of the pipes. The kinds of coliform bacteria 
that would be involved pose no health risk, and increases in their 
levels would indicate the need for system flushing to remove biofilm 
materials.
                                 ______
                                 
   Bruce P. Lanphear, Cincinnati Children's Hospital Medical Center, 
                        Response for the Record

    Question 1. Thank you for your testimony. Indeed, everyone agrees 
we should do what we can to prevent children from being exposed to 
excessive levels of lead contamination from whatever source. You state 
in your testimony that most lead exposure to children comes from lead-
based paint in older houses and lead-contaminated soil but that intake 
of lead-contaminated water, by itself, would be an unlikely cause of 
elevated blood levels of lead in children. You go on to say, however, 
that since there is no apparent threshold amount of lead in the blood 
to experience the adverse effects of lead exposure, all sources of lead 
exposure should be limited. As policymakers interested in doing the 
most to limit lead exposure, should we focus our resources on old 
paint, contaminated soil or removing lead from drinking water 
infrastructure?
    Response: This is an old debate. In the 1970s the US EPA argued 
that the predominant source of lead exposure for children was housing 
whereas the US Department of Housing and Urban Development argued that 
it was the ``environment''. This debate was primarily a way for both 
agencies to shift the burden and cost of regulation or abatement to the 
other agency. What we have found over the past 30 years is that lead 
toxicity is due to cumulative exposure from a variety of sources in 
housing and the broader environment. But with the phase-out of leaded 
gasoline, residential lead hazards, including lead in paint, house 
dust, soil and water have become increasingly important.
    If we prioritized the relative contribution of various sources of 
lead, we would list lead-contaminated paint, house dust and soil as the 
primary sources of childhood lead intake for children who live in older 
housing. But lead-contaminated water is contributing a comparable and 
increasingly greater proportion to children's lead intake as these 
other sources of lead exposure are diminishing. Moreover, lead-
contaminated water accounts for a greater intake among middle-class 
families and their children who live in housing built after 1978. Thus, 
any strategy to protect children from adverse consequences of lead 
toxicity must reduce lead exposure from all of these major sources of 
lead intake, including water.
    Question 2. In your discussion of the level of blood concentrations 
in children that may be considered ``normal'' you stated that children 
of today have a body lead burden 10 to 100 times higher than pre-
industrial humans. You cite a study as your source but there's no 
supporting evidence in your statement. Can you explain what you mean by 
a ``body lead burden''? If you are familiar with the study you cited, 
can you describe the study, its findings, and its significance for us 
as policymakers?
    Response: There are several studies that examined the total amount 
of lead found in humans (i.e. body burden of lead). This was reviewed 
by the National Research Council of the National Academies of Science 
in their 1993 report ``Measuring lead exposure in infants, children and 
other sensitive populations.'' Because the vast majority of lead is 
found in human bone, researchers used the concentration of lead in bone 
to measure the increase in body lead burden from pre-industrial humans 
to contemporary humans.
    The relevance is that while a blood lead concentration of 5 
micrograms per deciliter is ``low'' by contemporary standards, it is 
actually considerably higher than exposures experienced by humans 
before the industrial revolution. Moreover, whereas the regulation of 
most toxic substances is based on safety factors so that the presumed 
safety factor is set to be lower than the lowest-observed effect 
concentration in humans by a factor of 10 to 100 (National Research 
Council, Drinking water and health. Vol 6. Washington, D.C.: National 
Academy Press, 1986), the current CDC action level is actually set 
above the level now shown to be harmful (Canfield RL, et al. 
Intellectual impairment in children with blood lead concentrations < 10 
micrograms per deciliter. N Engl J Med 2003;348:1517-1526). Thus, 
despite the dramatic reductions in children's blood lead levels over 
the past 25 years and because there is no evidence of a threshold for 
the adverse effects of lead exposure, we should develop an aggressive 
strategy to further reduce children's exposure to environmental lead 
from paint, house dust, soil and water.
    The relevant citations are listed below:

 Measuring lead exposure in infants, children and other sensitive 
        populations. National Academy of Sciences, Washington, DC, 
        1993.
 World Health Organization, International Programme on Chemical 
        Safety. Environmental Health criteria 165--inorganic lead 1995, 
        Geneva, Switzerland.
 Patterson CC. Contaminated and natural lead environments of man. Arch 
        Environ Health 1965;11:344-360.
 Ericson JE, et al. Skeletal concentrations of lead, cadmium, zinc, 
        and silver in ancient North American Paco Indians. Environ 
        Health Persp 1991;93:217-223.
 Patterson C, et al. Natural skeletal levels of lead in Homo sapiens 
        sapiens uncontaminated by technological lead. Sci Total Environ 
        1991;107:205-236.
    Question 3. Mr. Grumbles noted in his written testimony that 
setting a standard for water leaving the treatment plant fails to 
capture the extent of lead leaching in the distribution system and 
household plumbing, and so no maximum contaminant level has been 
established. Instead, the EPA regulates corrosion control and may 
require action if more than 15 ppb is found in drinking water. Do you 
feel a stronger regulatory framework is a necessary part of a 
comprehensive policy for preventing lead contamination and protecting 
public health?
    Response: Yes, a stronger regulatory framework is needed to protect 
the public's health. The current water lead standard of 15 ppb is not 
adequate to protect children and pregnant women from the adverse 
consequences of lead exposure. In a recent study, we found that, for a 
child with a mean blood lead level of 5 microgram per deciliter, that  
20% (i.e.,  1 microgram per deciliter) was attributable to children 
having a water lead level > 5 ppb (Lanphear BP, et al. Environmental 
lead exposure during early childhood. Journal of Pediatrics 
2002;140:40-47.) While the adverse effects of a 1 microgram per 
deciliter increase in blood lead level is hard to quantify for any one 
child, it has substantial impact on population mean blood lead levels 
and the adverse consequences of lead toxicity.
    The existing screening requirements are not adequate to protect the 
public's health. Water service lines and brass used in water service 
lines contain excessive levels of lead. It is both feasible and cost-
beneficial to require brass fittings and valves with < 1% lead content. 
Moreover, the existing standards will fail to identify and protect many 
families who are ingesting high concentration of lead in their drinking 
water because the routine screening fails to test or detect the 
majority of housing with lead-contaminated water. Thus, the current 
screening system provides an illusion of safety. Families who might 
otherwise choose to test the lead in their water supply do not because 
they are assured by the authorities that it is ``safe''.

                                 ______
                                 
   Response to Questions from Chairman Paul Gillmor, Subcommittee on 
Environment and Hazardous Materials, Committee on Energy and Commerce, 
  by Brian Ramaley, witness for the Association of Metropolitan Water 
                                Agencies

    Question 1. Your testimony highlights the need for a sharing of the 
costs between the water utility and the homeowner in regards to the 
removal of the whole service line. If this cost is not shared and the 
utility is expected to remove the entire service line (from main to 
customers' service lines) would you pass this cost on to the ratepayer?
    Answer: Nearly all utilities derive all of their operating revenues 
through payments from their customers. The question then is: would 
utilities pass the cost for replacing privately owned service lines 
directly to the affected customer or spread the cost to all customers? 
In either case, ratepayers will ultimately bear the cost associated 
with service line replacement without external funding. Many utilities 
will choose to raise rates to all customers if required to replace the 
entire service line; some will have to postpone other, previously 
planned infrastructure projects; others will seek direct grants through 
the appropriations process if such funds are available. Many will look 
to the federal government to increase assistance for this purpose.
    Question 2. Are you suggesting that not only should the funding be 
increased on a federal level but also the qualifications for receiving 
the funding be changed so as to channel more resources toward the 
metropolitan systems? If funding is not increased, would you still like 
to see the qualifications for receiving funding be changed so the 
metropolitan systems receive more than 5% of the drinking water SRF 
assistance?
    Answer: AMWA recommends that the Drinking Water SRF be amended so 
that at least 15% of federal capitalization grants to states be 
reserved as loans to metropolitan systems. Another option is to require 
states to select loan recipients in a manner proportionate to the needs 
of each system size category. (Funds that are reserved for metropolitan 
systems but not awarded due to lack of applications would be available 
to other size categories.)
    We do not recommend that the minimum qualifications for applying 
for or receiving loans be different for each system size category. We 
only suggest a fairer distribution of funds.
    Question 3. Can you speak to the progress being made by publicly 
owned utilities in regards to asset management programs? In addition, 
what steps toward being more efficient have been implemented? (Speak to 
your own experience if possible.)
    Answer: Most utilities perform some form of asset management 
already and water associations have made tools available for utilities 
to improve their asset management efforts. Asset management is very 
helpful in determining future needs and establishing maintenance 
programs, but it is not in itself a cost-saving device. Nor does it 
help improve the longevity of pipes or equipment. It simply allows a 
utility to approach and plan for asset replacement in a more organized 
and efficient manner. In this way, catastrophic failures and 
unmanageable short-term expenditures can be avoided or minimized.
    Metropolitan drinking water agencies have made enormous strides in 
becoming more efficient. Through our Gold Awards for Competitiveness 
Achievement and our Platinum Awards for Sustained Competitiveness 
Achievement, AMWA has recognized nearly 100 metropolitan drinking water 
systems for their achievements in becoming more efficient. Employing 
new technologies, improving productivity, fostering creativity in 
management and operations, and streamlining various processes have each 
produced significant cost saving to ratepayers. For example, in 2002 
Newport News Waterworks was recognized by AMWA for becoming more 
competitive by increasing not only efficiencies, but also customer 
confidence. Various measures implemented at Newport News Waterworks 
have been highly successful at reducing costs. We have completed a 
thorough review of our buried infrastructure (pipelines) and planned 
for its replacement, and have completed renovation of most of our 
aboveground infrastructure. Despite a new account growth rate of nearly 
1% per year, Newport News Waterworks has not added staff since 1993.
    Question 4. If federal investment in drinking water infrastructure 
is increased to the benefit of publicly owned utilities serving 100,000 
or more people, does that not double tax the public utility ratepayer?
    Answer: All current federal funding for drinking water 
infrastructure, including funds appropriated through the Rural Utility 
Service for small utilities, comes from the federal government's 
general treasury. Because this assistance is only a fraction of the 
amount needed for infrastructure up-keep, all water utilities--large 
and small--charge fees based on water consumption.
    AMWA is not recommending federal or federally mandated taxes or 
fees on drinking water ratepayers. In fact, AMWA would oppose such 
fees. AMWA simply recommends that federal funds be made available to 
metropolitan systems in a manner consistent with the needs these large 
systems have demonstrated in EPA's needs surveys. Residents of 
America's large cities pay federal taxes, and if their water system is 
in need of federal assistance, they expect their water system to be 
allowed to receive it.

                                 ______
                                 
 Response for the Record by Donald Welsh, Regional Administrator, U.S. 
   Environmental Protection Agency, to Questions of Majority Members

    Question 1) From March 26 to April 6 of this year, sampling at DC 
public schools had identified 43 drinking water fountains and sinks 
with excessive levels of lead in the water--one school had a fixture 
with a lead level of 7.300 parts per billion or 486 times the Federal 
Lead action level. Recognizing the impact of lead to young minds, what 
is the EPA Region III doing to ensure school drinking water fountains 
are not stunting work in the classroom?
    Response: Outlets that serve very young children (age 6 and under) 
were sampled for lead at 134 DC Public Schools (DCPS). Most sampling 
occurred in March, with 4 schools sampled in early May. Out of a total 
of 1,024 samples, 45 outlets (10 fountains and 35 sinks) or 4.3 
percent, had results that were over EPA's Action Level for schools (20 
ppb). According to DCPS, outlets with high lead levels were taken out 
of service for replacement. Any replacement outlets will be tested to 
make sure they are not still elevated for lead.
    In mid-May, WASA conducted training for representatives of private 
and charter schools, day cares, and other facilities such as libraries 
and recreation centers so that those facilities could participate in 
the sampling program. Additional sampling was conducted in June and 77 
facilities completed the sampling per the protocol (reviewed by EPA) in 
May/June. Of those tested, 18 facilities had a total of 44 outlets over 
the Action Level, with the highest concentration at 125.7 ppb. DC WASA 
advised the facilities to take those outlets out of service and follow 
the EPA guidance for repair and follow-up sampling.
    EPA has provided the DC Department of Health (DOH) with technical 
assistance so that DOH can assist the facilities in taking appropriate 
remedial action (installing filters, replacing fixtures, etc.) At this 
time, EPA feels that appropriate actions are being taken to ensure the 
health of students in D.C.
    Question 2) Your testimony mentions how EPA is now spending time 
helping WASA with its lead sampling, public information, and education 
campaign move beyond ``baseline requirements.'' Have your experiences 
with the D.C. situation made yqu more or less inclined to support 
changes to the Federal standards in this area, most particularly public 
notification? If they do, please elaborate on your ideas.
    Response: EPA's National Primary Drinking Water Regulations 
represent the minimum compliance level for public water supplies. Water 
utilities are always encouraged to not only meet the requirements, but 
to go beyond mere compliance as much as feasible. The sampling 
requirements that have been imposed upon WASA by Region 3 are, in some 
cases, more detailed than required by the regulations. EPA wanted to 
ensure that in this situation, where lead levels were unprecedented and 
the causative factors are still not completely understood, WASA, the 
Washington Aqueduct, and EPA have enough data to advise on selection of 
appropriate treatment and to monitor its effectiveness once it is put 
in place. EPA believes that an aggressive monitoring program is 
essential to ensure that the utilities serving the District get on and 
stay on the right course of treatment and system optimization and to 
properly assess the extent of the lead problem.
    With respect to public notification, our experience in Washington, 
D.C. clearly showed that WASA's public outreach was inadequate and did 
not elicit the public reaction and response contemplated by the 
regulation. EPA's consent agreement identified several areas where WASA 
failed to fully comply with the regulations regarding public education. 
Had WASA fully complied and undertaken activities recommended in EPA's 
Lead and Copper Rule Public Education Guidance Manual, it is likely 
that the public would have had more awareness of the problem.
    EPA's Office of Water is attempting to assess the effectiveness of 
the regulations in other communities. A workshop on Public Education 
and Risk Communication has been scheduled for September 14-15, 2004, in 
Philadelphia, PA, to focus on public education aspects of the rule. 
Additional information should come out of that meeting that would 
either support enhancements to guidance or regulatory changes.
    Question 3a) Your testimony states that ``steps are underway to 
reduce lead levels in tap water through corrosion control,'' including 
the use of organophosphate [orthophosphate] and chlorine as opposed to 
chloramines.
    Response: The Aqueduct has been using pH control as its corrosion 
control method for the past several years and has used chloramine as a 
secondary disinfectant since November 2000 to address high levels of 
disinfection byproducts in drinking water. Steps are underway to reduce 
lead levels by switching to orthosphosphate as a corrosion inhibitor. 
Chloramine will be maintained as a secondary disinfectant, with an 
annual switchover to free chlorine for approximately six weeks every 
spring to help control bacteria that adhere to water mains.
    Detailed lead monitoring conducted by WASA during the switch over 
to free chlorine in April 2004 found that lead levels dropped 
significantly by the end of the six week period. It is believed that 
the stronger oxidation ability of free chlorine virtually stopped lead 
from leaching into the water. This occurred prior to the start of the 
orthophosphate treatment. Research is currently being performed now to 
test the effectiveness of using free chlorine in the short term to help 
accelerate the effectiveness of the orthophosphate and help determine 
if switching back and forth from chloramines to chlorine and back again 
is also beneficial or detrimental to corrosion control.
    Question 3b) Could you please tell us what is the disinfectant 
byproduct trade-off between the current chemical regime and the one 
used before?
    Response: Disinfection byproducts, which may be harmful to human 
health, are formed more readily with free chlorine, than with 
chloramine. Since the November 2000 treatment change to chloramines, 
which are formed by adding a small amount of ammonia to chlorine, 
disinfection byproduct levels have fallen by more than 50%. The trade-
off of moving back to free chlorine with orthophosphate treatment is 
that disinfection byproduct levels would increase, which could increase 
the potential cancer and other health risks to the population of the 
District of Columbia and the Virginia localities of Arlington County 
and the City of Falls Church. Unlike lead, which is limited to specific 
homes, disinfection byproducts would affect everyone in the District of 
Columbia and those residents in Virginia who receive water from the 
Washington Aqueduct. The increased levels could cause MCL violations in 
the District, Falls Church and Arlington County. For disinfection 
byproducts, no amount of tap flushing would reduce the byproduct 
concentrations. Every home would see elevated levels of at least some 
of the byproducts. In addition to exposure from drinking the water, 
dermal and respiratory exposure could also result from bathing and 
showering because some of these byproducts volatilize rapidly from 
water.
    Question 3c) If the current chemical treatment protocol remains 
effective, would you recommend that it become a more permanent feature 
in the District? Is the chlorine [chloramine] and organophosphate 
[orthophosphate] regime the fastest combination to achieve the 
reductions in lead or is it the most effective? Please explain what 
other alternatives where contemplated for this situation and why they 
were not used?
    Response: In response to the problem of elevated lead levels, the 
optimal corrosion control treatment (OCCT) was reevaluated. Contractors 
for the Washington Aqueduct conducted a desktop study that reviewed 
various options for OCCT, including pH adjustment, alone, pH and 
alkalinity adjustment and the use of corrosion inhibitors. Detailed 
computer modeling, which had not been available in the mid-1990's when 
OCCT was initially researched, indicated that the Aqueduct would have 
significant problems using a year-round, high pH to control corrosion 
due to expected high levels of lime precipitation in the distribution 
system. The desktop study also noted that orthophosphate would be the 
best choice for re-optimizing OCCT for the Aqueduct. This was based on 
a review of strategies used at other water utilities using 
orthophosphate and the computer modeling results. The Aqueduct 
requested EPA approval of the use of orthophosphate as their revised 
OCCT. On August 3, 2004, EPA gave interim approval for orthophosphate 
use along with requirements to complete pipe loop studies to test for 
appropriate dosages and to compare different forms of orthophosphate 
(zinc orthophosphate vs. orthophosphate). The Aqueduct immediately took 
steps to begin implementing that treatment.
    If the orthophosphate treatment continues without causing any 
unresolvable problems in the distribution system (e.g., red water and 
elevated occurrence of coliform bacteria) and the pipe loop studies 
confirm its effectiveness, EPA will likely give final approval of 
orthophosphate as OCCT for the Aqueduct. Lead levels in tap water may 
take six months to a year or more to drop with orthophosphate 
treatment. Until lead drops to acceptable levels, District residents 
must continue following the flushing guidance to reduce their lead 
risks--particularly those with lead service lines. Orthophosphate 
treatment has enabled other large metropolitan areas to avoid having to 
replace lead service lines. Although results in one city cannot be 
directly transferred to expected results in the District due to 
differences in source waters, treatment and distribution systems, we 
are hopeful that orthophosphate will reduce lead levels to below EPA's 
action level.
    EPA will be working with the Aqueduct in early Fall 2004 to map out 
a more holistic and detailed research plan on mid to long-term 
treatment possibilities which will include the possibility of moving 
back to free chlorine on a permanent basis, if this can be done while 
still meeting the new MCLs for disinfection byproducts.
    Question 3d) What has this treatment regime meant for intended 
water line replacement? Is replacing all the lead service lines a 
reasonable thing to do if such progress is being made?
    Response: After one full year of lead levels at the 90th percentile 
being below the action level, WASA would be allowed under EPA's 
regulations to suspend their lead service line replacement program. The 
decision to replace lead service lines in a water system meeting the 
lead action level requirements is solely a local economic and public 
policy decision.
    In the District, the highest of lead levels are found in homes with 
lead service lines. These homes must follow the extended water flushing 
protocol and use the water filters provided to reduce their risk. Homes 
without lead service lines only need to flush their tap for 60 seconds 
before drinking. Residents can take these steps to virtually eliminate 
their risk of lead exposure from tap water. There is no known exposure 
risk to lead from skin contact or inhalation of vapors from water 
containing elevated lead. The risk is solely from drinking the water or 
eating some foods cooked in it. Arlington County and Falls Church, 
Virginia have not experienced elevated lead levels.
    Question 4) Your testimony suggests that things are getting better 
in D.C. Yet, you mention that the lead test results received on July 7 
indicate that the Federal lead action level was exceeded by nearly four 
(4) times or 59 parts per billion. How do you square those two 
statements?
    Response: The testimony reported that progress is being made, 
particularly in the areas of actions taken to reduce the immediate 
health threat and getting new water treatment in place. The new water 
treatment using orthophosphate commenced on August 23, 2004. The 
installation of the treatment, and the entire process leading up to 
this point has been rapidly accelerated. This pace was due, in part, to 
EPA's coordination of, and participation in, the Technical Expert 
Working Group.
    The corrosion inhibitor treatment will take time to work. 
Orthophosphate reduces lead in tap water by creating an insoluble 
mineral scale on the interior of the pipes, essentially insulating the 
pipe wall from the water. This reaction takes place slowly. National 
corrosion experts have advised us that the lead levels may not begin to 
fall for at least six months to a year, or perhaps even longer. EPA, 
WASA and the D.C. Department of Health continue to urge residents in 
the District to follow the tap water flushing guidance to reduce their 
lead exposure risk until the lead returns to acceptable levels at the 
tap.
    Question 5) Could you please talk about the Technical Expert 
Working Group and the Independent Peer Review Panel? Are these 
permanent bodies or ones that were formed just for emergencies like 
this one? How do you determine who serves on these bodies? Is the 
Technical Expert Working Group a direct result of the compliance order 
issued June 17, 2004?
    Response: After WASA exceeded the lead action level in August, 2002 
WASA and EPA recognized the need to research why tap water lead levels 
increased suddenly. After several meetings and many telephone 
discussions between EPA, WASA and the Washington Aqueduct, in May 2003, 
EPA acquired the services of Dr. Marc Edwards of Virginia Tech. Dr. 
Edwards performed his investigations during the spring, summer and fall 
of 2003. He presented his written report to EPA Region III in October 
2003 and presented his findings to EPA, WASA and the Washington 
Aqueduct in early November 2003. WASA then developed a research 
strategy based on the recommendations of Dr. Edwards. This strategy, 
which WASA has already begun to implement, was presented to the 
Washington Aqueduct, their Virginia wholesale customers, and EPA in 
January 2004.
    The 2003 lead service line sampling data released by WASA in late 
Fall, 2003 indicated that the high lead levels were a wide-spread 
problem for homes with lead service lines. More research had to be 
completed and a treatment solution found as quickly as possible. EPA, 
WASA, WA and the D.C. Department of Health (DC DOH) recognized that an 
overarching planning and coordination effort was needed to help ensure 
that all the necessary research was conducted, to ensure no redundant 
efforts took place and to move the work along as quickly as possible. 
The Technical Expert Working Group (TEWG) was formed to facilitate and 
expedite on-going research conducted by both WASA and the Washington 
Aqueduct (WA) of the Army Corps of Engineers as well as research 
already planned but not yet carried out. The Working Group's formation 
took place well before work began on the compliance order.
    EPA, WASA , WA and DC DOH first gathered on a teleconference on 
February 5, 2004 to discuss the research plans in place in both WASA 
and the Aqueduct. Another important purpose of the call was to develop 
a listing of any further work that needed to take place to find a 
treatment solution for re-optimizing the Aqueduct's optimal corrosion 
control treatment (OCCT). It was decided on that teleconference that 
the group should meet face to face to outline an overall strategy to 
this research effort. Staff and contractors for WASA and the Aqueduct, 
DC DOH, Arlington County and Falls Church Virginia, as well as EPA 
staff members from the Mid-Atlantic Regional Office, EPA's Office of 
Research and Development in Cincinnati, OH, and EPA's Office of Ground 
Water and Drinking Water (OGWDW) and the Centers for Disease Control 
and Prevention (CDC) gathered on the following Monday, February 9, 
2004. The Group agreed to the strategy outline that formed the basis 
for the Working Group's Action Plan as well as the Group's structure.
    The Working Group's mission as a coordination and communications 
facilitation group would also help hasten EPA's review and approval of 
any treatment proposed by the WA and its wholesale customers. Since EPA 
is involved directly in the Working Group, no time is lost in reviewing 
research results and proposals after the fact. The Working Group will 
cease to exist once the research in the Action Plan is completed and 
corrosion control treatment is optimized. That should take place in the 
first half of 2005.
    EPA's OGWDW formed, through a contractor, an independent peer 
review panel to review the work of the Technical Expert Working Group 
and provide their recommendations for changes to research or treatment 
selected. OGWDW identified a need to assemble a group of experts that 
represented the engineering research community, water utilities and 
state drinking water programs. OGWDW also specified that the experts 
assembled would not have had direct experience in working on any 
aspects of corrosion control treatment and lead corrosion in the 
District of Columbia. This group was also formed to address the lead in 
the District's tap water situation and is not permanent.

                                 ______
                                 
   Response for the Record by Benjamin H. Grumbles, Acting Assistant 
   Administrator for Water, U.S. Environmental Protection Agency, to 
                     Questions of Majority Members

    Question 1) Your testimony states that the primary sources of lead 
in drinking water are from lead pipe, brass plumbing fixtures 
containing lead, and lead solder. You further state that ``setting a 
standard for water leaving the treatment plant fails to capture the 
extent of lead leaching in the distribution system and household 
plumbing.'' Does this mean you do or do not believe that setting an MCL 
for lead is appropriate and why?
    Response: As the question notes, the primary source of lead is not 
normally from the source water, but from household plumbing and/or lead 
service lines connecting a house with the distribution system. The 
actual level that is in any one house can vary significantly depending 
on the plumbing and presence/absence of a lead service line. Under the 
Safe Drinking Water Act (SDWA), EPA has determined that a public water 
system cannot be held responsible for services outside of its control, 
such as the plumbing within a house.
    When setting a maximum contaminant level (MCL), EPA must identify a 
level that is as close to the maximum contaminant level goal (MCLG) as 
possible, but still feasible (based on use of best field-tested 
technology/treatment techniques) and taking costs into consideration 
(for a large system). In the 1988 proposal for the Lead and Copper 
Rule, EPA indicated that following this could have led to an MCL as 
high as 30-40 ppb, much higher than the MCLG of zero. EPA believed such 
a level would represent unnecessarily high exposures for large segments 
of the population.
    The SDWA allows EPA to issue a regulation that requires the use of 
a treatment technique in lieu of establishing an MCL if the 
Administrator makes a finding that it is not economically or 
technically feasible to identify the level of the contaminant. EPA 
determined that a treatment technique that would reduce corrosion 
within the distribution system would be more protective of public 
health. By optimizing corrosion control treatment, a system would 
reduce lead occurring as a byproduct of corrosion.
    Question 2) Mr. Johnson's testimony argues that the District of 
Columbia should be given primacy to run their drinking water program 
under section 1413 of the Safe Drinking Water Act. In light of the 
record of the past 4 years and a present lead action level that is four 
times the legal limit, would you support giving D.C. that authority?
    Response: Under the SDWA, the District of Columbia is included 
within the definition of ``state'' and thus would be eligible to be 
considered for primacy, provided that the District could satisfy the 
criteria contained in 40 C.F.R. 142.10. Among those criteria, the 
District must demonstrate that it can compel compliance with the 
national primary drinking water regulations by all public water systems 
in the District, and that it can take appropriate enforcement actions 
to address any threatened or continuing violation of the national 
primary drinking water regulations. The District of Columbia has not 
made an application for primary enforcement responsibility to carry out 
the drinking water program.
    There are two public water suppliers in the District, the 
Washington Aqueduct and the District of Columbia Water and Sewer 
Authority (WASA). In 1977 and again in 1994, EPA communicated to the 
District its concern that Section 602 (b) of the District of Columbia 
Self-Governing and Governmental Reorganization Act of 1973 (the ``Home 
Rule Act''), Pub. L. 93-198 (see also D.C. Code 1-206.02), may limit 
the District's ability to adequately regulate the Washington Aqueduct. 
EPA requested that the District inform EPA if the District believed 
that the Home Rule Act did not present an impediment to primacy. EPA is 
unaware of any relevant changes to this provision of the Home Rule Act 
subsequent to 1994, and consequently, it remains necessary for the 
District to demonstrate that the Home Rule Act does not present an 
impediment to the District's regulation of the Washington Aqueduct.
    In addition, in 1977 and 1994, EPA expressed concern that there 
would be problems inherent in the regulation of one municipal 
department by another, as authority over the water distribution system 
was then vested in the District's Department of Public Works' Water and 
Sewer Utility Administration (WASUA). Since 1994, the authorities of 
WASUA have been transferred to WASA, which is a quasi-independent 
authority of the District of Columbia. It is EPA's understanding that 
the Mayor has power to appoint and remove WASA Board members. EPA is 
not aware of any other authorities the Mayor or the District may have 
with respect to oversight of WASA. Further research would be necessary 
to determine whether the District has adequate authorities to regulate 
WASA.
    Question 3) Your testimony mentions that large water systems 
serving more than 50,000 people were required to be compliant by 
January 1, 1997 and that small and medium systems were supposed to 
optimize corrosion control when tap monitoring requires it. Could you 
please tell us about the status of compliance for all systems and 
whether any challenges exist in getting systems into compliance?
    Response: The Agency has not yet conducted a thorough national 
review of corrosion control status, instead focusing on rule violations 
and the 90th percentile levels. The Lead and Copper rule is unique, in 
that states are not only required to report violations, but also the 
numerical 90th percentile values. We believe that, by reviewing the 
90th percentile values, we will be able to determine the effectiveness 
of corrosion control. As noted in the testimony, as of June 1, 2004, 
the Agency has results for close to 90 percent of the systems for which 
the states are required to report data. The data indicated that fewer 
than 4% of the systems had an exceedance reported during monitoring 
periods ending after January 2000. In a subsequent report on the data 
we have in our Safe Drinking Water System, we will be looking more 
closely at violation trends and whether all systems subject to 
requirements have optimized corrosion control.
    As with all drinking water rules, some very small water systems may 
still face challenges in optimizing corrosion control. Small systems 
often lack sufficient resources to conduct a corrosion control study. 
Others may lack adequate operator training to implement corrosion 
control. As part of our review of state programs, we will investigate 
whether systems are still challenged and the root causes for failure to 
implement corrosion control, where needed.
    Question 4a) In the section of your testimony that refers to the 
``National Review of Compliance and Implementation of the Lead and 
Copper Rule,'' you mention a focus on the Safe Drinking Water 
Information System (SDWIS). How complete is your SDWIS database and 
what types of information gaps exist?
    Response: EPA has made significant strides in improving data 
quality since its first data quality assessment in 1999. The Agency has 
worked with states to develop strategies to improve the completeness 
and accuracy of data. As we saw in this case, the completeness of data 
is critical--EPA had 90th percentile data from only 23% of the systems 
required to report such data in March 2004 when this issue first arose. 
Since that time states have made a concerted effort to enter data, such 
that we now have data from more than 90% of the systems that are 
required to report. EPA is continuing to work with the states to ensure 
that data for every system required to report is in SDWIS and that all 
data that should have been submitted by each system is also present.
    When reporting on our drinking water goals, we have always tried to 
be clear that there are issues with data quality. The data that we 
receive from states is the most robust set of national data that we 
have on drinking water compliance. EPA is committed to continuing to 
work with states to improve the quality of the data we use in carrying 
out our programs and reporting to the public.
    Question 4b) You mention that 89 percent of medium and large water 
systems have reported their data. How solid a percentage is the 89 
percent and who has not reported their data?
    Response: EPA's summary of data in SDWIS as of June 1, 2004, 
indicated that there were no data for 90 large systems (out of 834) and 
875 medium systems (out of 7,833). Seventy of the systems for which EPA 
did not have data were from the State of California. The Agency is 
working with the state to ensure that data are made available. It is 
also important to note that some of the systems with no data are part 
of consecutive systems where the wholesaler/purchaser is responsible 
for reporting the results of monitoring. EPA verified that 19 of the 20 
remaining large systems without data were part of a consecutive system 
which reported on their behalf, but did not attempt to verify that fact 
for the medium systems (due to the number). EPA has asked states to 
indicate which systems have reporting included under another system and 
will present that information in its next summary of the data.
    Question 4c) How many of the 88 water utilities that reported 
exceeded lead action level are chronic offenders and what is EPA 
specifically doing about it?
    Response: Exceeding the action level, in and of itself, does not 
make one an ``offender.'' A violation is only assessed if a system 
fails to take the actions outlined by the rule, such as carrying out 
public education and implementing corrosion control treatment. States 
have primary enforcement responsibility for carrying out the lead and 
copper rule (EPA only has this responsibility for the District and 
Wyoming). EPA followed up with several states to inquire about their 
activities with large systems exceeding the action level during 2003. 
In some cases, more recent monitoring showed that the system had been 
able to get back below the action level. In other cases, the state is 
working with the system to understand the cause of elevated levels 
(e.g., treatment changes, malfunctioning equipment) or to see that they 
develop and implement lead service line replacement programs.
    EPA is currently reviewing implementation of the lead and copper 
rule in several states. As part of this review, the Agency will 
evaluate how states work with systems that exceed the action level and 
how they are carrying out enforcement against those systems that fail 
to take the required actions.
    Question 5) GAO testified that more funding in the SRF would not 
have made a difference in the outcome of the current DC lead situation. 
Do you agree with this assessment?
    Response: I agree with GAO's assessment on this issue. The lead 
problem was caused by a failure to adequately control corrosion within 
the distribution system, not inadequate DWSRF monies. Prior to 
discovery of the lead problem, WASA had a capital improvement plan that 
did not include lead service line replacement. Now that the problem has 
been identified, WASA intends to use DWSRF funding for this purpose and 
recently received $8.4 million in DWSRF funding to address two separate 
contracts for lead service line replacement. However, even if WASA were 
to replace all lead service lines, in-line fixtures, fittings and 
solder could still leach lead if corrosion control is not effective.
    Question 6a) Help me to understand the funding priorities of the 
Bush Administration as articulated in its budget requests for the 
drinking water revolving loan fund. Is it correct that the first fiscal 
year that President Bush was in office, fiscal year 2001, the EPA 
budget for the drinking water revolving loan fund had been proposed by 
the Clinton Administration?
    Response: Yes, the FY 2001 budget, for the fiscal year beginning in 
October 2000, was proposed by the Clinton Administration in February 
2000.
    Question 6b) Is it accurate to state that, since the fiscal year 
2002 budget request needed to be submitted to Congress shortly after 
the presidential inauguration in 2001, the Bush Administration did not 
have appropriate time to review and submit its own fiscal year 2002 
budget request for the drinking water revolving loan fund program and 
instead a ``transition'' budget that recommended the previous fiscal 
year's level of funding was submitted to Congress?
    Response: In the case of the DWSRF program, the 2001 budget request 
was $825 million, however, the amount appropriated was $823.2 million 
(due to a rescission of funds). The FY 2002 budget request was $823.2 
million, the same amount appropriated by Congress in FY 2001.
    Question 6c) Is it correct to suggest that the first ``real'' Bush 
Administration budget request for the drinking water revolving loan 
fund program did not occur until the fiscal year 2003 proposal?
    Response: It is correct that the first complete budget developed by 
the Bush Administration was developed during 2001 and submitted to 
Congress in February 2002 for the federal funding year commencing on 
October 1, 2003.
    Question 6d) What did the Bush Administration request for fiscal 
years 2003-2005 for the drinking water revolving loan fund program?
    Response: The President's Budget has requested $850 million for the 
DWSRF for each year between 2003 and 2005. The actual amounts 
appropriated ($844.5 in FY03 and $845 million in FY04) were less than 
the President's request.
    Question 6e) Were the budget requests, proposed for any fiscal year 
by the Clinton Administration, for the drinking water revolving loan 
fund equal to or greater than those made by the Bush Administration for 
the drinking water revolving loan fund?
    Response: None of the budget requests proposed for the DWSRF 
program under the Clinton Administration were equal to or greater than 
$850 million.
    Question 7a) Many people are concerned about the aging water 
infrastructure in our country. In fact, EPA in 1997 and 2001 published 
need survey reports that pegged certain figures for what utilities 
mentioned would be financially necessary. Could you please comment on 
what figures the Administration supports for future water 
infrastructure and drinking water delivery system funding and when you 
envision the next needs report to come to Congress?
    Response: The Administration has committed to fund the DWSRF 
program at $850 million per year through 2018. Our next Needs Survey 
report is due to Congress in February 2005. We cannot provide any 
information on the results of the survey at this time as it is still 
undergoing evaluation. I fully expect that we will complete the report 
on time, as has been the case with the previous reports.
    Question 7b) Does EPA consider wastewater and drinking water 
protection essential to securing public health?
    Response: Yes. The availability of clean and safe water is 
essential to public health and the environment. It also facilitates 
business investment and allows us to travel freely across our nation, 
for employment and recreation, while having confidence that the water 
resources we depend on will be safe wherever we travel.
    Question 7c) Also, with respect to the funding gap for water 
infrastructure, do you believe activities that fall under your 
sustainable infrastructure initiative would actually help to buy down 
costs?
    Response: I do. In the area of better management, Government 
Accountability Office release a report earlier this year on asset 
management that provided several examples of how utilities have 
achieved cost savings through better management of their 
infrastructure. When managers better understand the condition of their 
assets, they are able to make more informed decisions about whether to 
replace or rehabilitate infrastructure. For example, Louisville used a 
pipe evaluation model to determine whether pipes should be replaced or 
rehabilitated. Their analysis identified that a certain vintage of 
pipes that were as old as one hundred years were still reliable and not 
subject to as many breaks as other pipe that was younger. Rather than 
replace the older pipes just because they were old, the utility 
rehabilitated them by lining them with cement, which will increase 
their useful life by another 40 years.
    It is not just large systems that can benefit from these types of 
activities. With respect to water efficiency, one of EPA's reports 
described a small water system serving 2,000 people in Pennsylvania. 
Seventy percent of the water produced by the system was unaccounted for 
due to leaks. After implementing a leak detection program, unaccounted 
for water decreased to only 9 percent. This translated into real cost 
savings for the utility--costs for chemicals to treat the water 
decreased almost 50% and energy costs decreased close to 60%. The 
utility also expects its equipment to last longer since they have been 
able to reduce plant production hours.

                                 ______
                                 
 Response for the Record by Donald Welsh, Regional Administrator, U.S. 
   Environmental Protection Agency, to Questions of Minority Members

                          CONGRESSMAN DINGELL

    Question 1) I understand from EPA staff that sampling has been 
conducted in your region which indicates that so called ``lead free'' 
materials are leaching enough lead to cause exceedances in action 
levels. Please provide us with those results.
    Response: DC WASA has results from more than 20,000 sample results 
collected from homes within the District. Many first draw samples from 
homes, which generally represent the water that has sat in the faucet 
and pipes immediately behind the faucet, exceeded the 15 ppb lead 
action level. However, there is no way to tell which of these homes 
have faucets and fixtures that were manufactured after the SDWA set the 
current lead-free standard that fixtures and fittings contain no more 
than eight percent lead.
    The District of Columbia Water and Sewer Authority performed some 
very limited testing on relatively new water meters with brass casings. 
While, WASA has briefly discussed the results with EPA staff by 
telephone, the Agency does not yet have the Authority's full report on 
the study and therefore cannot evaluate the results. We would recommend 
that the Committee contact WASA to obtain any information about the 
study.
    Question 2) Given the criticisms EPA received as a result of the 
drinking water crisis in the District of Columbia, have you made any 
changes at the regional level in terms of management oversight?
    Response: EPA Region III has modified the manner in which 
compliance data from WASA and the Aqueduct is handled. Reports from 
both utilities are now sent to the office responsible for Safe Drinking 
Water Act enforcement. That office, in consultation with the drinking 
water program experts, will make compliance determinations. This 
process ensures that a team of EPA staff, including enforcement, 
regulatory, and programmatic experts, will see each compliance report.
    In addition, Region III developed a report entitled Recommendations 
for Improving the Washington DC Water and Sewer Authority Lead in 
Drinking Water Public Education Program. The report was prepared by a 
team of EPA staff and managers from Region III, Headquarters and Region 
I. Participants in the review had expertise in topics including 
drinking water technical and regulatory issues, as well as outreach, 
education and risk communication. The purpose of this report is to 
present the findings of the evaluation of the education and outreach 
activities carried out by the Washington DC Water and Sewer Authority 
in response to elevated levels of lead in the District's drinking water 
during 2002 and 2003.
    In order to fully ensure a more effective communications program in 
the future, EPA will also have to make some improvements in its own 
efforts. In addition to steps that EPA has already taken, such as 
issuing new Standard Operating Procedures to ensure timely and thorough 
review of all reports and materials, the review team has suggested 
several actions below to be considered by EPA Region 3, most of which 
are being implemented at this time:

 When an Action Level is exceeded, ensure that the water provider is 
        in possession of the EPA guidance document, and strongly 
        encourage the use of that document.
 Set milestones for public outreach and education and assure that all 
        milestones are met on schedule.
 Obtain written agreement from WASA to receive drafts of education 
        materials, and a timeline for their submission. Review these 
        drafts for compliance with requirements, as well as 
        effectiveness of materials and delivery. This review should not 
        delay notifications to the affected public.
 Determine criteria and measures for evaluation in order to determine 
        if outreach efforts have been effective.
 Institute an internal process that ensures that materials are 
        reviewed in a timely manner by a team consisting of staff with 
        technical, compliance and outreach expertise. The process 
        should also ensure that management is immediately alerted to 
        issues of concern.
 When a lead Action Level is exceeded, acquire outside expertise to 
        assist in evaluating outreach efforts.

                          CONGRESSWOMAN SOLIS

    Question 1) Your testimony noted that EPA directed WASA and 
Washington, D.C. to expedite notification to customers of the results 
of water sampling at their residences. You also noted that more than 
32,000 filters and consumer instructions were sent to occupants in 
homes with lead service lines. Can you please specify what specific 
efforts the EPA took to communicate and cooperate with the 
traditionally underserved communities in Washington, D.C.? What form 
did the publication notification system take and what languages was the 
notification provided in? How does the notification system in 
Washington, D.C. differ from that in Boston and Portland? What 
oversight has the EPA exercised regarding public notification and to 
what extent do Boston's and Portland's notification efforts exceed that 
required by the regulations and suggested by the guidance?
    Response: Initially, EPA required that DC WASA follow notification 
requirements of the Lead and Copper Rule which includes developing and 
providing public education materials to significant populations of non-
English speaking peoples. On April 30, 2004, EPA issued a report that 
made recommendations to DC WASA to take specific actions that are above 
and beyond the requirements of the regulations. This report, 
Recommendations for Improving the Washington DC Water and Sewer 
Authority Lead in Drinking Water Public Education Program, outlined 
steps DC WASA could take to improve their public education efforts 
including: hiring internal or consultant expertise in areas of 
marketing research and risk communication; conducting an internal 
communications audit; developing strategic communications plans; 
including stakeholders in decision making and forming a stakeholder 
advisory group; and developing a plan to measure effectiveness of their 
outreach efforts, including efforts to non-English speaking populations 
in the District.
    DC WASA's outreach documents related to lead in drinking water have 
been provided in English and Spanish and have also included statements 
in Chinese and Korean to explain the significance of the reports and to 
provide information on how to obtain translated copies. The annual 
Water Quality Report (a.k.a. Consumer Confidence Report) is also 
published in Spanish.
    The Administrative Order on consent, issued on June 17, 2004 
required DCWASA to develop and submit to EPA a public education plan 
that would address the recommendations of the above-mentioned report. 
EPA also required DCWASA to notify their customers of results from 
samples taken from their homes within three days of receiving the 
results from the laboratory and to make best efforts to provide 
customers with results from their tap samples within thirty days.
    EPA Region III has not been able to determine the extent of both 
Boston's and Portland's public outreach efforts for lead in drinking 
water, but is attempting to gather that information from EPA Regions 1 
and 10, respectively. Representatives from the Portland and Boston 
utilities will be attending EPA's Expert Workshop on Public Education 
for the Lead and Copper Rule on September 14-15 in Philadelphia and 
will be able to share their experiences with EPA. We have gathered some 
information indicating that Boston and Portland have attempted to 
follow some of EPA's public education recommendations in our guidance 
manual. Portland has made lead fact sheets available in four languages 
on their Internet site. Also, additional public education was 
incorporated into a comprehensive citywide lead hazard reduction 
program.
    Boston's public education program was carried by the Massachusetts 
Water Resources Authority (MWRA) which supplies water to Boston and 27 
other municipalities. MWRA has lead information on their Internet site, 
but none of it is specific to any one municipality. There are no 
foreign language versions of documents on their Internet site and no 
description of their outreach program. MWRA's Water Quality Report from 
2003 states in many different languages that the report has important 
information about their drinking water and suggests that the customers 
translate the document themselves or get someone else to translate it 
for them.
    The responsibility for informing the public of violations or water 
contamination falls directly to the water utilities. EPA has taken the 
above-mentioned steps to ensure that DC WASA reaches all community 
members, including under-served communities and non-English speaking 
populations. EPA's own efforts in carrying out outreach to the 
community have included development of fact sheets and brochures in 
Spanish, production of public service announcements for radio broadcast 
in Spanish, and provision of a translator at a public meeting that was 
likely to have Spanish speakers in attendance. The Agency has also 
convened public meetings in predominantly minority areas of the 
District.
    Question 2) To what extent is it your policy to provide public 
notification of water contamination where English is not the primary 
written or spoken language?
    Response: EPA's policy and regulations require that water utilities 
take steps to ensure that any significant populations of non-English 
speaking customers receive information about their water in the 
appropriate language. This includes the Lead and Copper Rule public 
education requirements as well as our Public Notification requirements 
for informing the public about violations of the SDWA as well as the 
Consumer Confidence Report requirements. For water utilities serving a 
large proportion of non-English speaking consumers, the water system 
must include in the public notice information in the appropriate 
language or languages regarding the importance of the notice or include 
a telephone number or address where persons served may contact the 
water system to obtain a translated copy of the notice or to request 
assistance in the appropriate language.

                                 ______
                                 
   Response for the Record by Benjamin H. Grumbles, Acting Assistant 
   Administrator for Water, U.S. Environmental Protection Agency, to 
                     Questions of Minority Members

                          CONGRESSMAN DINGELL

    Question 1a) In your testimony, you indicated that you have written 
letters to State Directors of Health and Environmental Agencies seeking 
information on state and local efforts to monitor for lead in schools. 
You also indicated that ``[g]enerally, states responded that they 
implemented the requirements associated with the [Lead Contamination 
Control Act]'' and that ``[m]ost states agreed that minimizing lead in 
drinking water consumed by children is important...'' (Emphasis added). 
Please explain why it was necessary to qualify these statements and 
which states did not fully agree with or confirm these principles.
    Response: EPA did not send an explicit survey instrument to states. 
Therefore, as noted in the report made available on EPA's website, the 
responses we received were varied. Most states gave details about how 
they had implemented the Lead Contamination Control Act (LCCA). 
However, one should not assume that if a state did not describe how it 
implemented the LCCA, that it took no actions to do so. Likewise, if a 
state did not explicitly express support for minimizing lead in 
drinking water consumed by children within their letter, one should not 
assume that they have no interest in doing so. In writing the report, 
we wanted to be sure that we were precise. Had EPA failed to qualify 
the statements, the Agency could have been criticized for making the 
statements when some states did not expressly state that fact within 
their responses.
    Question 1b) Is EPA taking any action, other than this survey and 
reviews of guidance, to address lead contamination issues in schools 
and daycare centers, including revising sampling requirements so that 
more testing will occur in these locations?
    Response: First, we are working with states to ensure that schools 
and day care facilities that operate their own public water systems 
have appropriate guidance in hand to understand the regulations. We are 
also working with other children's health programs within EPA to 
include information on issues associated with school drinking water in 
existing initiatives such as the ``Tools for Schools'' program.
    We are working with the American Water Works Association and other 
stakeholders to encourage utilities to develop voluntary testing 
program partnerships with schools within their service areas. Finally, 
we are planning to host a meeting this fall to discuss school and day 
care facility drinking water issues. The Agency looks forward to 
working collaboratively with states, other offices within EPA, other 
federal agencies and members of this committee to carry out these 
actions and others that will help communities improve voluntary school 
drinking water testing programs.
    As to whether the monitoring requirements should be modified to 
allow for more testing of schools and day care facilities, EPA will 
have to evaluate this as part of its review of the existing 
requirements. The purpose of the tap monitoring is to determine the 
overall corrosivity of the treated water using worst-case lead sample 
site data as an indicator of the effectiveness of the system's 
corrosion control treatment. It is not designed to measure the health 
risks to individual consumers.
    Question 2a) In your testimony, you indicated that EPA is 
conducting a national review of compliance and implementation of the 
lead and copper rule. How long do you estimate it will take to complete 
the review and recommendations?
    Response: We expect to complete our review in the first half of 
2005. Currently we are working to ensure that we have all available 
data on 90th percentile levels, violations and enforcement actions that 
have occurred in the last several years. Within the next month we will 
release an update to the previous report released in late June 2004.
    We have developed a plan to evaluate implementation of the rule at 
the state and system level. Our efforts will be aimed at understanding 
how the rule has been implemented nationwide, and ensuring that systems 
are conducting required monitoring in accordance with the rule and that 
follow-up actions required in the case that an action level is exceeded 
are being fully and effectively implemented. This detailed look will 
also help to identify areas where further training or guidance is 
needed. EPA currently plans to visit 10 states, one in each EPA region, 
between August and December 2004. Five of the states are states that 
EPA had already planned to visit as part of its on-going data 
verification reviews (Texas, Virginia, Utah, Illinois, and 
Massachusetts). EPA will also be visiting California, New Jersey, 
Oregon, Iowa, and Georgia.
    We will also be reviewing the actions taken by utilities who had 
exceeded the action level in the 1991/92 testing timeframe to determine 
if the actions required by the rule have helped them to reduce 
corrosion and lead levels at customer taps. Effectiveness will also be 
judged through the review we will be conducting of state and system 
implementation.
    Question 2b) Please describe which additional recommendations on 
public communications are included in or under consideration for the 
guidance that are not specified in the rule.
    Response: The existing Public Education Guidance discusses 
additional actions that are not specified in the rule, including 
developing action plans, community-based task forces, water testing 
programs, and public education materials. Additional potential areas 
for consideration include varying public education language or the 
frequency of delivery based on the levels of exceedance, mandating 
notification of homeowners when test results show elevated lead levels, 
and evaluating the flushing guidelines to address site specific 
characteristics. The expert workshop on publication education 
requirement under the Lead and Copper Rule that EPA is convening on 
September 14-15 in Philadelphia should elicit additional ideas.
    Question 2c) Given the critical importance of public communication 
when, under the lead and copper rule, high lead levels are allowed to 
remain in drinking water for extended periods of time, why does not EPA 
require as oppose to simply recommend effective public communication 
strategies now?
    Response: The existing regulation requires that water systems 
communicate repeatedly with their customers as long as they are 
exceeding the action level and provides specific requirements as to how 
this is to be achieved, such as, for example, the types of audiences 
they must reach. EPA's public education guidance provides additional 
recommendations for activities that water systems may want to undertake 
to create more robust communication programs. EPA expects that it will 
identify additional best practices at its public education workshop in 
September. However, in order to require systems to take any of the 
actions identified in the guidance or through the workshop, EPA would 
have to make revisions to the existing regulations, which would take 
time. EPA will continue to strongly encourage water systems to take the 
actions appropriate to their situation to ensure that the public is 
well informed about all issues relating to the safety of their drinking 
water.
    Question 3) EPA currently requires the same number of samples, 100, 
in certain cases, whether a city has a population of 100,000 or 7 
million. Please provide a justification for the conclusion that this 
sampling approach is adequate for cities at the low and high end of 
this range. If the sampling protocols are not representative, how do we 
know precisely how much progress we are making on lead contamination 
nationwide?
    Response: The rule requires each system to develop a sampling plan 
that is focused on the highest-risk areas (lead service lines, lead 
piping, lead solder less than 5 years old). A set of 50 or 100 samples 
should be enough to define the problem, as was the case in the 
District.
    During development of the rule, an analysis was undertaken to 
determine if the number of sampling locations identified in the rule 
would be sufficient to identify action level exceedances. The analysis 
was based on those used in private industry to evaluate quality control 
applications or estimate the fraction of a population of products that 
is defective or exceeds an acceptable standard. While the analysis was 
based on an assumption that sample locations would be randomly 
selected, the rule requires targeting towards high-risk sites (i.e., 
worst case). The analysis indicated that there was high confidence that 
systems which exceeded the action level would be correctly identified 
as such by collecting the minimum number of samples identified in the 
rule, confidence that is increased because the rule requires targeted 
sampling rather than random.
    Water utilities have expressed to us that one of the greatest 
challenges they face in implementing the lead and copper rule is 
identifying a sufficient number of sites that can be maintained for 
sampling over the long-term. In considering this issue, we need to 
ensure that we don't trade off quality for quantity. We may need to 
consider other sampling models that will help utilities better 
understand whether their corrosion control treatment is effectively 
managing lead levels.
    Question 4) One of the problems with the lead and copper rule that 
appears ripe for a solution is that a drinking water system can test 
repeatedly to look for lead lines that are not leaching and can use 
those lines that are found not to leach for credit so that they can 
avoid replacing the lines that are actually leaching. This unfortunate 
approach provides exactly the wrong incentive to the drinking water 
systems and does not protect public health. Please indicate what steps 
are being taken to immediately address this problem.
    Response: Monitoring the lead service lines is a way to quickly 
determine the areas of greatest risk If a service line is not leaching 
lead, there is no need to replace it. The requirement to replace 7% of 
the lines every year was intended to give systems enough time to get 
financing for, and physically replace lead service lines. I do not 
believe that EPA contemplated that systems would test more than 7% of 
their lines every year to avoid the need to physically replace lines.
    This practice poses a concern to EPA because it could allow a 
system to push off the replacement of the lines that are posing the 
greatest risk. EPA will be reviewing how states and utilities have been 
implementing this provision to see if D.C. is unique or the norm. We 
will also address this during our lead service line replacement 
workshop that has been scheduled for the end of October. The rule 
provides that the state shall require a shorter schedule for lead line 
replacement where a shorter schedule is feasible, which could be the 
case if a significant number of lines tested below the action level. We 
may have to work with states to ensure that physical replacement of 
lines that show elevated lead concentrations is a priority.
    Question 5) Does EPA support a review of and changes to the ``lead 
free'' designation for materials with 8% of lead or less? What 
information do you have to indicate that this standard is or is not 
protective?
    Response: The provision defining ``lead-free'' at 8% is in the SDWA 
and the Agency has heard interest in seeing that number reduced. Many 
participants at the expert workshops we held in St. Louis in mid-May 
expressed interest in decreasing the allowable amount of lead in 
fixtures that are in contact with drinking water. It is the Agency's 
understanding that, while the amount of lead in a product is governed 
by the manufacturing process, truly lead-free products are available--
although they may carry a slightly higher cost. The Agency is bound to 
some extent by the language in the statute, however, we may work with 
the NSF and other stakeholders to address the voluntary standard that 
determines the allowable amount of lead that can be leached from 
fixtures and also work more closely with industry to encourage them to 
reduce the amount of lead in fixtures.
    Question 6a) At the hearing, you were asked for definite time lines 
for a proposed MCL for perchlorate. In response, you testified that 
``We want to make sure we get the science right and do it as quickly as 
possible. We are expecting to get the NAS report in January.'' Please 
provide a summary of the scientific research efforts that the EPA has 
undertaken for perchlorate. When did EPA first initiate its research 
efforts?
    Response: The Agency is currently in the process of updating a 
table which describes research efforts undertaken by EPA. We will 
provide this table to the Committee when it is completed.
    Question 6b) Please indicate whether any of the EPA studies or 
research results have been submitted to the EPA Science Advisory Board 
(SAB). If so, please indicate the dates of submission to the SAB and 
the results of their review.
    Response: To date, EPA has not submitted studies or research 
results to the SAB and the current evaluation of perchlorate research 
by the National Academy of Sciences obviates the need for review by the 
SAB. While a subsequent review could be requested, it would appear 
duplicative and entail a significant amount of time to review the data.
    Question 6c) Further, after receiving the NAS report in January 
2005, please indicate the date when the EPA could first propose a 
maximum contaminant level for perchlorate under the procedures of the 
SDWA?
    Response: EPA intends to act quickly in response to the NAS report 
on perchlorate risk. However, it is difficult to speculate upon the 
timing because we do not know what the NAS panel will conclude about 
perchlorate risk, or what, if any, additional analyses may be 
recommended by the panel. Assuming a best case scenario, that the NAS 
report contains sufficient information and recommendations to support 
EPA's efforts, the earliest date by which a national primary drinking 
water regulation for perchlorate could be proposed is April, 2007.
    Because the NAS Panel report is critical to EPA's ability to make a 
number of determinations that are needed prior to making a decision to 
regulate perchlorate, it will first undergo a thorough review by Agency 
scientists. Under the SDWA, EPA is required to determine that:

 the contaminant may have an adverse health effect,
 the contaminant is known to occur or there is a substantial 
        likelihood that the contaminant will occur in public water 
        systems with a frequency and at levels of public health 
        concern, and
 regulation of the contaminant presents a meaningful opportunity for 
        health risk reduction.
    If the information in the report is sufficient to make a 
determination to regulate perchlorate, the SDWA also requires that the 
Agency prepare a health risk reduction cost analysis (HRRCA) to support 
the proposed regulation. The HRRCA analysis must include an estimate of 
benefits and costs (both quantifiable and non-quantifiable) as well as 
an evaluation of the effects of the contaminant on the general 
population and on sensitive subpopulations. Because the HRRCA is based, 
in large part, on the conclusions of the NAS report, it is difficult to 
estimate the time required to prepare the HRRCA analysis and have it 
reviewed to insure its soundness without knowing the outcome of the 
panel's review.
    It is important to note that EPA is not sitting idle while the risk 
assessments undergoes NAS review. The Agency is collecting data on 
contaminant occurrence through the Unregulated Contaminant Monitoring 
Rule, is improving analytical methods to enable detection of 
perchlorate in water at lower concentrations, and is investigating 
treatment technologies that could remove perchlorate from drinking 
water. These important activities will help the Agency make a 
scientifically sound determination whether to initiate a rule-making 
process for perchlorate in drinking water.

                          CONGRESSWOMAN SOLIS

    Question 1) On April 12, 2004, Mr. Dingell and I wrote to 
Administrator Leavitt and asked why President Bush's budget for FY 2004 
did not contain any funding to implement the New York Watershed Program 
(part of the Safe Drinking Water Act). While the written response we 
received acknowledged that the Bush Administration did not seek funding 
for the program, it did not answer why funding was not included. As 
Acting Administrator, can you explain why the President's budget in FY 
2005 did not seek funding for the New York Watershed program?
    Response: Funding for the New York Watershed program was not 
requested by either the Bush or Clinton Administrations. Congress 
provided an earmark for this program through the appropriations 
process. While the Agency supports the NYC Watershed Protection 
program, federal funding decisions must be made within the context of 
national priorities that are both internal and external to EPA. The 
primary funding priorities for the national water program are the State 
Revolving Fund programs. It is important to note that the NYC Watershed 
program has benefitted from the state's Clean Water State Revolving 
Fund program. Assistance from the CWSRF can be used to fund activities 
which include land acquisition and conservation easements that promote 
water quality improvements and construction of centralized treatment to 
replace septic systems. The Administration has committed to fund the 
CWSRF at a level of $850 million per year through 2011. New York has 
used more than $2.3 billion in federal CWSRF grants to help finance 
more than $6.4 billion in water quality projects since 1987, with more 
than $608 million provided in state fiscal year 2003 alone.
    Question 2) In testimony on behalf of the American Water Works 
Association (AWWA), Mr . Lynn Stovall stated that there is a gap 
between current levels of investment and levels of investment required 
to sustain adequate drinking water service. Mr. Stovall testified that 
this gap is approaching $300 billion above and beyond what utilities 
are already spending to sustain adequate drinking water service. Do you 
agree with AWWA's figure? If not, what gap has the EPA identified?
    Response: Several organizations, including the AWWA, a utility-
supported Water Infrastructure Network, and the Congressional Budget 
Office, have developed estimates of the gap. EPA's Clean Water and 
Drinking Water Infrastructure Gap Analysis, released in October 2002, 
provided a range of estimates, which reflect the hundreds of different 
scenarios that could be used to forecast needs and spending. The ranges 
included estimates that were consistent with values identified by the 
organizations mentioned above.
    EPA's report provided a 20-year capital gap point estimate $102 
billion for drinking water. EPA also estimated that gap that would 
result under a growth scenario that forecasted utility revenue 
increases at a real rate of 3 percent per year, consistent with 
economic growth forecasts in the President's budget. Under the growth 
scenario, the point estimate for the drinking water capital gap $45 
billion.
    Question 3) When you appeared two years ago before this 
subcommittee, members pointed out the President's budget request was 
$150 million less than Congress authorized in the 1996 Safe Drinking 
Water Act Amendments. The President's FY 2005 request is still only 
$850 million. Two years ago you responded that ``we very much welcome 
constructive dialogue with members of the authorizing committee 
regarding authorization levels.'' Have you had any dialogue with 
members of the authorizing committee regarding authorization levels? 
Please describe the dialogue and any action that has been taken by the 
EPA in response, with respect to authorization levels.
    Response: The Agency has never recommended specific authorization 
levels for the State Revolving Fund (SRF) programs. However, EPA has 
provided technical assistance, upon request, to staff from the Senate 
Environment and Public Works committee as they developed SRF 
reauthorization bills (S. 1961 in 2002 and S. 2550 in 2004). Upon 
request, the Agency has provided information to staff on the potential 
revolving levels that would result at different authorization levels 
posed by committee staff. The revolving level is the estimated annual 
assistance that will result in out years (generally a 20 year period 
beginning 2-3 years after capitalization ends) from an assumed period 
and dollar amount of capitalization. The Agency has also briefed House 
Commerce Committee staff on the Needs Survey, Gap Analysis, and status 
of the DWSRF program.
    While the Administration does not support the authorization levels 
that have been included in the bills before Congress, it does support 
the SRF program framework. In the 2003 President's Budget, the 
Administration committed to fund the Drinking Water SRF program at its 
current annual $850 million level through 2018. This decision was 
based, in part, on feedback from Congress and stakeholders on the 
important role that the DWSRF plays in helping water utilities maintain 
compliance with the Safe Drinking Water Act.
    Question 4a) A recent press story referenced a ``Bush science 
advisor'' having stated the Defense Department lobbied the EPA to delay 
implementation of a perchlorate standard. What communications has the 
EPA had with the Defense Department regarding establishing a 
perchlorate standard, both prior to and since the decision to defer 
implementation of a perchlorate standard?
    Response: The Office of Water has not had any discussions with the 
Defense Department (DoD) related to deferring development of a drinking 
water standard and thus cannot confirm DoD lobbying efforts. The Agency 
has had discussions with the DoD on issues related to research and has 
reviewed DoD material as part of the intergovernmental review process 
managed by OMB. EPA, NASA and DoD jointly requested a comprehensive NAS 
review of the underlying science for the EPA health risk assessment.
    Question 4b) Has the EPA had any communication with the NAS, 
regarding the conflict of interest controversy on their perchlorate 
panel?
    Response: EPA's Office of Research and Development has been the 
Agency focal point for communication with NAS. EPA has not communicated 
with the NAS since the original selection of the perchlorate panel.
    Question 5a) The U.S. Food and Drug Administration is conducting a 
series of ``high-priority'' perchlorate tests this summer to gauge the 
extent of perchlorate in the food supply. Has the EPA conducted similar 
tests to gauge the extent of contamination of the water supply caused 
by the use of perchlorate by private industry or military contractors?
    Response: Under the Unregulated Contaminant Monitoring Rule (UCMR), 
EPA has sampled 800 representative small public water systems serving 
less than 10,000 people and required data from all of the large public 
water systems for the past three years. As of May 2004, 3,147 public 
water systems (2,400 large and 797 small) have reported their 
perchlorate monitoring results. Perchlorate occurrence has been 
reported at 131, or 4%, of these public water systems (123 large and 8 
small) in 22 states and 1 territory. Only 2%, or 536, of the more than 
23,000 samples analyzed have demonstrated positive results above the 4 
ppb analytical method reporting level. The average value is 9.84 ppb 
with a median value of 6.41 ppb using ion chromatography (method 
314.0). The two highest levels were reported at a public water system 
in Puerto Rico (Utuado Urbano at 420 ppb) and Florida (Atlantic Beach 
at 200 ppb). EPA will release a report of its results of UCMR 
monitoring later this year.
    Question 5b) Is the EPA working with the U.S. FDA to identify those 
areas where water contamination is linked to food contamination? If 
not, why not? If yes, please identify the extent of communication and 
location of joint tests.
    Response: EPA worked with the U.S. Department of Agriculture and 
the University of Arizona on its testing of crops from 2002-2004 in the 
Coachilla and Imperial Valleys contaminated by irrigation water from 
the Colorado River downstream from Lake Mead. In a follow-up study, FDA 
is currently examining 500 bottled water, milk and food samples as part 
of the effort they initiated last fall. EPA continues to have contact 
with USDA and FDA, but neither has required EPA identification of areas 
of contamination, those areas being well known.
    Question 6) In your testimony you highlighted that reducing lead 
exposure is one of the EPA's priorities. What specific communications 
or joint activities do you engage in regularly within the EPA or with 
other organizations including the Centers for Disease Control (CDC) to 
comprehensively combat lead exposures since January 2001? Please 
describe how lead exposure levels have been reduced as a result of 
these activities.
    Response: In the mid-1990's, nearly 1 million children in the US 
had blood lead levels exceeding the CDC level of concern of 10 
micrograms per deciliter, which through the work of many has now been 
reduced to 425,000. It is the goal of the federal agencies working on 
lead poisoning prevention (EPA, CDC, and HUD) to reduce the number of 
children with elevated blood lead levels down to zero by the year 2010.
    Most of the Agency's activities related to childhood lead poisoning 
prevention are managed out of the National Program Chemicals Division 
in EPA's Office of Pollution Prevention and Toxics. EPA participates in 
several collaborative efforts with other Federal agencies and state, 
local and tribal governments to help carry out the mission to reduce 
childhood lead poisoning in the U.S. The Agency has also devoted a 
great deal of resources on public education and outreach to help build 
awareness and prevent childhood poisoning. A detailed listing of 
collaborative efforts and outreach activities is included in Attachment 
1 to this response.

                              Attachment 1

      EPA ACTIVITIES RELATED TO REDUCING CHILDHOOD LEAD POISONING

Collaboration Efforts
 Federal Interagency Lead-Based Paint Task Force Meetings. EPA and HUD 
        serve as co-chairs for the Task Force. It is comprised 
        exclusively of participants from approximately 20 departments 
        or agencies, including CDC, CPSC, DOE, US Army, US Navy and 
        other Federal Agencies (held 3 times/year, last meeting June 3, 
        2004 , upcoming meeting October 2004)
 National Lead & Healthy Homes Grantee Conference (sponsored by EPA, 
        HUD, and CDC for the grantees of the 3 federal agencies (State, 
        Tribal, and Territorial) to evaluate lead program successes and 
        plan for future; June 20-23, 2004 and June 9-12, 2003.
 National Tribal Conference on Environmental Management (sponsored by 
        EPA to discuss environmental hazards in Indian Country. Special 
        sessions were held on lead education, May 9-11, 2000, held 
        every 4-5 years, upcoming meeting June 2005)
 National Lead Health Education Conference (sponsored by EPA, CDC, 
        ATSDR, and HUD to discuss critical lead education information 
        and develop skills to strengthen education efforts in childhood 
        lead poisoning prevention programs nationwide; February 11-14, 
        2002, held every 4-5 years)
 Forum on State and Tribal Action (FOSTTA), Subcommittee on Tribal 
        Affairs Project. (Provides a forum for Tribes and EPA to 
        discuss toxic substance issues, including lead, and to improve 
        communication among EPA and Tribes; meets quarterly with 
        monthly conference calls, last meeting June 29-30, 2004, 
        upcoming meeting October 2004)
 National Lead Poisoning Prevention Week Observance (EPA joins the 
        District of Columbia's Department of Health to educate parents 
        and children on lead poisoning prevention thru heath fairs and 
        various activities during the week; October 19-25, 2003, 
        October 20-26, 2002, upcoming October 24-30, 2004)
 Collaboration between EPA and CDC on analysis of NHANES data as it 
        relates to children's blood lead levels. In particular, EPA, 
        CDC, and HUD are currently drafting an article on the 
        Prevalence and Trends (1999-2002) in Blood Lead Levels Among US 
        Children and Adults.
 EPA serves as a liaison member of the Department of Health and Human 
        Services Centers for Disease Control and Prevention's Advisory 
        Committee on Childhood Lead Poisoning Prevention. EPA attended 
        the last meeting in March 2004, and will attend the next 
        meeting in October 2004.
Public Outreach and Education
 The National Head Start Association (NHSA) Campaign was initiated at 
        the NHSA's National conference in Anaheim, CA, April 2004. The 
        campaign provides the Head Start Center Director, staff, and 
        parents with customized informational fact sheets, a brochure, 
        and teaching curriculum on lead poisoning prevention.
 The National Lead Information Center (NLIC), is a toll-free hotline 
        that answers questions (in English and Spanish) about lead and 
        distributes printed Agency information. The NLIC receives an 
        average of 60,000 contacts with the public each year.
 The Women, Children, and Infants (WIC) Campaign worked with 
        nutritionists and other staff to disseminate lead poisoning 
        prevention information to WIC participants. The information 
        included fact sheets about lead and nutrition, medical 
        considerations, and lead hazards in the home. (November 2001)
 EPA worked with the White House to develop the Keep Your MVP in the 
        Game Campaign. This campaign, which featured President Bush 
        with a Little League player and warned that ``Lead poisoning 
        can steal you child's future,'' ran in the Major League 
        Baseball Official program in 2002 during the five game American 
        League Championship series.
 EPA funds two types of lead grants to Native American Tribes 
        annually. One grant is for testing and analyzing lead in blood, 
        paint, dust and soil and for conducting inspections and risk 
        assessments of pre-1978 tribal homes for hazardous lead levels. 
        The second grant is for developing and implementing lead 
        awareness educational outreach activities for tribes.
 We have also sought to reach the Spanish-speaking population in the 
        United States through the development of Spanish publications 
        and targeted outreach. Many of the EPA lead documents were 
        translated into Spanish. During Earth Day celebrations in April 
        2003, La Opinion, a newspaper serving over 1 million Hispanic 
        readers in New York, Miami, Houston, Chicago, and Los Angeles, 
        featured a two-page spread on EPA's Lead Awareness Program.
 We are currently developing a voluntary partnership to further the 
        use of lead safe work practices during renovation and 
        remodeling of pre-1978 housing. This Lead Safety Partnership 
        will be a collaboration between EPA, home remodelers, 
        contractors, and trade associations. The members will pledge to 
        use lead safe work practices and in exchange receive support 
        through promotional materials and network opportunities that 
        the Lead Safety Partnership will provide. This market 
        differentiation will help the members gain more business while 
        protecting the health and safety of their clients.
 EPA has worked with several different grantees over the last several 
        years: the National Council of La Raza, Hope Worldwide, and the 
        National Coalition for Lead Safe Kids, to develop public 
        service announcements, conduct education workshops, and 
        distribution of lead prevention materials to the general 
        public.
                                 ______
                                 
   Response for the Record by Donald L. Correll, President and CEO, 
    Pennichuck Corporation, National Association of Water Companies

        RESPONSES TO QUESTIONS FOR ENERGY AND COMMERCE COMMITTEE

    Question 1: Your testimony mentions that the Federal government has 
a role in taking on the lead problem, but also suggests that funding 
for drinking water line replacement is not one of them. Could you 
please clearly tell us where you believe the Federal role begins and 
ends and where communities become responsible? Also, could you please 
tell us where you think Congress could encourage strong management 
practices by the water utilities?
    Answer: Americans want their water utilities to provide safe, 
reliable, and aesthetically pleasing water, as well as good customer 
service, at no more cost than is necessary. These expectations are best 
met over the long term by water utilities that are economically self-
sustaining. Like other utility services, water service should be paid 
for by those receiving the service. It should not be chronically 
subsidized by government. Should the water industry become too reliant 
on government subsidies it will be all too subject to short-term 
political and budgetary influences, which will inevitably weaken it. In 
addition, as our experience with massive government subsidies to 
wastewater utilities in the 60s and 70s (Construction Grants Program) 
has shown, government subsidies do not foster either operating 
efficiencies at utilities or sound capital investment programs over the 
long-term. While government (at all levels, including Federal) does 
have an important role to play in provision of water, that role should 
be clearly defined so it encourages good management practices and 
facilitates the industry ultimately becoming self-sustaining. The 
alternative to this is an unending significant drain on the federal 
treasury.
    For example, clearly an important and appropriate role of the 
federal government is in the standard setting and security arenas. 
Under the Safe Drinking Water Act, Congress designed a standard setting 
and enforcement process implemented by EPA and the states that assures 
the safety of our drinking water. This is clearly an appropriate 
federal role, since health standards should not differ from one region 
to the next. Similarly, given the national implications of terrorism, 
the federal government has a role in working with utilities to assure 
the drinking water supply is safe from terrorist attack. This is done 
by providing economic assistance where needed in assessing 
vulnerabilities, sharing information, developing strategies, conducting 
research, etc.
    Where the federal government needs to remain judicious in its 
actions is in the financial assistance to utilities. Federal assistance 
of this nature if not carefully structured can easily distort the 
industry, create huge inefficiencies, and actually do more long-term 
harm than good. As discussed above we saw this in the wastewater 
industry under the old Construction Grants Program, which failed to 
produce either improved operating efficiencies or sound capital 
investment practices.
    This is not to say that there isn't a need for some federal 
financial assistance in the water arena. There are small and 
disadvantaged communities with poor economies of scale where improved 
management efficiencies, better asset management, consolidation, and 
public-private partnerships won't be enough to address the communities' 
financial challenges while keeping the water affordable. There may also 
be customers in larger communities that may find water rates 
unaffordable in the future. In these cases it is appropriate for the 
government to step in and provide economic help. However, again, the 
manner of that assistance should be carefully structured to insure the 
subsidies are not going to communities or those customers who can 
afford to pay the full cost of water service.
    NAWC supports the Drinking Water State Revolving Loan Fund (DW-SRF) 
and have found it to be a well-structured and useful program. While 
this program offers a modest subsidy in the form of low interest loans, 
we believe this kind of program, where the principle must be paid back 
(and can be reused over and over), provides the kind of incentives that 
encourage utilities to take charge of their own future through 
efficient management and sound long term investments. While there are 
areas where it could be improved (which we have addressed in more 
detail at this and other hearings of your Subcommittee), the DW-SRF 
should remain the primary conduit for federal financial assistance.
    Keeping with our goal of the self-sustainability of the industry, 
NAWC supports updating the SRFs to encourage utility practices which 
support this self-sustainability. We support using the SRF assistance 
to facilitate improved management of the utility. In recent years there 
have been various pieces of legislation drafted and considered which 
would creatively use SRF assistance as a carrot to encourage utilities 
toward self-sustainability. If SRF assistance were tied to improved 
utility asset management, progress towards full cost-of-service rates, 
and consideration of consolidation and public-private partnerships, the 
federal government will have gone a long way to encouraging and 
assuring the self-sustainability of the industry and closing the 
infrastructure financing without needlessly relying on tax payer funds.
    Question 2: Your testimony suggests that privately owned drinking 
water utilities should be able to receive Federal funding from the 
Drinking Water Revolving Loan Fund. This would be a new grant of 
authority. With the funding gap that many people are arguing exists in 
drinking water funding, why should private companies have access to 
these funds?
    Answer: First, allow me to clarify. Under the Safe Drinking Water 
Act, private companies are currently eligible for Drinking Water State 
Revolving Fund (DW-SRF) assistance. The problem that I discussed in the 
testimony exits at the state level, where 10 states (Alabama Arkansas, 
Colorado, Georgia, Kansas, Mississippi, North Carolina, Oklahoma, 
Tennessee, Wyoming) currently do not allow private companies to receive 
SRF funds no matter what the utility's needs might be and in clear 
violation of Congressional intent.
    There are those who oppose private utility access to the DW-SRF, 
and presumably want to see private utilities excluded from it on the 
State and Federal level. We would strongly oppose this (and 
incidentally strongly support opening up the Clean Water SRF to private 
utilities).
    When the DW-SRF was authorized in 1996 Congress correctly 
determined that the benefits of the SRF would flow to the customers of 
a utility, not the utility itself or its stockholders. This is assured 
by the various State Public Utility Commissions, which set and oversee 
our rates and are on record supporting private utility access. 
Furthermore, customers of private utilities pay the Federal and state 
taxes that fund the SRFs, just like the customers of municipal 
utilities do. With these facts in mind, there is no good reason that 
private utilities (or more accurately, the customers of private 
utilities) should be denied the benefits of the SRFs at either the 
state or Federal level. Such exclusion effectively makes some tax-
paying Americans second-class citizens, which of course is not right.
    Question 3: Your testimony suggests the Center for Disease Control 
should do a comprehensive study of lead and formulate a national 
strategy to reduce lead from all significant sources. What role, if 
any, do you think EPA should play in this matter since EPA is the 
regulator of lead in soil, water and air?
    Answer: NAWC testified that the Center for Disease Control should 
do a comprehensive study of the lead contamination problem and 
formulate a national strategy for addressing this important issue. 
Lead, unlike most contaminants EPA regulates, comes primarily from 
within customers' homes and service lines. It is a byproduct of 
corrosion, is sensitive to water chemistry, and therefore can be highly 
variable and unpredictable. Some corrective actions such as removal of 
lead service lines are expensive and can at least for a time make the 
problem worse. Because of the less than perfect solutions and costs of 
remediation, having an independent review of the health impacts of lead 
exposure may help EPA and others determine the best courses of action 
to minimize health impacts, taking costs and effectiveness of the 
available remediation actions into account. Our belief that this study 
should be carried out by CDC is based on that organization's extensive 
experience in matters relating to health. The CDC is uniquely qualified 
to carry out such a study and then make recommendations to Congress and 
EPA. NAWC still believes, however, that the regulatory burden of 
establishing and maintaining the regulations that govern what is 
considered an acceptable level of lead in water as well as any 
enforcement of those regulations should remain with EPA.
    Question 4: You indicate that a water investment gap will occur 
only if estimates are accurate and no action is taken to ``close'' the 
gap. I don't believe we will determine today precisely how accurate all 
the estimates are--so let's talk about the second factor.
    A) You mention that there is under pricing for water services. On 
what data do you rely in making this argument? Could you provide such 
data to the Subcommittee?
    Answer: (A) The concern about under-pricing is widely shared in the 
industry. The source of our data is a 2002 General Accounting Office 
report, titled Water Infrastructure, Informational on Financing, 
Capital Planning, and Privatization.
    Under-pricing is unlikely for the privately-owned segment of the 
industry because we are regulated economically on the State level by 
the various State Public Utility Commissions which oversee and set our 
rates. The Commissions understand the long-term need to recover costs 
in order to remain financially viable.
    The concern about under-pricing is greater for publicly owned 
utilities that may not practice full-cost pricing methods. Publicly 
owned systems also have more opportunities to subsidize water 
operations directly or indirectly through other municipal operations 
and/or through tax revenues and other cross-subsidizations which may or 
may not be apparent to the ratepayer. Publicly owned systems which are 
typically not regulated by State Public Utility Commissions also may 
face political pressure to defer expenditures and/or simply keep water 
(and wastewater) prices down, with little or no regard to the true cost 
of providing the service.
    (B) You cite under pricing, yet I believe past NAWC testimony 
indicated that water rates are rising faster than the overall rate of 
inflation. Will these two lines ``cross'' at some point in the future, 
meaning will rates catch up with expenses? Or are we in a situation 
where ``real'' expenses for capital improvements and the like are 
rising much faster than inflation for the foreseeable future due to 
deferred maintenance and other factors? How can cost-efficiencies 
affect this situation?
    Answer: The trend line suggesting that prices are rising faster 
than the overall rate of inflation simply suggests that, in relative 
terms, this is a rising-cost industry. There are other examples in the 
economy: college tuition and health-care costs. It is important to note 
that the water sector is the most capital intensive of all the utility 
industries. Some services, like long-distance phone service, are 
experiencing below-inflation price trends. As long as we are trying to 
step-up the pace of investment and meet other new demands as they come 
along (e.g., water treatment and security costs), exceeding the rate of 
inflation seems likely. Keep in mind that these trends are relative to 
overall trends in inflation, which might also change with the economy.
    Economics of scale, operational productivity and efficiency 
improvements have the potential to be very beneficial in controlling 
costs. Also, regulatory models can provide positive performance 
incentives for cost control.

[GRAPHIC] [TIFF OMITTED] T5462.002

[GRAPHIC] [TIFF OMITTED] T5462.003

[GRAPHIC] [TIFF OMITTED] T5462.004

[GRAPHIC] [TIFF OMITTED] T5462.005

[GRAPHIC] [TIFF OMITTED] T5462.006

[GRAPHIC] [TIFF OMITTED] T5462.007

[GRAPHIC] [TIFF OMITTED] T5462.008

[GRAPHIC] [TIFF OMITTED] T5462.009

[GRAPHIC] [TIFF OMITTED] T5462.010

[GRAPHIC] [TIFF OMITTED] T5462.011

[GRAPHIC] [TIFF OMITTED] T5462.012

[GRAPHIC] [TIFF OMITTED] T5462.013

[GRAPHIC] [TIFF OMITTED] T5462.014

[GRAPHIC] [TIFF OMITTED] T5462.015

[GRAPHIC] [TIFF OMITTED] T5462.016

                                 <all>

</pre></body></html>
